<html>
<title> - JUNE 10, 1999 OLYMPIC PIPE LINE ACCIDENT</title>
<body><pre>[Senate Hearing 106-1093]
[From the U.S. Government Printing Office]



                                                       S. Hrg. 106-1093

                JUNE 10, 1999 OLYMPIC PIPE LINE ACCIDENT

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 13, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



78-574              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
            Martha P. Allbright, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 13, 2000...................................     1
Statement of Senator Gorton......................................     1
    Prepared statement...........................................     3

                               Witnesses

Asmundson, Mark, Mayor, Bellingham, Washington...................    37
    Prepared statement...........................................    41
Brabec, Bruce....................................................    25
    Prepared statement...........................................    27
Chipkevich, Robert, Director, Office of Pipeline and Hazardous 
  Material Safety, National Transportation Safety Board..........    82
    Prepared statement...........................................    84
Corso, Mary, State Fire Marshal, Olympia, Washington.............    90
    Prepared statement...........................................    93
Dalen, Katherine.................................................    20
    Prepared statement...........................................    22
Felder, Richard B., Associate Administrator, Office of Pipeline 
  Safety, Research and Special Programs Administration, U.S. 
  Department of Transportation...................................    77
    Prepared statement...........................................    79
Gast, Carl, Manager and Vice President, Olympic Pipe Line 
  Company, Renton, Washington....................................   102
    Prepared statement...........................................   105
Harper, Susan, Executive Director, Cascade Columbia Alliance, 
  Seattle, Washington............................................   136
Hoggard, Calvin, City Manager, SeaTac, Washington................    55
    Prepared statement...........................................    57
King, Frank......................................................    11
    Prepared statement...........................................    15
Locke, Hon. Gary, Governor, State of Washington..................    30
    Prepared statement...........................................    32
Marshall, Connie, Deputy Mayor, Bellevue, Washington.............    52
    Prepared statement...........................................    54
Matsuyama, W. Brian, Chairman and CEO, Cascade Natural Gas 
  Corporation, on behalf of the Local Distribution Companies of 
  Washington State...............................................   120
    Prepared statement...........................................   122
Murray, Hon. Patty, U.S Senator from Washington..................     5
    Prepared statement...........................................     7
Robinson, Marlene................................................    23
    Prepared statement...........................................    24
Showalter, Marilyn, Chairwoman, Washington Utilities and 
  Transportation Commission, Olympia, Washington.................    65
    Prepared statement...........................................    67
Sluder, Robert L., Vice President, Williams Gas Pipeline-West, 
  Salt Lake City, Utah...........................................   110
    Prepared statement...........................................   113
Stohr, Joe, Spill Program Manager, Department of Ecology, 
  Olympia, Washington............................................    73
    Prepared statement...........................................    75
Tanner, Jesse, Mayor, Renton, Washington.........................    45
    Prepared statement...........................................    47
Weimer, Carl, Executive Director, on behalf of Safe Bellingham, 
  Bellingham, Washington.........................................   130
    Prepared statement...........................................   132

                                Appendix

Joint Prepared Statement of Harriet A. Spanel, State Senator, 
  40th District and Kelli Linville, State Representative, 42nd 
  District, Washington...........................................   143
Montonye, James Terrence, Technical Program Director for the 
  SPIE, International Society of Optical Engineering, prepared 
  statement......................................................   145
Written questions submitted by Hon. Patty Murray to:
    Carl Gast....................................................   143

 
                JUNE 10, 1999 OLYMPIC PIPE LINE ACCIDENT

                              ----------                              


                         MONDAY, MARCH 13, 2000

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                     Bellingham, WA
    Hearing held pursuant to notice, at 2 p.m. at City Hall, 
210 Lottie Street, Bellingham, Washington, Hon. Slade Gorton, 
presiding.
    Staff members assigned to this hearing: Ann Begeman and 
Charlotte Casey, Republican Professional Staff; Carl Bentzel, 
Democratic Senior Counsel; and Debbie Hersman, Democratic 
Professional Staff.

            OPENING STATEMENT OF HON. SLADE GORTON, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Gorton. I'm both honored and humbled to be here 
today with my colleague, Senator Murray, to conduct this field 
hearing on the Bellingham pipeline accident. This provides us 
with an opportunity not only to commemorate the three young 
citizens of Bellingham who lost their lives last June 10th, but 
to learn from and apply the lessons of that day to the 
reauthorization of the Federal Pipeline Safety Act.
    This is a formal hearing of the Senate Committee on 
Commerce, Science, and Transportation, and the rules of the 
Senate and the Senate committees are much more restrictive than 
what most of you are accustomed to in public hearings. Only 
witnesses who have been invited to testify may do so. 
Nevertheless, the point of the hearing is to obtain information 
and opinions that will inform and instruct the full Commerce 
Committee in its work on revising the Federal law. So I invite 
anyone who is interested to submit written comments to the 
Senate Committee on Commerce, Science, and Transportation 
within the next 10 days. Those written comments will be made a 
part of the record of these proceedings. Because I'm here to 
listen rather than to talk, and given the length of the witness 
list, I hope these comments will be brief.
    Until three young men were killed in a devastating liquid 
pipeline explosion in Bellingham last year, most of us paid 
little or no attention to pipeline safety. The tragic events of 
June 10th changed that. While pipelines continue to be the 
safest means of transporting liquid fuels and gas, and though 
accidents may be infrequent and the more than two million miles 
of pipelines in the United States often invisible, Bellingham 
has shown us that pipelines pose potential dangers that we 
ignore at our peril.
    State government, local governments and citizen groups in 
this state lost no time in answering the wake-up call from 
Bellingham and examining what they could do to improve pipeline 
safety. What they found was that while there are significant 
actions Washington can take to prevent and respond to 
accidents, such as improving the state's ``call before you 
dig'' requirements, increasing public awareness and training 
emergency response personnel, there is a lot the state cannot 
do with respect to prescribing safety standards, because this 
area is preempted by Federal statute.
    In that light, I believe that Congress has an absolute 
obligation substantively to revise the Federal statute. To this 
end I advised my colleagues on the Commerce Committee last year 
that I intended to be actively involved in the reauthorization 
process this year, and my staff and I have spent considerable 
time talking to and meeting with people in Washington State and 
with Federal regulators and industry representatives about what 
should be in these revisions.
    Last week I cosponsored a bill, S. 2004, introduced by 
Senator Murray, to amend the Pipeline Safety Act. Though we 
still have a lot more listening to engage in, I feel the bill's 
fundamental direction is correct, and I hope that the hearing 
today will help us significantly in refining the bill.
    Based on what I've heard to date, I'm committed to seeking 
the following changes in Federal law: First, I will support 
efforts to allow states greater authority to adopt and enforce 
safety standards for interstate pipelines, particularly in 
light of the absence of meaningful Federal standards. While 
there may be good arguments for why pipelines should be managed 
systemically, and why inconsistent state restrictions could 
erode rather than promote safety, these arguments are fatally 
undermined by the absence of meaningful Federal standards. To 
tell state and local governments as the Pipeline Safety Act 
effectively does, that they cannot require internal inspections 
of pipelines passing through their communities, under their 
schools and homes and senior centers when the development of 
Federal safety requirements is years overdue strikes me as the 
worse kind of Federal conceit. This increase in authority 
should be accompanied by an increase of grants to states to 
carry out pipeline safety activities.
    Second, I agree with Senator Murray that we need to improve 
the collection and dissemination of information about pipelines 
to the public and the local and state officials responsible for 
preventing and responding to pipeline accidents. We also need 
to ensure that operators are collecting information necessary 
to assess accurately the risks of the particular line and are 
responding appropriately to these risks. State and local 
governments as well as the public should be informed about 
where pipelines are, what condition they are in, when they 
fail, and why they fail.
    That said, inundating people with unwanted technical detail 
may lead them to ignore it entirely and may not be the best way 
of meeting the public's right to know. We should, however, 
ensure that relevant information is gathered and made available 
over widely accessible means like the Internet.
    Third, in addition to providing an explicit mechanism for 
states to seek additional regulatory authority over interstate 
pipelines, Federal legislation must ensure that meaningful 
standards for pipeline testing, monitoring and operation are 
adopted at the national level. Congress has directed the 
department of transportation to do some of this in the past, 
but as I mentioned before, some of the rulemakings are years 
overdue. To the extent that lack of funding can account for 
some of the delay, we should ensure additional appropriations 
to allow the Office of Pipeline Safety to complete the 
necessary rulemakings and to develop the technology needed to 
conduct reliable tests of pipelines.
    In addition to ensuring that the Office of Pipeline Safety 
offers meaningful national standards, I agree with the 
recommendation of the Department of Transportation's Inspector 
General that the Office of Pipeline Safety should act upon, 
either to accept or to reject, the recommendations of the 
National Transportation Safety Board. I don't pretend to know 
whether the Board's recommendations that have been accumulating 
for years will advance safety. It's unacceptable, however, for 
the Office of Pipeline Safety simply to ignore them.
    Fourth, I have heard from citizens' groups who support the 
creation of a model oversight oil spill advisory panel in 
Washington State. I see real value in creating such a body and 
imbuing it with meaningful authority not only to respond but to 
initiate the development of pipeline safety measures.
    As I said earlier, however, the purpose of this hearing is 
not to lecture but to learn. Senator Murray is here with me, 
and I think we can both say that Congressman Metcalf and 
Congressman Inslee and other members of our congressional 
delegation would have liked to be here. The House, 
unfortunately, is in session this week and while we're in 
recess, they're in Washington, D.C. With that, I defer to 
Senator Murray for her opening remarks.
    [The prepared statement of Senator Gorton follows:]

 Prepared Statement of Hon. Slade Gorton, U.S. Senator from Washington
    I am honored to be here today with my colleague Senator Murray to 
conduct this field hearing on the Bellingham pipeline accident. This is 
an opportunity not only to commemorate the three young citizens of 
Bellingham who lost their lives last June 10th, but to learn from and 
apply the lessons of that day to the reauthorization of the federal 
Pipeline Safety Act. The rules of the Commerce Committee of the United 
States Senate, under the auspices of which this hearing is being 
conducted, regrettably are far more restrictive than what most of you 
are used to from public hearings. Only witnesses who have been invited 
to testify may do so. Since the point of this hearing is to obtain 
information and opinions that will inform the full Commerce Committee 
in its work on revising federal law, however, I invite anyone who is 
interested to submit written comments to the Committee within 10 days. 
Your written comments will be made a part of the record of these 
proceedings.
    Because I am here to listen rather than talk, and given the length 
of the witness list, I will keep my comments brief.
    Until three young men were killed in a devastating liquid pipeline 
explosion in Bellingham, Washington, last year, most of us paid little 
or no attention to pipeline safety. The tragic events of June 10, 1999, 
changed that. While pipelines continue to be the safest means of 
transporting liquid fuels and gas, and though accidents may be 
infrequent and the more than two million miles of pipelines in the 
U.S., often invisible, Bellingham has shown us that pipelines pose 
potential dangers that we ignore at our peril.
    State government, local government, and citizen groups in this 
state lost no time in answering the wake-up call from Bellingham and 
examining what they could do to improve pipeline safety. What they 
found was that while there are significant actions Washington can take 
to prevent and respond to accidents, such as improving the state's 
call-before-you-dig requirements, increasing public awareness, and 
training emergency response personnel, there is a lot the state cannot 
do with respect to prescribing safety standards because this area is 
preempted by federal law.
    In light of this, I believe that Congress has an absolute 
obligation substantively to revise this federal law. To this end, I 
advised my colleagues on the Commerce Committee last year that I 
intended to be actively involved in the reauthorization process this 
year, and my staff and I have spent considerable time talking to and 
meeting with people in Washington state and with federal regulators and 
industry representatives about what should be in these revisions. Last 
week I co-sponsored a bill, S. 2004, introduced by Senator Murray to 
amend the Pipeline Safety Act. Though we still have a lot more 
listening to do, I feel the bill's fundamental direction is right and I 
hope that the hearing today will help us significantly in refining the 
measure.
    Based on what I have heard to date, I am committed to seeking the 
following changes in federal law:
    First, I support efforts to allow states greater authority to adopt 
and enforce safety standards for interstate pipelines, particularly in 
light of the absence of meaningful federal standards. While there may 
be good arguments for why pipelines should be managed systemically and 
why inconsistent state prescriptions could erode rather than promote 
safety, these arguments are fatally undermined by the absence of 
meaningful federal standards. To tell state and local governments, as 
the Pipeline Safety Act effectively does, that they cannot require 
internal inspections of pipelines passing through their communities, 
under their schools and homes and senior centers, when the development 
of federal safety requirements is years overdue, strikes me as the 
worst kind of federal conceit. This increase in authority should be 
accompanied by an increase in grants to states to carry out pipeline 
safety activities.
    Second, I agree with Senator Murray that we need to improve the 
collection and dissemination of information about pipelines to the 
public and to local and state officials responsible for preventing and 
responding to pipeline accidents. We also need to ensure that operators 
are collecting information necessary to assess accurately the risks to 
the particular line and are responding appropriately to these risks. 
State and local governments as well as the public should be informed 
about where pipelines are, what condition they are in, when they fail 
(we need to lower the threshold for reporting failures), and why they 
fail. That said, inundating people with unwanted technical detail may 
lead them to ignore it entirely and may not be the best way of meeting 
the public's right to know. We should, however, ensure that relevant 
information is gathered and made available over widely accessible means 
like the Internet.
    Third, in addition to providing an explicit mechanism for states to 
seek additional regulatory authority over interstate pipelines, federal 
legislation must ensure that meaningful standards for pipeline testing, 
monitoring, and operation are adopted at the national level. Congress 
has directed the DOT to do some of this in the past, but as I mentioned 
before, some of the rulemakings are years overdue. To the extent that 
lack of funding can account for some of the delay we should ensure 
sufficient appropriations to allow OPS to complete the necessary 
rulemakings and develop the technology needed to conduct reliable tests 
of pipelines.
    In addition to ensuring that OPS adopts meaningful national 
standards, I agree with the recommendation of the DOT's Inspector 
General that OPS should act upon, either to reject or accept, the 
recommendations of the National Transportation Safety Board. I don't 
pretend to know whether NTSB's recommendations, that have been 
accumulating for years, will advance safety. It is unacceptable, 
however, that OPS simply ignore them.
    Fourth, I have heard from citizens' groups who support the creation 
of a model oversight oil spill advisory panel in Washington state. I 
see a real value in creating such a body, and imbuing it with 
meaningful authority not only to respond to but to initiate the 
development of pipeline safety measures.
    As I said earlier, however, the purpose of this hearing is not to 
lecture but to learn. That said, I invite my colleague, Senator 
Murray's, opening remarks.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much to Senator Gorton for 
calling this hearing and lending your leadership to this very 
important cause.
    I also want to thank all of the panelists who have come 
here today who are taking their time to testify on this very 
important issue. I'm looking forward to hearing all of their 
comments.
    Today's hearing is one more step in a process to make 
pipelines safer and certainly has been a group effort. I want 
to first commend you Mayor Mark Asmundson for the tremendous 
amount of work you have done. He's done more than anybody I 
know to educate the public about this issue and to call for 
higher safety standards, and we all thank you for your 
tremendous amount of work.
    I also want to take this opportunity to thank 
Transportation Secretary Rodney Slater for his sensitivity and 
his quick response to me in positioning a pipeline inspector 
here in the State of Washington.
    I also want to thank Governor Locke for convening a task 
force in response to this accident, and also to your 
representatives, Kelli Linville and Harriet Spanel, who are 
here today and the tremendous work that they've done in this 
session of the legislature to move this issue forward, but most 
of all, I would like to really express my appreciation and 
gratitude to the families of the victims who are here today. I 
can't imagine how difficult it must be to live with this 
tragedy, and I want to applaud the courage all of you have 
shown all of us.
    I want to tell the families that are here today that I will 
not stop working until we have changed our nation's laws to 
makes it less likely that another family will experience your 
loss. We owe all of you at least that much.
    I wish that we didn't have to be here today. I wish this 
community was whole again. I wish that June 10th, 1999, was 
just another pleasant summer day instead of a black mark in all 
of our memory.
    I remember that day well when my sister, who lives here in 
Bellingham and works at Shuksan Middle School, called me within 
hours after the accident to tell me frantically what had 
occurred here. I couldn't imagine the loss that she was 
describing and the scenes that she was describing.
    When I came here to Bellingham a few weeks later and saw 
what had occurred, I was just absolutely amazed. One and a half 
miles of creek side was reduced to ashes in an instant. A 
salmon spawning ground that I was actually supposed to dedicate 
just a few weeks after the accident was nothing but an 
environmental disaster area.
    When I first started looking at this, I thought that the 
Bellingham disaster was a freak, a fluke, something that hardly 
ever happened. I have been amazed to find out as I've started 
to investigate this issue at what I have been astonished to 
learn.
    We have a map here that shows a sampling, a sampling of 
some of the major pipeline accidents that have occurred in the 
last 20 years. It shows you how far reaching this problem is. I 
want to tell you some of the statistics.
    Since 1986, 14 years ago, there have been 5,700 pipeline 
accidents, 5,700 accidents in the last 14 years. These 
accidents have killed 325 people and have injured another 1,500 
people. They have shattered communities from coast to coast, 
and there are literally hundreds of Bellinghams out there that 
have happened and hundreds more waiting to happen.
    On average there is one reported pipeline spill in our 
country every single day. These accidents have destroyed 
families like they have here in Bellingham, and they have 
destroyed our environment. Each year six million gallons of 
hazardous liquids are released. That's like having an oil spill 
the size of the Exxon Valdez every 2 years. This environmental 
damage has been estimated to cost almost a billion dollars in 
the last 14 years.
    Now, it's true, and we all know that pipelines offer one of 
the safest ways to move these hazardous materials. 
Statistically, they are much safer than using trucks or barges, 
and all of us rely on the pipelines to bring us the fuel we 
need to heat our homes and power our cars, but none of us 
should accept the status quo.
    Unfortunately, efforts to improve safety have not worked. 
Recent events tell the story. In 1997 we witnessed the third 
highest net loss of material since the Office of Pipeline 
Safety began keeping records. 1998 was the worse year for 
property damage, and 1999 was tied for the second worse year in 
fatalities. The changes that have been made so far have not 
worked, and we must do more. In fact, environmentalists and the 
National Transportation Safety Board have been complaining 
about safety problems and lax regulations for years. Specific 
recommendations from NTSB have gone unheeded and ignored for 
more than a decade, and I find that unacceptable. That's why a 
few months ago I asked the Inspector General of the Department 
of Transportation to investigate the policies and practices of 
the Office of Pipeline Safety.
    On last Friday, I received the inspector general's final 
report. Not surprisingly they were critical of the lack of 
pipeline regulation and called on Congress to force the Office 
of Pipeline Safety to issue long overdue safety rules. The 
report also notes that had we need significant investments in 
research and development to better test and inspect our 
pipelines.
    To date the Office of Pipeline Safety has failed to address 
congressional mandates in training, testing and other key 
areas. While I'm pleased that had they have recently committed 
to fulfilling our congressional requirements, I want them to 
know that they have to follow through on this commitment. I 
believe that we can and must do better, and the time to act is 
now.
    I want to make sure that we don't just talk about making 
pipeline safety. We need to make pipelines safer. That's why 
last January after researching this issue for a number of 
months, I wrote and introduced a bill that will make changes to 
improvement the pipeline safety in this country. My bill has 
in-depth testimony that, Mr. Chairman, I will submit for the 
record, but basically it expands state authority, and improve 
inspection practices and prevention practices. I was shocked to 
find out that we only require inspection of these pipelines 
when they're first laid. We in our bill require them to be 
routinely inspected at least every 5 years, more if the 
geography of the region requires it. We invest in new safety 
technology. We have not done enough to improve the safety 
technology to inspect these pipelines. It expands the public's 
right to know. Everybody that lives or works or goes to school 
near these pipelines has a right to know when they were last 
inspected, what was found and what has been done to repair the 
pipes, and finally we increased the funding to improve pipeline 
safety. I have been working closely with Congressmen Metcalf 
and Inslee and other House members and along with Sentor 
Gorton, and I believe that we have to act this year in this 
session of Congress before another tragedy occurs.
    In closing let me say that we cannot undue what happened 
here last June. We still don't know why it happened, but we can 
learn from it, and we can change the law so it doesn't happen 
again. I hope that in the coming days and weeks we can work 
together to put the lessons of the Bellingham tragedy into 
Federal law. Never again should our children be afraid to play 
outside. Never again should our environment be scarred by 
pipeline disasters, and never again should another community 
suffer what Bellingham has gone through this past year. Our 
work will only be done when families can feel confident that 
the pipelines near their homes are safe.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Murray follows:]

 Prepared Statement of Hon. Patty Murray, U.S. Senator from Washington

    I want to thank my colleague, Senator Gorton, for calling this 
hearing and for lending his leadership to this important cause. Let me 
also thank our panelists for coming today. I'm eager to hear your 
comments. I'm going to take what I learn from all of you today back 
with me to the Senate and use it as we work to change the law.
    Today's hearing is one more step in a process to make pipelines 
safer, and this has certainly been a group effort.

        <bullet> I'd like to thank Mayor Asmundson. He has done more 
        than anyone I know to educate the public about pipeline safety 
        and to call for higher safety standards.
        <bullet> I want to thank Transportation Secretary Rodney Slater 
        for his sensitivity and for his quick response in stationing a 
        pipeline inspector here in Washington state last year.
        <bullet> And I'd like to thank Governor Locke for convening his 
        task force in response to the accident.

    But most of all, I'd like to show my appreciation to the families 
of the victims for being here today. I can't imagine how difficult it 
must be to live with this tragedy, and I applaud the courage you have 
shown us all.
    I want to tell the families that I will not stop working until we 
have changed our nation's laws to make it less likely that another 
family will experience your loss. We owe you at least that much.
    I wish we didn't have to be here today. I wish this community were 
whole again. I wish June 10, 1999 was just another pleasant summer 
day--instead of a black mark in our memory.
    I'll never forget how I first heard about the explosion. That 
evening, I stepped off a plane from Washington, D.C. into Sea-Tac 
airport, and my cell phone started ringing almost immediately.
    It was my twin sister, who lives here in Bellingham where she works 
as a middle school teacher.
    Her voice was frantic. She said, ``Patty, have you heard? Our whole 
world just blew up!''
    At first, I didn't know what she was talking about. Then she told 
me that a pipeline running directly under the parking lot of her school 
had blown up. It was just a block away from her classroom, and it took 
place just hours after the last student had left.
    The explosion rocked the school. Since it happened in the weeks 
just after Columbine, many teachers raced from their classroom fearing 
the worst. Instead, they encountered a nightmare of a different sort--a 
hailstorm of burning branches falling into their school parking lot, 
singeing their clothing and leaving them in fear.
    I know I don't have to recount the events of that day for any of 
you. You experienced them and were shaped by them, and many of you have 
shared your own stories with me.
    I came to Bellingham a short time after the accident, and I was 
amazed at the wreckage I saw:

        <bullet> One and a half miles of creek side were reduced to 
        ashes in an instant.
        <bullet> A salmon spawning ground I was to have dedicated a few 
        weeks later had been turned into an environmental disaster 
        area.

    At first, I thought the explosion was a fluke--something that 
hardly ever happened. But then I started to investigate the issue, and 
I was astonished by what I learned.
    This map shows a sampling of some of the major pipeline accidents 
in the past 20 years. It gives you a sense of how far reaching the 
problem is.
    Now I'd like to point out some statistics that show the frequency 
of pipeline accidents.
    Since 1986:

        <bullet> There have been more than 5,700 pipeline accidents--
        5,700.
        <bullet> These accidents have killed 325 people and have 
        injured another 1,500 people.
        <bullet> They have shattered communities from coast to coast. 
        There are literally hundreds of ``Bellinghams'' out there, and 
        there are hundreds more waiting to happen.
        <bullet> On average, there is one reported pipeline spill in 
        our country every day.

    Not only have these accidents destroyed families, they have 
destroyed the environment. Each year, 6 million gallons of hazardous 
liquid are released. That's like having an oil spill the size of the 
Exxon Valdez disaster every two years. This environmental damage has 
been estimated to cost almost $1 billion.
    Now it is true pipelines offer the safest way to move these 
hazardous materials around. Statistically, they are much safer than 
using trucks or barges. And each of us relies on pipelines to bring us 
the fuel we need to heat our homes and power our cars. But none of us 
should accept the status quo.
    Unfortunately, efforts to improve safety haven't worked. Recent 
events tell the story:

        <bullet> 1997 witnessed the third-highest net loss of material 
        since the Office of Pipeline Safety--or OPS--began keeping 
        records.
        <bullet> 1998 was the worst year for property damage.
        <bullet> And 1999 was tied for the second-worst year in 
        fatalities. The changes made so far have not worked. We must do 
        more.

    In fact, environmentalists and the National Transportation Safety 
Board--the NTSB--have been complaining about safety problems and lax 
regulation for years. Specific recommendations from NTSB have gone 
unheeded and ignored for more than a decade. I find that unacceptable.
    That's why a few months ago I asked the Inspector General of the 
Department of Transportation to investigate the policies and practices 
of the Office of Pipeline Safety.
    On Friday, I received the Inspector General's final report. Not 
surprisingly they were critical of the lack of pipeline regulation and 
called on Congress to force OPS to issue long-overdue safety rules. The 
report also noted we need significant investments in research and 
development to better test and inspect pipelines.
    To date, the Office of Pipeline Safety has failed to address 
congressional mandates in training, testing and other key areas. While 
I'm pleased that recently they have committed to fulfilling these 
congressional requirements, I want them to know they must follow 
through on their commitment. I believe we can and must do better. And 
the time to act is now.
    I want to make sure that we don't just talk about making pipelines 
safer. We need to actually make pipelines safer. That's why in January, 
after researching the issue for several months, I wrote and introduced 
a bill that will make the changes we need to improve pipeline safety.
    My bill, which is number S. 2004, is called the Pipeline Safety Act 
of 2000. I introduced it on January 26th. I appreciate Senator Gorton's 
support of my bill. I'm also pleased Senators Inouye, Lautenberg, and 
Bayh have co-sponsored my bill as well.
    To gain support for this effort, I went door-to-door and met with 
many of my colleagues. I told them your stories, and I showed them 
pictures of Bellingham's pipeline explosion. Then I showed them the 
statistics and counted off the number of accidents that happened in 
their own home states.
    Few other senators knew much about pipeline safety. Those 
discussions showed me that for too long, pipeline dangers have been 
``out of sight, and out of mind.''
    In preparing my bill, I looked at a lot of different ideas. I also 
reached out to industry groups, federal oversight officials, and local 
officials. I designed my bill to address five problem areas, and I'd 
like to spend a moment to review how my bill will address these 
problems.

Expand State Authority
    The first way to improve pipeline safety is to give states more 
authority to oversee pipelines. Unfortunately, states have been 
virtually shut out of the process when it comes to regulating 
interstate pipelines.
    While interstate activities are the responsibility of the federal 
government, states should be partners in preventing and responding to 
accidents. Ideally, states should be able to test and inspect pipelines 
within their boundaries if they have the expertise and resources to do 
so.
    States like Washington and Virginia have asked for this authority. 
Other states have received notice that their authority is being 
stripped from them.
    My bill would establish a process that would make it much more 
difficult for OPS to disapprove or withdraw a state's authority. My 
bill would give states the ability to address any objections by OPS 
before their authority is rejected or withdrawn. So the first step in 
our efforts is to empower states to be partners in the safety process.

Improve Inspection and Prevention Practices
    The next thing we can do to make pipelines safer is to improve 
pipeline testing. Many pipelines are decades old, and they haven't been 
inspected since they were first put into the ground. I find that 
unacceptable. I've talked to many companies that do a good job of 
testing their pipelines. Unfortunately, the industry has an 
inconsistent record.
    We must ensure pipeline operators are properly testing their 
pipelines for corrosion, leaks and other problems. That's why we need 
strong testing and inspection standards. These should include mandatory 
periodic internal testing, valve monitoring, the use of reliable leak 
detection devices, and other preventive activities.
    For this to work, the operators must be required to take specific 
action when they discover problems. My bill would require periodic 
testing at least every five years with an option of more frequent 
testing if required.
Certification
    As we test pipelines, we should make sure the people operating and 
inspecting them have the skills and training they need. In other fields 
affecting public safety--such as aviation--we have procedures in place 
to ensure that the people we depend on are properly trained and 
qualified. My bill would require individual certification of pipeline 
operators.

Invest In New Safety Technology
    Another way to make pipelines safer is to develop the best tools to 
find problems in pipelines before those problems turn into disasters. 
Investing in the research and development of new testing and inspection 
devices may well be the best thing we could do to improve safety.
    The lack of good technology is surprising. I didn't know that for 
many pipelines there are no devices available to do the type of testing 
that is needed. I was also surprised to learn that hydrostatic testing 
can have serious side-effects, such as stressing pipes and creating 
wastewater that is costly to dispose of. Many of our most dangerous 
pipelines--natural gas lines--bend and move in ways that make it 
impossible for any internal inspection device to accurately detect 
internal corrosion.
    I've been told by OPS and industry representatives that there is 
some progress toward new technologies to detect problems in all 
pipelines. That is why my bill encourages more money for research and 
development, and today, I call on industry to partner with OPS in 
developing these new technologies.

Public Right To Know
    Another way we can reduce the risk of pipeline tragedies is to 
expand the public's right to know about pipeline hazards. Too many 
communities are in the dark about what is going on with the pipelines 
that run under their homes, by their places of work and near their 
schools.
    My bill has a very strong ``right to know'' provision that would 
require operators to inform state, local, and neighboring residents 
when there are problems with a pipeline. My bill requires companies to 
provide summaries of testing and inspection data, and my bill makes 
them tell us what they are doing to correct problems. Current law 
provides the public with little opportunity to learn what is happening 
around them. Without new federal legislation, we'll continue to be left 
in the dark about possible hazards.
Increase Funding to Improve Pipeline Safety
    A final key step we must take is to make sure we have the money to 
improve pipeline safety. It does no good to pass new safety rules 
unless we also provide the money to carry them out. My bill provides 
funding for new state and federal pipeline safety programs. Those are 
the five key areas my bill will address.

Changing the Law
    The next question is: how do we take these ideas and actually put 
them into law?
    First, in Washington, D.C. the Commerce Committee needs to debate a 
pipeline safety bill. Senator Gorton is on the Commerce Committee, and 
I look forward to working with him to ensure that a bill is marked up 
this year.
    I've asked for consideration of a bill. I'm pleased that Senator 
Inouye from Hawaii--who is the senior Democrat on the subcommittee of 
jurisdiction--has called for a hearing and mark-up as well.
    I've also personally asked the Secretary of Transportation and the 
Administration to present their proposal to the Hill. They need to do 
it very soon. Without meaningful federal legislation, whatever 
temporary measures we institute will not protect us in the long-run.
    I'd also like to mention the legislation that Representatives 
Metcalf and Inslee have introduced in the House. Their measure is 
similar to my bill, and I have been asking people to support it. I hope 
it passes in the House.
    In the end, we have learned many lessons from Bellingham and the 
5,700 accidents around the country. We have a good idea of what needs 
to be done. We need greater state involvement, more testing, better 
testing devices, and we need to compel OPS to act on congressional 
directives and give them the tools to enforce the law.
    Today must not be the last day of our work to make pipelines safer. 
Today must be the start. And our work will only be done when we have 
passed a bill that addresses these critical safety issues. Again, I 
thank my esteemed colleague Sen. Gorton for bringing us together today 
to work on this issue.
    In closing, let me say we can't undo what happened in June. We 
still don't know why it happened. But we can learn from it and we can 
change the law so it doesn't happen again.
    I hope that in the coming days and weeks we can work together to 
put the lessons of the Bellingham tragedy into federal law.

        <bullet> Never again should our children be afraid to play 
        outside.
        <bullet> Never again should our environment be scarred by 
        pipeline disasters.
        <bullet> And never again should another community suffer what 
        Bellingham has suffered.

    Our work will only be done when families can feel confident that 
the pipelines near their homes are safe.
    Thank you.

    Senator Gorton. Thank you, Senator Murray. We will first 
hear from the families of the victims of last June 10th, Mary 
and Frank King, Edward Williams and Katherine Dalen, Marilyn 
Robinson and Bruce Brabec. There are seats for all six of you 
up here.
    Mr. and Mrs. King, you may start. We--whenever you have 
written testimony, it is, of course, a part of the record, but 
in the case of each of you, we're going to let you speak as you 
will, understanding the very difficult nature of your coming 
here in public today to do this. So take your time and tell us 
what you believe we need to hear.

                    STATEMENT OF FRANK KING

    Mr. King. My name is Frank King. This is my wife, Mary, and 
my 10-year old son died as a result of burns over 90 percent of 
his body, along with Stephen Tsiorvas, and Liam Wood was 
overcome by gas fumes and drowned.
    I want to correct a quote in the Seattle Times that was 
made today that I do not hold Olympic Pipeline responsible for 
my son's or Stephen Tsiorvas' or Liam Wood's death. 
Unequivocally their negligence, their gross recklessness caused 
my son to die and Stephen Tsiorvas and Liam Wood to die.
    My family wants to thank all of Whatcom County and our 
friends, our relatives, the rest of the families that were 
involved in this, because without them we could not have gotten 
through this horrible, horrific ordeal.
    We have received so much support from our community that it 
is absolutely unfathomable. We live in a nice, nice place. I 
wouldn't wish the grief and anguish that I felt over the last 9 
months on my worst enemy. It takes 9 months for a fetus to 
mature in a mother's womb, and it's been 9 months now, and I 
wish that I had the words so that I could make you feel how we 
actually feel, because before this happened to me, I can 
honestly say I had no idea how it felt.
    I want to thank Senator Murray and Senator Gorton for their 
efforts in going forth with this. I also want you to know that 
I've talked with Jay Inslee. I've talked with Jack Metcalf's 
office, and I appreciate their efforts, and I'm sure that we're 
going in the right direction. I want to make sure that this 
kind of accident never happens again.
    You, as part of the Federal Government, have two problems. 
You've got an industry that regulates itself. All you have to 
do is look at the article that I put in your briefing there 
about Koch Industries. Koch Industries was fined 35 million 
dollars by the Department of Energy and what the DOE found out 
in the investigation was they found the weak spots in their 
pipe the easy way. They let them break, and then to boot, they 
found out that when they did report a spill, they underreported 
their spillage by as much as 90 percent. Those are standards of 
the industry. Fix it when it breaks and lie to the public.
    Secondly, you've got an Office of Pipeline Safety that was 
mandated to keep the public safe. They have far wide ranging 
authority over the pipeline industry. We don't really need 
anymore legislation to legislate against the pipeline industry. 
We need an Office of Pipeline Safety that is going to do the 
job that they were mandated to do. They can't demand that these 
guys hydrostatically test their lines. Do you know that there 
aren't even any mandates that they need to internally inspect--
you just said that. Senator Murray just said that. They don't 
even have to internally inspect their lines.
    As far as I'm concerned, the 35 million dollars that's 
spent on the Office of Pipeline Safety is a waste of taxpayers 
money. Somebody needs to be put in charge of the Office of 
Pipeline Safety that is not in the hip pocket of the oil 
industry. The whole idea of pipeline safety has to be revamped. 
There needs to be a zero spill tolerance.
    Ms. Dalen. That's right.
    Mr. King. Not we only kill two or three kids a year.
    Ms. Dalen. That's right.
    Mr. King. I'm going to say in a general statement the 
pipeline industry as a whole is an outrage. Can we really make 
the pipeline industry too safe? If we had no spills that harm 
the environment and no deaths by the pipeline industry, are we 
making it too safe? Nobody should have to go through this, and 
I can't think of a more horrible way for three children to die, 
and that's what they all were--was children--than to be burned 
over 90 percent of their bodies.
    On June 10, 1999, I want to tell you what Olympic Pipe 
Line's behavior was, because their behavior is an outrage. It's 
an outrage to the citizens of the Bellingham. It's an outrage 
to the citizens of Washington and it's an outrage to the 
Federal Government.
    I asked this question last October when I testified before 
Congress. Why is Olympic Pipe Line still operating south of 
Bayview? Give me a logical reason. Congressman Frank wasn't 
able to do it. I've written to President Clinton. I've written 
to Secretary Slater of the DOT. You've gotten the faxes. Jay 
Inslee has gotten the faxes. Janet Reno has gotten the faxes. I 
am not going to relent on this thing. This company needs to be 
shut down. They have eight employees that have information that 
would help us in the why question, and you mentioned we still 
don't know why this accident happened, but we can learn from 
it. We won't learn anything until we know why this accident 
happened. The owners of Olympic Pipe Line, Shell, Texaco, GATX, 
ARCO, just since June 10th, have been able to generate 2.7 
billion dollars worth of revenues operating south of here. 
That's an outrage. They should be called on the carpet to tell 
us why this accident happened.
    In January 1997, Olympic Pipe Line did run pigs to 
internally inspect their lines. In May 1997, Olympic Pipe Line 
wrote the Department of Energy and said they had problems in 
this section that split 2 years before this accident. In July 
1997, an inspector from Olympic Pipe Line named R.J. Clauson 
goes into the park with a backhoe to inspect that section of 
pipe that split, and guess what he said? ``Gosh, you know, I 
got all the equipment here, and you know, I'm ready to dig this 
pipe up to look at it visually,'' but it was too difficult to 
get to it. So he wrote his office back, and he said, ``I didn't 
inspect this section of pipe. It was too difficult to get to.'' 
The DOE wrote them back and told them go in and replace this 
section and tell us what happened. They never got back with 
DOE.
    So instead what Olympic Pipe Line does is they spend forty 
million dollars, and they build Bayview station so that they 
can increase their flow through the pipe by 20 percent, and 
somehow they ill-design Bayview station, and they have a 
blocked valve upstream from Bayview station that closes 
uncommanded 59 times in less than 6 months, 59 times. Olympic 
Pipe Line says hydrostatic testing is not the way to go to 
inspect the pipeline, and yet they hydrostatically tested the 
pipeline 59 times in less than 6 months, and then on June 10th 
it closed for the 60th time and slammed shut for the 60th time 
and blew a hole in the pipe that they already knew was in 
disrepair. That's seven inches by 27 inches, and the rest is 
history.
    I ask the Office of Pipeline Safety didn't Olympic Pipe 
Line have the obligation to find out why this blocked valve 
slammed shut? Yeah, Rick Felder said yeah. I said, ``Why 
haven't you followed up on it to find out?'' ``Well, it was 
never reported to us.'' I said, ``It wasn't reported to you?'' 
``No.'' ``Why?'' ``That's a good question,'' was his answer. 
That's a good question.
    This same blocked valve closes on June 10th at 3:28 and 
sends a shock wave that takes 23 seconds to go back up stream 
over Lookout Mountain almost 21 miles, 23 seconds, and split 
that pipe, and Olympic Pipe Line calls ARCO at 3:45, 7 minutes 
after this blocked valve slams shut, and there's no room in the 
pipe for any fuel, because it's already full of fuel. It's 
already full of two million sixty-three thousand gallons of 
fuel, a 37-inch line.
    So then supposedly Olympic Pipe Line's computers go on the 
fritz, and Jim Hall from the NTSB testified before Congress he 
hasn't been able to get their computers to act that way, but 
then guess what Olympic Pipe Line does? They call ARCO at 4:16 
and tell ARCO to turn the pumps back on, and the pumps are 
running at 9,000 barrels an hour, and it was at this point in 
time that the river of gasoline runs down Hanna Creek and into 
Whatcom Falls Creek and overcomes Liam Wood by fumes in a cloud 
fume that's 12 to 16 feet high, and he falls in the creek 
unconscious, which I've never heard of a person becoming 
unconscious because of gas fumes, and he drowns.
    ARCO (sic) finally calls ARCO at 4:32 and says, ``Turn off 
the pumps. We got a problem.'' Sixteen minutes later my son who 
works at my dealership which is a block off of Whatcom Falls 
Creek, and I was not fortunate enough to be there. I was 
unfortunately home at the time. He said, ``Dad, I stood on the 
showroom floor, and I watched the fumes, the gas, the fire ball 
come down Whatcom Falls Creek'' in front of his eyes. He said, 
``Dad, the fire ball was a 150 feet in the air,'' and it just 
rolled down Whatcom Falls Creek about a mile, and he watched it 
for about a mile right in front of his eyes.
    I think that everybody, every businessman along Whatcom 
Falls Creek was absolutely horrified and thought they were 
dead, because Cascade Natural Gas is right across the street.
    Now, let me tell you about Olympic Pipe Line, and I'm going 
to keep reiterating this, why is this pipeline company still 
operating south of here? This company is an outrage. In May 
1999 when Olympic Pipe Line was trying to get this Cross 
Cascades pipeline to go from Seattle, I guess, over to Spokane, 
Ron Branson, who is Olympic Pipe Line's supervisor of product 
movement testifies that the company's leak detection system is 
nearly fail safe and is capable of detecting the smallest of 
leaks in 15 minutes. This leak went undetected for an hour and 
34 minutes. In that same article he's quoted as saying there 
may have been a time when some pipeline companies treated leaks 
and spills as normal and acceptable part of doing business. 
Olympic does not, and yet if you ask Olympic Pipe Line for any 
maintenance records and the DOE has confirmed this when they 
had this last leak in August, they don't have any maintenance 
records, because the pipeline industry as a whole only fixes 
valves and pipes when they break.
    Of course, now Ron Branson is pleading the 5th Amendment 
along with seven other Olympic Pipe Line employees, and it's 
beyond belief that the Federal Government can allow these 
people to plead the Fifth Amendment. I'm not going to say allow 
them to plead the Fifth Amendment. That's not the right 
question. I'm appalled that the Federal Government is going to 
allow these people to continue to operate south of here 
pleading the Fifth Amendment, and I maintain that had this 
pipeline company been shut down completely from the start, 
Equilon would have sacrificed these people in a heartbeat to 
get their 2.7 billion dollars. The lawyers that are working for 
these attorneys--the attorneys that are working for these 
employers were hired by Olympic Pipe Line. They're working for 
Olympic Pipe Line, not the employees. Olympic spokeswoman, 
Maggie Brown, poor Maggie. Every time she opens her mouth, she 
puts her foot further down her throat. She's quoted in the 
paper on March 2, 2000, saying Olympic from the beginning has 
been interested in finding out exactly what happened. Really? 
So you tell your employees to plead the Fifth Amendment and 
don't give the NTSB any information that might help them 
conclude their investigation.
    Olympic says the leading cause of spills is construction 
damage, outside construction damage, and yet if you look at 
their spills over the years, 80 percent of their spills are 
caused from equipment failure and operator failure. Olympic 
tells the public that they have voluntarily closed the 16-inch 
line south of Bayview. I talked to Chris Hoidal of the Office 
of Pipeline Safety, and Chris Hoidal says, he laughed. He said 
without the 16-inch pipe going through Bellingham, that 16-inch 
pipe is useless.
    Before the City of Bellingham signed their franchise 
agreement, Olympic Pipe Line goes into this section of pipe 
after they've checked their pig runs from 1997, and they find 
nine other sections of pipe that they know won't withstand 
hydrostatic testing. So they go in, and they replace these nine 
sections of pipe, because they're going to have a nightmare, a 
public relations nightmare if they have nine sections that 
split under hydrostatic testing. So they replace them, and they 
still had one split that I believe that was within 30 yards of 
Shuksan Middle School--Kulshan Middle School.
    Now, Olympic is suing Imco. What an outrage. We didn't do 
it. We didn't have any responsibility in it. Imco was in there 
in 1994 and hit the pipe. That was the cause, and yet they knew 
that that pipe was in disrepair in 1997 and didn't do anything 
about it. This company is an outrage. It needs to be shut down. 
This company needs to be shut down. We need to be asked why, 
and I want to applaud Mark Asmundson's efforts, he's done a lot 
of work, and I know spent a lot of time in talking about 
pipeline safety, but the ``why'' question, since he won't 
return my calls, there's nothing wrong with the City of 
Bellingham's mayor asking the ``why'' question. We need to know 
why this accident happened. It is the first step in learning 
what do we have to do. There are no other steps.
    I want to thank Jim Hall from the NTSB. I got to tell you I 
asked a reporter this morning who she thought the busiest 
person in government was today, and she, without, you know, 
batting an eyelash, she said undoubtedly Jim Hall. This man is 
so responsive and so sympathetic. Last week I called him at 
3:10, which is 6:10 Washington, D.C. time. He's in a meeting. I 
leave a message for him. He called me back at 9:30, and he 
can't answer my question. So he calls Bob Chipkevich, and has 
Bob Chipkevich call me at 10:00 his time to answer my question.
    Olympic Pipe Line's gross, wanton recklessness killed my 
little man. He was the light of my family's life. Wade was a 
little man that had an uplifting spirit that touched many, many 
people. My son said, ``Dad, you know, all he had to do was come 
into the dealership, and he lifted my spirits.'' He was our joy 
in life. He was a joy to many people in Bellingham.
    Olympic Pipe Line needs to answer why this accident 
happened, and they need to be forced to do it. Thank you.
    [The prepared statement of Mr. King follows:]

                    Prepared Statement of Frank King

    My name is Frank King. My 10 year-old son, Wade, died as a result 
of burns over 90% of his body along with his 10 year-old playmate, 
Stephen Tsiorvas. Liam Wood, 18, was overcome by fumes, rendered 
unconscious, and drowned. Three little boys died because of the gross 
negligence of Olympic Pipe Line Co. No one could ever explain to you 
what it is like to lose a child at the height of innocence.
    My family wants to thank our friends, neighbors, and citizens of 
Bellingham and Whatcom County. We are extremely lucky to live in this 
Community. Because of their support we were able to find strength that 
we never knew we had. My family would not wish this grief and anguish 
on our worst enemy. It takes nine months for a fetus to mature in a 
mother's womb . . . and it has been nine months since this accident 
happened. And my family will always miss its son, brother, nephew, 
cousin . . . every day of our lives. I wish that I could begin to 
explain our families loss in a manner that you may have some 
comprehension of what we are feeling so you would realize the 
importance that this kind of accident will never be allowed to happen 
again anywhere.
    The Federal Government has two major problems. First, the pipeline 
industry has no concern for public safety. Profits always come before 
people. Read the attached article about Koch Industries. The DOE 
recently fined Koch Industries $35,000,000. What the DOE found out is 
that Koch Industries found weaknesses in their pipeline the easy way . 
. . they let it break; and when Koch Industries reported a spill . . . 
they under reported them by as much as 90%. This is standard behavior 
in the pipeline industry . . . if it breaks we fix it and don't tell 
the amount that really leaked. This is exactly how Olympic Pipe Line 
runs their operation, and it is unbelievable that they are still being 
allowed to operate from Bayview Station south.
    Secondly, the Office of Pipeline Safety (The Federal Government's 
regulatory agency) is in the pipeline industry's hip pocket and 
consequently refuse to regulate the industry. They let the industry 
regulate itself, even though OPS has a $35,000,000 budget and wide 
ranging authority over the pipeline industry. There is no doubt that if 
the OPS had been doing the job that it was mandated by the Federal 
Government to do, we would not be here today. Wade King and Stephen 
Tsiorvas would be skateboarding on the front sidewalk and Liam Wood 
would still be fishing and probably taking some college courses today.
    The whole idea of pipeline safety needs to be revamped. The OPS 
must do the job it was mandated to do and that is to protect the public 
and the environment. No spills. Someone needs to be put in charge who 
isn't in the hip pocket of the pipeline industry. Someone needs to be 
put in charge of the OPS who will make the pipeline industry 
accountable. Put someone in charge that will welcome help from the 
states that want to help with oversight and regulation. And if one 
state finds that a regulation is good for its state, make it a 
regulation for all states. That way there will be consistency in 
regulations throughout the states. The pipeline industry's complaints 
really stem from the fact that they are against any kind of regulation. 
Can the pipeline industry ever be too safe? The OPS needs to be 
completely revamped so that it does the job that it was mandated to do, 
and accepts the help of the states that want to help. And Olympic Pipe 
Line Co. needs to be shut down until we know why this accident 
happened.
    Look at the June 10, 1999 accident and Olympic Pipe Line's behavior 
and response. It is behavior that is an outrage . . . an outrage to the 
families of the victims; an outrage to the citizens of Bellingham; an 
outrage to the citizens of Washington State; and particularly an 
outrage to the people who live along this pipeline that stretches from 
Cherry Point to Portland. It is an outrage to the OPS and the Federal 
Government that this company has been allowed to continue to operate 
south of Bayview Station, since they refuse to help the NTSB in finding 
answers as to why this accident happened. Why are they still operating 
their pipeline? I asked this question to Congress in October. No one 
answered. But Olympic Pipe Line and its owners, Shell, Texaco, ARCO, 
and GATX, have generated in excess of $2.7 billion in revenues just 
since this accident happened. I have written letters to President 
Clinton, Vice President Gore, DOT Secretary Rodney Slayter, Kelly 
Coyner, head of OPS, etc. You have gotten copies of all correspondence. 
So far I have received no response. Olympic Pipe Line must be shut down 
and their employees forced to cooperate with the NTSB to determine the 
exact cause of this accident. It is the first step in assuring we are 
going in the right direction.
    In January of 1997 Olympic Pipe Line ran smart pigs through their 
pipe. They found three anomalies (problem areas) in the very section of 
pipe that split on June 10, 1999. In May of 1997 Olympic Pipe Line 
wrote the DOE, yes the DOE, not the OPS, that they had problems in that 
section that split and would further evaluate those problems. The DOE 
wrote them back and advised Olympic Pipe Line to get back to the DOE 
concerning that section of pipe. Olympic Pipe Line never responded 
concerning this problem again. And note that this section of pipe that 
they had said was problematic was located in an area where there had 
been known construction. And Olympic Pipe Line has said on many 
occasions that the leading cause of pipeline spills is construction 
damage. But they never bothered to visually inspect this section of 
pipe. Instead, Olympic Pipe Line spent $40 million building Bayview 
Station in Burlington, which was built to allow Olympic Pipe Line the 
ability to increase its product flow by 20%. Bayview Station was 
completed in late December 1998. Between then and June 10, 1999, a 
block valve just north of Bayview Station closed 59 times uncommanded 
by operators of the pipe. 59 times it slammed shut in less than six 
months, virtually hydro-statically testing the section that runs 
through Bellingham each and every time. And what does Olympic Pipe Line 
have to say about hydro-static testing? On numerous occasions they have 
stated that it over stresses the pipe. So by their own words, they over 
stressed a pipe that they knew was in disrepair. That's real preventive 
maintenance. Obviously, I'm being facetious.
    Then on June 10, 1999 this same block valve slams shut for the 60th 
time at 3:28PM. It sends a shock wave back up north that takes 23 
seconds to split the pipe in Bellingham. It creates a hole in the pipe 
that is 7" by 27" and a crater that is 25 feet in diameter at the top 
and 5 feet at the bottom. It is about 10 feet deep and will hold about 
60,000 gallons of gasoline. Finally, Olympic calls ARCO and tells them 
to turn the pumps off at 3:35PM. The pumps have been running for 7 
minutes and there is no room for any gasoline in the pipe because it is 
full of about 2,063,000 gallons of gasoline already. Now the pipe sits 
there and leaks until 4:16PM. At this point in time, Olympic Pipe Line 
calls ARCO and tells them to turn the pumps back on. The pumps run at 
9000 barrels per hour or 378,000 gallons per hour. Finally, Olympic 
Pipe Line calls ARCO and tells them to turn the pumps off at 4:32PM--16 
minutes later. A virtual river of gasoline now pours down Hannah Creek 
and into Whatcom Falls Creek, creating a fume bank that is 12 to 16 
feet high. It leaks for another \1/2\ hour until 5:02PM. The resulting 
gas fumes ignite and explode in a fireball that runs down Whatcom Falls 
Creek 150 feet in the air for approximately 1\1/2\ miles and 
approximately \3/4\ mile back up Hannah Creek ending at the ruptured 
pipe.
    Now the outrage--

        <bullet> In May of 1999 Ron Berenston, Olympic's Supervisor of 
        product movement, testifies that the Company's leak detection 
        system is nearly fail-safe and is capable of detecting the 
        smallest of leaks within 15 minutes. This leak went undetected 
        for one hour and 34 minutes until it exploded in a fireball.
        <bullet> In July of 1999 Olympic tells the news media that 
        there was some sort of mastic on the pipe that split, 
        indicating that someone had damaged the pipe, repaired it and 
        covered it back up. Allan Beshore the NTSB's investigator told 
        me that there was no foreign substance on the pipe that split. 
        He further indicated that he had called Olympic Officials and 
        criticized them for reporting this information to the press.
        <bullet> Shortly after the accident 8 Olympic employees who 
        were in the control room on June 10, 1999 invoked their Fifth 
        Amendment rights, including Mr. Berenston. However, everyone 
        goes back to work at their same jobs on June 11, 1999 as though 
        nothing has happened.
        <bullet> Olympic Spokesperson, Maggie Brown, is quoted in the 
        Bellingham Herald on March 2, 2000 saying, ``Olympic, from the 
        beginning, has been interested in finding out exactly what 
        happened.'' Really . . . that must be why their employees won't 
        cooperate with NTSB. And let me add that there is no assurance 
        that these same employees won't plead the Fifth Amendment once 
        the criminal investigation is completed.
        <bullet> Olympic says that the leading cause of spills is 
        outside construction damage. However, if you examine the causes 
        of their spills you will find that 80% of their spills are 
        caused by operator error and equipment failure.
        <bullet> Mr. Berenston also testified that ``there may have 
        been a time when some pipeline companies treated leaks and 
        spills as a normal and acceptable part of doing business. 
        Olympic does not.'' And yet Olympic cannot produce any type of 
        maintenance records that shows anything was ever repaired 
        unless there was a spill. That is preventive maintenance. Same 
        old story, fix it when it breaks.
        <bullet> Olympic says they have voluntarily closed the 16" pipe 
        south of Bayview Station. However, Chris Hoidal, OPS' Western 
        Region Manager, stated that the 16" pipe south of Bayview is 
        useless unless the northern 16" pipe that goes through 
        Bellingham is running product.
        <bullet> While the 37-mile stretch of pipe that runs through 
        Bellingham lay idle, Olympic went back to its pig runs from 
        January 1997 and found 9 sections of pipe that they knew would 
        not withstand hydro-static testing. So before they had to 
        comply with OPS Corrective Action Order to hydro-static test 
        this pipe they replaced these nine sections of pipe. And they 
        still had one section of pipe that split near Kulshan Middle 
        School. What do you suppose the public would have thought had 
        10 sections split throughout this 37-mile stretch? For the 
        first time in its 35 year history, Olympic Pipe Line Co. did 
        some preventive maintenance.
        <bullet> Olympic Pipe Line originally said that 277,000 gallons 
        of fuel leaked out of their pipe, then revised it downward to 
        229,000 gallons of fuel which the news media now uses, but the 
        OPS has not accepted. All you have to do is some simple math 
        and you realize that the minimum amount of fuel that would have 
        leaked out of that pipe was 420,000 gallons of gas. By the time 
        the experts are done determining exactly how much leaked, you 
        will find that between 650,000 and 950,000 gallons of gasoline 
        actually leaked out of that pipe on June 10, 1999.
        <bullet> Olympic Pipe Line did pig runs in January 1997, and 
        admitted to the DOE that they had some problems in that section 
        of pipe that split. Instead of checking that section, they 
        spent $40 million building Bayview Station so they could 
        increase their flow 20%. They misdesigned Bayview Station and 
        had a block valve that closed 59 times in less than 6 months, 
        over stressing a pipeline that is already in disrepair.
        <bullet> Olympic Pipe Line goes to court and sues IMCo 
        Construction, a local contractor, for damaging the pipe. They 
        are suing IMCo for any costs that have been incurred trebled. 
        IMCo was a contractor to the City of Bellingham. Is the City of 
        Bellingham next to be sued?

    Olympic Pipe Line has lied to the public before this accident 
happened and continues to lie to the public in the aftermath of this 
tragic accident. If the Pipeline Industry is to learn anything from 
this tragedy, it is to do exactly the opposite of what Olympic Pipe 
Line has done. Tell the truth. Cooperate with investigators to find out 
the reason or reasons why an accident has happened. Again, why is this 
company allowed to operate south of here without providing any answers. 
Shut these people down and force those employees to talk to NTSB 
investigators.
    As we speak, there is a petition filtering through Bellingham and 
Whatcom County to force our Mayor not to renew Olympic Pipe Line's 
Franchise agreement that comes due in May, until the people of 
Bellingham have an answer as to why this accident happened. The people 
of Bellingham are aware that this accident could be duplicated again if 
the valve closure problem is not resolved. And they are not about to 
let that happen. The actions of our Mayor in recent months, make me 
wonder what agenda he is working. His signature was on the first Safe 
Bellingham petition last July. But he has neglected to ask the why 
question since he signed the franchise agreement with Olympic in 
September . . . against public sentiment.
    The Chairman of the NTSB, Jim Hall (who by the way is one of the 
most compassionate and responsive individuals I have met throughout the 
last nine months), has told me that it will be at least June or 
September before he concludes his investigation. And even then he has 
admitted that the real causes of this accident may never be known 
unless those operators in the control room on June 10, 1999 begin to 
talk about what happened that day. Is pleading the Fifth Amendment an 
admission of guilt? As a law abiding citizen I believe it is. Shut 
Olympic Pipe Line down until they have told us why this accident 
happened and the NTSB has concurred.
    It is a sad state of affairs in this country when the Justice 
Department goes after Microsoft as a monopoly, merely because a judge 
took a personal disliking to Bill Gates. Then turns right around and 
allows Exxon and Mobil to merge forming the largest oil company in the 
world. Then turns right around and tells ARCO and BP Amoco they can't 
merge. And then allows Olympic Pipe Line Co. to continue its operation 
as though nothing has happened.
    Olympic Pipe Line's gross, wanton recklessness killed a ``little 
man'' that was the light of my family's life. Wade was a ``little man'' 
that had an uplifting spirit, who touched many, many people he came 
into contact with. He had a knack for uplifting the spirits of everyone 
he came in contact with. He was our joy in life. He was a joy to many, 
many in Bellingham. And, unfortunately, we have been forced to live 
without that wonderful little being for the rest of our lives. Our 
family misses him every day. Olympic Pipe Line needs to be shut down 
until they have told us why this accident happened.
Oil leaker fined $35 million
January 14, 2000, The Bellingham Herald

    Washington, D.C.--Koch Industries, an oil pipeline company, found 
the weak points in its pipes the easy way, the government said 
Thursday. It simply waited for the pipelines to break and spill oil, 
part of a pattern of negligence that resulted Thursday in the biggest 
civil fine levied to a company for environmental violations.
    The Environmental Protection Agency said that the company, based in 
Wichita, Kan., had agreed to pay a $30 million penalty for more than 
300 separate spills of crude oil, gasoline and other oil products 
between 1990 and 1997.
    Federal officials said it had taken them months to put the case 
together, partly because the company did business under many different 
names, and even when it reported spills it sometimes understated their 
volume by as much as 90 percent. Even after the Justice Department 
brought the case, Koch refused to say what pipelines it owned, 
officials said.
    To save money, the company did not inspect its pipelines for 
corrosion, or pressure-test them, investigators said. ``It was cheaper 
not to maintain them,'' said Steve Herman, the EPA's assistant 
administrator for enforcement.
    And so, officials said, Koch just waited for the pipelines to fail.
    The company leaked 3 million gallons of crude oil and other 
substances into ponds, lakes and rivers in Texas, Oklahoma, Kansas, 
Louisiana, Missouri and Alabama, according to Carol Browner, the 
administrator of the EPA, in announcing the settlement. The settlement 
was filed in U.S. District Court in Houston Thursday to settle charges 
brought by the government between 1995 and 1997.
    As part of the settlement, the company will also pay $5 million to 
buy environmentally sensitive land and protect it from development.
    ``Today's landmark fine against Koch Industries for egregious 
violations of the Clean Water Act sends a strong message that those who 
try to profit by polluting our environment pay a price,'' Browner said.
    The company offered a totally different interpretation, asserting 
through a high executive that Koch had reduced its pipeline leaks by 90 
percent in the last decade.
Federal prosecutors file motion to test segment of pipeline
March 2, 2000, The Bellingham Herald and the Associated Press

    Federal prosecutors have asked a judge to approve tests to 
determine what caused a pipeline rupture and resulting explosion that 
killed two 10-year-old boys and an 18-year-old man in Bellingham last 
June.
    Prosecutors filed a sealed motion last week with U.S. District 
Judge Robert Lasnik, The Seattle Times reported Wednesday, citing 
unidentified sources familiar with the case.
    The motion seeks permission for the National Transportation Safety 
Board to cut into a 20-foot section of pipe that was excavated from the 
rupture site.
    Olympic officials said they want the pipeline tests done.
    ``We are as anxious as anybody to allow those tests to go 
forward,'' company spokeswoman Maggie Brown said following a Wednesday 
night meeting in Bellingham. ``Olympic, from the beginning, has been 
interested in finding out exactly what happened.''
    The NTSB had planned to conduct the test last fall, but was halted 
by the U.S. Attorney's Office in Seattle, which feared the test would 
allow lawyers for pipeline operator Olympic Pipe Line Co. to argue that 
key evidence had been destroyed.
    The new motion seeks to allow the tests, in addition to protecting 
federal prosecutors from any claims relating to altering of evidence if 
criminal charges are filed in the rupture and explosion, the Times 
cited criminal experts as saying.
    The testing could tell investigators whether defects or corrosion 
existed before the pipeline rupture, NTSB spokesman Keith Holloway 
said.
    ``It's a key component to the investigation because it can tell us 
what happened,'' he said.
    Prosecutors filing the motion notified lawyers representing 
Olympic, its top officials and a Bellingham construction company that 
previously dug near the pipeline, the Times reported. Investigators 
have looked into whether the pipe had been damaged by excavation work, 
and Olympic has filed a motion blaming the excavation contractor for 
the rupture.
    A federal grand jury is investigating whether environmental or 
pipeline-safety laws were violated. No charges have been filed, and the 
investigation is expected to continue for months.
    The families of the two boys killed have filed a lawsuit against 
Olympic.
    Olympic could face a fine of as much as $10,000 in the Nov. 17 
incident, when a significant amount of fuel was leaked during cleanup 
of the Bellingham spill, resulting in some environmental damage, state 
Department of Ecology spokesman Ron Langley said.
    The company was told Friday it had violated state water-quality 
laws and now has 30 days to respond, he said.
    Olympic had failed to clean silt from a perforated pipe that draws 
fuel and contaminated groundwater from soils in Whatcom Falls Park, 
causing an overflow.
    Olympic spokeswoman Maggie Brown said the amount of fuel spilled 
was too small to be measured.
    ``It was a sheen,'' she said.
    But Langley said the cleanup system leaked for 30 hours before a 
state inspector noticed gas in the creek.
    Olympic has appealed a $120,000 fine from Ecology for the June 10 
spill of 229,000 gallons of petroleum fuel.

Senate Hearing March 13, 2000
Additional Testimony From Frank King

    The question that was asked Senators Gorton and Murray still 
remains unanswered. Why is Olympic Pipe Line allowed to continue to 
operate their pipeline south of Bayview Station, when their employees 
refuse to help the NTSB investigate this accident? Senator Gorton asked 
that question of Mr. Gast from Olympic Pipe Line and Mr. Felder from 
the Office of Pipeline Safety. Both responded by saying that they felt 
the 20'' line south of Bayview Station was safe and operating at 80% of 
normal operating pressure. My question does not ask if the pipeline is 
safe!!! This Company needs to be shut down, until such time their 
employees help the NTSB put together all the answers to the why 
question.
    Olympic Pipe Line did internal pig runs on their pipeline in 
January of 1997. In May of 1997, they wrote the Washington State 
Department of Ecology and advised them that they had three serious 
anomalies in that very section of pipe that split on June 10, 1999. The 
DOE wrote them back and told Olympic pipeline to go into the area and 
dig up that very section of pipe and replace it or repair it as 
necessary. In July of 1997, R. J. Klasen, Field Supervisor for Olympic 
Pipe Line, goes into the area with a crew and a backhoe to dig up that 
very section of pipe. He then reports back to his superiors at Olympic 
Pipe Line and the DOE that he did not dig up that very section of pipe 
because it was ``too difficult to get to.'' Olympic Pipe Line's gross, 
wanton, reckless negligence murdered my son, Wade, as well as Stephen 
Tsiorvas and Liam Wood. This same gross, wanton, reckless negligence is 
the same reason that these people need to be shut down until we know 
why this accident happened. Shut them down now.
    As I sat in that Senate Hearing room and listened to Mr. Felder's 
testimony and heard him say that the OPS has gone back to all the 
pipeline operators and asked them all to come up with safety action 
plans for their pipelines, I couldn't help but become extremely uneasy. 
That is exactly the type of attitude that must be eliminated out of the 
OPS. I thought that was why the OPS was created . . . to regulate the 
safety of the pipeline industry . . . not to ask the pipeline industry 
how it wanted to be regulated. Go back and list all the recommendations 
that the NTSB has given to the OPS over the last 30 years. List them 
all, and then make those the regulations by which the pipeline industry 
is regulated. Then add one regulation. When a pipeline company has an 
accident, its entire operations will be suspended until the cause of 
the accident has been determined. It was very apparent that the NTSB 
has seen very little change in the OPS' attitude to force the pipeline 
industry to safeguard the public. The OPS needs to be a stronger 
advocate for public safety and needs to welcome states help to mandate 
that public safety.
    This morning I read in the Bellingham Herald that a maintenance 
supervisor at Alaska Airlines had been placed on administrative leave 
because he had bullied the mechanics who maintain the airplanes into 
not doing the proper job in their maintenance efforts. Olympic Pipe 
Line Co. needs to be put on administrative leave, until the NTSB has 
found the answers as to why this accident happened.

    Senator Gorton. Thank you, Mr. King.
    Does Mrs. King wish to add anything?
    Mr. King. Pardon?
    Senator Gorton. Does Mrs. King wish to add anything?
    Mrs. King. No.
    Senator Gorton. Ms. Dalen, we'll go to you.

                  STATEMENT OF KATHERINE DALEN

    Ms. Dalen. I'm a little nervous about squeals. The young 
man that was sitting next to me is not Mr. Williams who has 
been busy working with teachers down around the Seattle/Tacoma 
area today. This man is my son and Stephen's brother, just 
turned 18, so I hope you don't mind. He's been kind of 
supportive.
    Senator Gorton. Fine. Fine. You go ahead.
    Ms. Dalen. I wish to thank Senator Gorton, Senator Murray 
and other distinguished members of the Committee on Commerce, 
Science, and Transportation for inviting me to speak today.
    My name is Katherine Dalen, and I am the parent of Stephen 
Tsiorvas, who at the age of 10 lost his life along with two 
other sons of this community in a devastating accident that was 
like so many others preventable.
    When I decided to come and speak with you today, I puzzled 
over what it was I most wanted to say. What of all the things I 
feel, believe and know were most important to relate to you. I 
wondered what words I could speak that would make the most 
impact, and inspire change so that this tragedy would never be 
repeated, so that other lives would be saved.
    The first thing always on my mind is the depth of my sorrow 
and grief over Stephen's death, and how much pain his loss has 
brought my family. I could go on about that for hours. I could 
tell you how sometimes the sadness tears our hearts apart and 
drowns our spirits, but our grief is personal, as would be 
yours had you lost a child by any means. My sadness, my 
family's suffering can only serve to remind you how precious 
life is, how important it is that we love and protect our 
families and how easy it is to lose those we love. We need to 
take better care of our children, our loved ones and our 
neighbors. We need to commit ourselves again to making human 
safety a priority.
    Most folks in Bellingham, many in Washington and some 
throughout the Nation realized again on June 10th, 1999, how 
unexpectedly dangerous and deadly our neighborhoods can be. The 
price of one human life is too great a price to pay for such a 
reminder. Safety measures can and must be taken. Taking a human 
life is not a business liability. It is murder. How many times 
over how many years must the greed and sloth of industry be 
allowed to play deadly games with human lives? Is that to be 
our future? Our children's future? Our children's children's 
future?
    I need not remind the distinguished Committee that our 
government was formed of the people, by the people, for the 
people. Our democracy was based on that principle with a vision 
of the future very much on the minds of those drafting the 
rules for a balanced government. However, it does seem to me 
that we tend to live rather selfishly. With our individual 
lives and our individual pocket books and mind rather than the 
lives of our neighbors, and the lives of those yet to be born, 
this selfishness seems especially evident in those situations 
in which we allow the fat corporate wolf to manage the fat 
company wolves who then manage the hens in the hen house with 
the corporate agenda. While some wolves may be fine fellows 
indeed, a wolf is by nature a wolf. His agenda is based more on 
filling his stomach than on the welfare of the chickens.
    Our environment, our habitat, our earth cannot continue to 
be raped, either by accident or by deliberate intent. If we are 
to sustain human life and animal life, if we erode our 
environment one small bit at a time, the human race will die, 
if not today, tomorrow; if not by fire, by ice; if not 
suddenly, then slowly.
    The pipeline that burst here in this small city has been in 
the ground for a long time. Others will testify to that, I'm 
sure. The quality of that pipe and other pipes in this nation 
carrying volatile fuels is in question, but the impact of yet 
another disaster, the impact of yet another death is not.
    Each accident wrecks havoc on the lives of residents, the 
lives of native animals, and the land itself. Each accident 
causes this nation, our neighbors, our families and our habitat 
irreparable damage. We know that toxic materials in our 
environment can poison us, leach into our food, pollute our 
drinking water and hover in our air, yet we continue to allow 
the wolves with the corporate agenda to manage not only the 
hens in the hen house but the hen house as well.
    The size and growing complexity of our nation's needs does 
not abrogate our responsibilities as individuals, as a 
community or as a nation. Nor does a challenge demand that our 
complexity allow us to simplify our solution or grow lax in our 
diligence to monitor and enforce our regulations. Though the 
pipe is buried and out of our sight, the need for decisive 
action is abundantly clear. We can no longer hide from the fact 
that our behaviors and laissez-faire policies have direct 
detrimental effects on our future. By allowing inaction and by 
our own inaction, we become participants in the misdeeds of 
business. My baby died because of inaction. His death was 
preventable.
    As a people, for the people, we must, must protect those 
lives in our charge. The lives of those yet unborn and the land 
which sustains humanity only for so long as humanity cares for 
it. Thank you.
    [The prepared statement of Ms. Dalen follows:]

                 Prepared Statement of Katherine Dalen

    I wish to thank Senator Gorton, Senator Murray, and the 
distinguished members of the Committee on Commerce, Science, and 
Transportation for inviting me to speak today. My name is Katherine 
Dalen, and I am the parent of Stephen Tsiorvas who, at the age of ten, 
gave up his life, along with two other sons of this community, in a 
devastating accident that was, like so many others, preventable.
    When I decided to come and speak with you today, I puzzled over 
what it is I most wanted to say, what of all the things I feel, 
believe, and know were most important to relate to you. I wondered what 
words I could speak that would make the most impact and inspire change 
so that this tragedy would never be repeated, so that other lives would 
be saved. The first thing always on my mind is the depth of my sorrow 
and grief over Stephen's death and how much pain his loss has brought 
my family. I could go on about that for hours. I could tell you how 
sometimes the sadness tears our hearts apart and drowns our spirits. 
But our grief is personal, as would be yours had you lost a child by 
any means. My sadness, my family's suffering can only serve to remind 
you how precious life is, how important it is that we love and protect 
our families, and how easy it is to lose those we love.
    Additionally, I think I must speak to two issues. One, we need to 
take better care of our children, our loved ones, and our neighbors. We 
need to commit ourselves again to making human safety a priority. Most 
folks in Bellingham, many in Washington, and some throughout the nation 
realized again on June 10, 1999, how unexpectedly dangerous and deadly 
our neighborhoods can be. The price of one human life is too great a 
price to pay for such a reminder. How many times over how many years 
must the greed and sloth of industry be allowed to play deadly games 
with human lives? Is that to be our future as well? Our children's 
children's future?
    I need not remind this distinguished committee that our government 
was formed of the people, by the people, for the people. Our democracy 
was based on that principle, with a vision of the future very much on 
the minds of those drafting the rules for a balanced government. 
However, it does seem to me that we tend to live rather selfishly, with 
our individual lives and our individual pocketbooks in mind rather than 
the lives of our neighbors and the lives of those yet to be born. This 
selfishness seems especially evident in those situations in which we 
allow the fat corporate wolf to manage the fat company wolves who then 
manage the hens in the hen house with a corporate agenda. While some 
wolves may be fine fellows indeed, a wolf is by nature a wolf: his 
agenda is based more on filling his stomach than on the welfare of the 
chickens.
    Two, our environment, our habitat, our earth cannot continue to be 
raped, either by accident or by deliberate intent, if we are to sustain 
human and animal life. If we erode our environment one small bit at a 
time, the human race will die. If not today, tomorrow. If not by fire, 
by ice. If not suddenly, then slowly. The pipeline that burst here, in 
this small city, has been in the ground for a long time; others will 
testify to that I'm sure. The quality of that pipe, and other pipes in 
this nation carrying volatile fuels, is in question, but the impact of 
yet another disaster is not. Each accident wreaks havoc on the lives of 
residents, the lives of native animals, and the land itself. Each 
accident causes this nation, our neighbors, our families, and our 
habitat irreparable damage. We know that toxic materials in our 
environment can poison us, leach into our food, pollute our drinking 
water, and hover in our air. And yet we continue to allow the wolves 
with a corporate agenda to manage not only the hens in the hen house 
but the hen house as well.
    The size and growing complexity of our nation's needs does not 
abrogate our responsibility as citizens or as a government. Nor does 
the challenge demanded by that complexity allow us to simplify our 
solutions or grow lax in our diligence to monitor and enforce our 
regulations. The need for stern decisive action is abundantly clear. We 
can no longer hide from the fact that our behaviors and laissez fair 
policies have direct, detrimental effects on our future, and all 
futures to come--on us, on our children, and on our children's 
children. As a people, for the people, we must, MUST, protect those 
lives in our charge now, the lives of those yet unborn, and the land 
which sustains us only for so long as we care for it.
    It is time to act. We must not be deluded by false hopes or by 
denial; we are in danger; we must not allow the fact that we do not see 
the danger laying about in our front yard to make us unwary. If we do 
nothing we may lose our chance. And we must let our neighbors, 
throughout the nation, know of the danger that lurks three feet, two 
feet, one foot below the surface of our homes, our fields, our parks, 
and our schools.

    Senator Gorton. Thank you very much, Ms. Dalen.
    Mrs. Robinson?

                 STATEMENT OF MARLENE ROBINSON

    Mrs. Robinson. I want to thank you for coming to Bellingham 
and thank you for inviting us here to speak.
    On June 10th of last year, my 18-year old son, Liam, who 
had graduated from high school 5 days before, happened to be 
fly fishing in his favorite place, Whatcom Falls Park, a 
pristine piece of nature not 5 minutes from downtown. Just a 
week before, Liam had come home one evening from fishing the 
creek. While we ate dinner together, he told us about his 
excitement when he came upon a big otter swimming peacefully in 
one of the pools. He watched it for a long time. I'm sure that 
he looked for that otter on June 10th as he made his way down 
the creek. He was in a steep gorge with 230,000 gallons of 
gasoline spilled down the creek. The oxygen in the gorge was 
replaced by a 35-foot wall of hydrocarbon fumes. Liam was 
overcome within seconds. He fell into the foot-deep creek and 
drowned. A short time later, the gasoline and fumes exploded, 
sending the fire ball down the creek that killed Liam and 
Stephen and every other living thing in its path for a mile and 
a half.
    We in Bellingham are now painfully aware of the danger that 
pipelines pose to every community in this nation. We have 
learned that what happened in Bellingham was not an isolated 
incident. The Federal Government has allowed the pipeline 
industry to be largely self-regulated. This has led to a 
pattern in the last 20 years of fuel transportation accidents. 
The pipeline industry will never have as its bottom line the 
health and safety of communities. It is up to communities, 
themselves, and therefore their public representatives and 
government agencies to insure that pipelines are safe.
    The technology exists for pipelines to be safe. What we did 
not know before the pipeline ruptured in Bellingham but have 
learned at the price of our son's life is that what is lacking 
is regulation and enforcement. The Federal Office of Pipeline 
Safety has woefully, and over a long period of time, failed in 
its mandate. The Federal Government has not responded to years 
of unsafe pipeline practices and has at the same time 
prohibited local and state governments from protecting their 
citizens.
    We in Bellingham are now working closely with many 
communities across the Nation who, like us, are educating 
themselves about the dangers posed to their citizens as a 
result of the lack of responsiveness of the Office of Pipeline 
Safety. We know that had OPS addressed this issue adequately in 
the past, our town would not be still reeling from loss. We are 
working together to make sure that no other community has to 
suffer a similar loss.
    I no longer have children to protect. Nothing I do or say 
about this issue can bring Liam back. I do, however, consider 
it my privilege and my obligation to do what I can to protect 
the children of this and other communities. I need to impress 
upon you that it is not enough to make minor changes in 
pipeline safety regulation and to once again hand over the 
reins to OPS. Before June 10th, none of us in Bellingham had 
any idea that we needed to be experts in fuel transportation 
safety. We frankly didn't even know that we had a gas line 
pipeline running through the very heart of Bellingham under 
streets, past houses, schools and parks. We thought we had a 
Federal agency called the Office of Pipeline Safety, and we had 
faith that that agency was doing its job. We no longer have 
that faith.
    I urge this committee to do what is necessary to protect 
the citizens of this nation from further avoidable and 
predictable tragedies caused by inadequate regulation, 
oversight and enforcement. My recent education has convinced me 
that we need two things. We need a Federal Office of Pipeline 
Safety that is staffed by committed expert servants who have 
the health and safety of communities as their bottom line. And 
we need a strong, well-funded citizens advisory council to 
insure that over time we do not return to business as usual.
    Our children's deaths were not trivial. They were not an 
``acceptable risk.'' We easily have the capacity to protect our 
communities from just this so-called ``accident.'' What I need 
from you, what every community in this country needs from you 
is action that will finally guarantee us an Office of Pipeline 
Safety that truly protects the safety of citizens across the 
Nation, and that will include citizens in local and state 
governments as effective partners in the national oversight of 
pipeline safety.
    [The prepared statement of Mrs. Robinson follows:]

                 Prepared Statement of Marlene Robinson

    On June 10th of last year, my 18-year-old son Liam, who had 
graduated from high school five days before, happened to be fly-fishing 
in his favorite place, Whatcom Falls Park; a pristine piece of nature 
not 5 minutes from downtown. Just a week before, Liam had come home one 
evening from fishing the creek. While we ate dinner together, he told 
us about his excitement when he'd come upon a big otter swimming 
peacefully in one of the pools. He watched it for a long time. I'm sure 
that he looked for that otter on June 10th as he made his way down the 
creek. He was in a steep gorge when the 230,000 gallons of gasoline 
spilled down the creek. The oxygen in the gorge was replaced by a 35-
foot wall of hydrocarbon fumes. Liam was overcome within seconds. He 
fell into the foot-deep creek and drowned. A short time later, the 
gasoline and fumes exploded, sending the fireball down the creek that 
killed Wade and Steven and every other living thing in its path for a 
mile and a half.
    We in Bellingham are now painfully aware of the danger that 
pipelines pose to every community in this nation. We have learned that 
what happened in Bellingham was not an isolated incident. The federal 
government has allowed the pipeline industry to be largely self-
regulated. This has led to a pattern in the last twenty years of fuel 
transportation accidents. The pipeline industry will never have as its 
bottom line the health and safety of communities. It is up to 
communities themselves and therefore their public representatives and 
government agencies to ensure that pipelines are safe. The technology 
exists for pipelines to be safe. What we did not know before the 
pipeline ruptured in Bellingham, but have learned at the price of our 
son's life, is that what is lacking is regulation and enforcement. The 
federal Office of Pipeline Safety has woefully, and over a long period 
of time, failed in its mandate. The federal government has not 
responded to years of unsafe pipeline practices and has at the same 
time prohibited local and state governments from protecting their 
citizens.
    We in Bellingham are now working closely with many communities 
across the nation who, like us, are educating themselves about the 
dangers posed to their citizens as a result of the lack of 
responsiveness of the federal government through the Office of Pipeline 
Safety. We know that had OPS addressed this issue adequately in the 
past, our town would not still be reeling from loss. We are working to 
make sure that no other community has to suffer a similar loss.
    I no longer have children to protect. Nothing I do or say about 
this issue can bring Liam back. I do, however, consider it my privilege 
and obligation to do what I can to protect the children of this and 
other communities. I need to impress upon you that it is not enough to 
make minor changes in pipeline safety regulation and to once again hand 
over the reins to OPS. Before June 10th, none of us in Bellingham had 
any idea that we needed to be experts in fuel transportation safety. We 
frankly didn't even know that we had a gasoline pipeline running 
through the very heart of Bellingham, under streets, past houses, 
schools, and parks. We thought we had a federal agency called the 
Office of Pipeline Safety, and we had faith that that agency was doing 
its job.
    We no longer have that faith. I urge this committee to do what is 
necessary to protect the citizens of this nation from further avoidable 
and predictable tragedies caused by inadequate regulation, oversight 
and enforcement. My recent education has convinced me that we need two 
things. We need a federal Office of Pipeline Safety that is staffed by 
committed, expert servants who have the health and safety of 
communities as their bottom line. And we need a strong, well-funded 
citizens advisory council to ensure that over time, we do not return to 
business as usual.
    Our children's deaths were not trivial; they were not an 
``acceptable risk.'' We easily have the capacity to protect our 
communities from just this kind of ``accident.'' What I need from you; 
what every community in this country needs from you, is action that 
will finally guarantee us an Office of Pipeline Safety that truly 
protects the safety of citizens across the nation, and that will 
include citizens and local and state governments as effective partners 
in the national oversight of pipeline safety.

                   STATEMENT OF BRUCE BRABEC

    Mr. Brabec. I am Bruce Brabec and I'm Liam's stepfather and 
I want to thank you for the opportunity to speak today and 
thank you for coming to Bellingham.
    Marlene and I, as all the families, have received amazing 
support from this Bellingham community, and it's, you know, 
kind of maybe helped us to go on from day to day is all of the 
support we've had from friends and from people that we don't 
even know, and from people at large including the state.
    A lot of times in conversation with people who are being 
supportive to us, they'll say to Marlene and I, I'm sure the 
others have heard it, too, people have said that they can't 
imagine what this must be like, what it must be like for us, 
and I thought, well, I can give you some sense of what it is 
like, especially for those in the room who are parents, and 
give you just a little bit of what it's like on a day-to-day 
basis for us.
    First of all, just imagine that you're going to go home 
tonight and your child isn't home and never will be and then 
add to this each morning very early when the newspaper is 
delivered, it bumps on the front porch and you wake up because 
of that sound and you're reminded of when the police stepped on 
your porch and awakened you, also, and they had come to tell 
you that your son was found dead in Whatcom Creek and then add 
to this the experience that each time you go to a gas station 
to get gas in your car and when you catch the smell of the 
gasoline as you're filling it up, you imagine what it might 
have been like for your child as he was engulfed by a wall of 
gasoline vapor while fly fishing on Whatcom Creek, and then add 
to each time somebody tells you a story about your child, which 
we like to hear, but it also makes you think about what your 
child might be doing now if he or she were alive.
    Well, now you might have a little bit more information 
about what it is like for us and those are just a few of the 
things that happen to us on a daily basis.
    Last week Marlene and I decided to visit the site where 
Liam's body was found. We'd been there a few days after his 
death and we weren't sure we could find it again and at that 
time we'd seen how badly damaged the creek was and we wanted to 
go back and some friends in the police department who knew 
where the site was offered to take us back and we wanted to go 
back because we wanted to have a good bearing on the site in 
the future, so we could visit it on our own.
    I planned to stand there and imagine Liam fishing in this 
one beautiful canyon, and I imagined that in the future not 
even at that point it would be a site where I would be able to 
reflect joyfully about Liam, because I knew how much he loved 
fishing in that canyon. How often I'd come home, and there'd be 
a note that he had gone fishing, and I knew which creek he was 
fishing on.
    Well, the experience of going to the creek last week was 
quite the opposite. I saw a burned out canyon, which as much as 
I expected it, it was very difficult to see again, the burned 
trees, the bare banks, the cracked rocks from the heat of the 
explosion, and the downed trees in the water, and worst of all, 
I saw Liam floating face down in the creek and I saw the part 
of his body that was out of the creek that was charred by the 
blast, because I know that that's how they found him.
    Now, I'm not bringing this up to upset people, but really I 
bring it up to make a plea that Liam's death not be in vain and 
to plead that other families not have to be condemned as we are 
to this kind of experience and to these memories. The loss of 
our son--because of the loss of our son we are certainly biased 
about the importance of stricter regulation and accountability, 
but we believe that everybody should be similarly biased by our 
experience.
    I would like to bring another voice into the room and 
that's a voice that's missing today and that's Liam's, Liam's 
voice. If I were Liam, and I hadn't been fishing that day, and 
I was alive, I would hope that I was invited to speak today, 
because I would tell you how often I had walked that creek from 
the mouth all the way up to its source. If I were Liam I would 
tell you how many of my thoughts had been scoured from that 
canyon by the blast, thoughts I shared with the creek as I 
fished, thoughts about school, thoughts about my parents, about 
girlfriends, about my place in the universe. If I were Liam I'd 
tell you how many fish I'd caught and released, and I would 
recount with pretty good sound effects and visualizations my 
attempts and success at landing fish, and if I were Liam, I 
would be telling you today that much more needs to be done 
regarding pipeline regulation, to not only prevent damage, 
injury or death, but also to support the living, to protect our 
places of refuge, to protect our neighborhoods, to protect our 
homes, to protect our families. If I were Liam, I would most 
strongly ask that you tighten the accountability of the Office 
of Pipeline Safety, that you support it with the funds to do 
its job, but that you consider cleaning house to get staff who 
are dedicated to be watch dogs of public safety, not just 
supporters of pipelines and oil companies. If I were Liam, I 
would most strongly urge you to allow states and especially 
Washington State to regulate pipelines in addition to Federal 
regulation, and if I were Liam, I would urge you to support a 
well-funded citizen advisory group to provide regional 
oversight to improve safety and to prevent oil spills, and if I 
were Liam, and I would be not standing up and moving over you 
at my over six feet height, and I would be volunteering to be 
the first one on that advisory committee for this region, 
because I would know how important it is, and I'd want to do 
what I could to be helpful.
    Marlene and I again want to thank you for the opportunity 
to present our thoughts, our feelings today. We appreciate your 
serious intentions. Let's join ours and that is to take steps 
to prevent similar accidents from occurring in the future.
    [The prepared statement of Mr. Brabec follows:]
                   Prepared Statement of Bruce Brabec
    I am Bruce Brabec. I am Liam's step father.
    Marlene and I have received amazing support from the Bellingham 
community. And in conversations many people tell us that they can't 
imagine what it must be like for us.
    Well, to give you some sense of what it is like, especially for the 
parents in the room . . .

        <bullet> Imagine going home tonight and your child isn't home . 
        . . and never will be.
        <bullet> Add to this--each morning, very early, when the 
        newspaper being delivered thumps on the front porch, you wake 
        up and are reminded of when you were awakened by the police 
        stepping on your porch--who came to tell you that your son was 
        found dead on Whatcom Creek.
        <bullet> Then--add the experience of each time you go to a gas 
        station to get gas for your vehicle, and you catch a smell of 
        gasoline--you imagine what it might have been like for your 
        child as he was engulfed by a wall of gasoline vapor while 
        flyfishing on Whatcom Creek.
        <bullet> Then add that each time someone tells you a story 
        about their child, you think about what your child might be 
        doing now--if he were alive.

    Now you might have a bit more information about what it is like for 
us.
    Last week, Marlene and I decided to visit the site where Liam's 
body was found. We had been there once, a few days after his death, and 
weren't sure we could find it again. We had seen then how badly damaged 
the creek was. This time, we were accompanied by some friends in the 
police department who knew the site. We thought it would be good to get 
a better bearing on the site so that we could visit it later on our 
own. I planned to stand there and imagine Liam fishing in this once 
beautiful canyon--I imagined it as a site where I would be able to 
reflect joyfully about Liam as I knew how much he loved fishing in that 
canyon . . . Well, the experience was quite the opposite. I saw the 
burned out canyon, the burned trees, the bare banks, the rocks cracked 
by the heat generated during the explosion, the downed trees in the 
water. And I saw Liam floating face down in the creek and the part of 
his body out of the water charred by the blast.
    I am not bringing all this up to upset people, but to make a plea 
that Liam's death not be in vain, to plead that other families not have 
to be condemned as we are to these kind of experiences and memories. 
Because of the loss of our son, we are certainly biased about the 
importance of stricter regulation and accountability, but we believe 
everyone should be similarly biased by our experience.
    I would like to bring another voice to the room a voice that is 
missing . . . Liam's voice.
    If I were Liam . . . and I hadn't been fishing that day . . . and I 
was alive . . . I would hope I was invited to speak today. I would tell 
you of how often I walked that creek from the mouth all the way up to 
its source. If I were Liam, I would tell you how many of my thoughts 
had been scoured from that canyon by the blast--thoughts I shared with 
the creek as I fished--thoughts about school, about my parents, about 
girlfriends . . . thoughts about my place in the universe. If I were 
Liam, I would tell you about the many fish I caught, and released, in 
that canyon. And I could recount with good sound effects and 
visualizations my attempts and success at landing a fish. If I were 
Liam, I would be telling you today that much more needs to be done 
regarding pipeline regulation to not only prevent damage, or injury, or 
death, but to also support the living, to protect our places of refuge, 
to protect our neighborhoods, to protect our homes.
    If I were Liam, I would most strongly ask that you tighten the 
accountability of the Office of Pipeline Safety--that you support it 
with the funds to do its job, but that you consider cleaning house to 
get staff who are dedicated to being watchdogs of public safety, not 
just supporters of pipeline and oil companies.
    If I were Liam, I would most strongly urge you to allow states and 
especially Washington State to regulate pipelines in addition to the 
federal regulations.
    If I were Liam, I would urge you to support a well funded citizen 
advisory group to provide regional oversight to improve safety and 
prevent oil spills.
    And, if I were Liam, I would volunteer to be on that first advisory 
committee for this region.
    Thank you for the opportunity to present our thoughts today. We 
appreciate your serious intentions which join with ours--to take steps 
to prevent similar accidents from occurring in the future.

    Senator Gorton. Well, we thank each of you who have gone 
through great difficulty and who are here today, you know, 
under a great deal of stress for the kind of insight into these 
challenges that only each of us can know.
    I've only one or two brief questions, and I think Mrs. 
Robinson has already mostly answered the question.
    How many of you before this accident even knew there was a 
pipeline through the park with these hazardous materials going 
through it? You said you were not, Mrs. Robinson?
    Mrs. Robinson. No.
    Senator Gorton. Mr. King, did you know it was there?
    Mr. King. I knew the pipeline was there. I really, I never 
paid any attention as to what went through it, because I felt 
that, you know, they were taking care of it.
    Senator Gorton. What do you think----
    Mr. Williams. Senator?
    Senator Gorton. I'm sorry. Do you want to answer the 
question?
    Mr. Williams. Yeah, I lived in the community for 10 years.
    Senator Gorton. Uh-huh.
    Mr. Williams. And I knew the pipeline was there, also, but 
I couldn't find it, and when I would ask neighbors what was in 
it, nobody knew.
    Ms. Dalen. No.
    Mr. Williams. Nobody knew what was being transported.
    Senator Gorton. Did you know precisely where it was?
    Ms. Dalen You can see it.
    Mr. Williams. You can see where the right-of-way is in some 
of the areas, but once again, no one knew what was being 
transported in that pipeline.
    Ms. Dalen. And it is literally out of the ground and goes 
across that black pipe. It goes across from one side of the 
creek in the little gully that the creek has made to the other. 
You can see it. So you assume it's water or something.
    Mr. King. My oldest son, Jason, fished like Liam Wood every 
inch of that creek for 15 years. We've lived there for 22 
years. He's probably stood on the pipe and fished off the pipe 
as a little boy. He said it was--there was a greater chance of 
him being killed back in there than Wade.
    Senator Gorton. You've already, I think, each of you in 
your testimony told us what you think we ought to do, but one 
question in that connection, what's the best way to see to it 
that people in the future here in the State of Washington or 
anywhere else who live in the vicinity of these pipelines are 
made aware of the dangers they pose and can participate before 
something happens in seeing to it that they're safe? Do any of 
you have a thought on that subject?
    Part of Senator Murray's bill, of course, is public 
information and public knowledge. Would that be important to 
you?
    Mr. King. I think that the most important thing that needs 
to come out of this is the pipeline industry has no intention 
of doing any preventative maintenance on the pipelines at all. 
Are we going to eliminate spills? Probably not, but if we have 
a zero tolerance, and we did get to zero spills, wow, wouldn't 
that be something? The world isn't perfect, but does that mean 
that we don't strive for perfection?
    Mrs. King. It wouldn't have mattered that day if, what we 
knew. After it had happened and the oil had spilled, it 
wouldn't have mattered who knew, who we called, what we did. It 
was going to happen. This shouldn't happen. I sit here and I 
listen to all of this and I get angrier and angrier and 
angrier. If this is properly maintained, regulated, whatever 
you want to call it, this won't happen again. We won't have to 
have numbers to call. We won't have to be looking out. This 
isn't up to the citizens. This is our government that should be 
doing this, and I don't care about an 800 number to call if I 
detect a gas leak. If this is properly handled in the future, 
it can't be anything but better. Anything is going to be better 
than what's gone on in the past, which is nothing.
    Mr. King. Hyman Rickover who is an admiral in the Navy had 
a zero tolerance for nuclear accidents. There aren't very many 
accidents in the navy concerning nuclear power, because he had 
a zero tolerance.
    Ms. Dalen. I also the wanted to say something. I believe 
that there are several avenues that we can take to inform the 
public. One of the things that I've been very concerned about 
is the lack of information. Well, there has been some 
information, but through the news media making sure that the 
country understands that these things are not just out in the 
farmland which is bad enough, not out, just out in the ranges 
which is bad enough, but within feet of public schools, in the 
middle of parks, down the back side of people's yards. They 
need to know where it's at. So I ask the media and the 
government to demand that the pipeline companies let us know 
where their pipes go, No. 1.
    I recognize near the beginning of this tragedy it was very 
difficult for us to get Olympic to be forthcoming with their 
maps. It seemed that they didn't exactly know where their own 
pipes were going. Well, maybe that might be a little off. Maybe 
they were trying to put us off, but nevertheless, they need to 
be forthcoming. We need to have that information available, and 
it can be printed. People all over the country in every type of 
newspaper from the New York Times down to the, you know, 
Pullman Herald can find out in their newspapers using the 
Internet and making these things available for people who want 
to take an active role, be actively involved in it, making sure 
that every owner, every property owner knows that there's, if 
there's a pipeline going through or by their property, and 
every time those homes are bought or sold, every apartment 
bought or sold, every parking lot bought or sold, every 
business bought or sold that goes near a pipeline, make that 
absolutely a part of the deal. They need to know.
    Speaking of the nuclear industry, I happen to be under the 
impression that they have pipes, and they have smart pigs that 
are a heck of a lot smarter than the pigs they're using to 
chase down our pipe leaks in our pipes, and I think we ought to 
start using them. I don't care if they cost a little bit more. 
Excuse me. I'm paying enough for gas right now. I'm willing to 
pay an extra few bucks to save my neighbor's children. I'm 
willing. I'm willing, and I think we ought to start making use 
of multiple industrial safety measures and asking other people 
how they keep their pipes safe.
    Senator Gorton. Thank you.
    Senator Murray?
    Senator Murray. Mr. Chairman, I don't have any additional 
questions. I just want to thank this panel for being so 
courageous and for coming and sharing your stories with us. I 
know how difficult it is. I know how much each of you have 
helped to educate all of us, and I hope we can take your 
courage back to the other Washington to convince senators and 
legislators from across the country that what happened in 
Bellingham last year could happen in their community today 
unless we toughen many of these laws and go through with many 
of the recommendations you've talked about.
    So just personally, thank you very much for coming here and 
sharing your stories.
    Mr. Chairman: Thank you all.
    Mr. King. May I make one----
    Senator Gorton. Sure, of course you can.
    Mr. King. I asked this back in Congress, why is Olympic 
Pipe Line still operating south of Bayview station with their 
eight employees still at the switch pleading the Fifth 
Amendment? Why?
    Senator Gorton. That we hope we learn from people who are 
going to testify here later on in the day.
    Mr. King. Well, the problem is there is no logical reason 
why they're still operating, and everybody I ask that question, 
they get stumped. Nobody wants to, nobody wants to address it.
    Can you go back to Congress and ask among your other 
senators why are these people still operating south of Bayview 
station? All we're asking for is to make the pipeline industry 
and particularly Olympic Pipe Line accountable, accountable for 
what they did.
    Senator Murray. Thank you.
    Senator Gorton. Thank you all very much.
    Governor Locke is here. We've given him the difficult 
assignment to testify next, but Governor, we're honored to hear 
from you.
    Governor Locke.

            STATEMENT OF HON. GARY LOCKE, GOVERNOR, 
                      STATE OF WASHINGTON

    Governor Locke. Thank you very much, Senator Gorton and 
Senator Murray. Thank you, Senator, for holding this field 
hearing to allow the people of the State of Washington to 
express their concerns about the safety of pipelines that as 
parents so courageously testified just a few minutes ago, are 
in our parks, are in our yards, are next to our schools, in the 
midst of our own communities.
    On June 10th, 1999, Liam Wood, recent high school graduate, 
Wade King, Stephen Tsiorvas, they died in a tragedy that never 
should have happened. There can be no more children dying, not 
in Washington State, not anywhere in America. We owe it to them 
to make sure that a similar tragedy never occurs again 
throughout the United States of America.
    Since that horrible tragedy on June 10th, we've all become 
so aware of the risk surrounding these vital pathways so 
central to the distribution of fuel. We realize we need 
pipelines to carry the natural gas and the petroleum products 
that fuel and power our cars and our trucks, that warm our 
homes and keep our factories humming, but for virtually all of 
us, the risk posed by the pipelines were out of sight, out of 
mind.
    Immediately after this tragic event, I formed a task force 
to evaluate our pipeline regulatory system and our response 
capability, and that team worked incredibly hard for 5 months, 
and Mayor Asmundson of Bellingham was part of that team, and 
they spent their time analyzing the existing regulatory system 
and response capability and preparing recommendations.
    One of the first things they and the people of the State of 
Washington learned was that our state has virtually no control, 
no control over the pipeline that leaked the gasoline that 
exploded. This interstate pipeline as well as six other 
interstate petroleum and natural gas pipelines is solely under 
the authority of the Federal Office of Pipeline Safety, and 
until Senator Murray succeeded in obtaining an Office of 
Pipeline Safety position for our state, the entire western 
region of the United States had only 13 inspectors, three 
located in Alaska, 10 others for the entire western United 
States. That is simply inadequate and is a recipe for disaster.
    When the task force finished its work, they issued a report 
that included 30 strong and solid recommendations for improving 
pipeline safety, not just in our state but all across America. 
I have endorsed these recommendations and working with our 
state legislature and other Governors and the members of our 
congressional delegation, we're trying to turn them into 
reality, but I want to thank State Senator Harriet Spanel to my 
right, and State Representative Kelli Linville for prime 
sponsoring the legislation in Olympia that just a few days ago 
our legislature passed: the Washington State Pipeline Safety 
Act which will truly strengthen the monitoring and the 
prevention of accidents in our state.
    The bill will also initiate studies by the State Fire 
Marshal of the training and the equipment needs facing 
communities that lie along these pipelines, but we need more 
than anything else to have the Federal Office of Pipeline 
Safety set tougher standards and to have more stringent 
inspections of all pipelines, natural gas and volatile fuels. 
We simply must have the Federal Pipeline Safety Act amended to 
allow states to adopt and enforce standards stricter than 
Federal standards when doing so would not interfere with 
interstate commerce.
    The Office of Pipeline Safety is woefully understaffed and 
has not kept abreast with the latest developments to ensure 
pipeline safety. Therefore, the Congress must step in and 
insist on a tougher regulatory stance by the Federal agency, 
and in fact, allow the states to go even farther to protect our 
own citizens from such tragedies. Even before that occurs, the 
Office of Pipeline Safety must grant authority to the states 
for interstate pipeline oversight using current or future 
Federal standards as it has done with four other states. Four 
states now have been delegated the authority by the Federal 
Office of Pipeline Safety to be in essence an arm of the 
Federal Government given the fact the Federal Government has 
been so lax. Washington has been asking for this delegation of 
authority as have many other states including Virginia and 
Arizona. We want the ability to help the Federal inspectors do 
their job, but it should not take deaths before the Federal 
Government says yes.
    Just today we received a letter from the Federal Office of 
Pipeline Safety indicating that it is willing to delegate 
authority to the State of Washington.
    Senator Gorton. Do you have a copy of that letter ----
    Governor Locke. Yes.
    Senator Gorton. --that we can put in the record?
    Governor Locke. Yes, I do--but they're saying yes to our 
request, because we've had three deaths. What about all the 
other states that are looking for similar authority where there 
have been massive spills and leaks, but without a death? The 
Office of Pipeline Safety should not have to wait for more 
deaths in other parts of American before granting similar 
authority.
    I have sponsored and the National Governors Association has 
adopted a resolution supporting stronger Federal pipeline 
safety as well as increased state involvement. We've been 
working with Senator Murray and Representative Metcalf and 
Representative Inslee to promote their bills that will No. 1, 
push the Office of Pipeline Safety to adopt stronger standards 
it should have enacted years ago, and that will two, authorize 
states to go beyond the Federal standards on issues like 
training, certification, leak monitoring, and accident 
preparedness, and I want to thank you, Senator Gorton, for 
cosponsoring Senator Murray's bill. We appreciate the time that 
you're spending to give the people of the State of Washington 
the opportunity to indicate their concerns about these tens of 
thousands of miles of pipeline running through their 
communities. We've been pushing hard to get the Federal 
Government to give us that authority. They're now beginning to 
respond, but we're going to have to continue to push, today, 
tomorrow, every day.
    We need to make sure that the legacy of Liam Wood, Wade 
King, and Stephen Tsiorvas will be one of protection for all 
the people all across America. Thank you very much.
    [The prepared statement of Governor Locke and letter 
referred to follow:]

  Prepared Statement of Hon. Gary Locke, Governor, State of Washington

    I want to express my appreciation to Senator Gorton and Senator 
Murray for holding this field hearing to allow the people of Washington 
to express our concerns about the safety of the pipelines that lie 
below our towns and cities.
    Since the terrible tragedy on June 10, 1999, we have become all too 
aware of the risks surrounding these vital pathways so central to our 
fuel distribution network. We realize we need pipelines to carry the 
natural gas and petroleum products that power our cars and trucks, warm 
our homes, and keep factories humming and airplanes flying. But we also 
know that for virtually all of us, the risks posed by the pipelines 
were ``out of sight, out of mind'' before the explosion in Whatcom 
Falls Park.
    Immediately after this tragic event, I formed a task force to 
research our pipeline regulatory system and our response capability. 
That team worked incredibly hard for 5 months, analyzing the existing 
regulatory system and response capacity and preparing recommendations 
for improvement. They consulted with experts from the federal 
government--including the National Transportation Safety Board and the 
Office of Pipeline Safety--from other states, including Minnesota and 
California that operate their own interstate pipeline safety oversight 
programs--and from a variety of interest groups.
    One of the first things they--and the people of Washington--learned 
was that our state exercises almost no control over the pipeline that 
leaked the gasoline that exploded. This interstate pipeline--as well as 
6 other interstate petroleum and natural gas lines--is solely under the 
authority of the federal Office of Pipeline Safety. And until Senator 
Murray succeeded in obtaining an OPS position for our state, the entire 
Western Region had only 13 inspectors.
    When the task force's work was done, they issued a report that 
included over 30 strong and solid recommendations for improving 
pipeline safety. I endorsed those recommendations and have been working 
with our state legislature, with other Governors, and with members of 
Washington's congressional delegation to turn them into reality. I 
would like to acknowledge the hard work done by the legislature on this 
subject, especially Representative Linville and Senator Spanel.
    Since December:

        <bullet> The Legislature adopted the Washington State Pipeline 
        Safety Act, which will strengthen our ``Call-Before-You-Dig'' 
        program to reduce third-party damage to pipelines and will 
        promote comprehensive mapping of pipeline locations to inform 
        local governments who must make building permit decisions and 
        prepare for pipeline accident response. The bill will also 
        initiate studies by the State Fire Marshal of the training and 
        equipment needs facing communities that lie along pipelines.
        <bullet> The Legislature also adopted a Joint Memorial to 
        Congress and the President that cited the work of the task 
        force and urged you to amend the federal pipeline safety act to 
        allow states to adopt and enforce standards stricter than 
        federal standards when doing so would not interfere with 
        interstate commerce. Even before that occurs, the Memorial asks 
        the President to direct the Office of Pipeline Safety to use 
        existing law to grant authority to states for interstate 
        pipeline oversight.
        <bullet> I sponsored, and the National Governors Association 
        adopted, a resolution promoting stronger pipeline safety and 
        committing the NGA to work with Congress on legislation to 
        achieve that objective. This parallels a similar resolution 
        that several Washington cities successfully promoted to the 
        National League of Cities.
        <bullet> I have been working with Senator Murray and 
        Representative Metcalf to promote their bills that will push 
        the Office of Pipeline Safety to adopt the stronger standards 
        it should have enacted years ago and that will authorize 
        willing states to go beyond federal standards on issues like 
        operator training and certification, leak detection, and 
        accident preparedness.
        <bullet> Senator Gorton, I want to thank you for co-sponsoring 
        Senator Murray's bill. I appreciate your recognition that 
        pipeline safety is of paramount importance to the people in our 
        state and I want to do everything in my power to work with you 
        to ensure safe lines.

    I am confident that with the concerted effort of my Administration 
and our entire congressional delegation we can change the federal law 
and institute a substantially stronger program here in Washington. That 
will enable us to give our citizens the peace of mind they deserve that 
the pipelines beneath our state are operated and maintained to protect 
public safety and our environment. This will be the legacy of Liam 
Wood, Wade King and Steven Tsiorvas.
    Thank you very much.
                                 ______
                                 
   U.S. Department of Transportation, Research and Special 
                                    Programs Administration
                                                    Washington, DC.
Hon. Gary Locke,
Governor of Washington,
Olympia, WA.

Dear Governor Locke:

    I am writing to transmit to you two draft Interstate Pipeline 
Transportation Agreements: one for hazardous liquids and one for gas.
    Since our meeting in Washington, DC, in late February, my staff and 
I have been working to find a way to authorize the state to serve as 
our agent in conducting interstate pipeline oversight. Based on our 
assessment, we have developed these draft agreements.
    I must convey to you our perspective on implementation of these 
agreements, should you choose to accept them. The Office of Pipeline 
Safety has significant concerns about having the State of Washington's 
pipeline safety program housed in more than one agency. This concern 
arises for two main reasons:

        <bullet> With a single pipeline safety agency, the critical 
        mass of expertise can be established to contribute to 
        activities effecting both liquid and gas pipelines, for 
        example, metallurgical sciences, computer operations 
        management, mapping, etc.

        <bullet> While I understand that Washington is prepared to 
        provide adequate funding, it is inevitable that additional 
        resources will be required to duplicate expertise in two 
        locations. As I remarked when we met, I am concerned about the 
        state's ability to meet the resource needs associated with 
        interstate agent status and do not want that problem 
        exacerbated by unnecessary inefficiency.

    As you know, we have had an effective working relationship with the 
Utilities and Transportation Commission. Over the years we have worked 
with them on their certified intrastate liquid and gas programs. This 
agency has consistently achieved the highest level of funding we could 
make available as a reflection of their successful performance of their 
responsibilities. We would be concerned about any lapse in this 
performance during a transition to a second agency.
    Having reviewed the bill adopted by your Legislature, I must note 
that we would have some concern if there were any legal uncertainty 
surrounding the agency responsible for interstate liquid pipeline 
oversight. I would hope that a means can be found to avoid this 
problem.
    I thank you for your strong interest in promoting pipeline safety 
and look forward to working with you to achieve that objective.
        Sincerely,
                                          Kelley S. Coyner,
                                                 Enclosures

    Senator Gorton. Thank you, Governor.
    You have two distinguished members of the legislature with 
you, and in light of the letter that you've just received from 
OPS, is the legislation that they've sponsored and that I take 
it that you're about to sign, is that adequate to meet what you 
consider the responsibilities of the state to be?
    Governor Locke. The legislation that was sponsored by 
Senator Spanel and Representative Linville does enact most of 
the recommendations of the task force that I formed several 
months ago. The Office of Pipeline Safety, however, has 
expressed a few concerns that are more technical issues dealing 
with whether or not the duties that the state would assume with 
the delegation of authority that's being proposed by the 
Federal Government might be diluted if it were in several 
agencies, and so a letter from Ms. Kelly Coyner is strongly 
suggesting that the oversight be continued to be housed in the 
current Utilities and Transportation Commission. The Office of 
Pipeline Safety is concerned that in our legislation, it's 
being bifurcated into two different agencies, but I think that 
this can be solved. So I see no reason why the delegation of 
authority can't proceed, so that the state can just help 
enforce the Federal standards, using the same Federal standards 
or whatever the Federal standards might be, and hopefully those 
Federal standards will be toughened up, but we're ready to do 
it. We're willing to use our own state resources to do it and 
to bring our people into the task, and so I think with these 
two legislators here, if there are any further technical 
amendments or corrections that need to be made we can address 
those in a special session now under way in Olympia.
    Senator Gorton. You've anticipated my next question. While 
Senator Murray's bill that has my support calls for Federal 
assistance to the states, that's not a certainty by any stretch 
of the imagination. You feel that you can secure adequate 
resources to deal with this delegation here?
    Governor Locke. Yes, we believe that we'll be able to find 
the dollars because this is of such utmost importance for 
safety in communities throughout the State of Washington, we 
will make it work.
    Senator Gorton. Do you think that Senator Murray's bill 
delegates the state and local governments an appropriate amount 
of authority?
    Governor Locke. Yes, I do, and I very much support Senator 
Murray's bill and also Representative Metcalf's bill. No. 1, it 
would require the Federal Government to set even tougher 
standards, and No. 2, it enables or clearly indicates to the 
Federal agencies that they must enlist the support of the 
states, and those states that are willing to do it, like the 
State of Washington should not be thwarted in their effort. We 
should not have to wait until there's a death before the Office 
of Pipeline Safety is willing to consider that delegation and 
sharing of responsibilities with the state.
    The Federal Government, excuse me, the Office of Pipeline 
Safety, has been woefully negligent in this area. There are 
many states ready and willing to step up to the effort to help 
out using our own nickel, our own resources and the Federal 
agency should not be reluctant to engage in that partnership 
with the states.
    Senator Gorton. We have at least heard the rumor that the 
Administration may want to take back that right to delegate 
power to the states even in the limited amounts that it already 
has. I know neither of us is going to approve of anything like 
that, and you feel that the states have a potentially a far 
greater scope, not a lesser scope than the present statute 
allows?
    Governor Locke. I firmly believe that it's thoroughly 
proper for the Federal Government to set minimum standards, and 
that the states should have the latitude to set tougher 
regulations on top of that to really protect our citizens just 
like in the area of tanker safety through our straits and so 
forth. The Federal Government should help set a minimum floor, 
but the states should not be precluded from enacting tougher 
regulations to deal with any particular circumstances in their 
communities, and clearly, given our environment and the fact 
that these pipelines are going right through the heart of 
communities, we should be able to ensure our citizens that 
we're doing everything we can, especially since the Federal 
Government or the Federal agency has been woefully inadequate 
in this area.
    Senator Gorton. Thank you.
    Senator Murray?
    Senator Murray. First of all, Governor and Harriet Spanel 
and Kelli Linville, thank you for the tremendous amount of work 
you did in working this through this legislative session, and I 
am delighted to hear that you've received a letter from Kelly 
Coyner on a state delegation of authority. I'm glad that they 
have responded to you.
    I have a couple of questions. They have agreed to delegate 
the authority. It sounds to me like you need to deal with the 
concern of the split delegations or split regulations. You will 
be able to deal with that in special session so that that 
concern can be addressed?
    Governor Locke. I believe we can address that, whether 
administratively or through legislation in Olympia, if 
necessary. What Ms. Coyner has indicated is they're sending us 
some draft agreements and our lawyers are working on it, and 
our administration people are working on it. This comes about 
after I came back to Washington, D.C., about 2 weeks ago and I 
had a very long meeting with Ms. Coyner and Secretary of 
Transportation, Rodney Slater, and impressed upon them that in 
seeking this delegation, we were not seeking Federal funds, 
that we were not using this as a pretense for greater Federal 
funds, that we're prepared to do this on our own nickel, using 
our own resources, our own people, because this is so 
incredibly important.
    Senator Murray. I want to make it clear, what they're able 
to delegate to you is to regulate current Federal standards, 
and unless we raise the Federal standards to higher training 
and certification standards and inspection standards, you don't 
have much more authority than is currently out there, and we 
need to do that as part of the next step in this process.
    Governor Locke. That is correct. Again, this delegation 
would be basically letting the states be almost an extension of 
the Federal agency, but we all know that the Federal standards 
are too lax. They need to be tightened up, and so we welcome 
your legislation to insure that the Office of Pipeline Safety 
is enacting and promulgating the most stringent requirements 
with respect to integrity of the pipes, inspection, 
enforcement, and monitoring, but then states should also have 
the latitude to go even farther than the Federal Office of 
Pipeline Safety rules and regulations.
    Senator Murray. Which is what we do in our legislation.
    Governor Locke. That's right.
    Senator Murray. You indicated or responded to the question 
about resources which is absolutely a critical one. This is 
obviously a very hotly discussed topic here in the State of 
Washington right now. Five years down the road from now, it may 
not be if we all do our jobs correctly, and we all hope we do. 
How do we know that 5 years from now, 10 years from now when 
leadership changes and other people are in place that they will 
continue to commit those same resources and follow the same 
standards that we are all so adamant about today?
    Governor Locke. Well, I can't guarantee the caliber of the 
people at the Federal agency or the number of inspectors 
throughout the states, throughout the western United States, 
and that's why I think it's important that each state be 
granted the authority if they so choose to be an extension of 
the Federal Government, and that's why it's important that 
states also have the latitude to enact tougher standards 
knowing that their citizens, their children and their civic 
leaders will be demanding greater scrutiny. Basically, you 
know, we're closer to the people here, and if we at the state 
level are not doing the proper job, those citizens will have 
greater success in making sure that the job is done as opposed 
to trying to lobby or convince the Federal Office of Pipeline 
Safety.
    Senator Murray. My concern is just that when budgets get 
tight and issues become more difficult, will resources remain 
there for the state to be able to oversee that and that will be 
the responsibility of all legislatures at the time, I assume, 
and Harriet, you wanted to add something?
    Senator Spanel. In the bill we have the ability to look at 
funding in the form of fees from the users.
    Senator Murray. Kelli, did you have any comments?
    Representative Linville. We also had anticipated a 
potential problem with the division of the two departments and 
hopefully had signalled our willingness to revise the 
legislation for the fact that caused a problem with the 
delegation, and I did bring a copy of our legislation and a 
copy of the summary and was very happy to hear both of your 
comments. I think we included a lot of your interests in how 
you would change the Federal law in our state law, and be very 
grateful and speaking on the fact of, on behalf of the people 
in the community if in fact these recommendations that we've 
worked so hard to put together would get included in some 
Federal legislation that ups the standards, because as you said 
if we get the delegation, the delegation we get now is only to 
inspect to the Federal standards. I believe we can still do a 
better job in Washington State with the Federal standards than 
the Office of Pipeline Safety has been doing, but I would 
implore you to develop greater standards. I think the citizens 
of this community are demanding prevention not response, and 
stricter standards are going to be what takes care of that.
    Senator Spanel. I would just add--in listening to testimony 
on the bills in Olympia, it's more than just Bellingham at this 
point. It is all up and down the I-5 corridor, and I think this 
is a bill that shows that a lot of people really supported it. 
It passed unanimously out of the senate demanding exactly the 
things that Governor Locke has stated: that we want tougher 
rules on the Federal level, want to be able to make tougher 
rules on the state level, and we do want the authority to 
enforce them. I understand your question on funding, and that 
is why we do know there has to be another source, but I, for 
one, would never turn down Federal dollars in the future.
    Senator Murray. Well, thank you very much to all three of 
you for the tremendous amount of work you've done. You've done 
a good job. We now have a responsibility to do ours.
    Thank you very much.
    Senator Gorton. Governor, thank you. I do appreciate, 
you've now become a national spokesperson and a national leader 
on this subject, and your words are being heard in Washington, 
D.C., and Senator Spanel, Representative Linville, 
congratulations. You work faster than we do.
    Senator Spanel. We have shorter sessions.
    Governor Locke. Thank you.
    Senator Gorton. The next panel is a group of local 
officials along that I-5 corridor, Mayor Asmundson, Mayor 
Tanner, Deputy Mayor Marshall and City Manager, Joe Hoggard.
    Mayor Asmundson, I share the compliments that Senator 
Murray began this hearing with and would also like to thank you 
for making this facility available for a hearing. We really 
filled up city hall.
    Mayor Asmundson. Yes, indeed, you have filled up city hall.
    Senator Gorton. And we are, since you're our host, you will 
start this panel group testimony.

              STATEMENT OF MARK ASMUNDSON, MAYOR, 
                     BELLINGHAM, WASHINGTON

    Mayor Asmundson. Thank you very much, Senator Gorton, and 
also to Chairman McCain and to other members of the Commerce 
Committee conducting the field hearing today. I appreciate the 
opportunity to testify before the Committee, and I'm very 
grateful to see Senator Murray with us, also, so thank you.
    The City of Bellingham, its citizens and I think the other 
mayors and representatives of citizens up and down the I-5 
corridor appreciate the opportunity to discuss pipeline safety. 
I'm going to try and not repeat much of what you've heard 
today, and much of what I've spoken with you both about in the 
past, but I will try to focus on some issues that I think just 
do not leave me in the course of my learning about pipelines 
and interstate pipelines in this country.
    The Olympic pipeline which travels through Bellingham goes 
through 21 cities in Washington, cities with a combined 
population of nearly 800,000. It also goes through very many 
environmentally sensitive areas, lakes, aquifers, salmon 
bearing streams and critical wetlands habitats.
    Following our June 10th disaster, I began a period of 
intense involvement in learning to understand the fuel pipeline 
industry, its regulatory regime, and the circumstances that 
might have led up to the horrible event that occurred here in 
Bellingham, and I discovered that this event was not unique. As 
Senator Murray said earlier, this is not a unique occurrence. 
Based on the history of the pipeline industry in the United 
States, I concluded that this event could have been expected. 
In fact, given the current state of affairs involving 
interstate fuel pipelines in America, the issue is not will 
pipelines leak, the question is when will they leak, where will 
they leak, and how bad will the harm be.
    Over the course of the last two decades, there's been a 
long history of disaster after disaster. Sometimes there's 
serious injury. Sometimes there's death. There's always serious 
environmental damage. While these continuing occurrences cause 
alarm, what causes even more alarm, I think, is the answer to 
the question why.
    The Federal Government has preempted the regulation of 
pipeline safety. The Office of Pipeline Safety in the 
Department of Transportation has the responsibility of carrying 
out the Federal Government's protection of the public from the 
hazards of interstate fuel pipelines, but the Office of 
Pipeline Safety has done a remarkably poor job over the years, 
remarkably poor job. In part, this is because of limited 
resources. However, my observations of the record indicate to 
me that the fundamental problem with the Office of Pipeline 
Safety is a lack of will on the part of the Office of Pipeline 
Safety. The OPS does not aggressively and effectively pursue 
public safety. It seems intent on making certain that it takes 
no action that will be unacceptable to the industry they're 
charged with regulating. So much so that the Office of Pipeline 
Safety fails to comply with the explicit mandates of Congress 
as you pointed out earlier.
    The rules under which the pipeline industry operates simply 
must change. Clearly the Federal Government must establish 
minimum levels of safety that must be followed by this industry 
throughout the country. However, the Federal Government's 
legitimate concern and need to protect interstate commerce does 
not preclude states having a meaningful role. A partnership can 
and should be established between the Federal Government and 
states whereby states can protect their citizens without 
interfering in interstate commerce.
    Interestingly, if the Office of Pipeline Safety were doing 
its job, we wouldn't have a debate, because we wouldn't be 
asking for delegation of authority to the states to protect our 
citizens, because it would have been done, but it has clearly 
not been done. It's not even come close to having been done, 
and it is for this reason that I personally and with the 
enthusiastic support of the community of Bellingham support 
Senate Bill 2004, prepared by Senator Murray and cosponsored by 
you, Senator Gorton.
    I believe that this bill together with similar efforts that 
the house of representatives set forth in House Bill 3558 by 
Representative Metcalf will accomplish changes that are 
necessary to ensure that not only will we have a strong, viable 
fuel distribution system in America, but we can have a strong, 
viable fuel distribution in America that does not endanger our 
environment, does not kill our children and allows our citizens 
living near pipelines to go to sleep at night without anxiety 
about their personal safety.
    Now, I'd like to talk a little bit about pipeline safety 
from the perspective of what it means in practical human terms 
as a lifetime resident and citizen of Bellingham, and as a 
person who happens to be the mayor right now. Fundamentally 
pipeline safety is not about legislation. It's not about 
Federal bureaucracy. It's not about concepts. It's about 
people, and it's about the environment.
    When a pipeline rupture occurs, it doesn't happen in a 
committee hearing. It doesn't happen in an agency office. It 
happens in a neighborhood or in a park or a wetland, farm or 
over a stream. The effects of the rupture are not theoretical. 
They're not abstract. They're very real, and in Bellingham's 
case it meant attending the funerals of three wonderful boys in 
1 week along with a community of thousands of mourners. It 
meant the disruption of our water supply for a quarter of our 
citizens while alternate facilities were being developed. It 
meant the indefinite delay in the restoration of a salmon 
habitat restoration project. It meant children were afraid that 
their neighborhoods might blow up. It meant anguish, 
questioning, grieving and in most cases a totally unsatisfied 
search for rational answers to the question why.
    In Bellingham's case it means great frustration on the part 
of locally elected officials like myself when asked by 
citizens, ``What will you do to make sure that we are safe?'' 
The answer, ``I will do the best I can, but my hands are tied 
by Federal law,'' is not very satisfactory.
    The disaster in Bellingham was not unique. As Senator 
Murray pointed out, they occur all over the country regularly. 
In one way though, Bellingham was unique, because Olympic Pipe 
Line Company had failed to keep its franchise current, and as a 
consequence of that, the City of Bellingham had the opportunity 
as a controller of property to enter into an agreement with 
Olympic which required it to do very specific things, very 
specific things that will ensure the safety and the protection 
of the people of Bellingham, things like hydrostatically 
testing its pipeline, a thorough review of its computer 
monitoring system, a review of the placement, location and 
operation of all the valves, a provision for a leak detection 
system, provision for a thorough and adequate staffing and 
training program, and comprehensive analysis of the entire 
Olympic system to ensure that all aspects of its operation 
including management, training and operating procedures are 
sufficient to ensure that it will operate in a safe fashion. We 
were able to do this simply, because they failed to renew their 
franchise a few years ago.
    Senator Gorton. How long is the franchise period?
    Mayor Asmundson. The franchise period was 30 years, and it 
had expired. The franchise was entered into in 1965, and it 
expired in 1995 and just through lack of continuity, it was not 
renewed. So we had this window of opportunity to engage in very 
sophisticated safety protection for the people of Bellingham.
    Ironically, we did that in 3 months. We achieved for the 
people of Bellingham what I think is a blueprint for the other 
communities in Washington and should be a model for pipeline 
safety for this country. But the ironic question I have to ask 
is, with no background or history in dealing with fuel pipeline 
operations, the City of Bellingham in 3 months was able to 
develop a comprehensive pipeline safety program that truly 
meets the needs of our community both now and into the future--
why is it that after receiving millions upon millions of 
dollars in Federal funds, having an expert staff and decades to 
accomplish this, the Federal Office of Pipeline Safety has been 
unable to do so? In 3 months we came up with a package that 
will protect citizens.
    The Office of Pipeline Safety in response to this accident 
has been very attentive. It has adopted many, many of the 
things that we achieved through our pipeline safety agreement 
with Olympic Pipe Line Company, but I think what the citizens 
demand is not a Federal agency that is very capable of coming 
up with corrective action orders after an injury, after a 
death, or after an environmental disaster, but rather an agency 
that is oriented toward prevention and looks to the future.
    The Office of Pipeline Safety must be made accountable. The 
state legislature has taken the steps it needs to take in order 
for the State of Washington to be a strong partner in 
protecting our citizens, but the effectiveness of that 
legislation does not lie with the Governor as to whether he'll 
sign it or not. The effectiveness lies with the Federal 
Government and whether or not adequate authority will be given 
to the states to make a meaningful difference to protect our 
citizens in our community and our environment.
    I really must thank Senator Murray and Senator Gorton. I 
must thank you both for the incredible hard work that you have 
done. I need to thank Jean for her hard work. I need to thank 
Dale and the rest of your staff for the hard work that they've 
done on this. The people of Bellingham and Washington State 
deserve to know how hard you have worked on this issue and how 
important that is to us, and I personally thank you for your 
commitment to making a difference, to seizing this opportunity 
to truly make a difference and change the status quo.
    Stephen Tsiorvas, Wade King and Liam Wood did not deserve 
to die on June 10th, 1999. You know that, and it's my hope that 
the memory of these wonderful boys and their needless sacrifice 
will encourage you and all the members of the senate and 
Congress to ensure that no other parents, no other elected 
officials, no other friends must sit before another committee 
of the U.S. Senate at any time in the future and repeat the 
tales that you've heard today.
    Thank you for the opportunity to be here.
    [The prepared statement of Mayor Asmundson follows:]

  Prepared Statement of Mark Asmundson, Mayor, Bellingham, Washington

    My thanks to you, Senator Gorton, and to Chairman McCain and other 
members of the Committee for conducting the field hearing today. I 
appreciate the opportunity to testify before this Committee. I, and the 
citizens of Bellingham appreciate the opportunity to discuss the 
important subject of pipeline safety and to highlight the inadequacies 
of the current methods of oversight of the safety of the interstate 
fuel pipeline network in the United States.
    In Bellingham, we have experienced, in a dramatic, tragic, and 
profound way, the failure of the current system of ensuring pipeline 
safety in America.
    As you know, on June 10, 1999, the Olympic pipeline, which passes 
through Bellingham, ruptured, spilling one quarter of a million gallons 
of gasoline into a park and creek in the middle of our city. The 
gasoline vapors ignited and two boys and a young man were killed as a 
result. The city park was severely impacted and the salmon-bearing 
stream was effectively sterilized for one and one-half miles of its 
length. But for the inadvertent ignition by two of the boys, the 
gasoline would undoubtedly have proceeded into and through downtown 
Bellingham into Bellingham Bay, the result of which would have been 
even further devastation to our community.
    It goes without saying that the people of Bellingham are concerned 
about the safety of the Olympic pipeline and the safety of pipelines 
throughout our country. The Olympic pipeline travels through twenty-one 
cities in the State of Washington. The combined population of these 
cities is nearly 800,000 people. A significant portion of this pipeline 
passes through highly urbanized areas, as well as environmentally 
sensitive areas including lakes, salmon-bearing streams, aquifers and 
critical wetland habitats.
    In Bellingham, the Olympic pipeline travels through many 
neighborhoods, near schools, across city parks, and traverses three 
salmon-bearing streams.
    Following the disaster, I began a period of intense involvement in 
understanding the fuel pipeline industry, the regulatory regime, and 
the circumstances that could have led up to the kind of event that 
occurred in Bellingham on June 10, 1999. I discovered that the 
Bellingham event was not unique. Based on the history of the pipeline 
industry and the spills that have occurred over recent years, I have 
concluded that this event could have been expected.
    Given the current state of affairs involving interstate fuel 
pipelines in America, the issue is not will pipelines leak, but when 
will they leak, where will the leaks occur, and what kind of harm, 
great or small, will result from the leak or rupture? Over the course 
of the last two decades, there is a history of disaster after disaster 
involving interstate pipelines. Many of these have resulted in serious 
injuries or death. All of them have resulted in serious environmental 
damage. (Attachment ``A'' highlights several significant leaks.)
    Having looked at the history of pipeline accidents in America and 
finding that the track record of safety for pipelines is truly 
alarming, the question I had to ask myself is: Why? How can this 
continue to happen?
    While the ongoing occurrence of accidents such as the one that 
occurred in Bellingham causes alarm, the answer to the question of why 
these continue to occur is even more alarming.
    The federal government has preempted regulation of pipeline safety. 
It is clearly within the power and purview of the federal government to 
do so. The alarming fact is that while the federal government has 
prevented states and localities from engaging in safety and 
environmental protection-oriented regulation of pipelines, it has not 
come remotely close to ensuring that pipelines will be operated in a 
safe fashion. In fact, in reviewing the many recent comments of Mr. 
Hall, the chairman of the National Transportation Safety Board, it is 
apparent that the OPS has consistently failed to take steps reasonably 
calculated to result in safer pipelines in our communities.
    Why is it that the OPS has done a poor job of making pipeline 
operations safe? In part, it is because of limited resources. It is 
true that the OPS has not been adequately funded, particularly until 
the most recent past. However, as a result of my observations and 
review of the record, I have concluded that the fundamental problem is 
a lack of will on the part of the OPS. Rather than aggressively and 
effectively pursuing public safety, the OPS seems intent on ensuring 
that it takes no action without the agreement and concurrence of the 
industry it is charged with regulating.
    I have also discovered that the OPS has failed to comply with the 
explicit mandates of Congress with regard to safety and environmental 
protection. For example, Congress has mandated that the OPS adopt 
regulations for unusually sensitive areas and adopt regulations 
regarding use of internal inspection devices. The deadlines for 
completing these actions passed years ago. The OPS has simply failed to 
accomplish these mandates. That is not to say that the OPS did not 
undertake these mandates, but it is curious to note that whenever 
agreement with the industry could not be achieved, the regulatory 
process effectively ground to a halt. Even as you hear this testimony 
today, and witness for yourselves our tragedy, the regulatory process 
has not produced the safety regulations required by Act of Congress.
    As I stated earlier, the Bellingham incident is not unique. Other 
communities have experienced similar tragedies, and as a consequence, 
like Bellingham, and like the State of Washington, these communities 
have been awakened to the inadequacies of the federal regulatory 
environment. Other states have sought to improve the safety of their 
citizens through establishing comprehensive programs of pipeline safety 
within their states. The full effectiveness of these efforts, however, 
has never been realized, and the safety potential that could have 
resulted from these proactive actions by states has never been achieved 
because of the unwillingness of the federal government to release its 
stranglehold on regulatory authority over the pipeline industry even 
when that federal regulatory authority stands unused and unfulfilled. 
Consequently, states like Minnesota and California, which have 
established very thorough programs for pipeline safety, have never been 
able to achieve their full potential because of the unwillingness of 
the federal government to allow states to have a meaningful role in 
ensuring the safety of their own citizens and the desire of the OPS to 
maintain complete control over every aspect of the industry. This 
desire for complete control by the OPS is demonstrated by its 
determination to withdraw from the agency arrangements that it has in 
place with four states authorized in the past to inspect, but not 
regulate federal interstate pipelines within their boundaries.
    The City of Bellingham, with many other cities and counties in the 
state, has been working for passage of state legislation authorizing 
much more extensive protection of our citizens related to pipeline 
safety. The question as to whether or not this effort will be 
successful is not, however, in the hands of the state legislature or 
the governor, but in the hands of the federal government. Unless 
Congress is willing to allow states to have a meaningful role in 
ensuring the protection of their citizens through an active program of 
regulation of interstate pipelines, this effort, like the efforts in 
California and Minnesota, simply will not accomplish needed safety and 
environmental protection.
    The rules under which this industry operates simply must change. In 
order for that to occur, changes are required by the federal 
government. Since the federal government has shown its unwillingness to 
regulate effectively this industry and provide the protection that our 
citizens and environment need, deserve and demand, it is the 
responsibility of the federal government to allow states to protect 
their citizens. This is not to say that the federal government should 
abandon the regulation of pipelines. I would be the last to argue for 
such a step. Clearly, the federal government must establish a minimum 
level of safety that must be followed by any interstate pipeline 
operator. However, the federal government's legitimate concern about 
interference with interstate commerce need not prevent states from 
providing for the safety of their citizens. A partnership can be 
established between the federal government and states whereby states 
can protect their citizens without interfering with interstate 
commerce, particularly in cases where the states have expertise or 
where the federal government could have acted, but the federal 
regulatory agency has chosen not to act.
    It is for this reason that I heartily support Senate Bill 2004 
offered by Senator Murray and cosponsored by Senator Gorton. I believe 
that this bill, together with the similar effort in the House of 
Representatives, as set forth in HB 3558, introduced by Representative 
Metcalf, will accomplish the changes necessary to ensure that not only 
do we have a strong, viable fuel distribution system in America, but we 
have a strong, viable fuel distribution in America that can and will be 
operated in such a fashion that it does not endanger our environment; 
does not kill our children; and allows our citizens living near 
pipelines to go to sleep at night without anxiety about their personal 
safety.
    My testimony thus far consists of an overview of the results of my 
quite extensive examination of pipeline safety in America, the Federal 
OPS, and the attempts by certain states to improve the safety of their 
citizens. I would now like to discuss what pipeline safety means in 
real, practical, human terms.
    Fundamentally, pipeline safety is not about legislation, and it is 
not about federal bureaucracies. Pipeline safety is about people and 
the environment. When a pipeline ruptures, it doesn't rupture in a 
committee hearing, and it doesn't rupture in an agency office; it 
ruptures in a neighborhood, or a park, or a wetland, or over a stream, 
or in a farmer's field.
    The effects of the rupture are not abstract or theoretical, they 
are real. They are practical. In Bellingham's case, it meant attending 
the funerals of three wonderful boys in one week, along with a 
community of thousands of mourners. It meant the disruption of the 
water supply to one-quarter of the citizens of our community, and 
restrictions on water use, while alternate facilities were being 
developed to provide an adequate water supply. It meant the indefinite 
delay of salmon restoration projects on a salmon-bearing urban stream. 
It meant the devastation of one and one-half miles of wildlife habitat 
along a stream corridor in the midst of one of the older and best-
established parks in our community. It meant children afraid that their 
neighborhoods may blow up. It meant anguish, questioning, grieving, 
and, in some cases, a totally unsatisfying search for rational answers 
to the question, why?
    In Bellingham's case, it means great frustration on the part of 
local elected officials like myself. When asked by citizens, ``what 
will you do to make sure that we are safe?'' the answer, ``I will do 
the best I can, but my hands are tied by federal law'' does not 
satisfy. In addition to the mayors here today, I wish it were possible 
for there to be sitting at the table with me, Mayor George Spadoro of 
Edison, NJ, City Councilman Robert Mann of North Blenheim, NY, and 
Mayor Bill Greenup of Fredericksburg, VA. They are just a few of the 
mayors and other local elected officials we have reached out to who 
could tell you about the enormity of the disaster visited on their 
communities by pipeline accidents over the years. I believe they would 
echo my comments.
    While the pipeline disaster in Bellingham was not unique, in a very 
important way, the Bellingham situation is unique. For reasons unknown, 
in 1995, the Olympic Pipe Line Company (``Olympic'') allowed its 
franchise (its right to cross city property), to expire. As a 
consequence, the City of Bellingham was in a strong bargaining position 
to require that very explicit safety measures be taken by Olympic as a 
condition for permission to utilize our property. As a result of this 
quirk, we have been able to take steps that we believe will ensure the 
protection of Bellingham's citizens. These steps included requiring: 
Hydrostatic testing of the pipeline; a thorough review of the computer 
monitoring system; a review of the placement, location, and operation 
of all valves; the provision of adequate leak detection systems; 
provision for thorough and adequate staffing and training; and a 
comprehensive analysis of the entire Olympic pipeline system to ensure 
that all aspects of the system, including its management and operating 
procedures, are sufficient to ensure that it will operate in a safe 
fashion. Remember, though, we were able to do this because of Olympic's 
failure to renew its franchise a few years before this tragic accident.
    The question, however, is ``why is it necessary for a community to 
rely on a glitch, a happenstance, a mistake by the pipeline company in 
the maintenance of its franchise, for us to have the ability to protect 
our citizens?'' It shouldn't be.
    With virtually no background or history in dealing with fuel 
pipeline operations, the City of Bellingham, in a period of 
approximately three months, was able to develop a comprehensive 
pipeline safety program that meets the needs of our community.
    Why is it after receiving millions upon millions in federal funds, 
having an expert staff and decades to accomplish the same, the OPS has 
not been able to do so? Honorable members of the Committee, the reason 
that this has not occurred is because the will to do so has not been 
present.
    We have, through our actions, provided for the safety of our 
citizens. We are confident that Olympic's pipeline, should it restart, 
will be safe because of the actions we have taken in our pipeline 
safety plan. What we have achieved in such a short time is something 
that the citizens of every community in this state and the citizens 
throughout this country, are entitled to receive. They will not receive 
this level of protection unless action is taken to change the status 
quo. The OPS has not adequately served the public interest. Congress 
needs to take steps to protect our citizens and our environment. The 
OPS must be made accountable. It must be required to fulfill its 
mandate. Senator Murray's legislation creates an environment which will 
result in an accountable agency and a responsive system of pipeline 
safety.
    Steven Tsiorvas, Wade King, and Liam Wood did not deserve to die on 
June 10, 1999. May the memory of these wonderful boys and this needless 
sacrifice encourage you to take steps that will ensure that no other 
parents must sit before another Committee of the United States Senate 
at some time in the future and repeat the tales that you have heard 
today.

                            ATTACHMENT ``A''

Examples of Major Pipeline Accidents (1980-1999)
Accidents
(1) Fredericksburg, VA  1980 (and again in 1989)
    330,000 gallons of aviation fuel entered the city water supply, and 
the Rappahannock River, shut down the water treatment plant, a state of 
emergency was declared, and businesses and residents hauled water for a 
week.
    Causes: Pipe damage upon installation, subsequent undetected 
corrosion, operator error, insufficient valve placement.
(2) Moundsview, MN  7/8/86
    An 8-inch gasoline pipeline burst, gasoline flowed along 
neighborhood streets until it was ignited, killing 2 people who burned 
to death and injuring 7.
    Causes: Failure to correct known defects, inadequate pipe 
specifications, inadequate operator training including delay in 
responding.
(3) Flathead Indian Reservation, MT  1986-1993
    Seventy-one leaks and three major spills of gasoline, aircraft 
fuel, and diesel (including 163,000 gallons into a creek) over this 
period resulted in the Flatheads refusing to renew Yellowstone's 
franchise and move the line off of the reservation.
    Causes: Inattention and failure to correct defects.
(4) North Blenheim, NY  3/13/90
    A liquid natural gas pipeline burst sending 100,000 gallons of 
product flowing down into the town--enough to engulf the entire town. 
Residents noticed a ``heavy fog'' on their windshields, until one 
called and notified a company employee. Two people were killed and 
seven injured.
    Causes: Negligent maintenance procedures resulting in cracks in the 
pipe which were undetected; operator error; insufficient remotely 
operated valves and check valves.
(5) Reston (Herndon), VA  3/28/93
    Pipe burst sending a geyser of diesel fuel (407,000 gallons) into 
the storm sewer and eventually into a tributary of the Potomac River. 
(Could have been gasoline or jet fuel.) Significant environmental 
damage ($1 million clean-up).
    Causes: Third-party damage causing corrosion which went undetected 
for a long period.
(6) Edison, NJ  3/23/94
    Natural gas transmission line burst and exploded. 1500 residents 
evacuated and $25 million damage. Injuries included minor burns and 
cuts from broken glass.
    Causes: Line hadn't been ``pigged'' since 1986, but it had 
deteriorated; no remote automatic valves; pipe manufacturing standards 
lax; no extra measures for highly populated areas.
(7) Allentown, PA  6/9/94
    Natural gas pipe burst and product flowed underground into the 
basement of an 8-story retirement home, where it migrated through vents 
into other floors and was eventually ignited. One death and 55 
injuries.
    Causes: Company employee (backhoe operator) error; no excess flow 
valves which had been recommended by NTSB since 1972; insufficient 
public awareness.
(8) Reedy River, SC  6/26/96
    Fuel oil pipeline crossing the river burst resulting in a $20 
million clean-up effort.
    Causes: Pipeline corrosion not responded to soon enough; computer 
malfunction; employee error; inadequate leak detection.
(9) Lively, TX  8/8/96
    Liquid natural gas pipeline burst, killing two men who accidentally 
ignited it.
    Causes: Inadequate corrosion protection.
(10) Murphreesboro, TN  11/5/96
    84,000 gallons of diesel fuel (could have been gasoline) and $5.7 
million damage.
    Causes: Corrosion; operator error--3\1/2\ hours before detection.
(11) San Juan, PR  11/21/96
    Thirty-three people killed when a liquid natural gas line exploded.
    Causes: Employee negligence in responding to a leak which had been 
ongoing for a week.
(12) Bellingham, WA  6/10/99
Notes
    None of these accidents were the result of ``third party damage'' 
with the exception of the Reston incident.
    All of them could have been prevented--if safety recommendations 
had been acted upon.

    The common causes of pipeline accidents are:

          <bullet> anomalies in the pipe not detected or not acted upon
          <bullet> operator inattention or error
          <bullet> computer system malfunction
          <bullet> shut-off capability insufficient or improperly 
        deployed
          <bullet> leak detection insufficient

          On average 6 million gallons spilled each year; 8 million 
        last year.
          Since 1996, 54 accidents investigated by NTSB, resulting in 
        209 recommendations.
          Since 1986, 39 deaths/189 injuries (natural gas); 35 deaths/
        247 injuries (liquid products).

    Pipeline companies involved: Colonial, Yellowstone, Koch, Olympic, 
Williams, Texas Eastern, and others.
    Koch just fined $30 million for 300 separate spills of 3 million 
gallons in six states between 1990 and 1997; leak detection system: 
wait until it breaks. (See attached article.*)
---------------------------------------------------------------------------
    * The information referred to was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Further resource: Battelle Labs' ``Causes of Pipeline Incidents, 
Effect of the Aging Infrastructure on Incidents and Areas of Technology 
Development,'' Robert J. Eiber (1994), delivered at an OPS summit on 
pipeline safety.

    Senator Gorton. Thank you, Mayor.
    Mayor Tanner?

               STATEMENT OF JESSE TANNER, MAYOR, 
                       RENTON, WASHINGTON

    Mayor Tanner. Senator Gorton, Senator Murray, thank you for 
the opportunity to testify on the petroleum pipeline safety, 
and the provisions we feel are necessary in pipeline safety 
reauthorization legislation.
    Renton serves as the headquarters for the Olympic Pipe Line 
Company and many miles of petroleum pipeline run through 
Renton. There have been two major Olympic Pipe Line production 
leaks in Renton. In 1986 a leak at a blocked valve in the 
Maplewood residential neighborhood resulted in 80,000 gallons 
of gasoline entering the ground water, seeping into the Cedar 
River which is home to the largest sockeye salmon run in the 
lower 48 states, and causing explosive levels of fumes in five 
homes. These homes where evacuated for a week. Remnants of 
petroleum contamination still exist within a 1,500 foot long 
ground water plume. The only reason that ground water plume has 
not leached into our aquifer, our drinking water aquifer, is 
there's an aquitard layer that prevents it. It's still there, 
and the possibility still exists that will invade our aquifer.
    In August 1999, 3,500 gallons of petroleum product from a 
broken pump at Olympic Pipe Line's Lind Avenue control center 
escaped to the ground.
    Internal smart pig testing of the pipelines in 1996 through 
1997 revealed over 270 pipeline flaws, 15 of which are in 
Renton, and they're shown on that large map there. There's a 
small map attached to the material which I provided to the 
committee.
    Even though Renton's franchise contract with Olympic Pipe 
Line requires that such information be submitted to Renton, 
this data was not received until October 1999. In fact, Renton 
encountered a great deal of difficulty in obtaining this data.
    After the Bellingham incident, Olympic Pipe Line refused to 
provide the data on legal grounds. When Renton cited the 
franchise requirements, Olympic Pipe Line continued to delay 
until Renton issued an ultimatum that the information be 
provided within 30 dates or else the franchise agreement would 
be terminated, and Renton would request the pipelines to be 
removed from the city.
    I don't know how effective that would have been, but 
anyway, that's what happened. On the 30th day Olympic provided 
the smart pig testing data, but it was in a format that could 
only be understood by Olympic Pipe Line employees. The 
stationing data for the links along the pipeline were not 
provided.
    Finally enough information was provided to produce the 
attached map showing the pipeline flaws in Renton. The map that 
has been submitted to you shows the location of these pipeline 
flaws, and of the 15 pipeline flaws in Renton, three involve 
pipeline metal loss of 50 percent. One of these major pipeline 
flaws is within 300 feet of Talbot Hill Elementary School, and 
the other two are located over Renton's sole source drinking 
water aquifer.
    The Olympic Pipe Line Company has not repaired or even 
inspected these flaws. They feel that they are not required to 
by the American Society of Mechanical Engineers pipeline 
regulations which they use, which allows pipelines to be 
operated with up to 80 percent metal loss under certain 
circumstances.
    Renton disagrees with the Olympic Pipe Line's reading of 
the ASME requirements. These standards call for pipeline 
sections with gouges and grooves deeper than 12 and a half 
percent of the pipeline wall thickness to be removed or 
repaired. Pipeline operation with wall metal loss with up to 80 
percent is only allowed if metal loss is due to corrosion 
pitting, and even then the corroded area must be recoated.
    Since the Olympic Pipe Line company did not visually 
inspect the pipeline flaws in Renton, they cannot be sure of 
what caused the flaws, corrosion pitting or external damage. 
They have not met the requirement of either provision nor has 
the Office of Pipeline Safety required them to do so.
    Olympic Pipe Line Company objects to hydrostatic pressure 
testing the whole pipeline because of concerns about the test 
damaging the pipeline. We're not aware of any empiric data that 
supports this concern. If the company is worried about 
pressurized water damaging the pipelines, why do we not see a 
corresponding worry about transient pipe pressure surges 
damaging the pipeline when it is filled with gasoline?
    Congressman Jay Inslee has obtained information indicating 
that even high frequency electric resistance welded pipe has a 
history of pipeline seam failure. The Office of Pipeline Safety 
has required hydrostatic pressure testing only for low 
frequency electric resistance welded pipe. This information 
from our Representative Inslee indicates that no distinction 
should be made. The entire line should be hydrostatically 
pressure tested.
    Renton is concerned about leak detection. As shown by the 
1986 Maplewood leak which was 80,000 gallons occurring over 
perhaps months of time, smaller but extremely dangerous leaks 
cannot be detected by Olympic Pipe Line Company's pressure 
sensors. Federal regulations should require improved leak 
detection technology to be implemented particularly in 
population centers and sensitive areas.
    We also believe that states should be allowed to require 
use of improved technology that would enable leaks to be 
quickly detected and located.
    Renton strongly supports S. 2004 and H.R. 3558 currently 
before Congress, and we think that each one of those bills has 
some provisions that the other does not, so we would suggest 
that there is, that the provisions of both bills be combined.
    Renton is particularly supportive of requiring hydrostatic 
pressure testing every 5 years and the requirement for improved 
leak detection technology to be implemented.
    Renton also supports the other provisions of both bills. I 
would like to close by requesting congressional support in 
persuading the Office of Pipeline Safety to issue a corrective 
action notice to Olympic Pipe Line Company to require the 
entire 400 mile pipeline system to be hydrostatically pressure 
tested. This is a very necessary stop gap measure that will 
protect thousands of people exposed to the pipeline until more 
comprehensive safety regulations can be put into place. Thank 
you.
    [The prepared statement of Mayor Tanner follows:]

     Prepared Statement of Jesse Tanner, Mayor, Renton, Washington

    Thank you Senator Gorton for the opportunity to provide testimony 
before you today. The citizens of Renton, Washington, have a special 
interest in the safety of hazardous liquid pipelines in that Renton 
serves as the headquarters of the Olympic Pipe Line Company, and many 
miles of petroleum pipelines run through our city.
    I have been invited to speak to you about our recommendations on 
options the Congress could consider to improve the transportation of 
hazardous liquids through pipelines in the context of the Committee's 
pipeline safety reauthorization legislation later this year. I am 
honored to do so, and I believe that our experience and history with 
this subject qualify us to present you with facts and perspectives that 
will be useful to you in your deliberations on the pipeline safety 
reauthorization legislation.

Olympic Pipe Line Company and Renton
    In addition to having their headquarters in Renton, the Olympic 
Pipe Line Company owns and operates a series of pipelines within the 
city. The parallel 16-inch and 20-inch lines that run north-south 
through the city were installed in 1965 and 1973 respectively. The 
joint capacity of these lines exceeds 14.7 million gallons of gasoline, 
diesel fuel and jet fuel per day. These large lines carry petroleum 
product to the Lind Avenue pump station in Renton, where fuel is pumped 
to Portland, Oregon through a 14-inch line installed in 1965, and to 
Harbor Island, Seattle and Sea-Tac Airport through two 12-inch lines 
installed around 1970. The attached map shows the routing of these 
pipelines in Renton.*
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee's 
files.
---------------------------------------------------------------------------
    The 16-inch pipeline (which failed on June 10, 1999 in Bellingham) 
is made of .312-inch wall steel pipe, and the 20-inch line uses .25-
inch pipe. These petroleum pipelines run through residential 
neighborhoods, past schools, and over Renton's drinking water supply 
aquifer along much of their length.
    Olympic Pipe Line's history in Renton is somewhat checkered. There 
have been two major fuel leaks. In early October 1986 an estimated 
80,000 gallons of mixed gasoline, diesel and jet fuel were discovered 
to have leaked into the Maplewood residential neighborhood. The fuel 
product was released gradually, perhaps over a period of weeks or 
months, at the location of a block valve. The leak was not detected by 
the Olympic Pipe Line Company, but rather by citizens who noticed an 
iridescent plume spreading into the nearby Cedar River. The Cedar 
River, incidentally, is home to the largest sockeye salmon run in the 
lower 48 states. At about the same time, some residents of Maplewood 
noticed gasoline fumes in their basements, and the Renton Fire 
Department was called to the scene. Explosive levels of fuel vapors in 
basements caused five families to be evacuated from their homes for a 
week. Investigation determined that the fuel had contaminated a 1,500 
foot-long plume eight to twenty-three feet underground. The presence of 
an impervious aquitard layer under the Cedar River caused the 
contaminant to be released into the Cedar River rather than percolating 
downward to contaminate Renton's drinking water supply. Olympic Pipe 
Line Company provided an 18-month remediation program consisting of 
ground water pumping, floating petroleum recovery and soil vapor 
extraction. In 1998 the Washington State Health Department initiated a 
round of monitoring and testing at Maplewood which once more revealed 
elevated petroleum hydrocarbons in the ground water. These elevated 
readings turned out to be contaminants left over from the 1986 event 
rather than from a new leak. At that time the Olympic Pipe Line Company 
indicated the intent to leave the petroleum product in the ground, but 
after the application of significant pressure by Renton, determined to 
remove the product by use of the air sparging process.
    The second major fuel leak occurred on August 29, 1999. This spill 
took place at the Olympic Pipe Line Company's Renton Lind Avenue 
headquarters as the result of a transfer pump that had broken leaking 
product onto the ground. Approximately 3,500 gallons of fuel escaped 
over an approximate 40-minute period before the leak was discovered by 
company employees. It was over an hour before the company contacted the 
Renton Fire Department.
    In 1996-1997 the Olympic Pipe Line Company conducted an internal 
``smart pig'' test throughout their pipelines to determine the 
condition of these aging lines. Over 270 ``anomalies'' or flaws were 
found at that time. Although at least 15 of these flaws are located in 
Renton, and in spite of the fact that the Olympic Pipe Line Company had 
entered into a legal agreement (franchise) to turn over all test 
results to the city, the City of Renton did not receive this 
information until October, 1999. Furthermore, the information was only 
received after repeated requests that included an ultimatum that we 
would terminate the franchise agreement and request that the pipelines 
be removed from Renton. Now that we have the test results, and have 
mapped the flaws, we have significant concerns about the safety of the 
pipelines. I will discuss these concerns later in this testimony.

Renton's Concerns
    We are very aware of, and nervous about, the tragedy that occurred 
in Bellingham on June 10, 1999. We think that it is possible that such 
an event could happen again. In fact the evidence, and lack of 
regulatory oversight, tends to make us think that it is likely that 
such an incident will happen again, if not in Renton, elsewhere along 
the pipeline.
    What is this evidence? First, I will speak of the general 
considerations. These are aging pipelines--some sections are up to 35 
years old. They are high pressure and high volume lines, with a maximum 
operating pressure up to 1,400 pounds per square inch. The pipelines 
are metallic, and are therefore subject to corrosion. The product being 
carried consists of highly incendiary, explosive grades of refined 
petroleum. The pipelines run through residential neighborhoods and 
schoolyards, beneath environmentally sensitive areas, and across 
salmon-bearing streams. Oversight is provided by a severely 
understaffed and underfunded federal regulatory agency which, until 
recently, did not even have an inspector based in the state of 
Washington. The current federal regulations call for little or no 
mandatory pipeline or system testing, and do not provide means for 
assuring safety of the operation. There appears to be no requirement 
for public disclosure, little oversight on operator training, and no 
requirement for cooperation, or even communication, with local 
emergency response agencies. State and local governments are preempted 
from involvement in the regulation of this industry, and regulation is 
only minimally provided by the federal government. Even without more 
specific information, these ingredients seem to be a recipe for 
disaster.
    However, we do have more specific information, and that information 
is chilling. The attached map shows the route of these pipelines 
through the City of Renton. The blue and pink areas of the map depict 
Renton's drinking water aquifer protection areas. These areas occur 
over the top of our sole source potable water supply, so that any 
petroleum leaks in these areas could have catastrophic consequences to 
our drinking water. The green lines on the map represent the Olympic 
Pipe Line petroleum pipes, the blue boxes are schools, and the 15 flaws 
are flagged out along the routes of the pipes. A key at the lower right 
hand corner of the map shows what the numeric information in the 
callouts means. Five of the pipeline flaw callout boxes are red--these 
indicate the more serious flaws (between 29% and 57% of metal loss in 
the pipeline wall!). Metal loss indicates the percentage of metal that 
is missing in the pipeline wall. The most serious pipeline flaw in the 
City, with 57% metal loss, is located within 300 feet of Talbot Hill 
Elementary School. Two pipeline flaws with roughly 50% metal loss are 
located over our drinking water supply. Most of these pipeline flaws 
are in heavily populated residential neighborhoods.
    Back in 1996-1997 when the Olympic Pipe Line Company acquired this 
information through ``smart pigging,'' they were not sufficiently 
concerned to perform any further investigation. They did not provide 
this information to local government, to school districts, or to 
residents. It remains the Olympic Pipe Line Company's position today 
that no further action needs to be taken to address these pipeline 
flaws. They cite the governing standards, ASME B31.4, as allowing 
corrosion pitting of the pipeline wall up to 80% loss of wall thickness 
before replacement is required. However, paragraph 451.6.2(a)(1) of 
this standard states that gouges and grooves having a depth greater 
than 12\1/2\% of the nominal wall thickness shall be removed or 
repaired. How does Olympic Pipe Line Company know, without visual 
inspection, whether the areas of metal loss are due to corrosion or to 
gouges or grooves? And even if the metal loss were due to corrosion, 
the ASME B31 Supplemental Manual for Determining the Remaining Strength 
of Corroded Pipelines states, ``in all cases where the corroded region 
is to be left in service, measures should be taken to arrest further 
corrosion. Such measures should include coating the corroded region 
and, if indicated, increasing the cathodic protection level.'' To our 
knowledge, the Olympic Pipe Line Company has not ascertained the cause 
of the pipeline flaws in Renton, has not taken measures to arrest 
further corrosion, nor has the Office of Pipeline Safety required that 
this information be ascertained or that any remedial measures be taken.
    There is only one way that we are aware of to assure that these 
aging, pitted pipelines can sustain the required test pressure without 
failing, and that is to hydrostatically pressure test the pipelines. 
The Olympic Pipe Line Company refuses to do this, and unaccountably, 
the Office of Pipeline Safety has declined to force them to do so 
through a Corrective Action Order. The Olympic Pipe Line Company 
proposes to undertake another ``smart pig'' internal inspection of the 
pipelines instead. Renton takes no issue with performing another round 
of internal testing. However, the results of such testing cannot be 
correlated to pipeline strength. Until a test is undertaken that can 
demonstrate the current strength of the pipeline, no one can say what 
pressure or operating conditions the pipeline will support. This can 
only be determined by a hydrostatic pressure test.
    One of the objections that the Olympic Pipe Line Company has raised 
regarding hydrostatic pressure testing of the pipelines is the 
potential that such testing could damage the pipelines. However, the 
company to our knowledge has not presented scientific evidence to 
support this claim. Hydrostatic pressure testing of pipelines is a 
standard test procedure that has been in use for decades to demonstrate 
that pipelines are capable of sustaining their rated test pressures. If 
performed correctly, such testing should not result in damage to sound 
portions of the pipeline. It is true that weakened portions of the 
pipeline could fail, as was the case with the hydrostatic testing in 
Bellingham. This is the very purpose of the test: to identify weakened, 
dangerous portions of the pipeline so that these sections can be 
replaced to prevent future catastrophes such as happened in Bellingham. 
Our question for the Olympic Pipe Line Company is: if you are so 
worried about test pressures damaging the pipelines when the pipe is 
carrying water, why do you not appear to be worried about transient 
surge pressures that also exceed the operating pressure causing damage 
when the pipe is carrying petroleum products?
    I would like to mention one other issue concerning strength of 
pipelines. The Office of Pipeline Safety's current Corrective Action 
Orders require hydrostatic testing only for sections of the Olympic 
Pipe Line that are low frequency electric resistance welded (ERW) pipe. 
These sections occur mainly in Whatcom County, in the Bellingham area. 
However, Congressman Jay Inslee has investigated the failure history of 
high frequency and low frequency ERW pipe. He has found information 
from the Office of Pipeline Safety web site archives that compares the 
number of failures of electric-resistance longitudinal welded pipes 
manufactured by U.S. Steel Corporation, and pipe manufactured by Lone 
Star Steel from 1970 to mid 1984 on gas pipelines. This information 
seems to contradict the assertion that U.S. Steel does not have a seam 
failure history for high-frequency ERW manufactured pipe. It is my 
understanding that the majority of the pipeline is made of U.S. Steel 
and other brands of high-frequency ERW manufactured pipe. A table 
showing Congressman Inslee's findings is attached. This information 
calls into question the Office of Pipeline Safety's distinction between 
the reliability of Lonestar and U.S. Steel pipe, and supports the 
argument that the entire pipeline should be hydrostatically tested.
    Renton is also concerned about leak detection. Currently the 
Olympic Pipe Line Company detects leaks by internal pressure loss. As 
demonstrated by the Renton Maplewood leak, more gradual leaks, that can 
also be devastating to safety and the environment, cannot be detected 
by the Olympic Pipe Line Company's current technology. We feel that the 
Federal regulations should require improved leak detection technology, 
particularly in population centers and sensitive areas.

Renton's Recommendations
    The City of Renton supports both the Pipeline Safety Act of 2000 
(S. 2004) and the Safe Pipelines Act of 2000 (H.R. 3558). We 
particularly support the provision of H.R. 3558 that requires 
hydrostatic testing of all facilities once every 5 years, and the 
provision of S. 2004 requiring the use of equipment to detect and 
locate leaks. We support improved certification and testing of 
operators, improved corrosion testing, better notification of spills 
(particularly of the local agencies which are charged with providing 
emergency response), and delegation of authority to states. Providing 
additional funding to the Office of Pipeline Safety also seems like a 
sound provision. This agency does not appear to us to be equipped to 
handle the challenges of regulating petroleum pipeline safety in the 
face of growing distribution systems and aging infrastructure. 
Providing additional funding to this agency would seem to be 
particularly essential if more regulatory authority is not delegated to 
the states.
    Finally, I would like to take this opportunity to make an appeal to 
you to take a step that would help the citizens of Renton and others 
living along the route of the pipelines sleep better at night. This 
appeal is to contact Kelly Coyner, Administrator of the Office of 
Pipeline Safety, and request that a Corrective Action Order be issued 
to the Olympic Pipe Line Company requiring hydrostatic testing of the 
entire length of their pipelines. By influencing the Office of Pipeline 
Safety to do so, defective sections of the pipeline could be detected 
and repaired in the near term, which would significantly reduce the 
risk of catastrophic failure over the next several years.
    Once again, I wish to thank you for inviting me to participate in a 
process that could provide much needed protection to the citizens of 
Renton as well as to other residents throughout the country whose 
proximity to hazardous liquid pipelines exposes them to risks that are 
not currently sufficiently regulated.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Gorton. Thank you, Mr. Tanner.
    Deputy Mayor Marshall?

     STATEMENT OF CONNIE MARSHALL, DEPUTY MAYOR, BELLEVUE, 
                           WASHINGTON

    Deputy Mayor Marshall. Good afternoon, Senators. Thank you 
for coming to Washington State to hear about this critically 
important public safety issue.
    My name is Connie Marshall. I am the Deputy Mayor of the 
City of Bellevue. First, I would like to say how terribly sorry 
I am to the families here who have lost their children.
    When the Olympic pipeline exploded in Bellingham, I could 
honestly say that I had no idea that this same pipeline ran 11 
miles through our city. I can also tell you that since that 
time I and the rest of my council and our city staff have spent 
hundreds of hours and thousands of dollars getting up to speed 
on this issue.
    Our Mayor, Chuck Moser, was appointed by the Governor to 
serve with Bellingham Mayor Mark Asmundson to the Washington 
State Fuel Accident Prevention and Response Team formed in 
response to the Bellingham accident.
    What we have learned in these past months has not reduced 
our fears that an accident like the Bellingham tragedy could 
happen in Bellevue. To the contrary, we have no confidence that 
the Olympic pipeline is safely operated and maintained within 
the city. We are greatly alarmed at the complete lack of any 
automatic shut off valves on this pipeline within the city. 
From what we have learned, we have even less confidence that 
the Federal Office of Pipeline Safety is able to provide 
adequate or meaningful oversight of pipeline operations here or 
elsewhere in the country.
    Our citizens are scared and demanding action, but our 
ability to respond is extremely limited due to Federal 
preemption in this area.
    In Bellevue, the Olympic pipeline runs through several 
single family neighborhoods, under a city park, by a middle 
school and a community swimming pool. There are 11 schools and 
one community college within one-half mile of the Olympic 
pipeline in Bellevue. The pipeline also transverses numerous 
creeks within Bellevue which are the subject of the Endangered 
Species Act recovery actions. The pipeline also runs under two 
major freeways, State Route 520, which is the main artery to 
the Microsoft campus and other businesses in Bellevue and 
Redmond, and I-90, our major east-west freeway across the 
state. In fact, the Olympic pipeline runs underneath I-90 less 
than one-third of a mile from what is one of the busiest 
freeway interchanges in the state: where I-90 crosses under 
405.
    Why am I talking about freeways? For a very important 
reason. Our consulting engineer with extensive expertise in 
pipelines tells us that the locations where Olympic pipeline 
crosses under State Route 520 and I-90 are, in fact, the two 
most vulnerable points of the pipeline within Bellevue. This is 
because they are the lowest topographical points where gravity 
exerts the most pressure on the pipe.
    One can only imagine the damage to our city and to this 
region if the pipeline were to fail at these points. Increasing 
this risk, there are no automatic shut-off valves anywhere 
within the city. There are only two manual shut-off valves on 
the 20-inch pipeline at locations within the city. Our engineer 
tells us that in the event of a rupture, before it could be 
shut off, the pipeline would drain as much as a million gallons 
of fuel, four times more than what was involved in the 
Bellingham accident, and due to our hilly terrain we are also 
told that the existing technology cannot detect slow leaks in 
the pipeline. Yet this is within current Federal standards. How 
can this be allowed within a densely populated urban area?
    Olympic last tested this pipeline in 1996 and 1997. They 
found over two dozen anomalies on the pipeline within Bellevue. 
Only six of these flaws were repaired. Olympic Pipe Line 
Company tells us that the other flaws don't meet the Federal 
threshold for action. Some of these involved as much as 48 
percent corrosion on the pipe. Again, how can this be true? How 
can we possibly explain this to our citizens? How can anyone 
regard this as an adequate level of protection for our city 
residents?
    While we regard the Olympic Pipe Line Company safety plan 
as an important step in the right direction, our engineer tells 
us that the test they proposed will not provide us adequate 
information regarding the safety or condition of the pipe. He 
is recommending that we insist on hydrostatic testing unless 
Olympic can present us with an equivalent alternative. We will 
be doing so together with asking for better leak detection 
devices and automatic shut-off valves.
    We expect questions will be raised about our ability to 
make these requests under current Federal law. I would also 
note that it took us many months to obtain what we regarded as 
the most basic information from Olympic about the condition of 
the pipeline within Bellevue, and even the data that we now 
have provides an inadequate picture. So we are also concerned 
about the need to impose stricter reporting requirements and 
public right to know laws on pipeline operators.
    In summary, we believe there is an overwhelming case to be 
made for enhanced regulations in this area. Stricter standards 
are necessary particularly in urban areas, and because of the 
limited staffing of the Office of Pipeline Safety, where 
willing and able, states should be allowed to either act as a 
proxy for the Federal Government in overseeing compliance or 
enact stricter safety standards. We strongly support the two 
pipeline safety bills currently before Congress.
    Please work to see that we can ensure safety for our 
residents. We need better reporting requirements. We need 
better safety requirements such as safety valves and leak 
detection devices. We need better Federal funding for OPS. We 
need assurances that pipeline companies will be required to 
work now with first responders such as our police and fire 
departments to develop emergency response plans. We need your 
help to ensure that the tragedy in Bellingham and the dozen of 
similar tragedies around the country are not repeated.
    Thank you.
    [The prepared statement of Deputy Mayor Marshall follows:]

         Prepared Statement of Connie Marshall, Deputy Mayor, 
                          Bellevue, Washington

    Good afternoon Mr. Chairman and members of the Committee, and thank 
you for coming to Washington State to hear about this critically 
important public safety issue. My name is Connie Marshall; I am the 
Deputy Mayor of the City of Bellevue, Washington. Bellevue is an urban 
city of 107,000 residents located directly to the East of Seattle, on 
the shores of Lake Washington. We are a major job center in the Puget 
Sound region, a major retail center, and home to many beautiful single 
family and multi-family neighborhoods.
    When the Olympic Pipe Line exploded in Bellingham, I can honestly 
say I had no idea that this same pipeline ran 11 miles through our 
City. I can also tell you that since that time, I and the rest of my 
Council and our City staff have spent hundreds of hours and thousands 
of dollars getting up to speed on this issue. Our Mayor, Chuck Mosher, 
was appointed by the Governor to serve with Bellingham Mayor Mark 
Asmundsen on the Washington State Fuel Accident Prevention and Response 
Team, formed in response to the Bellingham accident.
    What we have learned in these past months has not reduced our fears 
that an accident like the Bellingham tragedy could happen in Bellevue. 
To the contrary. We have no confidence that the Olympic Pipe Line is 
safely operated and maintained within the City. We are greatly alarmed 
at the complete lack of any automatic shut-off valves on this pipeline 
within the City. From what we have learned, we have even less 
confidence that the federal Office of Pipeline Safety is able to 
provide adequate or meaningful oversight of pipeline operations here or 
elsewhere in the country. Our citizens are scared and demanding action. 
But our ability to respond is extremely limited due to federal pre-
emption in this area.
    In Bellevue, the Olympic Pipe Line runs through several single 
family neighborhoods, under a City Park, past a City golf course, by a 
middle school and a community swimming pool. There are 11 schools and 
one community college within \1/2\ a mile of the Olympic Pipe Line in 
Bellevue. The pipeline also transverses numerous creeks within Bellevue 
which are the subject of Endangered Species Act recovery actions.
    The pipeline also runs under two major freeways: State Route 520--
which is the main artery to the Microsoft campus and other businesses 
in Bellevue and Redmond; and I-90, our major East-West freeway across 
the state. In fact, the Olympic Pipeline runs underneath I-90 less than 
\1/3\ of a mile from what is one of the busiest freeway interchanges in 
the state: where I-90 crosses under I-405. Why am I telling you about 
these freeways? For a very important reason: our consulting engineer 
with extensive expertise in pipelines tells us that the locations where 
Olympic Pipe Line crosses under SR 520 and I-90 are in fact the 2 most 
vulnerable points of the Pipeline within Bellevue. This is because they 
are the lowest topographical points, where gravity exerts the most 
pressure on the pipe. One can only imagine the damage to our City and 
to this region if the Pipeline were to fail at these points. Increasing 
this risk, there are NO automatic shut-off valves anywhere within the 
City. There are only two manual shut-off valves on the 20 inch pipeline 
at locations within the City. Our engineer tells us that in event of a 
rupture, before it could be shut off, the pipeline would drain as much 
as a million gallons of fuel, four times more than was involved in the 
Bellingham accident. And, due to our hilly terrain, we are also told 
that existing technology cannot detect slow leaks in the pipeline. Yet 
this is within current federal standards? How can this be allowed 
within a densely populated urban area?
    Olympic last tested this pipeline in 1996 and 1997. They found over 
two dozen ``anomalies'' on the pipeline within Bellevue. Only six of 
these flaws were repaired. Olympic Pipe Line Company tells us that the 
other flaws don't meet the federal threshold for action. Some of these 
involved as much as 48% corrosion of the pipe. Again, how can this be 
true? How can we possibly explain this to our citizens? How can anyone 
regard this as an adequate level of protection for city residents?
    While we regard Olympic's Pipe Line Company's Safety Plan as an 
important step in the right direction, our engineer tells us that the 
tests they propose will not provide us adequate information regarding 
the safety or condition of the pipe. He is recommending that we insist 
on hydrostatic testing, unless Olympic can present us with an 
equivalent alternative. We will be doing so, together with asking for 
better leak detection devices and automatic shut-off valves. We expect 
questions will be raised about our ability to make these requests under 
current federal law.
    I would also note that it took us many months to obtain what we 
regarded as the most basic information from Olympic about the condition 
of the pipeline within Bellevue, and even the data we now have provides 
an inadequate picture. So we are also concerned about the need to 
impose stricter reporting requirements and ``public right to know'' 
laws on pipeline operators.
    In sum, we believe there is an overwhelming case to be made for 
enhanced federal regulations in this area. Stricter standards are 
necessary, particularly in urban areas. And, because of the limited 
staffing of the Office of Pipeline Safety, where willing and able, 
states should be allowed to either act as a proxy for the federal 
government in overseeing compliance, or enact stricter safety 
standards. We strongly support the two pipeline safety bills currently 
before Congress introduced by members of our Washington delegation: S. 
2004 and H.B. 3558.
    Please work to see that we can ensure safety for our residents. We 
need better reporting requirements. We need better safety requirements, 
such as safety valves and leak detection devices. We need better 
federal funding for OPS. We need assurances that pipeline companies 
will be required to work now with first-responders such as our police 
and fire departments to develop emergency response plans. We need your 
help to ensure that the tragedy in Bellingham, and the dozens of other 
similar tragedies around the country, are not repeated.
    Thank you.
    [The attachments referred to have been retained in the Committee's 
files.]

    Senator Gorton. Thank you, Deputy Mayor Marshall.
    Mr. Hoggard?

          STATEMENT OF CALVIN HOGGARD, CITY MANAGER, 
                       SEATAC, WASHINGTON

    Mr. Hoggard. Senator Murray, Senator Gorton, thank you for 
being here and your serious concern of the issues of the 
community in regards to pipeline safety and thank you for the 
opportunity to testify.
    The City of SeaTac has 25,000 residents. About 35,000 
people come to work in the city each day. Additionally at any 
given time there are about 10,000 guests living in the hotel 
rooms in our city. We have each day 75,000 people who come to 
and from the airport. Large numbers of these people are at risk 
because of the unsafe pipeline in our community. I share the 
concerns that you've heard from the other communities that live 
along the 400-mile pipeline corridor in western Washington.
    The basis of our concern is the absence of adequate 
requirements at the Federal level to operate the pipeline 
safely, coupled with preemption by the Federal Government of 
state and local oversight of pipelines, and we have a pipeline 
operator that seems to be doing the minimum necessary to get 
along.
    The lack of Federal requirements include the lack of 
requirements for periodic testing, lack of standards regarding 
the frequency and type of testing, lack of independent 
oversight of pipeline operations, testing of inspections and 
followup on deficiencies, the lack of standards for 
certification and qualification to operate and maintain 
pipelines, lack of requirements to work with state and local 
agencies regarding pipeline design, inspection, testing and 
followup of tests, the lack of requirements to report on 
inspection results and followup repairs, and a lack of 
requirements to work in any city with local emergency response 
agencies such as the police and fire departments including the 
reporting of incidents in a timely way.
    In SeaTac's case, the absence of the ASME requirements we 
feel has led to poor management on the part of Olympic Pipe 
Line Company and given us serious concern about our safety. The 
pipeline in SeaTac is a 12-inch diameter pipe. It operates at 
800 pounds per square inch. It pumps millions of gallons of 
fuel to the airport, where there's a five million gallon 
storage tank. It runs steeply uphill from the Sea-Tac Airport, 
or downhill from the Sea-Tac Airport to the Green River valley, 
a distance of about four miles in a heavily developed urban 
area that includes the airport, retail businesses, offices, 
restaurants, hotels, congested arterial highways, freeways and 
homes, and there's no shut-off valves in that entire length. We 
could do nothing to prevent the gravity release of thousands of 
gallons from the pipe into the areas that I've described, with 
devastating results.
    One of our biggest immediate concerns is incident response. 
Nothing requires the pipeline operators to provide notification 
of emergency personnel or to develop effective emergency 
response plans with all the government, police or fire 
agencies. Olympic has a track record of delayed or no 
notification of spills.
    Despite our substantial efforts today, SeaTac does not yet 
have an emergency response protocol worked out with Olympic 
should an event occur in SeaTac. Though they have stated they 
have done so in their literature, the Olympic Pipe Line Company 
has not made substantive contact with law enforcement agencies 
in King County as a whole to plan and train for emergency 
responses involving pipeline fuel incidences.
    Given the poor state of leak detection, and the current 
operator practices that are in effect, we are relying on 
witnesses at the scene to call us in order to have an emergency 
personnel available at the site of a leak in any timely way.
    Olympic investigates incidents on their own, and this 
results in unacceptable delays in local jurisdictions' efforts 
to contain, isolate, evacuate or otherwise mitigate the effects 
of an incident. This places responding police and fire 
personnel and the surrounding community in unnecessary 
jeopardy.
    Another concern that we have is the absence of warning 
signage. Although third-party damage is one significant factor 
leading to pipeline failures, the SeaTac Lateral is not 
currently well marked or posted anywhere within the city to 
warn potential excavators of its presence. This is one area 
where local government through our public works and building 
permit functions could help the pipeline if the pipeline was 
required to work with us.
    Another area of concern that's been mentioned previously is 
pipeline maintenance. Pipelines are subject to many sources of 
damage. Some of the particular concerns in western Washington--
in our wet northwest--are cathodic erosion which is rust, 
stress due to steep terrain which is mentioned in the 
Bellingham situation here, and also stress due to earth 
movements or the pipe movement, itself, in our wet soils. All 
of these conditions are found in the City of SeaTac. However, 
Olympic believes, incredibly, that with proper maintenance and 
care, a pipeline will last forever. It seems to us that if this 
it is the approach that is taken, then strong emphasis must be 
placed on proper testing, maintenance and care. We do not 
believe Olympic has maintained the 35-year-old pipeline 
adequately.
    Although not required by any regulations, limited 
resolution pig testing was conducted 4 years ago. We found it 
very difficult to obtain information from the Olympic Pipe Line 
Company about the anomalies, thus found, and we have not had an 
explanation from Olympic as to the absence of their followup on 
the anomalies that are within SeaTac.
    We lack any confidence in the judgment of Olympic to 
properly verify and followup to repair anomalies, given their 
failure to do so previously. This is one concern with Olympic's 
Pipe Line Safety Action Plan. There is no independent oversight 
of their plan, and it's not a long-term plan.
    We are also not confident in Olympic's long-term commitment 
to maintenance and safety given their track record, and that 
would require better marks such as testing requirements, 
operator certification, exposure requirements and independent 
oversight. We believe hydrostatic testing is necessary to 
adequately insure pipeline safety. Hydrostatic testing is a 
tried and true method, and if properly applied does not damage 
the line. Since hydrostatic testing is required under Federal 
law when a pipeline is first laid, and since Olympic and others 
argue that a properly maintained line will last forever, why 
should they have any fear of properly designed hydrostatic 
tests?
    We also support state-level independent oversight with 
teeth to followup on concerns, and it would go a long way 
toward eliminating our concerns about the safety of the 
pipelines in Washington. Our community is alarmed and wants 
action, but we're overly limited by Federal preemption. We 
would like to see a delegation of pipeline oversight authority 
to states, and we support the resolution of the National League 
of Cities adopted in November 1999 calling for amendments to 
the Pipeline Safety Act to address these concerns.
    Our analysis of the Bellingham and our own situation 
suggests that the same type of disaster that happened in 
Bellingham could happen and could have occurred and may occur 
anywhere in Olympic's system. Federal pipeline safety 
monitoring is so lax that both in the requirements of the 
pipeline operators and in administratively that we feel no 
assurance that the appropriate procedures are in place.
    We need your help because without these changes to 
strengthen the independent oversight of pipeline operators, 
such things as Olympic's Pipe Line Safety Action plan will not 
have any long-term benefit.
    We support the S. 2004 and H.R. 3558 legislation that's in 
front of you. We encourage their speedy adoption, and I thank 
you very much and would be happy to answer any questions.
    [The prepared statement of Mr. Hoggard follows:]

 Prepared Statement of Calvin Hoggard, City Manager, SeaTac, Washington

    Senator Gorton and Members of the Subcommittee, I am Calvin 
Hoggard, City Manager of the City of SeaTac, Washington. I appear and 
testify today on behalf of the City of SeaTac. Attending here with me 
today is Mayor Shirley Thompson. She and other Council members in our 
City share the concerns I will express today. Thank you for your 
serious interest in the safety of pipelines in our communities and for 
the opportunity to testify.
    The City of SeaTac is a ten-year old city that surrounds Sea-Tac 
International Airport, south of Seattle. The City has 25,000 residents. 
About 35,000 people come to work in the City each day. Additionally, at 
any given time there are approximately 10,000 guests staying in hotel 
rooms within the City and we have about 75,000 visitors passing through 
our city each day. A key economic factor in the City's vitality is the 
Airport. For this reason among others, SeaTac has not joined with six 
neighboring jurisdictions in lawsuits fighting the expansion of the 
Airport but has taken a course to cooperate with this essential 
transportation facility. I mention this to indicate the generally 
supportive attitude of the City toward federally regulated 
transportation facilities.
    In the case of Olympic Pipe Line we have a serious problem which we 
share with other local governments along the 400-mile pipeline corridor 
in Washington and Oregon. We do not believe the pipeline is reasonably 
safe in our communities. In the SeaTac area Olympic Pipe Line operates 
an east to west lateral pipeline or pipeline spur coming from the main 
pipeline. The lateral to SeaTac runs from Olympic's Renton station to 
the Sea-Tac Airport. The pipeline flow to SeaTac is intermittent. This 
on-off flow is an added stress to the line from pressure cycling caused 
by the change in flow. When not making deliveries to SeaTac this 
lateral sits full of jet fuel under pressure.
    Until the June 10, 1999 pipeline spill and explosion in Bellingham, 
it is fair to say that few communities or government agencies in 
Washington were particularly aware of the safety issues surrounding 
hazardous liquid pipelines. Many of these pipelines--and there are 
thousands of miles of such pipe nationwide--were installed 40 to 50 
years ago, prior to significant environmental regulations. The oil 
companies correctly emphasize that transporting oil and jet fuel by 
pipeline is much preferable to the usual alternatives--transportation 
by highway tanker truck and by barge. In SeaTac, where millions of 
gallons per year of jet fuel are pumped to the airport, an amount 
projected to greatly increase, a safe pipeline conveyance is clearly 
preferable to the large number of trucks which would otherwise be 
traversing our streets.
    The main Olympic pipeline was built in 1965 making it almost 35 
years old. The SeaTac segment of the pipeline, a 12" diameter spur, was 
built later than most of the rest, in 1971. The 12-inch diameter 
pipeline, which is constantly under pressure (800 pounds per square 
inch) with jet fuel, runs from the City of Renton westward across the 
Green River Valley crossing the Green River. The Green River is a major 
salmon bearing and navigable river flowing into Elliott Bay in 
Seattle's waterfront. From the Green River the pipeline continues 
westward running just under a mile along Strander Boulevard between the 
heavily congested Southcenter Shopping Mall and Target and other 
stores. At Southcenter Parkway it turns south and runs about half a 
mile along the Parkway that is lined with commercial and retail 
development. It then turns west going through the City of SeaTac about 
a quarter mile under Interstate 5 up a very steep hill above the City 
of Tukwila (frequently mentioned in media traffic reports as ``the 
Southcenter Hill'' due to its common traffic congestion). It then 
travels about a mile and one-half along South 170th Street, a 
residential street lined with homes, a corner grocery and one of our 
fire stations. Next it turns south along International Boulevard, an 
arterial that is heavily congested much of the time, for about a mile 
then turns southwestward into a large 5 million gallon tank farm at the 
International Airport. From the tank farm multiple smaller high-
pressure lines run around the Airport to feed various locations 
traveling under City streets much of the way. The SeaTac Lateral is not 
currently well marked or posted within the City to warn potential 
excavators of its presence. There are very few signs, perhaps 3 or so 
in the entire City. The City itself only recently learned about the 
presence of the smaller pipelines as we pushed to obtain more detailed 
information in the aftermath of the Bellingham accident.
    Valve placement and control are big issues--if there is a leak, how 
far back up the line is the place where the spigot can be turned off, 
and how quickly? In the hilly terrain of western Washington, how do you 
stop flow draining downhill without properly placed valves? For 
example, there is only one valve in the SeaTac spur. It is east of 
Tukwila. Therefore a pipe burst at the foot of the hill near 
Southcenter in Tukwila would allow the pipe to drain downhill and out 
of the rupture with no valve to stop it. Some valves are manual, some 
computer-controlled. In shutting a valve, one must also shut off the 
flow coming into the system; otherwise pressure will build up. The 
pressure in the main pipeline is well over 1,000 pounds per square 
inch, and ranges up to 800 PSI in the SeaTac Lateral, meaning that any 
flow problem not handled correctly will quickly become a disaster. But 
adding more valves can upset the flow dynamics of the entire line, and 
cannot necessarily be done at each City limits. The addition of valves 
needs engineering analysis and careful computation. State level 
oversight seems right to attend to both local and system-wide concerns 
like these.
    From Sea-Tac Airport to the Green River, a distance of almost four 
miles of heavily populated area, there is no shut off valve of any 
kind. The first one is at the Green River itself. At that location 
immediately on each side of the river is one valve. A pipeline rupture 
anywhere along this entire area would seriously risk loss of life and 
severe environmental and/or property damage. A pipe rupture on Strander 
Boulevard, for example, would release under high pressure and gravity 
pressure all the contents of the pipe draining down the hill from 
SeaTac into a heavily populated shopping area. As I understand it from 
our fire officials portions of the fuel would likely vaporize into a 
cloud when released into normal air pressure. The rest would puddle up 
or flow on the ground. The vapor would be heavier than air so it would 
also travel along the ground until encountering an ignition source that 
would cause it to explode with devastating results. Our fire and police 
could only get people away and watch as the pipeline emptied if we were 
lucky enough to have any time to have emergency personnel at the scene 
to do that.
    Given the state of leak detection and current operator practices we 
may not have emergency personnel available at the site of a leak or 
rupture in any timely way unless we get lucky. Olympic pipeline 
monitors fuel pressure at a central station in Renton but even if they 
detected the rupture, without valves they could also do nothing to 
prevent the gravity release of thousands of gallons from the pipe into 
the areas I have described. The leak detection system used at the 
Renton monitoring station only imprecisely monitors unexpected pressure 
drops in the 400-mile long line. When an unexpected significant drop in 
pressure is noticed, the first step taken by Olympic is to determine 
whether or not the pressure monitors are accurate. Then a person is 
dispatched to go physically see if the pressure drop has occurred 
because the line is leaking or ruptured. If it is leaking or ruptured 
then our City emergency personnel are to be notified.
    Such delayed notification results in delayed response, so the City 
has been working with Olympic since the Bellingham explosion to get 
earlier, immediate notification at the first hint of a problem because 
time is so critical, the hazards are so great and we are usually closer 
to the pipeline than Olympic to respond to check for leaks. The City 
has not received notification from Olympic of prior instances when 
there have been leaks. Nothing requires this sort of immediate 
notification.
    One of our biggest concerns right now is incident response. We have 
not had contact with Olympic on this subject until only recently, at 
our urging. Since it's the local fire departments that will need to be 
quickly notified, send their trucks to put out fire and provide medical 
assistance, and local police that will help evacuate an area if 
necessary due to a spill, this local dialog is absolutely essential. 
Moreover, the pipeline's emergency response plan must be not just 
coordinated with, but approved by, the City Fire Department. At the 
very minimum, the federal law needs to require this type of 
coordination. Ideally, the federal level will assign to the local level 
the determination of what type of incident response planning fits the 
local area.
    Although since the Bellingham explosion we have been pressing 
Olympic and we are pleased there has now begun to be some dialogue, we 
do not have a coordinated emergency response plan between the operator 
and the City's emergency response personnel. Nothing requires Olympic 
to work out such plans with local jurisdictions.
    Though they have stated they have done so in literature, the 
Olympic Pipe Line Company has not made substantive contact with law 
enforcement agencies in King County to plan and train for emergency 
responses involving pipeline fuel incidents. A poll of the King County 
Sheriff and Chiefs of Police in February 2000 showed that Olympic had 
not contacted any law enforcement agencies to establish a timeline to 
do so. Olympic Pipe Line Company does not have acceptable policies and 
procedures, even today, to contact and coordinate with emergency 
responders of appropriate jurisdiction(s) in cases of suspected or 
confirmed leaks.
    Olympic investigates incidents on their own which results in 
unacceptable delays in local jurisdictions efforts to contain, isolate, 
evacuate and/or otherwise mitigate the effects of incidents. This 
places responding police and fire personnel, and the surrounding 
community, in unnecessary jeopardy. Pipeline emergency management, like 
all emergency management is difficult, because emergencies by nature 
tend to be dangerous, dynamic, complex and confusing. Most emergency 
responders use the Incident Command System (ICS) to manage emergencies. 
Timely notice, accurate information, effective communication, 
organization, and training are essential elements of effective 
emergency response plans. Federal law must be changed to insure that 
pipeline companies are part of established emergency response teams.
    In addition to the urban routing of a pipeline designed for a rural 
setting and with no shutoff valves, the absence of signage to thwart 
third party damage, the weakness of leak detection and the lack of 
emergency response coordination, there are other reasons for our 
concern about pipeline safety.
    Pipelines tend to move in the ground, the amount of movement 
depending on the type of soil, stresses on the pipeline, and whether 
the area is subject to such events as mudslides or earthquakes. Some 
communities have reported that the actual pipeline location, when 
checked by probing, is well outside the swath of land (usually 5-10 
feet wide) where it was supposed to be. This can be partly due to 
movement after construction and partly due to lack of map accuracy 
based on the lack of requirements for engineer-stamped as-built 
drawings to be provided to local jurisdictions upon construction (i.e., 
the pipe was not placed in the exact location contemplated by the pre-
design drawings). With GIS technology it seems more accurate pipeline 
location information could be easily provided if required.
    There is no industry standard or even agreement as to an 
appropriate replacement schedule for old pipe. If one buys a house 
there are rules of thumb for the usual life of various building 
materials and components. Olympic and others in the oil industry 
believe that with proper maintenance and care, a pipeline will last 
forever. It seems to us that if this approach is taken, and it is being 
taken by Olympic and the pipeline industry generally, then strong 
emphasis must be placed on proper maintenance and care. Judging by the 
frequency of major accidents it appears to us that adequate emphasis on 
maintenance is not happening in the industry in general or at Olympic.
    One reason we feel it is unlikely that pipelines last forever is 
the ``cathodic protection'' problem. Cathodic protection provides a 
slight electric current running to the pipe outer surface which resist 
the tendency for iron to return, or corrode, to its natural state. But 
cathodic protection is not perfect. Among other concerns, another metal 
pipe or structure in the ground can interfere with the cathodic 
protection intended for the principal pipe.
    Other reasons for potential damage to pipelines are strain from 
earth movements and the strain that can result from being under 
tremendously high, but varying, operating pressures for years and 
years, which can fatigue the pipeline. The stress points introduced by 
elevation variations such as in Washington also increases potential 
damage.
    The actions of ``Third Parties'' are often a major source of 
damage. While not the dominant source, third party careless actions are 
a significant source of pipeline damage. Washington has a ``one-call'' 
system with signs near buried utilities encouraging contractors and do-
it yourselfers to ``call before you dig.'' There is pipeline 
participation in this program, but there do not seem to be any 
mechanisms for ensuring that the signs stay in place. More often it 
appears that people call in after they have hit something. Further, 
even if the call is made first, there is no guarantee that the company 
will respond appropriately. For example, prior to the Bellingham 
accident, Olympic was advised of digging by a contractor in close 
proximity to the pipe but may not have taken the necessary precautions 
to protect the pipe's integrity. Persons seeking permits from the City 
of SeaTac are informed of the pipeline and the need to avoid it, and to 
contact Olympic. Our recent road and drainage projects on S. 170th had 
a representative of Olympic present to assure no damage to the line, as 
did the relevant sections of the International Boulevard projects. We 
would like to see requirements surrounding these sorts of activities 
that will better ensure the pipeline operator and contractor's follow 
up.
    The overall federal pipeline regulatory situation appears to be a 
``Catch-22'' since despite the laxness of the federal requirements, 
``federal pre-emption'' prevents states or local communities from 
having stronger safety requirements of their own which should be 
tailored to the area's unique environment.
    Safety is of course best achieved through adequate preventive 
measures such as inspection, testing and replacement of defective line 
segments. Pipeline companies tend to do more than the federal 
government requires, because the government requires so little. For 
instance, while there is currently no requirement for in line testing 
using a smart pig, many companies (including Olympic) use this 
technique from time to time. But whether the methods chosen by any 
given company (e.g., frequency of pigging; type of pig used; response 
to anomalies identified) meet reasonable and appropriate standards is 
very much in question.
    The federal requirements do not include regular testing or 
inspection, so problems are often only uncovered on an emergency basis 
or if a report is made if the pipe is accidentally hit during some 
unrelated construction project. Additionally, federal procedures do not 
define what an adequate testing process would be. They do not require 
more stringent standards for older pipelines despite the older age of 
many lines.
    Testing on a regular basis using appropriate methods is important 
to assure safety. It's also important that the pipeline companies be 
encouraged to share the results of that testing with states and local 
communities to ensure accountability. Pipeline testing and follow-up is 
a major area of concern because there is no routinely required testing 
of pipelines and no independent third party monitoring of the follow-up 
to test results. This lack of third party accountability is our major 
criticism of Olympic's otherwise positive start with their Pipeline 
Safety Action Plan. Federal requirements should more strongly provide 
for this third party oversight. They do not at present in any effective 
way. We support federal legislation which will allow state level 
independent oversight of routine testing with teeth to follow up on 
deficiencies by operators.
    Various testing devices are used. ``Smart pigs,'' so named because 
they make a squealing noise as they are pushed through the pipe by the 
fluids, measure pipe geometry and pipe wall thickness and can infer the 
existence of various anomalies. There is no oversight of how pipeline 
operators use (or don't use) the data from smart pig and other testing. 
The Olympic Pipe Line was smart pigged in 1996-7 throughout the state 
and over 250 anomalies were found, but before June 10, 1999, according 
to a July article in the Seattle Times, Olympic had only fixed a few of 
these and determined that the remainder were insignificant. (One of the 
supposedly ``insignificant'' anomalies was at or very close to the 
point of the June 10 rupture in Bellingham.)
    We have this same situation in SeaTac and throughout the rest of 
the Olympic Pipe Line system. Anomalies have been found in the limited 
1996 voluntary testing showing deterioration but assessed by Olympic to 
not require excavation to verify or repair. In SeaTac there are at 
least seven anomalies none of which have been verified by physical 
inspection and none of which was determined by Olympic to require 
repair. This information was only recently disclosed to us by Olympic 
after much lengthy effort by the City. Similar experience in 
neighboring cities with more complete review to date than we have been 
able obtain in SeaTac has disclosed serious pipeline deterioration with 
no follow up by Olympic. We fear the same situation exists in SeaTac. 
The Pipeline Company has scheduled but not yet held sessions with the 
cities to explain their actions. We should not be in this situation and 
it does not appear to be unique to Olympic but an industry wide 
practice. In fact, I understand that federal standards while not 
requiring testing, allow up to eighty percent erosion of the thickness 
of a pipe wall before replacement is required. This should be 
investigated. Regular effective testing should be required against 
proper standards with independent oversight of the results and follow-
up.
    Another form of testing is ``hydrostatic.'' This means that the 
line is emptied of petroleum products and filled instead with water at 
deliberately higher pressure. Current Federal regulations call for 
hydrostatic testing only when a pipeline is newly installed. Bellingham 
required a new round of hydrotesting before re-opening that section of 
the line. Both hydrotesting and smart pigging have their advantages and 
weaknesses. Neither is a substitute for the other. We believe both 
testing approaches should be used and if properly conducted do no harm 
to the pipeline.
    Pipeline companies describe the difficulties with more frequent 
hydrostatic testing as follows. Such testing means they must stop 
shipping product to perform the test (unlike pig testing), and must 
purchase and then treat and dispose of large volumes of water, as well 
as fully removing water from the pipe after testing, in order not to 
contaminate the next petroleum products.
    Pipeline companies may also claim that hydrotesting is done at 
unrealistically high pressures, causing failures when none would occur 
during normal operation. We do not believe that this is true, as 
pipelines may fail at normal operating pressure for many reasons. It is 
also claimed that hydrostatic testing damages the line. That is 
possible if pressures are too high, but experts have told the City that 
properly controlled hydrostatic tests are ``non-destructive'' i.e. they 
cause no damage to the line. In fact, as evidence of its effectiveness, 
hydrostatic testing is the only test method that can currently 
determine certain defects. It is worth noting that before Olympic 
performed the required hydrostatic tests in Bellingham, they first did 
several repairs to anomalies on the line that smart pigging had 
previously identified. Even so, the hydrostatic test demonstrated 
additional pipe weaknesses when leaks occurred during the testing.
    The Federal Office of Pipeline Safety (OPS) which administers the 
national Pipeline Safety Act, is years and sometimes decades behind in 
implementing the recommendations of the National Transportation Safety 
Board (NTSB). OPS can, in many cases, act administratively but has 
often not done so. It is clearly an advantage that the safety body (the 
NTSB) is independent and reports directly to Congress, but a 
disadvantage that its recommendations are not mandatory.
    OPS is empowered to pick certain states to which it will hand off 
its authority and did so with a handful of states, including 
California, Minnesota, New York and Arizona. For reasons that are not 
clear, OPS subsequently decided that no more states would be granted 
this opportunity. States need the right to adopt more stringent safety 
requirements (that are also tailored to the local environs) than OPS 
has in place at present.
    Leak detection as I touched on earlier is another very important 
issue. There is no federal requirement for pipeline operators to use 
leak detection systems, and thus no standards for what would comprise 
adequate leak detection. At present, leaks are mainly noticed because 
of a drop in pipeline pressure. But if computers and gauges are not 
operating, a huge leak (hundreds of thousands of gallons) can go 
undetected for far too long. Olympic presently relies on pressure 
monitoring in the Renton control center, and over-flying the line every 
couple of weeks, to detect leaks. Independent, redundant leak detection 
systems are vital in highly populated and environmentally sensitive 
areas.
    Another leak detection problem relates to slow, persistent leaks. 
These are too small to be detected by the pressure gauges. But 
undetected for weeks, months, or even years, they, too, can contaminate 
groundwater with hundreds of thousands of gallons of petroleum product. 
For example, a persistent leak in Renton, Washington in 1986 was 
undetected for over one year and contaminated an aquifer that remains 
polluted to this day. The recently detected incident in Delware, where 
600,000 gallons leaked over twelve years again demonstrated this 
problem.
    In addition to the above, a review should be undertaken to insure 
that the pipeline system has proper overpressure protection safety 
equipment in place. Such equipment should not only prevent excess 
pipeline pressures, but also reduce unnecessary pressure cycling (i.e., 
pressure surges) that can significantly ``age'' a pipeline.
    Federal regulations are in place to protect workers and the public 
in or near facilities such as refineries and chemical plants. These 
regulations, however, do not protect the public living near pipelines. 
Pipelines are specifically exempted from such ``process safety 
management'' requirements intended to ensure that equipment is 
designed, maintained, and operated safely. One has to have plans 
reviewed and a permit issued to add a deck on a house. No such 
technical review or permit is required to build, modify or operate a 
pipeline.
    Many of the problems associated with pipeline safety could be 
addressed if pipeline operators were held to a standard to be tested 
for competency and certified to meet minimum qualifications. This is 
another area not at all uncommon in other critical industries that 
should be addressed for pipelines through federal legislation allowing 
states to do this.
    We support the legislation now before Congress: S. 2004 and HR 3558 
and encourage you to act now to pass these bills that will help stop 
the repeated preventable leaks and explosions that cause so much safety 
concern in our community.
    Again, thank you for your attention to these issues of vital 
concern to us.

    Senator Gorton. Mayor Asmundson and Bellingham were very 
fortunate in discovering an expired franchise and using that as 
leverage, Mayor Tanner spoke a little bit about the threat to 
cancel a franchise. How about, and I assume that franchise 
still has a considerable period of time left in its term, Mayor 
Tanner?
    Mayor Tanner. It's 1996, and it's for 10 years. With good 
conduct, it's extendable for another 10 years.
    Senator Gorton. How about Bellevue and SeaTac? What are 
your franchise lives?
    Deputy Mayor Marshall. Ours is expiring in 2004, so we will 
be looking very carefully at Bellingham's model agreement.
    Mr. Hoggard. The City of SeaTac happens to be lucky because 
management at Olympic Pipe Line didn't realize that they had 
let their franchise with us lapse. We as a new city thought 
we'd inherited a franchise that had been entered into with King 
County, but it had lapsed in 1995. Another indication, I think, 
of really the dereliction of management that they would allow 
that to happen, but we are looking forward to going through the 
same process that Bellingham went through.
    Senator Gorton. You've got a good example, don't you?
    Mr. Hoggard. Yes, we do, and we will use every bit of it.
    Senator Gorton. Tell me, you all have in your communities 
local pipelines that are intrastate in nature. Do you get 
better information and better cooperation with intrastate 
pipelines that are regulated by a state utilities and 
transportation commission than you do with the interstate ones?
    Mr. Hoggard. I can speak to the natural gas pipelines in 
the city. Yes, we do. We have better ongoing dialog. We see 
people from those utilities from time to time and have 
discussions with them about issues, and I think we generally 
enjoy a better working relationship with them. Olympic Pipe 
Line largely is an intrastate line. It just barely goes over 
the border of Washington into Portland.
    Senator Gorton. Uh-huh.
    Deputy Mayor Marshall. For months we asked Olympic Pipe 
Line for information. Receiving it was difficult at best. 
Finally, we asked our entire state delegation to breakfast in 
city hall, and we told them about our problem, and it took a 
letter signed by our state delegation to get Olympic Pipe Line 
to honor our requests.
    What we got was reams of information. Our staff got stacks 
of it. We termed it X's and O's. Just like Mayor Tanner has 
suggested, we had absolutely no way to interpret the data, so 
that's why we had to employ a consultant at great expense to 
the City of Bellevue so that we could understand what the 
information even stated, and even with all that data, I just 
want to say, we are powerless. We have no regulatory power. We 
have created a map for you. It's in your packet. We have 
citizens calling up, e-mailing us and saying, ``You know, I 
have to go to a school meeting or a pipeline meeting. One: I 
might lose my children entirely. They might die or I might have 
them going to a different school. What do I do?''
    Senator Gorton. Is there in your view a difference in risk 
and a different form of regulation appropriate for natural gas 
pipelines from liquid pipelines?
    Mayor Tanner. I think there's a difference. We get natural 
gas pipeline ruptures fairly regularly due to construction 
activity and so on, and thus far we have not had any--the gas 
company is completely responsive, just immediate response most 
of the time, and the, we don't think that the danger is there 
for the same----
    Senator Gorton. And by-in-large they're regulated by the 
state?
    Mayor Tanner. Yes.
    Mr. Hoggard. I might add in discussions with our fire 
personnel, one of the things they pointed out to me was with 
fuel like jet fuel or gasoline, you know, while it's under 
pressure, the first little bit that comes out vaporizes like a 
spray can. The rest will pool up, and of course, both the vapor 
and the liquid fuel is heavier than air and flows along the 
ground, and you've heard about the results of what occurs 
there, and natural gas, I don't believe, has that same 
characteristic, and so in many respects I think what we're 
talking about here is even more dangerous and does call for a 
higher level of regulation.
    Senator Gorton. Senator Murray?
    Senator Murray. Thank you, Mr. Chairman, and it really 
strikes me as I'm sitting here listening to four Mayors that 
because of the accident that occurred here, all of you know 
much more today than you did a year ago and are much more aware 
of your franchise agreements and getting information is as 
difficult as it has been. You've gotten some of it.
    It is so important that we pass national tougher standards 
of inspection and training and certification of our operators, 
because there are literally hundreds of mayors across this 
country who have no idea to look for what you've looked for. So 
I think it's extremely important that we pass national 
legislation to protect those who don't know to ask the 
questions that all of you are asking.
    One question I'd like to ask you is about the right to know 
provision that we put into the legislation. As I'm listening to 
you, you have begged and pleaded and asked for information. It 
sounds to me like you finally got it after exerting some 
pressure but it was not very understandable. What can we do to 
make sure that if we require this information to be made 
available to neighbors or local governments that it is put into 
language that is easily understood?
    Mayor Tanner. If I might respond to that, one of the things 
that could be done is to require that it be done in the form of 
a map similar to the map that we provided to you and similar to 
the map that Bellevue----
    Senator Murray. You created this from the information, 
technical information, they gave you?
    Mayor Tanner. Yes.
    Senator Murray. They did not give you the map?
    Mayor Tanner. No, they did not. They gave us, as she said, 
a stack of material and incomplete material, and after we got 
it, then we had to spend hours and hours and hours to produce 
these maps on the anomalies and defects.
    Mr. Hoggard. I think that it would be, the delegation to 
the state is an appropriate level for that, and in that 
expertise we would be looking for there, and we have contact 
with state people all the time on environmental issues and so 
forth, and I think with that expertise it would be sufficient. 
As you know, pipes sometimes are not buried where the company 
thought they were, and they can easily track that with GPS 
technology and so forth where they should readily be able to 
provide us information. By the way, SeaTac still does not have 
information about your anomalies and most of the other cities 
in western Washington do not.
    Senator Murray. The right to know provision is extremely 
important, and the companies need to know on a national level 
they would be required to provide that information to the 
communities.
    On the franchise agreement, Mr. Tanner, you talked about 
the franchise agreement you've put together but having trouble 
enforcing it. What can we do perhaps at the Federal level to 
help with the enforcement of franchise agreements?
    Mayor Tanner. I suppose it would require the delegation of 
authority to the local level--there's Federal preemption in 
franchise--and as far as I can determine is unenforceable if it 
conflicts with Federal law. We've got a tight franchise, but 
I'm still not sure that it would be enforceable. We'd try, of 
course.
    Senator Murray. Comments from any of the rest of the 
Mayors?
    Deputy Mayor Marshall. Just first of all, I want to thank 
you both for recognizing that public safety is the No. 1 
responsibility of government. That is what our citizens are 
begging for. They don't care about all the smart pigs and the 
hydrostatic testing. When I go to citizen meetings, they first 
and foremost ask me, ``Connie, am I safe? Are my kids safe?'' 
So we need your help in getting stricter Federal standards. If 
we can't, we have no power to enforce anything.
    You know, it's interesting, we have no authority to require 
testing. We asked our consultant if they knew of another 
accidents other than Bellingham that occurred in a city similar 
to ours, and we had a public hearing much like this in 
Bellevue, and he told us about an accident in Corona, 
California, and I'm sure you're aware of that, where a train 
wreck occurred, and it nicked the line. Those are some of the 
words we hear when we ask for information, nick, dent. You 
know, what does it mean? So Corona didn't have the ability to 
detect slow leaks either. The pipeline ruptured, and it 
destroyed two entire city blocks. Our citizens are scared. 
They're--like you said, there are other communities where 
citizens don't know about this. Our citizens are informed, and 
they're not coming to us and throwing rocks and saying, ``Do 
something.'' They're coming to us and saying two things. 
They're saying, ``What can we do to help you?'' We can, we have 
tons of engineers in Bellevue as you know because of Boeing. 
``What can we do to help you interpret the data?'' and ``How 
can we help you form the emergency response?'' They're not 
coming to us begging for us to do it all. They're coming to us. 
They're smart. They're informed, and they want to help us, and 
so we're, I'm just translating that information, because I feel 
so completely powerless to tell them, there's not much that I 
can do, but we can all write Senator Murray and Senator Gorton 
and support them, and that's what we asked them to do.
    So again thank you just so very much.
    Mr. Hoggard. With respect specifically to the franchise 
agreements, I think it would be helpful to require pipeline 
companies to enter into franchise agreements where they're 
operating on public rights-of-way and to require them to honor 
those agreements and, of course, I think we share the concern 
of Renton about the enforceability, and it really gives us a 
need for local enforcement powers. The reason that question 
comes up is because inevitably because there's so little if any 
Federal regulation. Anything you say in a franchise agreement 
is going to go beyond that, and so by having stronger Federal 
regulations, it will help us in our franchise agreements.
    Senator Murray. Very good. Thank you very much to all of 
you.
    Senator Gorton. Thanks to all of you for your testimony.
    We'll now hear from five representatives from state and 
Federal Governmental agencies.
    Again, I bring the hearing to order once again. Ms. Marilyn 
Showalter, the Chairwoman of the Washington State Utilities and 
Transportation Commission.
    You've gotten pretty good marks so far here today.
    Ms. Showalter. Thank you.
    Senator Gorton. I'd be happy to hear from you.

    STATEMENT OF MARILYN SHOWALTER, CHAIRWOMAN, WASHINGTON 
  UTILITIES AND TRANSPORTATION COMMISSION, OLYMPIA, WASHINGTON

    Ms. Showalter. Thank you, Senator Gorton and Senator 
Murray.
    I was appointed to the Washington Utilities and 
Transportation Commission as chair just a little over a year 
ago, so this Bellingham explosion came very soon after my 
appointment, and I will say that we have made pipeline safety 
one of our highest priorities since then.
    I'm a former deputy prosecuting attorney in the criminal 
division of the King County prosecutor's office. In fact, 
that's where I met the Governor, Governor Locke. We were 
prosecutors together, and as a former prosecutor, I firmly 
believe that laws on the books mean little if they are not 
enforced. Even the strongest rules are not effective unless our 
enforcement of them is thorough and consistent.
    I have provided the Committee with a detailed description 
of our safety program, but let me just highlight a few of the 
facts.
    You have, I hope, a yellow sheet. I made it yellow so that 
you could see it. Do they have that? I guess it's coming to you 
right now. It's actually a duplicate of what I've already put 
in the, what you can see there, since I think this can be 
confusing, is that the utilities and transportation commission 
regulates intrastate natural gas and hazardous liquids, and 
that is about in the case of gas, there are approximately 
17,000 miles of main lines, those are, generally speaking, the 
smaller lines--and 246 miles of transmission lines. We do not, 
as you know regulate interstate natural gas which is about 
1,700 miles. And then in hazardous liquids we regulate about 83 
miles of hazardous liquid pipelines. We do not regulate 777 
miles of interstate pipelines, but as you've heard, there is 
some interest on the part of OPS in delegating the interstate 
inspection authority to the state, so that if we had that 
authority, you can see from there that we would be helping the 
Federal Government inspect approximately, as I say, 1,700 miles 
of natural gas lines and 777 hazardous liquid interstate lines.
    Our program consists of six full-time safety engineers, and 
that is a 50 percent increase in the last year. We increased 
the number of engineers by two since I was appointed. We have 
about 80 combined years of pipeline safety experience. We spend 
about 500 days in the field inspecting pipelines and providing 
technical assistance to the operators.
    The program for pipeline safety costs about $700,000 a 
year. OPS pays 44 percent of this. That is the maximum 
available funding that any state can receive.
    In addition to inspecting pipelines, we also set safety 
standards for intrastate pipelines. In the case of gas, these 
standards are more stringent than the Federal guidelines, and 
these are in the areas of operations, maintenance, construction 
and reporting.
    In the case of hazardous liquids we only received our 
authority for intrastate and also from our state legislature in 
1998. So to get off the ground quickly, we adopted the Federal 
standards at that point, but we are intending to do a 
rulemaking and look at whether we should have more stringent 
standards for intrastate hazardous pipelines.
    In the past 9 months, we have done a number of things to 
improve pipeline safety. By the end of this month we expect to 
have completed with the Office of Pipeline Safety a 
comprehensive joint review and inspection of all interstate 
pipelines. This involves physical tests of leak detection 
systems, correction control, and other safety factors.
    One of the things this joint effort has given our state is 
some firsthand knowledge by our state engineers of the 
interstate facilities located within Washington. Also, I was 
appointed by the secretary of transportation to the technical 
hazardous liquid pipeline safety standards committee, which is 
an advisory committee to OPS, and in addition, one of our 
members served on the Governor's task force this past 9 months.
    As far as the future goes, we may get interstate authority, 
which would be a major undertaking. We, as I said, are 
reviewing both our gas and hazardous liquid intrastate rules to 
see if they should be made more stringent. We have done and 
will do a number of things to increase third party damage 
prevention. As you have probably heard, by far the largest 
cause of pipeline leaks and failures is third-party damage. In 
our state, for the years 1992 through 1998, third-party damage 
caused more pipeline leaks and failures than all other causes 
combined. We will be developing educational and promotional 
materials aimed at preventing third party damage. The new 
legislation that our legislature just passed directs us to 
establish a single one-call number. We now have six in the 
state, and the legislation also increases penalties for third 
party damage and failure to report. Finally, we are also 
seeking the legislature----
    Senator Gorton. Does it require an advance call for a 
location or does it simply just require a report after an 
accident has happened?
    Ms. Showalter. The bill would require, it increases the 
reporting requirements before you dig, and it also increases 
the reporting requirements if you have an accident.
    We are, the legislature also is setting up a procedure 
whereby we can do mapping of pipelines throughout the state, 
but it is a fairly costly proposition, and that will take some 
time to complete.
    Finally as you know, we have worked with the congressional 
delegation to seek increased authority from the Federal 
Government and increased standards, a bit of success of which 
we heard today.
    Thank you for the opportunity to testify and to underscore 
our commitment to public safety.
    [The prepared statement of Ms. Showalter follows:]

    Prepared Statement of Marilyn Showalter, Chairwoman, Washington 
      Utilities and Transportation Commission, Olympia, Washington
    Thank you Senator Gorton and distinguished members of the Committee 
for inviting me to testify on the vital issue of pipeline safety. The 
tragedy in Bellingham has served to focus attention on the need to 
ensure that pipeline safety laws and practices are the most effective 
they can be.
    Since I was appointed to the Commission just over one-year ago, I 
have made pipeline safety one of our highest priorities. As a former 
deputy prosecuting attorney I believe that having strong laws on the 
books means little if they are not enforced. This certainly is true in 
the case of pipeline safety. The strongest rules will not be effective 
unless our enforcement efforts are thorough and consistent.
    Today I will provide you with some background on the Commission's 
pipeline safety program, discuss our efforts over the past year to 
improve pipeline safety, and speak to several specific initiatives that 
are forthcoming.
    I have provided the Committee with a detailed description of our 
safety program. Let me highlight some important facts. The Commission 
is certified by the federal Office of Pipeline Safety (OPS) to adopt 
safety regulations for and inspect intrastate natural gas and hazardous 
liquid pipelines. Under that authority, we inspect nearly 17,000 miles 
of natural gas mains and nearly 250 miles of natural gas transmission 
pipelines. We do not inspect interstate natural gas transmission lines, 
which amount to slightly over 1,732 miles in Washington State. For 
hazardous liquids, we inspect slightly over 83 miles of pipelines but 
do not have authority to inspect the 777 miles of interstate hazardous 
liquid pipelines located within Washington State. In both cases, the 
interstate pipelines are under the jurisdiction of OPS.
    Our program consists of six full-time pipeline safety engineers, an 
increase of two since I came to the Commission. These inspectors have 
over 80 combined years of pipeline safety experience. Our inspectors 
spend almost 500 days in the field inspecting pipelines and providing 
technical assistance to operators. The program costs over $700,000 
annually to operate, of which OPS pays 44 percent under the 
certification program.
    In addition to inspecting pipelines, we also set safety standards 
for intrastate facilities. These state requirements are more stringent 
than the federal guidelines for natural gas companies. In 1998, our 
state legislature granted the Commission authority to inspect 
intrastate hazardous liquid pipelines. We adopted the current federal 
rules as our initial state standard. During this year, the Commission 
will review these rules and adopt additional requirements if needed.
    During the last year, we have also been active in a number of broad 
efforts to improve pipeline safety. Foremost among these, by March we 
expect to complete a comprehensive joint review and inspection of all 
interstate pipelines in the state with OPS. Our pipeline safety 
engineers have been in the field with OPS inspectors conducting 
physical tests of leak detection systems, corrosion control, and other 
vital safety factors. This joint program has given our pipeline safety 
engineers detailed first-hand knowledge of the interstate facilities 
located within Washington.
    In addition was appointed by the Secretary of the United States 
Department of Transportation to the national Office of Pipeline Safety 
Technical Oversight Committee. Our policy director was a member of the 
Governor's Fuel Accident Prevention and Response Team. We also have 
worked closely with the Governor's office, the legislature, and other 
agencies on pipeline safety legislation.
    The aim of all of these efforts is to improve pipeline safety. Our 
commitment to this goal is substantial and increasing. We will be 
active agents in seeking to implement the Governor's recommendations 
for improved pipeline safety, and in ensuring that the laws are 
enforced.
    The review process that followed the Bellingham accident identified 
a number of steps that can be taken to further improve pipeline safety. 
Some of these can be accomplished under current authority and funding, 
others will require legal changes and additional resources.
    As I mentioned earlier, we are currently reviewing our pipeline 
safety rules for both natural gas and hazardous liquids to make sure 
they are sufficient. As part of this review we plan to require that 
operational safety plans be submitted to the Commission. This will help 
ensure that pipeline operators are translating the requirements of the 
rules into daily operating practice.
    We will increase our efforts to prevent third-party damage to 
pipelines. Third-party damage, primarily through excavation, is by far 
the largest cause of pipeline leaks and failures. In fact, for the 
years 1992 through 1998, third-party damage caused more pipeline leaks 
and failures than all other causes combined. We are working with 
industry and other government agencies to develop educational and 
promotional materials aimed at preventing third-party damage. We have 
also been active in efforts to establish a single, statewide ``one-
call'' system for pipeline locator services, and to increase penalties 
for third-party damage. We want to make industry and the public more 
aware to the problem of third-party damage, to make it easier to locate 
pipelines, and to better enforce requirements to use locator services. 
Finally, we have been strong advocates for ``one-call'' centers to 
adopt minimum operating standards and ``best practices,'' designed to 
improve consistence and quality.
    We are seeking funding for a mapping program that will make it 
easier for emergency response personnel to respond to pipeline 
incidents. A funding plan will be completed this year, with the aim of 
having a mapping system complete by the end of 2005.
    Finally, we are working with our congressional delegation to seek 
changes in federal law to ensure that state and federal pipeline safety 
efforts support each other and allow more frequent and thorough 
inspections.
    I appreciate the opportunity to testify before you today, and to 
underscore our commitment to improved pipeline safety.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                    Washington State Pipeline Safety Program
----------------------------------------------------------------------------------------------------------------
                                                                            Gas              Hazardous Liquids
                             Subject                             -----------------------------------------------
                                                                  INTRAstate  INTERstate  INTRAstate  INTERstate
----------------------------------------------------------------------------------------------------------------
Miles                                                             17,120 \1\  1,732 \2\         83         777
----------------------------------------------------------------------------------------------------------------
Delegated Authority from OPS                                           Yes          No     Yes \3\          No
----------------------------------------------------------------------------------------------------------------
Standards
<bullet> Meets Federal Requirements                                    Yes          --         Yes          --
<bullet> Stricter than Federal Requirements                            Yes          --          No          --
----------------------------------------------------------------------------------------------------------------
Inspection Authority                                                   Yes          --         Yes          --
----------------------------------------------------------------------------------------------------------------
Enforcement Authority                                                  Yes          --         Yes          --
----------------------------------------------------------------------------------------------------------------
Funding for 1999
<bullet> Revenue from Regulatory Fees                               $1.2 M          --     $33,950          --
<bullet> Federal OPS Grant                                            .2 M          --      42,800          --
                                                                 ------------            ------------
    TOTAL                                                           $1.4 M          --     $76,750          --
----------------------------------------------------------------------------------------------------------------
Staffing                                                           5.5 FTE          --      .5 FTE          --
----------------------------------------------------------------------------------------------------------------
\1\ 16,874 miles/main; 246 miles/transmission.
\2\ Transmission miles only.
\3\ Hazardous Liquids authority was granted for common carriers in 1996; and private carriers in 1998.


           washington utilities and transportation commission
                        pipeline safety section
                                overview
Regulatory Framework
    In 1968, Congress passed the Natural Gas Pipeline Safety Act, now 
called the Pipeline Safety Law, 49 U.S.C. Section 60101 et seq. Section 
60102 of the Pipeline Safety Law describes the general authority of the 
Secretary of Transportation. The Law gives the federal government 
Office of Pipeline Safety (OPS) authority over pipeline safety for 
transporting hazardous liquids, natural, and other gases. The intent of 
the Law is for states to assume responsibility for intrastate pipeline 
safety, while the federal government retains responsibility for 
interstate pipeline safety. A state may participate in the federal 
program by certification or agreement as noted below:

        <bullet> Section 60105 State pipeline safety certification 
        program.
        <bullet> Section 60106 State pipeline safety agreement.
Section 60105
    The Washington Utilities and Transportation Commission (Commission) 
participates under an annual certification program Section 60105. The 
certification allows the Commission to have pipeline safety regulations 
and in-state enforcement authority for companies operating intrastate 
pipelines. A state may adopt additional or more stringent safety 
standards as long as the standards are compatible with the federal 
minimum standards. The Commission's state authority for pipeline safety 
is:

        <bullet> Chapter 80.28.210 RCW for natural gas, and;
        <bullet> Chapter 81.88 RCW for hazardous liquids.

    The Commission's pipeline safety regulations are found under the 
Washington Administrative Code (WAC):

        <bullet> WAC 480-93 Gas Companies, and
        <bullet> WAC 480-75 Petroleum Pipeline Companies including 
        Hazardous Liquids (carbon dioxide and anhydrous ammonia).

    With the certification in place, the Commission's engineers will 
inspect the following companies:

    Intrastate Natural Gas Companies--16,874.0 miles/main, 246.3 miles/
transmission

        <bullet> 4 public service companies
        <bullet> 3 municipalities
        <bullet> 1 propane gas distribution company
        <bullet> 2 propane/air plants
        <bullet> 7 direct sales
        <bullet> 250+ master meter/small gas systems

    Intrastate Hazardous Liquids Companies--83.4 miles pipelines

        <bullet> 1 Common Carrier
        <bullet> 6 Private Carriers
Section 60106
    A state may participate under an agreement with the federal agency 
under Section 60106 for companies that have intrastate or interstate 
pipelines. The agreement allows the state to act as an agent of the 
federal Office of Pipeline Safety. As agents, state engineers will do 
the inspections, complete the audits, and file any probable violations 
with the federal office for enforcement. With an agreement, the federal 
office directs compliance and enforcement.
    The Commission's rules do not apply to interstate companies:

    Interstate Natural Gas--1732.1 miles transmission

        <bullet> 3 Transmission Companies
        <bullet> 1 Liquefied Natural Gas Facility
        <bullet> 1 Gas Storage Field

    Interstate Hazardous Liquids--777.0 miles

        <bullet> 4 Trunk lines
        <bullet> 1 Break Out Tank Company
Pipeline Safety Responsibility
Federal Program--Office of Pipeline Safety
    Protecting people and our environment from the risk of pipeline 
incidents is the responsibility of OPS. This work is shared with state 
agencies through certification, agreement, or both. OPS administers a 
range of regulatory protections on several phases of pipeline design, 
construction, operation and maintenance, research, development, risk 
management, and damage prevention. The technical Pipeline Safety 
Standards Committee and the Technical Hazardous Liquid Pipeline Safety 
Standards Committee are part of the OPS program. The committees provide 
peer review for carrying out the requirements of the Pipeline Safety 
Law. The committee may propose safety standards for gas and hazardous 
liquids to the US Secretary of Transportation. The committee reviews 
each of the new standards. OPS also requires pipeline companies to plan 
for spills or leaks and to test their emergency preparedness through 
planned exercises and other drills. Key to any pipeline safety program 
is Emergency response by the operator and coordination with local 
police and fire department. OPS provides training and technical 
assistance to pipeline companies through the Transportation Safety 
Institute (TSI) using formal class training and local in-state 
seminars. TSI also provides education for federal and state inspectors. 
OPS is implementing a damage prevention study and from that study has 
identified a list of ``best practices'' to prevent excavation damage.
Washington Utilities and Transportation Commission's Pipeline Safety 
        Program
    The primary mission of the Pipeline Safety Section of the 
Washington Utilities and Transportation Commission is to inspect 
pipeline companies and ensure that they are protecting public safety 
concerning the transportation of natural gas and hazardous liquids. 
This is accomplished through a commitment to maintaining well-qualified 
and trained inspectors, field audits, and more stringent rules where 
required. The Commission currently has six pipeline safety engineers, 
including two additional full-time engineers authorized in 1999. The 
inspectors have over 80 years of combined pipeline safety experience.
    Each inspector is responsible for field inspections. Typical 
inspections may include construction, standard, and specialized 
reviews; operations and maintenance reviews; follow-up audits; 
responding to incidents; and on-site training for operators.
    The Commission has adopted more stringent regulations than the 
federal minimum safety standards for natural gas companies. These items 
include:

        <bullet> filing construction plans,
        <bullet> proximity and proscribed area reviews for new pipeline 
        operating over 250 psig,
        <bullet> telephonic and written incident reports,
        <bullet> increased frequency of leak surveys depending on type 
        of materials,
        <bullet> installing cathodic protection within 90 days of 
        construction,
        <bullet> classifying all leaks by grade,
        <bullet> required leak repair schedules.

    The Commission was asked to participate, by the federal Office of 
Pipeline Safety, in the hazardous liquids program, and staff started 
the program with authority over one common carrier on January 1, 1996. 
Legislation for private hazardous liquid carriers was granted and 
became effective in 1998, and the Commission on January 30, 1999 
adopted the WAC, at the minimum federal standard. A Commission priority 
for the year 2000 includes additional rules for the hazardous liquids 
program. There have not been any serious incidents or major spills on 
the intrastate pipelines since the Commission started the liquids 
program in January 1, 1996.
Pipeline Safety Funding
    A Pipeline Safety User Fee funds the federal pipeline safety 
program. Section 60301 of 49 U.S.C. authorizes the assessment and 
collection of fees. Each operator of regulated interstate and 
intrastate natural gas transmission and hazardous liquid pipeline 
companies pay a share of the cost of the program based on the number of 
miles of pipeline. In 1999, the State's appropriation for the combined 
natural gas and hazardous liquid grant program was $13,000,000 for the 
base program and $1,000,000 for damage prevention grants. The maximum 
that a state could receive for 1999 calendar year is 44%. Grant funds 
are reduced where states do not meet certain jurisdictional and 
performance requirements and do not have monetary sanctions equal to 
the federal requirements. Washington's program received the maximum 
funding level.
Commission Estimated Pipeline Safety Cost
    The Commission requested $540,000 for the natural gas and $42,586 
for the hazardous liquid program for 1999. The Commission has been 
authorized to receive the maximum 44% of program cost. The remainder of 
the Commission safety program is funded by intrastate fees assessed to 
the utility and common carriers regulated by the Commission.


         Pipeline Safety Program--1999 Cost and Grant Allocation
------------------------------------------------------------------------
                                                   Grant      Commission
                                    Total Cost   Allocation      Cost
------------------------------------------------------------------------
Natural Gas                          $650,127     $238,161     $411,966
Hazardous Liquid                      $78,389      $37,564      $40,825
------------------------------------------------------------------------


Pipeline Safety Focus
    The Commission's Pipeline Safety Section continues to focus on 
prevention of pipeline leaks. There are five main reasons for natural 
gas pipelines to leak or fail. They are third-party excavation, 
corrosion, construction, material defects and outside force. Other 
causes of failure include cast iron bell-joint leaks and human error. 
Attached are two charts on Gas Distribution Main and Service leaks, and 
Third-Party Damage to Mains and Services. The leading cause of pipeline 
failures is excavation damage, causing 58% of all leaks in Washington 
State in 1998. When comparing mains to service lines, the damage to 
service lines represents 82% of third-party damage and mains at 18%. 
Construction equipment contacts with pipeline can create pipe gouges, 
dents, scrapes, and cracks. This damage may appear benign at first, but 
over time, can grow and lead to catastrophic failure. The cost of 
repair, property damage, and relighting costs has ranged from $234 to 
over $350,000. The volume of gas or liquid lost or dollar cost for 
repair may not be an accurate measure of safety. For example:

        A local gas company reported that an excavation contractor was 
        installing a telephone line under a residential driveway. The 
        crew was using an excavation tool called a hole hog that hit 
        and damaged a gas conduit and a \5/8\-inch polyethylene service 
        line. The damage caused gas to leak from the pipeline. The 
        excavator did not call the local gas company or the fire 
        department to report the damage or gas leak. A person passing 
        by the site smelled gas odor and reported it. The local gas 
        company and fire department responded on August 12, 1998, and 
        found the leak over the backfilled driveway. The gas company 
        removed the backfill and discovered a service line leak that 
        was wrapped with a gum-covered rag placed around the pipe! The 
        contractor's crew had dug up the drive, exposed the leaking gas 
        line, and attempted to stop the leak with a rag. The cost of 
        repair was $800 including overtime charges. The potential for 
        serious injuries and property damage was significant.

        On March 5, 1996, in a similar incident, an excavator using the 
        same type of equipment hit a gas line. The escaping gas 
        migrated under the driveway, into the attached garage of a home 
        and ignited, resulting in an explosion and fire. The house and 
        four vehicles were destroyed, with damage estimated to be 
        $350,000. The excavator was digging in a joint trench without 
        first determining the precise location of the gas line. Any 
        uncontrolled leak has potential for serious injuries and large 
        property damage. Prevention is key to pipeline safety.
Washington State Damage Prevention Statute, Chapter 19.122 RCW
    Washington State has a damage prevention law found in Chapter 
19.122 RCW. The intent of the statute is to assign responsibilities for 
the location and record keeping of utility location, protection and 
repair of damage to existing underground facilities, and protection of 
the public health and safety from interruption in utility services 
caused by damage to underground utility facilities. The statute 
provides for civil penalties of $1,000 for each violation and provides 
for treble costs incurred in repairing or relocating the facility.
    The statute requires underground facility owners to join a locator 
service (One-Call Center). The locator service was set up so that an 
excavator could call a single number and all underground facility 
owners would be notified of the planned excavation. The statute 
requires that excavators call two business days before they plan to 
excavate, giving the utilities time to respond and surface mark their 
underground facilities. Six locator services (Call Centers) operate in 
Washington today. Most states (80%) have a single center and a few 
states have two centers but no more than three centers. A single-call 
center could handle all of Washington State's call requests, which are 
estimated to be about 260,000 per year.

Easements and Rights-of-Way
    Permits for land use and rights-of-way for pipelines generally fall 
under the local jurisdiction of cities or counties and for major 
projects the Energy Facility Site Evaluation Council. Easements and 
rights-of-way are not usually considered a pipeline safety regulation 
and therefore the preemption of the Pipeline Safety Law Section 60104 
does not apply. Cities and counties can control where the pipelines are 
located but are restricted from having pipeline safety regulations. The 
Commission has natural gas pipeline regulations (WAC 480-93-020 and WAC 
480-93-030) that require an intrastate company to file for approval to 
operate a high-pressure pipeline above 250 psig near people or 
buildings. These regulations do not and cannot restrict persons from 
building near a pipeline.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Gorton. Thank you.
    Mr. Stohr from the State Department of Ecology.

 STATEMENT OF JOE STOHR, SPILL PROGRAM MANAGER, DEPARTMENT OF 
                  ECOLOGY, OLYMPIA, WASHINGTON

    Mr. Stohr. Thank you Senator Gorton and Senator Murray.
    My name is Joe Stohr, and I manage the oil spill 
prevention, preparedness and response program within the State 
Department of Ecology, and was also a member of the Governor's 
task force.
    I've been asked to come and give you a brief synopsis of 
three different areas: First the response to the Olympic oil 
spill on June 10th, 1999, second to comment on actions that 
were taken in the aftermath, and then briefly describe to you 
our regulatory relationship with the Olympic Pipe Line Company.
    Let me first begin by clarifying that my agency's response 
to spills is from an environmental perspective so in the case 
of the tragic explosion and the fire at Bellingham, our role 
initially took a back seat, and rightly so, to the fire service 
and their public safety operations.
    Over the years we've responded to a number of large 
petroleum spills in our state, and our assessment of these 
emergency responses typically centers around an evaluation of 
command and control. You can imagine how challenging it is to 
rapidly mesh together multiple local, state and Federal 
agencies along with multiple private companies into a cohesive 
organization in a matter of hours under emergency conditions.
    Ecology was very pleased with the speed and selflessness 
with which the unified command structure was formed and how 
quickly the emergency operations center was activated in 
downtown Bellingham. The unified command for environmental 
response, not to be confused with the fire fighting response, 
formed within approximately 3 hours of the explosion. It was 
made up of representatives of the City of Bellingham, the State 
Department of Ecology, the U.S. Environmental Protection Agency 
and the Olympic Pipe Line Company. In addition, there were 
literally dozens of public agencies and private companies that 
were integrated into this unified command structure.
    During those first few days of the incident, this command 
operated in the background as the Bellingham Fire Department 
maintained command of the fire zone to ensure site safety and 
determine when it was safe for environmental clean-up efforts 
to begin. There were no arguments about this nor were there any 
significant organizational problems for the duration of the 
unified command's handling of the environmental clean-up phase 
of the agency. This effort worked well.
    In terms of the aftermath and the restoration, biologists 
continue to work with the pipeline company to restore Whatcom 
Creek. For a distance of one-and-a-half miles, all forms of 
life in or near the creek were killed, and in addition 
everything in the creek itself, was killed from the ignition 
point to three miles downstream where it empties into the sea.
    After the accident, a joint restoration committee was 
immediately formed of local, state and Federal agencies. The 
committee's charge was to identify short-term actions necessary 
to rehabilitate the stream and allow for the return of salmon 
and other species.
    The Olympic Pipe Line Company was responsive in carrying 
out these actions which included conducting various studies and 
monitoring programs, removing residual gas from the sediments, 
containing further seepage, increasing spawning habitat, 
hydromulching of sensitive areas to prevent erosion, and 
developing a draft long-term restoration plan which we should 
see soon.
    In terms of our regulatory relationship with Olympic Pipe 
Line, in contrast to the team approach immediately following 
the accident, our regulatory relationship with the company has 
not always been positive. Again, the Department of Ecology's 
current authority resides in the enforcement of environmental 
statutes, and the Olympic Pipe Line Company historically has 
had a poor performance record in these areas.
    Some examples include difficulties in getting the company 
to submit a quality contingency plan for oil spills, reluctance 
by the company to discuss spill prevention issues along the 
main stem of the pipeline, the occurrence of over 50 oil spills 
of over 825,000 gallons resulting in the assessment of a 
hundred and fifty thousand dollars in penalties in addition to 
assessments for natural resources damages, a general lack of 
attention to spill prevention or response in the recently 
withdrawn proposal to extend the existing pipeline to eastern 
Washington, and I guess our perception that the company's 
corporate culture didn't understand the need for spill 
prevention and preparedness, and in fact, were far outside 
industry norms in these areas. So the bottom line here is a 
lack of change to this culture will probably lead to further 
significant problems.
    On the positive side----
    Senator Gorton. Could I stop you there. You said in your 
view, they're far beyond industry norms. That implies that most 
of the rest of the industry, other companies have enforced on 
themselves higher standards than Olympic does in your view.
    Mr. Stohr. In this state, that's certainly the case, 
Senator.
    Senator Gorton. OK. Go ahead.
    Mr. Stohr. On the positive side, recent changes in Olympic 
Pipe Line management are welcome, and we see initial progress 
being made to increase the focus on environmental protection. 
We hope this trend continues.
    That ends my comments and thank you for allowing us to be 
here.
    [The prepared statement of Mr. Stohr follows:]

 Prepared Statement of Joe Stohr, Spill Program Manager, Department of 
                      Ecology, Olympia, Washington

    Senator Gorton, members of the subcommittee, my name is Joe Stohr. 
I manage the Oil Spill Prevention, Preparedness and Response Program 
for the Washington State Department of Ecology. I have been asked to 
give you a brief synopsis of the response to the Olympic Oil Pipe Line 
Company, spill of June 10, 1999, comment on actions taken in the 
aftermath and briefly describe our regulatory relationship with the 
Company.
    If I may, let me begin by clarifying that my agency responds to 
spills from an environmental perspective. In the case of the tragic 
explosion and fire in Bellingham, our role obviously took a back seat 
to the fire service and their public safety operations and in my 
characterization of the incident response I won't be speaking to the 
fire fighting and rescue aspects.
    That said, I will add that we have responded to a number of large 
petroleum spills in our state, and our assessment of these emergency 
responses typically centers on an evaluation of command and control. It 
is quite challenging to rapidly mesh multiple local, state and federal 
agencies, as well as multiple private companies, into a cohesive 
organization in a matter of hours under emergency conditions. To pull 
this off, emergency responders nationwide subscribe to a standard 
organizing principle called the incident command system, and in this 
case, a variation called unified command.
    In short, the department of Ecology was pleased with the speed and 
selflessness with which the unified command structure was formed, and 
the emergency operations center activated in downtown Bellingham. The 
unified command for environmental response (not to be confused with the 
fire fighting response) formed within approximately three hours of the 
explosion. It was made up of representatives 
of the City of Bellingham, the State Department of Ecology, the U.S. 
Environmental Protection Agency and the Olympic Pipe Line Company. 
Ultimately, dozens of public agencies and private companies were 
integrated into this unified command structure.
    During the first few days of the incident, this unified command 
operated in the near background as the Bellingham Fire Department 
maintained command of the fire zone to ensure site safety and determine 
when it was safe for environmental clean up efforts to begin. There 
were no arguments about this, nor were there significant organizational 
problems for the duration of the unified command's handling of the 
environmental clean up phase of the emergency.
    In Bellingham, we believe the strengths of the environmental 
response include:

        <bullet> A collaborative style of decision making in the 
        unified command partnership
        <bullet> Full participation and integration of local elected 
        officials, minimizing political conflicts
        <bullet> Successful tapping of statewide and nationwide 
        resources

    We believe the lessons learned include:

        <bullet> The need for incident command training for peripheral 
        agencies and companies.
        <bullet> The need to smoothly integrate site safety plans into 
        response operations.
        <bullet> The need to smoothly transition the emergency clean up 
        to the long term restoration of the damage to natural 
        resources.
Aftermath
    In the aftermath of this gasoline spill and fire, biologists are 
working with the pipeline company to restore Whatcom Creek. For a 
distance of one and one-half miles, all forms of life in or near the 
creek were killed. Additionally, everything in the creek itself was 
killed from the ignition point to three miles downstream where it 
empties into the sea.
    After the accident, a Joint Restoration Committee was immediately 
formed of local, state and federal agencies. The Committee's charge was 
to identify short-term actions necessary to rehabilitate the stream and 
allow for the return of salmon and other species. The Olympic Pipe Line 
Company was very responsive in carrying out these actions which 
included:

        <bullet> conducting various studies and monitoring programs;
        <bullet> removing residual gas from the sediments;
        <bullet> containing further seepage;
        <bullet> increasing spawning habitat;
        <bullet> hydromulching of sensitive areas to prevent erosion; 
        and
        <bullet> developing a draft long-term restoration plan which we 
        should see soon.

    In contrast to the team approach immediately following the 
accident, our regulatory relationship with the Company has not always 
been so positive. Again, the Department of Ecology's current authority 
resides in the enforcement of environmental statutes and the Olympic 
Pipe Line Company historically has a poor performance record in these 
areas. Some examples include:

        <bullet> difficulties in getting the Company to submit a 
        quality contingency plan for oil spills;
        <bullet> refusal by the Company to discuss spill prevention 
        issues along the mainstem of the pipeline;
        <bullet> about 50 oil spills of over 825,000 gallons resulting 
        in the assessment of $150,000 in penalty in addition to 
        assessments for natural resource damages;
        <bullet> a general lack of attention to spill prevention in the 
        recently withdrawn proposal to extend the existing pipeline to 
        Eastern Washington; and
        <bullet> our perception that the Company's corporate culture 
        didn't understand the need for spill prevention and 
        preparedness and in fact were far outside industry norms in 
        these areas.

    On the positive side, recent changes in Olympic Pipe Line 
management are welcome and we see progress being made to increase the 
focus on environmental protection. We hope this trend continues.
    That concludes my remarks.

    Senator Gorton. Mr. Felder, we appreciate you coming all 
the way across the country to testify for us, and we want very 
much to hear your testimony.
    Your agency has obviously been criticized fairly roundly 
during the course of the day, and I hope that you will not only 
give 
us your formal testimony but make some kind of response to that 

critique.

STATEMENT OF RICHARD B. FELDER, ASSOCIATE ADMINISTRATOR, OFFICE 
       OF PIPELINE SAFETY, RESEARCH AND SPECIAL PROGRAMS 
       ADMINISTRATION, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Felder. Thank you, Senator Gorton.
    First, I'd like to thank Chairman McCain and you, Senator 
Gorton, for the invitation to speak to the Committee today.
    My name is Rich Felder. I'm the Associate Administrator for 
pipeline safety in the Research and Special Programs 
Administration at the U.S. Department of Transportation (DOT).
    On behalf of Secretary Rodney Slater, Administrator Kelly 
Coyner, and the rest of DOT, I'd like to express our 
condolences to the families of Wade King, Stephen Tsiorvas, and 
Liam Wood. No community or family should have to suffer the 
loss that you all have experienced. I hope the steps the 
department is taking and will be taking to respond to this 
incident and to prevent others like it may bring this community 
and these families some comfort.
    The experience of this incident has caused all of us to 
redouble our efforts to prevent such incidents from occurring. 
In addition, I'd like to thank Senator Murray and Senator 
Gorton for the extraordinary cooperation and assistance that 
they and their staff have provided since this tragic event. 
Both have shown great interest in our program and ways to 
improve the level of pipeline safety in Bellingham, in the 
State of Washington, and throughout the nation.
    To respond to the tragic incident that took place here last 
year, the department has worked closely with the State of 
Washington and affected communities. We understand the need for 
immediate response and answers following such an incident, and 
we are working to provide the community with the assurance that 
they need.
    We brought the latest technology to bear in assessing this 
pipeline. We've worked to restore public confidence, but 
clearly we have a long way to go. We have required immediate 
corrective action. We've maintained continuous oversight and 
have assigned a permanent inspector to Washington State. We are 
committed to long-term corrective action based on our 
investigation findings and the findings of the NTSB. We will 
continue to work with the safety board, with the Department of 
Justice, the City of Bellingham, and Washington State in taking 
enforcement action. The line has been shut down, and we will 
not allow it to reopen until all safety concerns have been 
satisfied.
    Our corrective action plan is comprehensive. We've required 
reduced pressure on the entire system which provides the same 
margin of safety as a pressure test. We required pressure 
testing of portions of the line. We required improvements to 
valves and the computerized pressure control system. We've 
required additional training with particular attention to 
qualification of controllers. We assessed the ability of the 
pipeline to withstand maximum pressure that could buildup in 
case of a valve closure. We are requiring internal inspection 
of the line. It is the testing which we believe will provide 
the best possible information on any condition that could 
affect future safety. We will require repair, replacement or 
hydrostatic testing as appropriate for any such conditions. We 
want to work with the State of Washington, local communities, 
and other interested stake holders in every possible way to 
assure your concerns are addressed.
    We're working with the Washington Utilities and 
Transportation Commission in a comprehensive review of all 
pipelines in the State of Washington. We are also developing a 
state-wide map and inventory of all pipeline facilities which 
will be made publicly available with our report this spring. 
The information these communities are looking for will be 
contained in that report. We believe this effort will provide 
additional assurances for citizens here because we will address 
all aspects of pipeline safety.
    The department has learned a number of lessons from the 
unfortunate experience in Bellingham that will benefit our 
long-term plan for the national pipeline safety program. We are 
committed to continuously improving the pipeline safety program 
to better address risks to public safety and the environment. 
Our goal is to prevent incidents like Bellingham from ever 
happening again. The new regulation we're proposing this month, 
and it will be out by the 30th of March, will require operators 
to test their pipelines. That's mandatory testing, and develop 
a safety plan based on assessing all available safety and 
damage prevention information----
    Senator Gorton. How long will they have to develop that 
plan?
    Mr. Felder. They'll have a year to develop the plan, and 
they'll develop it under our watchful eye.
    Secretary Slater has set a goal of reducing by 25 percent 
incidents caused by excavation damage, the leading cause of 
pipeline failures. We are addressing the human side of the 
pipeline equation by implementing a comprehensive operator 
qualification regulation. Building on what we've learned from 
working with Governor Locke's Fuel Accident and Prevention 
Response Team and from meetings with city and state officials, 
in fact, I met with the city council of Bellevue on Friday, the 
department will help communities better protect pipelines and 
be informed about the effectiveness of each company's safety 
programs.
    We are pleased that the Washington State Utilities 
Commission Chair, Marilyn Showalter, has joined our pipeline 
safety advisory committee. We believe there are opportunities 
to work better with organizations at the community level that 
are broadly representative of community needs and capable of 
making informed decisions about the adequacy of pipeline safety 
and a community's prevention options.
    We're working with SAFE Bellingham, the National League of 
Cities and other public interest groups to pilot test new 
approaches to improving communications among communities, 
operators, and regulators.
    Finally, we emphasize our commitment to state partnerships, 
to providing adequate resources to support state programs and 
to finding better ways of involving states in promoting 
activities that enable communities to live safely with 
pipelines.
    These activities include identifying local concerns, 
investigating those concerns, and identifying ways communities 
can better protect themselves and the pipelines that traverse 
them.
    In closing, we renew our commitment to this 
Administration's and Secretary Slater's No. 1 transportation 
goal, safety, and we pledge continuous improvement in 
protecting both the public and the environment.
    President Clinton's budget for next year seeks an 
unprecedented level of resources for the pipeline safety 
program. This increase targets the leading causes of pipeline 
failures and includes a 50 percent increase in grants to 
states. With these resources we will work together and produce 
the level of safety and environmental protection that 
communities deserve.
    Thank you.
    [The prepared statement of Mr. Felder follows:]

   Prepared Statement of Richard B. Felder, Associate Administrator, 
       Office of Pipeline Safety, Research and Special Programs 
           Administration, U.S. Department of Transportation
    I would like to thank Chairman John McCain and Senator Slade Gorton 
for the invitation to speak to the Committee today. My name is Richard 
B. Felder and I am the Associate Administrator for the Office of 
Pipeline Safety (OPS) in the Research and Special Programs 
Administration (RSPA), U.S. Department of Transportation (DOT). I speak 
to you today to describe our ongoing efforts to respond to last year's 
tragic pipeline incident here in Bellingham. In addition, I will 
describe the pipeline safety program's efforts to keep American 
communities safe, including our recent work to prevent failures, to 
enhance environmental protection, to improve data and public access to 
information, and to respond to emergencies.
    On behalf of Secretary Rodney E. Slater, Administrator Kelly S. 
Coyner and the rest of DOT, I would like to express our condolences to 
the families of Wade King, Steven Tsorvias, and Liam Wood, and all 
families around the country that have experienced a similar loss. No 
community should have to suffer the loss that this community has 
experienced, and no family should have to suffer the loss that these 
families have experienced. I hope the steps RSPA is taking to respond 
to this incident and to prevent others like it may bring this community 
and these families some comfort. The experience of this incident has 
caused all of us to redouble our efforts to prevent such incidents from 
occurring.
    In addition, I would like to thank Senator Murray and Senator 
Gorton for their profound cooperation and assistance that they and 
their staff have provided since this horrible accident. Both have shown 
great interest in our program and in ways to improve the level of 
pipeline safety in Bellingham, Washington, and throughout the nation.
Responding to Bellingham
    To respond to the tragic incident that took place here last year, 
RSPA has worked closely with the State of Washington and the affected 
communities. We understand the need for an immediate response and 
answers following such an incident, and we are working to provide the 
community with the assurance they need.
    We have brought the latest technology to bear in the Department's 
assessment of the Olympic pipeline. While we have worked in the short-
term to restore public confidence, RSPA expects our long-term actions 
to produce significant safety outcomes, and I will address those today. 
In the short-term, RSPA has required immediate corrective action. We 
have maintained continuous oversight and have assigned a permanent 
inspector to Washington State. We are committed to assuring long-term 
corrective action based on investigation findings. RSPA continues to 
work closely with the National Transportation Safety Board, the 
Department of Justice, the City of Bellingham and Washington State. We 
will continue to take enforcement action as warranted, pending the 
results of the investigation. The pipeline has been shut down and 
Administrator Coyner has been clear and firm in her resolve that it 
will not reopen until all safety concerns are satisfied.
    Our corrective action plan is comprehensive. RSPA has required 
reduced pressure on the entire system. This provides the same safety as 
pressure testing because it reduces the pressure on the pipeline to the 
same degree that the pressure test increases the pressure on the 
pipeline, thereby providing the same safety margin. In addition, RSPA 
required hydrostatic pressure testing on appropriate portions of the 
line and improvements to valves and the computerized pressure control 
system. We have required additional training, with particular attention 
to the qualification of controllers. RSPA conducted a design review, 
including assessing the ability of the pipeline to withstand the 
maximum pressure that could build up in case of valve closure. RSPA 
required diagnostic tests on the pressure control system.
    RSPA required internal inspection of the line. This testing will 
provide extensive information on the current condition of the line and 
we believe it will provide the best possible way to detect any 
conditions which could threaten future safety. RSPA will require 
repair, replacement, or further hydrotesting as appropriate, for any 
defects identified.
    To conduct the additional testing, the line must be put back in 
operation during the testing. This will be done at a reduced pressure. 
Before this occurs, however, RSPA will assess the current condition of 
the line and the ability of Olympic Pipe Line Company to operate 
safely. We are close to finalizing our review. After the additional 
testing is conducted, the line will once again be taken out of service 
until the Department is satisfied that the line can be safely operated. 
RSPA will continue to work with the State of Washington, local 
communities, and other interested stakeholders in every possible way to 
assure your concerns are addressed.
Comprehensive Statewide Inspection
    On October 27, 1999, Secretary Slater directed the Office of 
Pipeline Safety to work with the Washington Utilities and 
Transportation Commission (UTC) in conducting a comprehensive review of 
all pipelines in the State of Washington. To this end, OPS is assessing 
the safety level of all aspects of pipeline performance, and developing 
a statewide map and inventory of all pipeline facilities which will be 
made publicly available. RSPA believes this effort will provide 
additional safety assurances for citizens here.
    Our comprehensive review will address all aspects of pipeline 
safety, including time of construction, pipe materials, maximum 
operating pressure, type of commodity transported, internal 
inspections, failure history, pipe inventory and weld type, maximum 
flow rate and tank conditions. RSPA also is conducting field 
verifications of equipment and personnel and visiting pipeline right of 
ways.
    In addition to ensuring the pipeline industry's compliance with all 
existing regulatory requirements, RSPA is closely reviewing how 
individual operators address issues of public safety and environmental 
protection. We will also detail a plan for the continuing safety 
oversight program for each pipeline system. As I already mentioned, 
RSPA is also developing a statewide map and inventory of all pipeline 
facilities which will be made publicly available.
    In addition to the information just described, the final report on 
our comprehensive review will include a description of the public 
education, liaison, and emergency response planning activities which 
are expected of every pipeline operator; an overview of the current 
one-call system, including other aspects of excavation damage 
prevention programs; and a list of regulatory compliance contacts and 
executives for each operator. This report will be finalized this 
Spring, and made available to the public. RSPA believes this 
comprehensive review effort will provide additional assurances for 
citizens here, and will serve as a model for pipeline safety activities 
nationwide.
Long-Term Plan for Pipeline Safety
    RSPA has learned a number of lessons from the unfortunate 
experience in Bellingham that will benefit our long-term plan for the 
national pipeline safety program. RSPA is committed to continuously 
improving the pipeline safety program to address risks to public safety 
and to the environment. Our goal is to prevent incidents like 
Bellingham from ever happening again.
    I would like to take this opportunity to discuss the existing 
program, and to outline some of our ongoing efforts to enhance the 
pipeline safety program and provide increased protection of public 
safety and the environment.
    Overall, RSPA has worked to solidify the foundation of pipeline 
regulation and to revitalize our approach to oversight, both of 
operators' compliance, and their broader efforts to assure the 
integrity of the national pipeline system. While our regulations today 
address the need for pipeline integrity through design, construction, 
operation, maintenance, operator qualification and response, RSPA will 
strengthen them further with additional requirements for testing, 
assessing and addressing the integrity of the national pipeline system. 
Our current safety standards and oversight practices speak to the need 
for many forms of inspection and testing, sometimes with very specific 
schedules. Our initiatives in recent years have focused on further 
reducing incidents caused by four leading causes of pipeline failure: 
outside force, corrosion, human error and material defects.
    This pipeline safety program has evolved in the 1990's, from an $8 
million to a $36 million dollar per year program. RSPA has set its 
priorities based on the highest risks to public safety and the 
environment. President Clinton's budget request for next year seeks an 
unprecedented level of resources for the pipeline safety program, $47.1 
million, a 28.5 percent increase above this year's budget. This 
increase targets the leading cause of failures in all underground 
utilities, including pipelines, damage associated with excavation. This 
request includes about a 50 percent increase in grants to states to 
assist communities with protecting their citizens from pipeline 
failures by building their damage prevention capabilities and 
increasing their efforts to oversee the integrity of pipelines. The 
Administration's budget request includes additional funds for research 
on outside force damage to locate defects on pipelines at the earliest 
possible time.

Ongoing Efforts to Program Improvement
    RSPA is undertaking a number of efforts, outlined below, to improve 
the existing program:
    Addressing Excavation Damage: First, RSPA will provide strong 
Federal leadership to address one of the leading causes of pipeline 
failures--excavation damage. Secretary Slater has set a goal of 
reducing incidents caused by outside force damage by 25 percent, and 
RSPA will need everyone to help share in the responsibility for digging 
safely. RSPA will be providing initial support for a nonprofit 
organization to continue best practice efforts; to educate the public 
about how to Dig Safely, using our new national campaign; and to 
establish a clearing house for damage prevention incident data so we 
can evaluate program effectiveness. Our national Dig Safely efforts 
continue, with more than 25 training sessions hosted around the country 
since June to kick off local campaigns. Many communities are realizing 
the importance of damage prevention. Also, we must invest in research 
to better detect and monitor excavation damage. As already mentioned, 
the Administration's FY01 request includes additional funds for 
research on outside force damage to locate defects on pipelines at the 
earliest possible time.
    Ensuring Operators are Qualified: Second, we are addressing the 
human side of the pipeline safety equation. Last year, RSPA finalized a 
statutory requirement for an operator qualification program to assure a 
workforce capable of performing safety functions and responding to 
abnormal conditions. RSPA will work aggressively with operators to 
review their progress in developing qualification programs. Where 
progress is inadequate, RSPA will intervene.
    Improving Data Availability and Use: Third, a critical lesson RSPA 
has learned is that we have to improve data collection, and make better 
use of the information we have. We can do this by assuring integration 
of information obtained from internal inspections with one call and 
operating data.
    Improving Public Access to Information: Fourth, RSPA is 
investigating how to help communities better protect pipelines and be 
informed about the effectiveness of each company's safety programs. We 
have learned much from the experience of working with Governor Locke's 
Fuel Accident and Prevention Response Team and from meetings with city 
and state officials. We are pleased that the Washington State Utilities 
Commission Chair, Marilyn Showalter, has joined our Pipeline Safety 
Technical Advisory Committee. While we have requirements today to alert 
emergency responders about the existence of pipelines, we believe there 
are opportunities to work better with organizations at the community 
level that are capable of making informed decisions about the adequacy 
of pipeline safety and prevention options. We are working with Safe 
Bellingham, the National League of Cities and other public interest 
groups on pilot testing some new approaches to improving communications 
among communities, operators and regulators.
    Fostering State-Federal Partnerships: RSPA emphasizes our 
commitment to State partnerships--to providing adequate resources to 
support State programs and to finding better ways of involving States 
in activities that enable communities to live safely with pipelines. 
These activities include identifying local concerns, investigating 
those concerns, and identifying ways communities can better protect 
themselves and the pipelines that traverse them.
    The Administration plans to seek additional statutory authority to 
protect public safety and the environment through an improved pipeline 
safety program. RSPA looks forward to working with the sponsors of 
existing pipeline safety legislation in both the House and the Senate, 
and other Members of Congress, state and local governments, and 
interested stakeholders on completing a pipeline safety bill this year.

Conclusion
    In closing, RSPA renews its commitment to assure continuous 
improvement in pipeline safety and in protecting both the public and 
the environment. Thank you, and I would be pleased to answer any 
questions you have.

    Senator Gorton. Before we go on, I'd like you to be 
explicit. If you get the amount of money recommended in the 
president's budget, do you feel that you will be able to solve 
all of the problems that have been outlined here today?
    Mr. Felder. I think that we can certainly address them more 
successfully than we have in the past.
    Senator Gorton. Well, probably do that if we give you a 
somewhat smaller increase in the budget as well. OK. Thank you.
    Mr. Felder. Can we solve them all? We want to get down to 
zero the same way everyone in this room does in terms of 
injuries, fatalities, property damage. Senator, that's what 
we're working for.
    Senator Gorton. Mr. Chipkevich, you have been complimented 
during the course of the events this day, and we're delighted 
to have you with us from Washington, D.C. and look forward to 
your testimony.

 STATEMENT OF ROBERT CHIPKEVICH, DIRECTOR, OFFICE OF PIPELINE 
 AND HAZARDOUS MATERIAL SAFETY, NATIONAL TRANSPORTATION SAFETY 
                             BOARD

    Mr. Chipkevich. Thank you. Good afternoon, Senators Gorton 
and Murray. I appreciate the opportunity to appear on behalf of 
the National Transportation Safety Board to report on our 
investigation into the pipeline rupture and the fatal fire in 
Bellingham last June.
    Accidents are devastating to the victims, their 
communities, and their families. Most are preventable, but not 
without a dedicated and persistent effort by industry and 
regulators to set and enforce high standards.
    Attached to my testimony for the record are charts that 
will help clarify my remarks. The first is a map of the Olympic 
pipeline system in the northwest. Preliminary data indicate 
that shortly before the rupture in Bellingham a pump at 
Woodinville did not start when commanded. A relief valve at 
Bayview should have worked to relieve upstream overpressure, 
and failing this, a blocked valve at Bayview should have 
closed, as we believe it did. Product was pumped into the line 
at Cherry Point, and the closure of the Bayview blocked valve 
would have sent a pressure wave back toward Ferndale and Cherry 
Point. The rupture occurred about midway between Cherry Point 
and Bayview at the Bellingham water treatment plant. 
Preliminary data indicates that the rupture occurred at well 
above the operating pressures, but substantially below the full 
yield strength for the pipe of this design and size, and even 
below the maximum allowable surge pressure permitted by 
regulatory standards. It took several weeks to excavate the 
ruptured segment, largely because the rupture occurred beneath 
an area of extensive water piping.
    You have also been provided with pictures of the pipe 
section as initially uncovered. Preliminary inspection of the 
ruptured segments indicates external damage to the pipe where 
the failure is believed to have begun, along with additional 
internal damage. You can see from the pictures that there is 
some evidence of both external and internal deformities. I 
would caution you, however, that this information is 
preliminary, and intensive testing is required before we can be 
confident of a complete failure. We plan to meticulously test 
the ruptured pipe segment when possible to determine whether 
external preexisting damage may have contributed to the 
rupture, and to understand the consequences of repeated 
seemingly abnormal closures at the Bayview station blocked 
valve.
    Records indicate that the valve may have closed 50 or more 
times in the 6-months after it was installed in December 1998. 
We will examine the reasons for their closures and their 
possible impact on the upstream pipe's durability. We're also 
interested in the functioning of a relief valve at the Bayview 
station. This valve needs to be tested to determine if it is 
capable of operating within specifications. The design and 
construction of the Bayview facility also needs close attention 
to determine if the valve would have been permitted to function 
correctly in the application.
    Given the extensive overlay of water piping, and what 
appears to be external damage on the ruptured fragment, we are 
also looking into possible excavation damage. The Safety Board 
is carefully documenting and analyzing construction work done 
at the water treatment facility, and Olympic's work to evaluate 
information developed from internal or smart pig inspections.
    We also want to document and analyze the data available to 
controllers at the time of the accident and to understand their 
actions during the accident sequence. They seem to have been 
unaware of the rupture for an extended period of time, and 
restarting a pipeline after a rupture suggests a significant 
performance failure. We don't yet know whether this can be 
traced to training, qualifications, equipment malfunction, poor 
design in the computer-based control system or some other 
undetermined reason.
    The NTSB wants the answers to all these questions, and we 
need to know them as soon as feasible. However, necessary tests 
on the ruptured pipe have not been completed because of a grand 
jury subpoena requested by the U.S. Attorneys Office and a lack 
of cooperation from needed witnesses, but ultimately OPS is 
answerable for the regulatory context in which the pipeline 
company operates.
    The NTSB has for many years argued that periodic 
verification of pipeline integrity must be a requirement for 
service. Internal inspections done at the Bellingham pipe 
identified issues in the field that ultimately failed. That 
inspection data produced no change, and the regulatory 
processes did not require a correction.
    OPS's response to our 1997 recommendation is in an 
unacceptable status. Mandatory inspection and testing programs 
are needed to protect the public and the industry alike. 
Federal action is long over due.
    The same is true of employee qualification standards. The 
NTSB has had little success convincing OPS that strong training 
and qualifications are needed for all personnel in safety 
critical positions.
    Mr. Chairman, that concludes my statement. I'd be happy to 
answer any questions.
    [The prepared statement of Mr. Chipkevich follows:]

 Prepared Statement of Robert Chipkevich, Director, Office of Pipeline 
  and Hazardous Material Safety, National Transportation Safety Board
    Good afternoon Senators Gorton and Murray. I appreciate the 
opportunity to appear before you on behalf of the National 
Transportation Safety Board to update you on our on-going investigation 
into the pipeline rupture and subsequent fire that occurred in 
Bellingham, Washington, last June, and to discuss pipeline safety 
issues.
    As you are aware, the National Transportation Safety Board (NTSB) 
has been investigating pipeline accidents since 1967, and as a result 
of those investigations, we have issued over 1,100 safety 
recommendations that we believe would prevent a recurrence of similar 
accidents. The steel pipeline that runs through Bellingham is just a 
small part of the over 160,000 miles of pipelines transporting 
hazardous liquids nationwide. In 1997, approximately 616.5 billion ton-
miles of oil and refined petroleum products were shipped via pipeline, 
accounting for 64.5% of the oil and refined petroleum products moved 
throughout the United States annually.
    On June 10, 1999, at about 3:30 p.m. Pacific Daylight Time (PDT), a 
16-inch diameter pipeline owned by Olympic Pipe Line Company ruptured, 
and gasoline leaked into the Hanna and Whatcom Creeks in Whatcom Falls 
Park within the City of Bellingham, Washington. About 5:02 p.m., the 
gasoline ignited, resulting in a fireball that traveled approximately 
1\1/2\ miles downstream from the pipeline failure location. Two 10-
year-old boys and an 18-year-old young man lost their lives as a result 
of this tragic accident. Eight additional injuries were documented, 
along with significant property damage to a single-family residence and 
the City of Bellingham's water treatment plant. The release of 
approximately \1/4\ million gallons of gasoline caused substantial 
environmental damage to the waterways. Shortly after being notified of 
the accident, the National Transportation Safety Board launched a team 
of investigators to the scene. Safety Board personnel were on scene for 
approximately 5 weeks.
    Before providing you with background on the pipeline system and 
details of the Board's investigation, I would first like to address the 
considerations the Safety Board must deal with in this investigation. 
As you may be aware, key pipeline company personnel have refused to 
respond to Safety Board questions, exercising their Fifth Amendment 
rights. In addition, the Board has been served with a grand jury 
subpoena, issued upon application from the United States Attorney's 
office in Seattle, Washington, which has been extended on several 
occasions, placing a hold on necessary destructive testing of the 
sections of pipe which are in the Board's possession. We are working 
with the United States Attorney's office to resolve these issues.
    Before relating the progress of our investigation, let me give you 
some necessary background on this pipeline system.
Background
    Olympic Pipe Line Company is a partnership consisting of Atlantic 
Richfield Company, Equilon Pipeline LLC (Equilon), and GATX Terminal 
Corporation, with Equilon acting as the managing partner. Olympic's 
system extends from refineries in the extreme northwestern corner of 
Washington State to Portland, Oregon (see Attachment 1). The entire 
pipeline system is remotely operated from a central control center 
located in Renton, Washington. From this centralized location, pipeline 
controllers can monitor key variables, such as pressures and flow rates 
throughout the entire system. The controllers can also monitor and 
operate mechanical components, such as pumps and motor-operated valves.
    The accident section of pipeline, which was originally installed in 
1965, ran from a pumping station near Ferndale, Washington, 
approximately 37.4 miles southward, to Olympic's Bayview and Allen 
pumping and storage stations near Allen, Washington. This steel 
pipeline was constructed of pipe with a wall thickness of 0.312 inches 
manufactured by Lone Star. In 1966, approximately 725 feet of the 
pipeline, including the specific section that failed on June 10, 1999, 
was rerouted to permit construction of a water treatment plant by the 
City of Bellingham. This new, short section of pipe had the same 
specified minimum strength and wall thickness as the original, but was 
manufactured by U.S. Steel.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In 1993 and 1994, a contractor working on behalf of the City of 
Bellingham installed a 72-inch water line across Olympic's pipeline, 
approximately 20 feet south of the rupture. A new 24-inch diameter 
water line was also installed and connected to an existing water line 
10 feet south of the rupture. In addition, the water treatment plant 
was being modified, a water pump station and additional smaller 
crossings were being constructed.
    According to personnel involved in the design and installation of 
the water treatment plant modifications, Olympic was notified of the 
water plant modifications and associated water pipeline installations, 
and assisted the design firm with determining the exact elevations of 
its pipeline during the design phase of the water plant modifications. 
Olympic personnel were also on site during portions of the water 
pipeline construction project. Documentation provided to the Safety 
Board by Olympic includes reports Olympic generated as a result of the 
water piping installations.
    Although Federal regulations do not require internal pipeline 
inspections, in 1991, Olympic inspected its pipeline from the Ferndale 
to Allen Stations with a magnetic flux internal inspection tool, or 
``smart pig.'' Although anomalies were reported on various segments of 
the pipeline, no anomalies in the immediate vicinity of the rupture 
were found during this inspection.
    In 1996, Olympic conducted another internal inspection of its 
pipeline with a similar magnetic flux internal inspection tool. As a 
result of this inspection, three anomalies were reported in the 
vicinity of the rupture. While our investigation continues to develop 
information, preliminary indications are that one of these anomalies, 
reported by the inspection company as a ``possible wrinkle bend,'' was 
located in the immediate vicinity of the subsequent rupture. The other 
two anomalies were located approximately 1.5 feet south of the first 
girth weld, approximately 10 feet downstream of the rupture.
    In 1997, under an administrative order from Washington State's 
Department of Ecology, Olympic contracted for another internal 
inspection with a caliper tool specifically to search for pipeline 
buckles. An anomaly at the same location as the two located south of 
the first girth weld downstream of the rupture was found as a result of 
this inspection. In May 1997, Olympic submitted correspondence to the 
Department of Ecology that indicated it intended to further evaluate 
this anomaly.
    Olympic documents indicate that the company analyzed 1996 and 1997 
anomalies mentioned above; however, they elected not to excavate and 
visually inspect or repair any of the anomalies located in the area of 
the water treatment plant. Olympic has indicated that these anomalies 
did not meet the applicable criteria for further action. The Safety 
Board is looking into what criteria were used. Olympic personnel with 
direct knowledge of the decision-making process have declined to be 
questioned by the Safety Board, exercising their Fifth Amendment 
rights.
NTSB's Investigation
    I would now like to highlight factual information developed as a 
result of our investigation. I would stress, however, that the Board's 
investigation is ongoing, and that the following information is 
preliminary. It may be refined and changed as the investigation 
proceeds.
    Upon the Safety Board's arrival in Bellingham on the morning of 
June 11, 1999, several parties that had information critical to 
understanding the accident were immediately identified; later, others 
were invited to participate as the investigation unfolded. Parties to 
the Bellingham, Washington, pipeline investigation include the U.S. 
Department of Transportation's Office of Pipeline Safety (OPS), the 
Washington State Department of Ecology, the Washington State Fire 
Marshal's Office, the City of Bellingham, Olympic Pipe Line Company 
(Olympic), the Environmental Protection Agency (EPA), Teledyne-Brown 
Engineering, Fisher-Rosemount Petroleum, and IMCO General Construction, 
Inc.
    Because the water lines were still in service, the Safety Board did 
not excavate the ruptured pipe until about two weeks after the 
accident. If we had excavated immediately, water service would have 
been jeopardized to approximately 25,000 customers. Sections of the 
pipe were carefully excavated under the Safety Board's supervision as 
soon as a new, temporary pump station was placed in service. The 
segments were then transported to our laboratory facilities in 
Washington D.C. where they await examination.
    During the excavation process, the water lines that had been 
installed across Olympic's pipeline in the vicinity of the rupture were 
exposed, and indications of external damage to the pipeline were 
observed. Safety Board investigators have interviewed personnel from 
the City of Bellingham, the firm that designed the water plant 
modifications and managed the construction activities on behalf of the 
City of Bellingham, as well as the contractor who installed the water 
piping. However, Olympic employees who were assigned to inspect the 
construction activity have also declined to speak with Safety Board 
investigators.
    Safety Board personnel have conducted a thorough visual examination 
of the ruptured pipeline segment and an adjacent segment that was also 
removed from the scene. Each of these segments is approximately 10 feet 
long. Preliminary visual examination of the ruptured pipeline segment 
has shown that the fracture originated at a gouge mark on the surface 
of the pipe, and that the gouge at the failure origin was oriented 
longitudinally along the axis of the pipe. The wall thickness of the 
pipe at the origin measured between 0.24 and 0.25 inches, a reduction 
of approximately 20 percent from the original 0.312 inch nominal wall 
thickness. The overall rupture measured 27 inches longitudinally (see 
Attachments 2a, 2b, and 2c).* Additional gouge marks and dents were 
found on the exterior surface of the ruptured pipe segment, and inward 
protrusions were noted on the inside of the pipe that appeared to 
correspond to some of the external gouge marks. The external coating on 
this pipe segment appears to be the original spiral wrap material.
---------------------------------------------------------------------------
    * The information referred to has been retained in the Committee's 
files.
---------------------------------------------------------------------------
    Examination of the second pipe segment noted two dents at the 3:30 
and 4:00 positions on the pipe, located 18" and 22" respectively, south 
of a girth weld on this segment. No coating repairs over any of the 
damage have been noted, and no corrosion damage was observed on the 
interior of the pipe surfaces or the bare areas of the external pipe 
surfaces.
    Microscopic examination of the fracture face is still necessary to 
determine whether there are any indications of fatigue near the point 
of origin. Additional tests are also necessary to determine the 
microstructure and hardness of the pipe material.
    Based upon a review of Olympic's computer pressure data 
automatically recorded during the accident sequence, our investigators 
also began to examine the functioning of valves at a newly-constructed 
pumping and storage facility near Bayview, Washington (the Bayview 
Products Terminal). Testing was then performed at the request of the 
Safety Board to determine whether a relief valve at the station had 
functioned properly. The field testing was inconclusive, and the valve 
was removed from the pipeline and returned to the Safety Board's 
facilities for further evaluation.
    Preliminary information indicates that pressure began to build 
within Olympic's Bayview Station as a result of delivery changes 
underway further down the pipeline system. A relief valve, intended to 
divert product into a storage tank to reduce the pressure within the 
facility, had been installed when the station was built in 1998 to 
protect the piping from overpressurization.
    Based upon a preliminary review of pressure information recorded at 
the Bayview Station, although the relief valve began to function, 
pressure within the station continued to build, triggering a block 
valve on the pipeline coming into the station to close. According to 
information provided by Olympic, when the block valve closed, the 
pressure on the pipeline upstream of Bayview increased to about 1500 
pounds per square inch gauge (psig), and the pipeline ruptured. 
Information provided by Olympic indicates that the maximum allowable 
operating pressure was 1370 psig on this pipeline segment. Federal 
regulations allow pressure surges to 1507 psig. The pipeline 
theoretically should withstand internal pressure of approximately 2000 
psig. The pressure is believed to have reached about 1422 psig at the 
point of the rupture. After the accident, Olympic recalculated the 
maximum operating pressure to be 1456 psig at the rupture location.
    Preliminary information indicates that the block valve on the 
pipeline entering Bayview Station had closed over 50 times since the 
facility began operating on December 16, 1998. On many of these 
occasions, the valve closure was triggered by a similar pressure 
buildup within Bayview Station. Our investigators are still evaluating 
these events to determine the pressures involved and the functioning of 
the relief valve.
    The relief valve was originally ordered with an internal spring set 
to relieve the pressure at 100 psig. The original Bayview Station 
design documents called for a set pressure of 740 psig. Olympic 
subsequently reduced the intended set pressure to 650 psig. In order to 
modify the valve's set pressure from 100 psig to 650 psig, Olympic 
ordered a different spring to be installed within the valve's pilot 
operator. We are looking into, however, whether Olympic replaced a 
piston and cap as recommended by the valve's manufacturer.
    As soon as legal issues have been worked out with the U. S. 
Attorney's office, the Safety Board will examine the valve to evaluate 
its performance. Since valves of this type or those with a similar 
design are commonly used throughout the liquid pipeline industry, it is 
extremely important fully to understand what occurred.
    We also know that the pipeline system design plan for a control 
valve located upstream of the relief valve intended the valve to be 
capable of closing completely. The valve, however, had an internal stop 
that prevented it from being capable of stopping the flow of product 
into the Bayview Station. What effect this might have had on the events 
that occurred June 10, 1999, is still under investigation.
    Shortly after the accident, our investigators also began to 
evaluate the actions of Olympic's personnel who were operating the 
pipeline from the Renton, Washington, control center. A preliminary 
reconstruction of the accident sequence is being performed from a 
printed summary events recorded within the supervisory control and data 
acquisition (SCADA) system. A preliminary time line of key events is 
included at Attachment 3 for your information.
    Based on the event logs, we know that flow within the pipeline was 
restarted at approximately 4:16 p.m., approximately 45 minutes after 
the rupture occurred. The pipeline was then operated for approximately 
17 minutes until the pumps shut down.
    Olympic initially reported that a ``slowdown'' of the computer 
systems occurred during the accident sequence that affected the ability 
of the pipeline controllers to change settings on the pipeline system. 
Olympic further stated that one of its employees may have modified 
software settings prior to the accident, and may have been working on 
the computers at the time of the event. A report prepared by Olympic, 
in response to an OPS corrective action order, acknowledges that the 
alleged SCADA system slowdown could not be verified or reproduced.
    The Safety Board is continuing its analysis of the computer system 
tapes. Our preliminary review has not identified that a slowdown 
actually occurred on the day of the accident. Although Olympic has 
reported to OPS that it has improved its SCADA system by upgrading 
hardware and balancing workloads between the computer systems since the 
accident occurred, until we fully understand what happened during the 
accident sequence, the impact of these changes on future system 
operations cannot be fully evaluated.
    The Board's investigative staff are reviewing substantial 
documentation provided by Olympic, such as pressure data, design 
information, construction records, telephone logs and e-mail records, 
along with the applicable company policies and procedures related to 
pipeline operations and maintenance, as part of our investigation. 
However, we will never know what happened within the control center 
around the time of the accident unless we are able to interview the 
individuals operating the pipeline when the accident occurred. There 
are at least four key individuals who may have direct knowledge of the 
events that occurred in the control room during the accident sequence. 
Those individuals include two controllers who were on duty at the time 
of the accident, their supervisor, and a former controller now 
responsible for maintaining the SCADA system and acting as a relief 
controller. He was reportedly performing modifications to the computer 
programming. These individuals are also critical to our investigation 
into human performance issues, such as training, fatigue, and 
ergonomics, that may be relevant with this accident. As I mentioned, 
these individuals and others have declined to talk with us.
    The Safety Board is also continuing its analysis of internal 
inspections conducted by Olympic on the pipeline prior to the rupture, 
and of the computer operating system and design of the Bayview Station 
and its effect on the pipeline. We are also hopeful that as the 
investigative process continues, additional Olympic personnel will be 
in a position to talk with us.
Safety Issues
    Several of the issues being looked into as a result of the 
Bellingham accident--excavation damage, pipeline integrity, training of 
personnel--have been concerns of the Safety Board for many years. 
Excavation damage is the leading cause of pipeline accidents, and the 
prevention of excavation damage is an issue on the Board's ``Most 
Wanted'' list. Recommendations regarding excavation damage were first 
issued by the Safety Board in 1973, and we are currently investigating 
several recent accidents in which excavation damage may have played a 
role.
    Our concerns regarding pipeline integrity go back to 1987. As a 
result of investigations into three pipeline accidents, the Safety 
Board recommended that the Research and Special Programs Administration 
(RSPA) require pipeline operators to periodically determine the 
adequacy of their pipelines to operate by performing inspections or 
tests capable of identifying corrosion, mechanical damage, or other 
time-dependent defects that could be detrimental to the safe operation 
of pipelines. Yet, 12 years after our initial recommendation was 
issued, there are no regulations that require pipeline operators to 
perform periodic inspections or tests to locate and assess whether this 
type of damage exists on other pipelines. OPS has indicated that it 
intends to enhance enforcement efforts to ensure that pipeline 
operators who perform internal inspections more aggressively evaluate 
the results and make appropriate repairs.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Safety Board is concerned that, although the objective is 
laudable, the efforts may be counterproductive if companies that 
perform voluntary internal inspections are penalized, thus discouraging 
them from performing such inspections. It is essential that OPS mandate 
and enforce a pipeline integrity inspection program for all pipeline 
operators. The Board's recommendation regarding pipeline integrity was 
placed in an open-unacceptable status in June 1999.
    The need for adequate training of pipeline personnel was also the 
subject of safety recommendations issued in 1987. The Safety Board 
recommended that RSPA require operators to develop training programs 
for pipeline personnel. In October 1998, RSPA published a Notice of 
Proposed Rulemaking (NPRM) to require pipeline operators to develop a 
written qualification program for individuals operating pipelines. 
However, the NPRM did not establish training requirements for 
personnel, and it allowed companies to evaluate an individual's ability 
to perform tasks using methods such as oral examinations or 
observations of job performance. In comments on the rulemaking 
submitted in January 1999, the Board urged RSPA to amend the rule to 
include strong training and testing requirements to ensure that 
employees can properly perform their jobs. We were disappointed that 
the final rule published in August 1999 was substantially unchanged 
from the NPRM.
    It is unfortunate that some of the issues we have addressed, which 
have been the subject of Safety Board recommendations, have not been 
acted on in a timely manner. Each of these issues could be accomplished 
without legislative action. However, because the Department has not 
acted, Congressional intervention may be necessary.
    Before closing, I would like to take this opportunity to comment on 
a concern that has been raised by some state officials. As you are 
aware, state pipeline safety programs are important to help ensure that 
pipeline system operators comply with minimum safety standards. In 
fact, state pipeline inspectors who conduct daily inspection activities 
represent more than 90 percent of the safety inspection workforce. Yet 
Federal matching funds provided to states have consistently been below 
the 50 percent level authorized by the Natural Gas Pipeline Safety Act. 
We have been advised by representatives of several states that funds 
have not kept pace with demand, and that inadequate funds threaten the 
infrastructure of the nation's pipeline safety program.
    Additionally, we are concerned that while states have many more 
inspectors than OPS, that OPS is removing states from interstate 
pipeline inspection programs. State officials have advised that OPS, 
while previously encouraging states to act as interstate agents, are 
now having their applications denied. The OPS currently has the ability 
to utilize these state resources for regular inspection activities 
through its partnering agreements. It is also critical that 
comprehensive, consistent, and effective regulatory requirements for 
interstate pipelines be enacted at the Federal level to protect 
citizens in all of the states.
    For example, in Virginia, approximately 2 million gallons of 
petroleum products have spilled from pipelines since 1974. In an 
accident near Reston, Virginia, in 1993, more than 407,000 gallons of 
diesel fuel spilled from a pipeline into Sugarland Creek, a tributary 
of the Potomac River. Because of several liquid pipeline accidents that 
occurred in Virginia, the General Assembly passed legislation in 1994 
authorizing the State Corporation Commission to seek interstate agent 
status from OPS, which would allow state inspectors to inspect 
interstate pipelines. OPS apparently originally supported this 
legislation, and for several years encouraged the Commission to pursue 
interstate agent status. Unfortunately, when the Virginia Commission 
was ready to accept agent status, OPS denied their application. In 
fact, states have advised the Safety Board that OPS has effectively 
halted this program.
    We believe state assistance in the interstate pipeline inspection 
program may go a long way to improving pipeline safety. Because a 
single pipeline may operate in as many as 10 states, effective Federal 
oversight is needed to ensure that pipeline operators are meeting 
minimum safety standards. We believe that Congress needs to closely 
examine how the states are utilized, funded, and evaluated by OPS. 
However, for the consistent and effective application of regulatory 
requirements to interstate pipelines, the authority and responsibility 
should rest with the OPS.
    That completes my testimony, and I will be happy to respond to any 
questions you may have.

    Senator Gorton. Thank you.
    Our state fire marshal.

     STATEMENT OF MARY CORSO, STATE FIRE MARSHAL, OLYMPIA, 
                           WASHINGTON

    Ms. Corso. Thank you, Senator Gorton, Senator Murray. My 
name is Mary Corso. I'm the Washington State Fire Marshal and 
the Director of the Fire Protection Bureau with the Washington 
State Patrol.
    I'm pleased with the opportunity to be here to talk about 
this very important issue relating to pipeline safety, the 
protection of citizens, the first responder community, law 
enforcement, fire, EMS, and the environment.
    I hail originally from Minnesota where I served 22 years in 
the fire service, 15 years of which I served as a fire fighter, 
the remainder, in state service with both the Minnesota State 
Fire Marshal's office and most recently as the Washington State 
Fire Marshal.
    Twice I have seen the effects of a pipeline incident. 
First, in 1986 in Minnesota where a pipeline rupture was 
responsible for two deaths and one serious injury. This rupture 
took place in a residential neighborhood where people 
attempting to flee were consumed by an explosion and fire ball 
leaving no place for escape.
    Secondly and most recently in Bellingham where a pipeline 
rupture allowed hundreds of thousands of gallons of gasoline to 
flow into a waterway creating a significant tragic event, and 
three more lives were lost. Three families, an entire 
community, and the State of Washington bear the grief of this 
preventable incident.
    I am a strong advocate of prevention and preparedness, as I 
have devoted the last 11 years of my career to protecting life 
and property through enforcing, engineering, education, and 
response activities. Protecting people where they live, work 
and play takes a holistic approach. Protecting people takes 
passive protection, comprised of safeguards, the majority of 
which most of us don't see, but exists silently in the 
background, safeguards such as cathodic protection, monitoring 
devices and periodic testing. These passive protections need 
constant vigilance, continuous maintenance, and technically 
certified operator to insure the integrity of the pipeline.
    While you have and will hear significant testimony on these 
issues, I will focus my remarks on the responses or activities 
that are also critical in, and vital to protecting our 
communities.
    We are not opposed to pipelines in the State of Washington, 
and we, in fact, realize that these pipelines may be the safest 
way for conveyance of liquid and gas fuels. It has been stated 
numerous times, there are not significant numbers of events 
involving flammable liquids and natural gas compared to the 
volume of product that is delivered throughout the state each 
year. Senator Murray stated it very adequately when she said on 
average there is one spill per day. This is 365 too many in 1 
year.
    These numbers of incidents from a response perspective are 
viewed as low frequency, high risk and have the capability of 
causing a catastrophic event if a failure occurs. Those who 
risk their lives in service of their community are in reality 
community problem solvers. Each time the alarm sounds or the 
radio crackles, another problem must be solved. This is what we 
do. There are no second thoughts, no hesitations, just a 
natural, automatic response to a need in our community.
    In the State of Washington each year, first responders--the 
law enforcement community, fire and EMS--answer over 700,000 
calls for help. These include fires, emergency medical 
incidents, hazardous conditions, law enforcement related 
activities and a myriad of other emergencies related to public 
safety. These are the everyday events that we respond to almost 
automatically, instinctually, if you will.
    Our practice and experience comes from these incidents 
because of their frequency. We concentrate our training, 
equipment, and planning on these activities as they are what 
our public expects in terms of protection on a daily basis.
    On the other hand, a hazardous material incident due to 
spills or leaks of flammable liquids and/or the release of 
natural gas is an infrequent event. Therefore, the necessary 
training and equipment may not always be current or available. 
It is very difficult, at best, for many public safety agencies 
to provide the necessary equipment and training for this very 
reason. That is why I'm here to talk to you today. Funding, 
training, and the necessary equipment to respond to these 
infrequent incidents are vital to our state and our nation's 
first responders who are called upon to protect life and 
property and the environment.
    The needs of the first responder community are significant. 
They provide for our ability to maintain the peace, protect the 
public from fire, and answer the need for emergency medical 
services, all vital parts of a safe community. Our state's fire 
service is comprised primarily of volunteers. Up to 71 percent 
of the emergency responders in our state are volunteers. Of the 
650 fire departments in this state, 580 serve populations of 
20,000 or less, and they have vast differences in the 
capabilities within each community.
    It was fortunate that Bellingham had a hazardous material 
response team that was capable of responding to the event that 
took place on June 10, 1999. Unfortunately, that may not have 
been the case in many other areas along the pipeline.
    The major difficulties facing first sponsors are these. 
Fire departments are underfunded to deal with hazardous 
materials. They have significant problems covering the high 
cost of equipment and maintenance of the necessary equipment 
for hazardous material response. Greater assistance is needed 
from the state and Federal level to support local first 
responder training and equipment needs. The state needs a 
greater regional response capability for hazardous material 
teams along the pipeline, with dedicated funding to coordinate 
training, equipment and supplies.
    In Washington State there are only 24 hazardous material 
response teams associated with fire departments, 12 of which 
are specialized teams. Yet hundreds of cities are located along 
the hazardous liquid pipelines in our state. All face serious 
problems in keeping their staff trained and prepared.
    As a member of the Governor's Fuel Accident Prevention and 
Response Team task force, we identified specific 
recommendations to assist local first responders. They are: to 
evaluate the local first responders in communities housing fuel 
transmission lines for their preparedness; to work in 
consultation with other state agencies to assess the needs, 
equipment, and training of local first sponsors; to evaluate 
the need for training programs to enhance regional incident 
management teams to assist local responders in managing fuel 
line pipeline accidents; to amend the Washington State Fire 
Protection Statute, 48.48 to direct the State Fire Marshal to 
require that local first responders are immediately notified by 
pipeline operators if a leak or spill occurs, and; to consult 
with other agencies to identify the need for and legislative 
means of achieving consistent application of the National 
Interagency Incident Response Team.
    Pipeline companies need to be active players in this 
recommendation. It is also important that those who may be 
called upon at a pipeline incident are able to communicate with 
each other and operate under a common set of guidelines, 
terminology and structures.
    Additionally, critical to communications is the need for 
sufficient dedicated radio spectrums identified for public 
safety agencies to utilize. These systems must be interoperable 
and provide a system where all responders are able to talk to 
each other at the scene. That is currently not the case for 
most major emergencies. This includes first responders, 
emergency managers, state agencies, and pipeline companies. 
Standardization, planning, and preparation by all players to 
prepare for an incident are critical and essential to a safe 
and positive outcome.
    The Governor's Fuel Accident Response Team recommendation 
and Governor Locke's support for pipeline safety in the State 
of Washington needs to be emulated at the Federal level to 
support and protect our public, our nation, and our 
environment.
    In conclusion, I urge passage of the Pipeline Safety Act of 
2000, thereby encouraging these same recommendations you have 
heard today at the Federal level to ensure prevention of future 
incidents and to ensure our nation's first responders are 
prepared when needed.
    Thank you.
    [The prepared statement of Ms. Corso follows:]

         Prepared Statement of Mary Corso, State Fire Marshal, 
                          Olympia, Washington
Chair Gorton, Senator Murray, and Committee Members:

    My name is Mary Corso. I am the Director of the Washington State 
Patrol Fire Protection Bureau--State Fire Marshal. I am pleased to have 
the opportunity to address the Senate Commerce, Science, and 
Transportation Committee regarding this very important issue related to 
pipeline safety and the protection of citizens, the first responder 
community (law enforcement, fire and EMS), and the environment.
    I hale originally from the state of Minnesota, where I served for 
22 years in the fire service, 15 years of which I served as a 
firefighter; the remainder in state service with both the Minnesota 
State Fire Marshal's office; and, most recently, as the Washington 
State Fire Marshal. Twice, I have seen firsthand the effects of a 
pipeline incident: first, in 1986 in Minnesota where a pipeline 
incident was responsible for three deaths in a residential neighborhood 
where people attempting to flee the dangers were consumed by an 
explosion and a fire ball, leaving no place to escape. Secondly, and 
most recently, in Bellingham where a pipeline broke, allowing hundreds 
of thousands of gallons of gasoline to flow into a waterway, creating a 
significant threat to life safety, property, and the environment. 
Unfortunately in this tragic event, three more lives were lost. Three 
families, an entire community, and the state of Washington bear the 
grief of this preventable incident.
    I am a strong advocate of prevention and preparedness, as I have 
devoted the past 11 years of my career to protecting life and property 
through enforcement, engineering, education, and response activities. 
Protecting people where they live, work, and play takes a holistic 
approach. It takes passive protection, comprised of safeguards, the 
majority of which we don't see, but exist silently in the background to 
protect us. Safeguards such as cathodic protection, monitoring devices 
and periodic testing. These passive protections need constant 
vigilance, continuous maintenance, and technical operators to ensure 
the integrity of the pipeline.
    While you have, and will hear significant testimony on these 
issues, I will focus my remarks on the response, or active protection 
that is so critical and vital to protecting our communities.
    We are not opposed to pipelines in the state of Washington. In 
fact, we realize that these pipelines may be the safest way for 
conveyance of liquid and gas fuels. While it has been repeated numerous 
times, there are not significant numbers of events involving flammable 
liquids and natural gases, compared to the volume of product that is 
delivered throughout the state each day. However, such operations from 
a response perspective, are viewed as low frequency, high risk, and 
have the capability of causing a catastrophic event if a failure 
occurs.
    Those who risk their lives in service of their community are really 
community problem solvers. Each time the alarm sounds or the radio 
crackles another problem must be solved. This is what we do. There are 
no second thoughts, no hesitations, just a natural automatic response 
to a need in our community.
    In the state of Washington each year the first responders (law 
enforcement, fire and EMS) answer over 700,000 calls for help. These 
include fires, emergency medical incidents, hazardous conditions; law 
enforcement related activities and a plethora of other emergencies 
related to public safety. These are the everyday events that we take 
care of almost automatically--instinctively, if you will. Our practice 
and experience comes from these incidents because of their frequency. 
We concentrate our training, equipment, and planning on these 
activities, as they are what our public expects in terms of protection 
every day.
    On the other hand, a hazardous materials incident due to spills or 
leaks of flammable liquids and/or the release of natural gas are an 
infrequent event. Therefore, the necessary training and equipment may 
not always be current or available. It is very difficult at best for 
many public safety agencies to provide the necessary training and 
equipment for this very reason.
    It is for this very reason I am here to talk to you today. Funding, 
training, and the necessary equipment to respond to these infrequent 
incidents are vital to our State's and the Nation's first responders 
who are called upon to protect life, property, and the environment. The 
needs of the first response community are significant; they provide for 
our ability to maintain the peace, protect the public from fire, and 
answer the needs for emergency medical services--all vital parts of a 
safe community.
    To complicate matters, our State's fire service is comprised 
primarily of volunteers, making up 71% of the emergency response 
community. Of the 650 fire departments in the state, 580 serve 
populations of 20,000 or less, with vast differences in the 
capabilities within each community. It was fortunate that the City of 
Bellingham had a hazmat response team that was capable of responding to 
the event that took place on June 10, 1999. Unfortunately, that would 
not have been the case in many other areas along the pipeline.
    The major difficulties facing local first responders are:

        <bullet> Fire departments are under-funded to deal with 
        hazardous materials; they have significant problems covering 
        the high cost of purchase and maintenance of necessary 
        equipment for a hazardous materials response.
        <bullet> Greater assistance is needed from the state and 
        federal level to support local first responder training and 
        equipment needs.
        <bullet> The state needs a greater regional response capacity 
        for hazardous material teams along the pipeline--with dedicated 
        funding--to coordinate training equipment and supplies. In 
        Washington State there are 24 publicly funded hazardous 
        material teams, 12 of which are specialized teams. All face 
        serious problems in keeping their staff trained and prepared.

    As a member of Governor Locke's Fuel Accident Prevention and 
Response Team task force, we identified specific recommendations to 
assist the local first responders. These recommendations directed the 
State Fire Marshal to:

        <bullet> Evaluate preparedness of local first responders in 
        communities housing fuel transmission lines.
        <bullet> In consultation with the Military Department's 
        Emergency Management Division, the Department of Ecology, and 
        local agencies, the Fire Marshal should conduct a needs 
        assessment of local first responders' readiness and equipment 
        needs particularly relevant to fuel transmission pipelines. 
        This should include consideration of the costs and benefits of 
        meeting identified needs.
        <bullet> Establish a temporary position to develop training 
        programs for local first responders--police, fire, and 
        emergency medical service staff and volunteers--to deal with 
        pipeline accidents. This person should coordinate with pipeline 
        operators to identify their role in providing the training and 
        to identify the timetable and costs for providing this training 
        to first responders in communities housing transmission 
        pipelines. The program should also address community education 
        and response, including support materials and handouts.
        <bullet> Evaluate the need for a training program to enhance 
        regional incident management teams to assist local responders 
        in managing fuel pipeline accidents.
        <bullet> To amend the State Fire Protection Statute (RCW 48.48) 
        to direct the State Fire Marshal to require that local first 
        responders are immediately notified by pipeline operators of 
        any leak or spill, and to;
        <bullet> Consult with other agencies to identify the need for 
        and legislative means of achieving consistent application of 
        the National Interagency Incident Management System (NIIMS).

    It is important that those who may be called upon in a pipeline 
incident are able to communicate with each other and operate under a 
common set of guidelines, terminology and structure. Additionally, 
critical to communications is the need for sufficient dedicated radio 
spectrums identified for public safety agencies to utilize. These 
systems must be interoperable and provide a system where all responders 
are able to talk to each other on the scene. This includes first 
responders, emergency managers, and the pipeline companies. 
Standardization, planning and preparation by all players to prepare for 
an incident are critical and essential to a safe and positive outcome.
    The Governor's Fuel Accident Prevention and Response Team 
recommendations and Governor Locke's support for pipeline safety in the 
State of Washington needs to be emulated at the federal level to 
support the protection of our public, our Nation and our environment.
    In conclusion, I urge the committee to support the ``Pipeline 
Safety Act of 2000,'' thereby encouraging these same recommendations 
you have heard today, at the federal level, to ensure prevention of 
future incidents and to guarantee that our nation's first responders 
are prepared and ready when needed.
    Thank you.

    Senator Gorton. Thank you.
    Ms. Showalter?
    Ms. Showalter. Yes.
    Senator Gorton. What if we were to amend the present law 
and Senator Murray's bill to say that where an interstate 
pipeline where more than 90 percent of the interstate pipeline 
is associated in a single state, that state would have full 
regulatory authority over the pipeline, would you welcome that 
delegation of authority? Could you carry it out, and would we 
have a better result with Olympic?
    Ms. Showalter. We would welcome that authority. I think we 
could not carry it out immediately without, of course, putting 
more resources into our inspection program, but whether we get 
the authority through the delegation of OPS of its authority or 
whether we were given our own authority, we will, in general, 
have the capability to do it, but we would have to add several 
more engineers and inspectors.
    Senator Gorton. Do you think you could then do a better 
job?
    Ms. Showalter. I think we would do a better job, probably, 
because we care more about our state, but I have to say I think 
equally important is I think we would do a better job because 
we would put more resources into it.
    If you look at the number of inspectors that we have or the 
number of inspectors that we would add if we get interstate 
delegation, it's probably three or four inspectors, and so we 
would have a total, say, of, with our intrastate authority of 
about 10. That is way more than----
    Senator Gorton. --than the one?
    Ms. Showalter. Than the one, right. So I think both 
elements are important, what are the resources devoted to it, 
which could be at the Federal level, but we're willing to 
devote those resources, and then the other is who has the legal 
authority.
    Senator Gorton. The rest of the panelists will pardon me if 
all or almost all of the rest of my questions are for Mr. 
Felder.
    Mr. Felder, you've been here all afternoon. You heard Mr. 
King's question. Given Olympic's record, why is its pipeline 
continuing to be operating below Bayview?
    Mr. Felder. The reason that we have not shut that pipeline 
down is because we have already reduced the operating pressure 
on that portion of the line to 80 percent, which is as I said 
in my statement, is the equivalent of pressure test. It's the 
same thing as pressure testing the line, you get the same 
margin of safety, and we took a look at the safety and the 
operating history of the line below Bayview, and all of the 
other information that we have at hand based on our inspections 
of the Olympic pipeline and deemed it safe to operate, which is 
not to say that we've given it a final check mark. We certainly 
have not. We would not allow the pipeline below Bayview to 
return to a full level of service until we have conducted a 
full gamut of internal inspections with all of the high 
resolution tools and the best available technology. So we want 
to give the citizens of this state what is the equivalent of a 
brand new pipeline, something that they have confidence in, 
something that they understand the condition of, and something 
that they can live with with a much higher level of comfort 
than I've seen in this room.
    Senator Gorton. Then the concerns expressed by the 
officials from Bellevue, Renton, and SeaTac are without much 
foundation? You're convinced that their cities are 
appropriately protected?
    Mr. Felder. Not only have we reviewed the internal 
inspection runs that they are concerned about, but we've also 
had outside experts take a look at it, because I know that 
certainly in this environment our credibility isn't the 
highest. So we may as well get somebody in that everybody has 
confidence in. These things have been looked at.
    For example, in Renton, we've been in touch with the Mayor 
there. We've gotten back to him on the evaluation of what he 
was concerned about. The areas that we had a common concern 
about in fact had already been addressed, and if in fact after 
these more sophisticated tools, if they show anything of 
concern that needs to be examined and then repaired, replaced, 
whatever is required, we are going to order that. It falls 
within the gamut of the corrective action that we're going to 
take, and we intend to take it.
    Senator Gorton. On another subject, why has there been no 
action positive or negative over a period of years on so many 
of the National Transportation Safety Board's recommendations?
    Mr. Felder. Well, Senator Gorton, I can only say if you 
take a look at where we are today, we've got a couple of old 
recommendations. It's absolutely true. There's probably five or 
six of them that predate 1995 that are still open that are on 
the books, and all of those recommendations we believe will be 
satisfied when we put this rule out on the 30th. They have to 
do with periodic testing. Some of them where not as pointed as 
this. I mean the oldest one was put out in 1987, and it 
concerned hydrostatic testing, and its safety goal was to 
ensure the integrity of pipelines, and when we addressed that 
recommendation, we tried to address it in a way that was as 
responsible as possible, which was to take all of the pipelines 
in America that we thought had susceptibility to the type of 
defect that a pressure test would expose and order the pressure 
testing of those lines, and we did that, and we feel that by 
the time that protocol is completed, and it will be completed 
within the next year, any pipeline that has that kind of a 
defect will have been addressed, and I think the good news is 
that there is now a new, more sophisticated internal inspection 
device which can actually detect the kind of seam problems that 
a hydrostatic test is designed to expose, and that tool we are 
ordering for the first time to be used here in the State of 
Washington. We've worked on the development of that over the 
past 3 years.
    Senator Gorton. You've listened today, and you've listened 
before today to a wide range of complaints by local officials 
here. We and the Congress keep hearing rumors or confusing 
reports that the Administration of the Office of Pipeline 
Safety may be seeking to amend the Federal law by revoking the 
agency authority that it's given to four states and now offered 
to the State of Washington.
    Is there anything to that rumor?
    Mr. Felder. Well, I'm very glad you raised that, Senator, 
because this is a great time to clear the air on that.
    The traditional interstate agent policy that we had was one 
that was developed a number of years ago when the office that I 
run today had a budget that was in the single digits of 
millions of dollars. It had a staff that was about a third of 
what we have today, and it had the same set of 
responsibilities. So really out of a sense of urgency and out 
of lack of resources we developed a program to have the states 
conduct interstate inspections on interstate pipelines on our 
behalf. We feel it was imperative because otherwise we could 
never cover the interstate systems with the resources that we 
had.
    Fortunately or unfortunately as you may assess it, after 
the tragic accident in Edison, New Jersey in 1994, Congress 
doubled our budget. We went from what had finally grown to 17 
million to 37 million dollars in 1 year, and since the budget 
was raised to thirty-seven, to that 37 million dollars, we took 
those resources as the Congress provided them to us and hired a 
large number of new inspectors. We went from 25 inspectors up 
to 55 to cover the interstate systems, and as we acquired those 
resources and were able to do those inspections, we actually 
put a freeze on creation of new state authority to conduct 
inspections on our behalf.
    I will add that states weren't actually beating down the 
door for this, but there were some states who were interested 
who we did not authorize, including the State of Texas. 
However, we have entered into agreements with the State of 
Texas periodically to do any number of inspections and special 
construction investigations either apart from us or in 
conjunction with us. We have always partnered effectively with 
the state pipeline safety programs, but what we're looking 
forward to, and let me give you the second part of it, we have 
a legislative proposal which I hope will reach you by the end 
of this month, and what we're looking to do, we're not ending 
any programs where we don't have the ability to conduct those 
inspections, and if there is a concern that we are not 
inspecting often enough or thoroughly enough in a state, we're 
very happy to respond to that, but the program that we have in 
our proposed legislation actually not only reaches out to 
states, asks them for their local concerns, both to their 
population and their environment and has us put a work plan 
together to address those concerns through inspections and 
other activities, but it also fully funds that. So what we're 
looking forward to is support from everyone for the dollars and 
the resources to partner effectively with states, not just have 
them conduct inspections using our standards, but to develop 
work plans based on local and state concerns and conduct those 
inspections.
    Senator Gorton. Well, that's a nice long answer, but I'm 
not at all sure that it answers the question that I asked.
    Just put it very simply----
    Mr. Felder. I can give you a one word answer. Are we ending 
the program? No.
    Senator Gorton. And if we give you the money that the 
president's budget has asked, you will not back away from these 
delegations?
    Mr. Felder. Well, I think that we should, we should 
continue that debate, and I think that that's what the--no, 
really. I think that's what this reauthorization debate is all 
about, whether it's a better idea to have each state conduct 
the pipeline safety investigations or to have a Federal 
oversight of the pipeline safety investigations with adequate 
resources or something in-between. I think that's really what 
this is about, and we want to be involved in that. If there's a 
determination that we should just be a grant giving agency and 
have the state perform all the inspections, that's a decision 
that can be made. If it's something that goes to the other end 
of it, or if it's somewhere in-between, what we think is 
important is to really involve states in decisionmaking and 
partnership in pipeline safety concerns not just to use them as 
our extra work force.
    Senator Gorton. What kind of history do you have? You've 
got four states that have had this inspection authority for 
some time. Is the record of incidents with those states better, 
the same or worse than the other 46 states?
    Mr. Felder. Actually, we took a look at that, and there's 
no material difference.
    Senator Gorton. Senator Murray?
    Senator Murray. Thank you, Mr. Chairman.
    Following up on what Senator Gorton asked you, Mr. Felder, 
what would be the arguments against allowing states to develop 
their own inspection regulations?
    Mr. Felder. Well, if we have the responsibility to oversee 
the safe operation of pipelines, let me give you one, an 
example of one pipeline, Colonial Pipeline. It runs from Texas 
to New Jersey, and its control center is in Atlanta, Georgia. I 
guess the question is who would set the standards, and the way 
we see it we would rather work with all of the states up and 
down that pipeline corridor, identify their concerns and then 
putting together a comprehensive program which we honestly 
believe we have in the Colonial setting to make sure that that 
pipeline is operated safely. So we don't, we are not, we don't 
want to count the states out, but we want them to give us what 
we need to help protect their citizens. I believe that everyone 
in this room and in this state knows more about what's 
important locally both population and environmentally than we 
do.
    Senator Murray. So your concern is more for the states 
where a pipeline goes through two, three, four, five states at 
a time and who would set the regulations and rules, and that 
what Senator Gorton suggested a moment ago, if 90 percent of a 
pipeline operates within one state, would you have concerns 
about that if the state had authority?
    Mr. Felder. We don't regulate the transmission lines that 
are in one state.
    Senator Murray. Right.
    Mr. Felder. So if you wanted----
    Senator Murray. But the majority is in Washington State, 
partially in Oregon, would that be of concern to you if 
Washington State had particular regulations or operated the 
pipeline?
    Mr. Felder. It might be a concern to Oregon.
    Senator Murray. Well, let me continue on, Mr. Felder. I 
think you've heard the charges and the insinuations.
    Mr. Felder. Oh, yes.
    Senator Murray. But I wanted to ask you specifically 
because we keep hearing the concern that the Office of Pipeline 
Safety has more the interests of the industry in its purview in 
making decisions rather than citizens. How do you respond to 
that?
    Mr. Felder. I respond to that by saying absolutely not. I 
respond to that by saying that we are out there every day 
inspecting, enforcing and trying to get the highest possible 
standards in place. Some of these things take time. We've been 
criticized for taking too much time. We'd like to quicken the 
pace, but in no way do I accept any suggestion that we're 
either favoring or working on the behalf of the folks that we 
regulate.
    Senator Murray. Mr. Chipkevich, you've been critical for a 
long time of the Office of Pipeline Safety and many of the 
regulations. You've listened to the testimony today. Do you 
think progress is being made? Do you think we can feel perhaps 
Bellingham made a difference and things are going to be better? 
What's your view from listening to all this?
    Mr. Chipkevich. I hope Bellingham does make a difference, 
but we've seen proposed rules in the past that haven't been 
effective, or that haven't gone as far as the Safety Board felt 
the rulemakings needed to go.
    An example is in the qualification or training requirements 
for people operating pipelines. We believe that final rule is 
insufficient even after many years, and now there's a final 
rule.
    We know there's work being done to improve regulations for 
corrosion inspection and for the testing of pipelines. But we 
haven't seen what the final rule is and if it's strong enough. 
No, we haven't seen the change yet, but I hope this accident 
does provide the impetus to make those strong changes.
    Senator Murray. In our legislation that we are proposing at 
the Federal level, we increase those standards nationally, and 
I suppose that you would support that?
    Mr. Chipkevich. I've looked at the legislation, and I think 
there's some very strong, important elements in that 
legislation. I think that some of those standards could have 
been certainly implemented without legislation, but maybe 
legislation is required in order to get what we're finally 
looking for. We can certainly provide you some specific 
comments for the record on that.
    National Transportation Safety Board staff met with your 
Committee staff to discuss Safety Board recommendations for 
pipeline safety improvements related to the proposed 
legislation. A review of our data base reveals that safety 
recommendations issued to the Research and Special Programs 
Administration can all be accomplished without legislative 
action. However, a number of critical safety issues in the 
proposed legislation have not been acted upon and may warrant 
Congressional intervention.
    Since 1987, the Safety Board has urged that RSPA require 
pipeline operators to verify the integrity of their pipelines 
by mandating periodic inspection and testing. Section 5 of S. 
2004 would require internal inspections at least every 5 years; 
the Board does not have sufficient data to recommend a specific 
test period at this time. Section 5 of S. 2438 would require 
operators to periodically inspect and test pipelines; the 
Safety Board suggests that the frequency of the inspections or 
tests required depend upon the characteristics of the pipeline 
and the ability of inspection or test methods to detect defects 
before the defects propagate to critical size. Under such a 
mandate, RSPA could require that pipelines with protective 
coating deficiencies or known corrosion conditions be inspected 
more frequently, and that the frequency depend on the ability 
of the inspection method to detect defects.
    The Safety Board supports language proposed in Sections 2b 
and 2c of S. 2409 that would require an operator to clearly 
define criteria for evaluating and acting on the results of 
inspections, and that would also require that prompt action be 
taken to address integrity issues.
    The Safety Board has also urged, in safety recommendations, 
that pipeline employees be required to be trained, tested to 
assess the success of training, and periodically retrained and 
retested, as appropriate. Training requirements in Section 4 of 
S. 2438 are consistent with past Safety Board recommendations. 
Section 6 of 
S. 2004 would also require testing to determine whether 
individuals are qualified to perform assigned functions. Such a 
requirement is consistent with previous Safety Board 
recommendations. 
S. 2004 requires certification by the Secretary of 
Transportation, which the Board has not previously recommended. 
Objective criteria would provide regulators with specific means 
to reassess the qualification of individuals after an accident 
and before they resume regular duties.
    Most of the provisions in Section 7 of S. 2438 are 
consistent with past Safety Board recommendations concerning 
public education and emergency preparedness needs.
    Finally, the Safety Board is concerned that State 
officials' ability to inspect interstate pipeline operators is 
threatened. Effective oversight is needed to ensure that 
pipeline operators meet minimum standards. Section 9 of S. 2438 
is consistent with the Safety Board's support for participation 
of State authorities in overseeing interstate pipeline 
activities.
    Senator Murray. I would appreciate that, and Miss 
Showalter, you were asked whether you could oversee the 
interstate pipelines if that authority was given to you. All of 
a sudden the responsibility would be in your pocket if an 
accident like Bellingham occurred. Do you believe that there 
is, are the inspection divisions available today that the, that 
there is the ability right now to get the information you would 
need to assure citizens from Renton, Redmond, Bellevue, SeaTac 
that they have indeed safe pipelines that they were living next 
to?
    Ms. Showalter. You mean is there the technology available?
    Senator Murray. Correct.
    Ms. Showalter. It's hard for me to answer that question. 
I'm not a technological expert. I can say that I think the 
State of Washington would have at least as good an ability as 
the Federal Government to avail itself of that technology, and 
as I said before, I think because we would put more resources 
into it and because I think because we're more responsive to 
the demand of our state we would do at least as good if not a 
better job to do that.
    Senator Murray. Mr. Felder, would you respond to that?
    Mr. Felder. We want to say that we think the provisions in 
your bill on research and development and the need to strength 
research and development are exactly where they need to be. 
I've spoken to folks in the pipeline industry and outside of 
the pipeline industry, and quite frankly, I personally am 
astonished that as we're into the next millennium we do not 
have safety solutions from advanced technology to address the 
kind of problems that have been discussed in this room here 
today, and we would pledge to use additional funding to lead 
new research and development into advanced tools.
    Senator Murray. I would absolutely agree with you, and my 
concern would be is if we do approve legislation at some point 
that gave Miss Showalter the authority to oversee the 
pipelines, is that there wouldn't be the inspections available 
to give you the assurance that you could give to the 
communities that they would be safe, and if we don't develop 
that research and development of testing, we would well have 
not made any progress whatsoever. So I will continue to work on 
that as well.
    Mr. Chairman, I have other questions. If I could submit 
them for the record, I would appreciate it.
    Senator Gorton. All right. I'm going to take one more crack 
at Mr. Felder.
    Mr. Felder, you used the example of the Colonial Pipeline 
from Texas to New Jersey, I think quite appropriately, as an 
example of where obviously uniform Federal rules are vitally 
important. I don't know precisely where that pipeline goes, but 
the way I count my geography, it must go through 10 different 
states.
    My question for Miss Showalter, however, was very 
different. The particular pipeline we're talking about here 
isn't 90 percent in the State of Washington. It's got to be 98 
or 99 percent in the State of Washington. She said that if she 
were delegated or the state were delegated the authority, full 
regulatory authority over that pipeline, first, of course, 
she's here. I'm more directly responsive to the people of the 
state than any Federal entity can be, and second, that almost 
certainly the single state would have more, would have a 
greater number of inspectors. I asked her not about Colonial or 
a 10-state pipeline but whether or not it would be appropriate 
as a matter of the statute, the bill that Senator Murray and I, 
to make a statutory delegation to a state under those 
circumstances, i.e. 90 percent or more of a pipeline's length 
being within a single state if the state wished to accept that 
responsibility.
    She gave me a quite enthusiastic yes to a question that she 
hadn't heard before. Is your answer to that question no? Would 
you and the administration oppose a mandatory delegation of 
authority under those circumstances?
    Mr. Felder. I can't, I can't really answer that question 
for the record, because I don't know the Administration's 
answer. I could give you a personal answer.
    Senator Gorton. Yes, that's what I want then.
    Mr. Felder. I've been working in various forms of 
transportation in the public and private sector for my whole 
professional career, and I honestly do believe that the 
regulation of fixed facilities that operate in interstate 
commerce should be directed by the Federal Government. I think 
it's very important to work with the states, but I think when 
it comes down to it, if you're talking about the movement of 
goods and services around the country, I think the founding 
fathers got it right, that interstate commerce belongs in 
Federal hands.
    Senator Gorton. No, the founding fathers said we had that 
authority if we wanted to take it. It doesn't require us to 
take it.
    Mr. Felder. No, it doesn't require us to take it. I 
couldn't agree with you more, but I'll just say that yes, I 
think, personally I think it should reside where it resides, 
but well informed by the Federal system.
    Senator Gorton. OK. We perfectly understand your views. 
That's a straightforward answer to our question whether we 
agree with it or not.
    I apologize to those of you that didn't get asked any 
questions during this period of time. We do value your 
testimony, and we value the testimony of all of you very much.
    Thank you very much.
    Senator Gorton. Well, the three of you have been waiting 
all afternoon for this opportunity, and we now wish to hear 
from you, and Mr. Gast, we'll start with you.
    Mr. Gast. Thank you, Senator Gorton.

  STATEMENT OF CARL GAST, MANAGER AND VICE PRESIDENT, OLYMPIC 
             PIPE LINE COMPANY, RENTON, WASHINGTON

    Mr. Gast. I'm Carl Gast, Manager and Vice President of the 
Olympic Pipe Line Company.
    With me today is Tony Palagyi, Senior Environmental Project 
Manager, who has played a leading role with the Whatcom Falls 
Park restoration effort.
    I'd like to thank Senators Gorton and Murray for inviting 
us to participate in this panel today.
    Before I begin my remarks, allow me to introduce myself. I 
joined Olympic Pipe Line on January 3rd of this year. I oversee 
the day-to-day operations of the company here in Washington and 
in Oregon, as well as the implementation of the company's 
corridor safety action plan which is a comprehensive effort to 
address safety issues along the entire length of the pipeline 
from Ferndale to Portland.
    As a certified engineer, I have 31 years of experience in 
the liquid fuels pipeline industry at various locations in the 
United States. Throughout my career as a pipeline engineer and 
manager, I've always made safety my No. 1 priority. I have been 
involved in a number of efforts to address safety issues for 
pipelines, but I must say that the safety action plan developed 
by Olympic in the last few months is the most far reaching 
effort with which I have ever been involved.
    On behalf of myself and Olympic Pipe Line, I want to 
express again sincere sympathy and condolences to the families 
and friends of the three young people who lost their lives in a 
tragic accident. There is nothing I can say that will replace 
that loss, but I do want to talk about Olympic, what Olympic is 
doing to address safety issues along the entire pipeline, as 
well as our efforts to restore Whatcom Falls Park where the 
accident occurred.
    In addition, I will touch upon our work with the Governor's 
Fuel Accident Prevention and Response Team and our community 
out-reach activities along the pipeline corridor.
    I'd like to start by mentioning the restoration efforts at 
Whatcom Falls Park. Olympic is working closely with members of 
the joint restoration committee, not only to restore Whatcom 
and Hanna Creeks, but to introduce significant improvements. It 
has been an excellent group effort. Proof of that significant 
effort is the return of salmon to the creek earlier than 
expected as well as the return of many native plant and animal 
species. Olympic will continue working closely with the state 
holders during this long-term restoration phase expected to 
last up to 5 years. Mr. Palagyi is here to answer your 
questions regarding the park restoration.
    Next I'd like to discuss the two major safety action plans 
undertaken by Olympic. The Bellingham safety action plan was 
developed in cooperation with the City of Bellingham and 
addresses safety efforts in Whatcom and Skagit Counties. Our 
corridor safety action plan was approved in October by the 
board, Olympic board of directors as a comprehensive program to 
address safety along the entire pipeline. The actions we are 
implementing in these safety plans are intended to address all 
issues we understand are under investigation by the National 
Transportation Safety Board as a potential cause or 
contributing factor to the accident. We are not waiting until 
after the investigation is complete to take action. In other 
words, we are implementing safety actions in each area under 
investigation regardless of whether the area ultimately is 
found to have been involved in the accident. These areas 
include the integrity or condition of the pipe, valves, 
pressure levels, computer software and hardware, and the 
actions by employees who operate the pipeline from Olympic's 
control center in Renton, and in the time allowed me today, I 
would like to take a moment to discuss some of the safety 
actions Olympic is taking in the areas that we understand to be 
under this investigation. My written testimony provides a 
fuller description of all of the actions we are planning to 
take.
    In the area of valves, Olympic has retained an independent 
professional engineering firm to determine whether changes 
should be made in the number, location and type of valves. The 
firm, Marmac, has completed its study of the northeastern 
segment of the line. As a result, Olympic has installed five 
new valves in the Bellingham area. Marmac is now working on 
similar studies of the pipeline all the way to Portland.
    In regard to pressure issues, Olympic has retained an 
outside consultant to conduct computer simulated pressure surge 
analysis. The intent of these analyses is to show that the 
pressure might result at various points along the pipeline 
under a variety of operating conditions--normal, abnormal, and 
emergent--to insure that the pressure under these conditions 
will not exceed the pipeline's designed maximum allowable 
operating pressure or the maximum allowable surge pressure. 
These analyses are being done in concert with the valve 
placement study.
    I should point out that the results of the surge analysis 
reenacted at the June 10th accident show that at the time of 
rupture of the pipe, the pressure in the pipeline at the 
rupture point was below its maximum allowable operating 
pressure and its maximum allowable surge pressure. In other 
words, the pipe failed at a pressure lower than what it was 
designed to withstand.
    As many of you probably know, the NTSB has reported that 
the section of pipe that ruptured showed clear evidence of 
damage consistent with markings left by construction equipment. 
To check the condition of the line, the entire pipeline from 
Ferndale to Portland will be inspected internally.
    CC Technologies of Dublin, Ohio has been retained to help 
develop and implement the internal inspection program. The 
entire pipeline will be inspected internally using two devices 
that employ the best accepted technology available today. One 
checks the roundness of the pipe. The other looks for areas of 
metal loss typically caused by corrosion or manufacturing 
defects. Olympic has voluntarily inspected its pipeline on 
about a 5-year basis, but the upcoming round of inspections is 
the most comprehensive program we have ever done.
    In cooperation with the Office of Pipeline Safety and 
community representatives, Olympic will review the internal 
inspection data and determine if there are any anomalies 
requiring visual inspection. In cooperation with the Office of 
Pipeline Safety and community representatives, Olympic will 
review the internal inspection data and determine if a visual 
inspection of the pipe is required. Olympic is also a committed 
partner to the state ``one call'' program which requires 
excavators to call before they dig near utility lines to give 
utilities opportunities to properly mark their lines and/or 
observe any digging around their lines.
    I want to emphasize that our safety action plans are not an 
end in themselves but an ongoing continuous effort as we 
address safety along the entire pipeline.
    That outlines some of the actions we have taken that 
support our January 14th request to the Federal Office of 
Pipeline Safety for permission to restart flow of product 
through the segment of 16-inch line that's been shut down since 
June 10th.
    At this point we do not know when the Office of Pipeline 
Safety will complete its review of all of the materials we have 
submitted and make its decision regarding restart.
    I'd like to take a few moments now to discuss our recent 
work with the Governor Locke's Fuel Accident Prevention 
Response Team. We want to acknowledge the hard work of the 
team. We appreciate their recommendations to approve public 
awareness and strengthen emergency response. We also support 
state efforts to strength our one call system.
    Our issue of current debate is the degree of authority the 
state would allow over interstate pipelines. In our view, the 
existing division of regulatory responsibility makes sense. We 
are concerned about the potential for patchwork regulations 
that differ from state to state and the implications it would 
have on interstate commerce. Having a unified set of 
regulations is important for smooth regulation. Ultimately, we 
recognize that the balance between Federal and state 
authorities is up to elected officials such as yourself. 
However, we encourage you to consider carefully the need for a 
unified set of regulations for interstate pipelines.
    Last, certainly not least, I'd like the talk about the 
community involvement. Olympic is committed to reaching out to 
communities along the pipeline. Our corridor safety action plan 
contains a strong community out reach core. Since the board 
approved this plan last October, we have met with local media 
up and down the corridor as well as held three major community 
briefings in December in the three most populace communities 
through which the pipeline travels. We have held numerous 
meetings with local city councils, other elected officials, 
local emergency response groups, school districts, and 
neighborhood locations.
    As I mentioned before, we are also committed to reviewing 
with the communities along the pipeline the data from our 
upcoming internal and field inspections, our valve detect 
study, and our surge analysis. In fact, tomorrow, Wednesday, 
and Thursday of this week we are holding three pipeline 
integrity workshops to help technical community representatives 
better understand the results of our internal inspections as we 
move ahead with the corridor safety action plan.
    In conclusion, I'd like to stress that Olympic's safety 
action plans are comprehensive and community oriented. We are 
dedicated to working with communities and elected officials to 
address safety along the entire pipeline. We are working 
closely with the Governor's response team, the state 
legislature and others in pursuit of a common goal. We believe 
that the Whatcom Falls Park restoration effort is an example of 
what we can achieve if we work together.
    If you have any questions, I'd be happy to answer them for 
you now or later.
    [The prepared statement of Mr. Gast follows:]

     Prepared Statement of Carl Gast, Manager and Vice President, 
             Olympic Pipe Line Company, Renton, Washington

    I am Carl Gast, manager and vice president of the Olympic Pipe Line 
Company. With me today is Tony Palagyi, Senior Environmental Project 
Manager, who has played a leading role in the Whatcom Falls Park 
restoration efforts. I would like to thank Senator Gorton and members 
of the Senate Commerce, Science and Transportation Committee for 
inviting us to participate in today's panel.
    Before I begin my remarks, allow me to introduce myself. I joined 
Olympic on January 3rd. I oversee the day-to-day operations of the 
company here in Washington and Oregon, as well as the implementation of 
the company's Corridor Safety Action Plan, which is a comprehensive 
effort to address safety issues along the entire length of the pipeline 
from Ferndale to Portland.
    As a certified engineer, I have 31 years of experience in the 
liquid fuels pipeline industry at various locations in the United 
States. Throughout my career as a pipeline engineer and manager, I have 
always made safety a priority. I have been involved in a number of 
efforts to address safety issues for pipelines, but I must say that the 
Safety Action Plan developed by Olympic in the past few months is the 
most far-reaching effort with which I have been involved.
    On behalf of myself and Olympic Pipe Line Company, I want to 
express again sincere sympathy and condolences to the family and 
friends of the three young people who died in that tragic accident. 
There is nothing I can say that will replace the loss, but I do want to 
talk about what Olympic is doing to address safety issues along the 
entire pipeline, as well as our efforts to restore Whatcom Falls Park, 
where the accident occurred. In addition, I will touch upon our work 
with the governor's Fuel Accident Prevention and Response Team, and our 
community outreach activities along the pipeline corridor.
Whatcom Falls Park Restoration
    I would like to start by discussing restoration efforts in Whatcom 
Falls Park. Olympic Pipe Line Company is working closely with members 
of the Joint Restoration Committee not only to restore Whatcom and 
Hannah Creeks, but also to introduce significant improvements. The 
Joint Restoration Committee is composed of representatives and 
specialists from Olympic, the City of Bellingham and other consultants. 
They are advised by the Trustees which includes a committee composed of 
the Department of Ecology, Department of Natural Resources, National 
Oceanic and Atmospheric Administration, Lummi and Nooksack Tribes, and 
the Department of Fish and Wildlife.
    The initial funding for all the restoration and improvement efforts 
has been provided by Olympic Pipe Line Company.

<bullet> Restoration. Creek banks and plant life are being restored by 
the collaborative efforts of the Restoration Committee and nature. Here 
are some examples:

        1. Fallen trees were added along the bank to reduce perennial 
        flooding of both Whatcom and Hanna Creeks.
        2. Woven matting was used extensively at Hannah Creek to 
        solidify the banks against erosion. Matting holds the soil 
        while allowing grasses and plants to grow through the mesh.
        3. By October, plants and grass were growing up through the 
        matting and a significant amount of native plants, such as 
        ferns and salal, were making a comeback. In addition, invasive 
        plants such as Canadian thistle and reed canary grass are being 
        removed.
        4. Hydromulching was added to creekbanks to reduce erosion, 
        while native grass seed was added to the banks for soil 
        retention.
        5. Trees in the burn zone will be monitored through the spring 
        of 2000 to determine which scorched trees will recover. More 
        trees and shrubs will be planted this spring.

<bullet> Improvements. In addition to restoration efforts on the creek, 
Olympic has worked with the Joint Restoration Committee team to improve 
significantly the creeks and the surrounding affected area. 
Improvements include:

        1. Building 30 new spawning pools for the salmon.
        2. Creating pools and minimizing obstructions to help salmon 
        move upstream.
        3. Adding creek meanders and placing logs in the creek banks to 
        help retain the banks of the streams. The increase in meanders 
        helps slow Hannah Creek down, which improves the fish habitat.
        4. Establishing intentional log/debris spots in the creek. This 
        builds habitat needed to capture organic matter that nurtures 
        and sustains the life of the creek at the micro level. The logs 
        also provide refuge for fish.
        5. A total of nearly 6,000 pounds of metal debris was pulled 
        from the creek during the clean up.
        6. We are replacing the Valencia Street Bridge and making 
        improvements directly related to the park.

<bullet> Salmon are returning. As early as late August, salmon were 
returning and had made it as far as naturally possible to Pixie Falls, 
inside Whatcom Falls Park. And late November, approximately 20 Chum 
Salmon were sighted at the Falls, which is more than usual and is 
considered a good sign.
    Ultimately, restoration efforts have increased salmon habitat in 
the park by about 60 percent. Along with these restoration efforts, 
creek improvements will enhance the habitat needed by salmon and 
resident fish such as rainbow and cutthroat trout for years to come.

<bullet> Long-Term Restoration: Olympic will continue working closely 
with the Natural Resources Trustee group, chaired by Clare Fogelsong of 
the City of Bellingham, and the Department of Ecology. The long-term 
restoration phase expected to last up to five years.
    Key elements of the Long-Term Restoration effort will include:

        1. Control of invasive plants
        2. Re-vegetation
        3. In-stream habitat improvements
        4. Multi-year monitoring
        5. Potential land acquisitions and,
        6. Monitoring ground water.

Olympic's Safety Action Plans
    Next, I would like to discuss two major safety action plans 
undertaken by Olympic. The Bellingham Immediate Safety Action Plan was 
developed in cooperation with the City of Bellingham and addresses 
safety efforts in Whatcom and Skagit Counties. Our Corridor Safety 
Action Plan was approved in October by the Olympic Board of Directors 
as a comprehensive program to address safety along the entire pipeline.
    Following the June accident, the Office of Pipeline Safety issued a 
Corrective Action Order, which it amended twice. These directives 
spelled out the steps Olympic was required to take before receiving 
permission to resume operation of the pipeline.
    Collectively, these safety actions address all the issues we 
understand are under investigation by the National Transportation 
Safety Board as potential causes or contributing factors to the 
accident.
    These areas include the integrity or condition of the pipe, valves, 
pressure levels, computer software and hardware and actions by the 
employees who operate the pipeline from Olympic's Control Center in 
Renton.
    In other words, we are implementing safety actions in each area 
under investigation, regardless of whether that area ultimately is 
found to have been involved in the accident.
    Here are some of the major actions we have taken to comply with the 
requirements of the federal Office of Pipeline Safety.

1. Valves
    First, investigators are attempting to determine whether a pressure 
relief valve may have failed to function properly, and if that was a 
factor in the June 10 accident. Investigators are also evaluating 
whether the number of mainline block and check valves could have 
reduced the size of the release.

Here's what OPL is doing or has done:

        <bullet> OPL has tested its relief valves and commissioned a 
        detailed engineering study of the delivery facility where the 
        relief valve was located.
        <bullet> Olympic also has retained an independent professional 
        engineering firm to determine whether changes should be made in 
        the number and location of valves to reduce the potential 
        impact of an accidental release on environmentally sensitive 
        areas and population centers.
        <bullet> Marmac has completed a study of the northern segment 
        of the line, and as a result, Olympic has installed five new 
        valves in the Bellingham area.
        <bullet> Marmac is now working on similar studies of the 
        pipeline all the way to Portland.
        <bullet> In addition, it's important to note that Olympic 
        regularly tests the pipeline mainline valves and will perform 
        additional tests in the upcoming months. These tests are 
        conducted through field inspections by an operations technician 
        as well as through monitoring at its Control Center in Renton.

2. Pressure Issues
    Second, investigators are attempting to determine if a pressure 
increase in the pipe contributed to the accident.

Here's what OPL is doing or has done in this area:

        <bullet> Pressure Surge Analysis: Olympic has hired Stoner 
        Associates to conduct computer simulated pressure surge 
        analyses to show what pressures might result at various points 
        along the pipeline under a variety of operating conditions.
        <bullet> June 10 re-enactment. Results of the surge analysis 
        re-enacting the June 10 accident showed that, at the time, the 
        pressure in the pipe at the rupture point was below both its 
        maximum allowable operating pressure and its maximum allowable 
        surge pressure, as established under Department of 
        Transportation regulations.

3. Line Integrity
    The third issue investigators are looking into as a possible cause 
of the rupture is line integrity or the condition of the pipeline. The 
NTSB has reported that the section of pipe that ruptured showed clear 
evidence of damage consistent with markings left by construction 
equipment.

Here's what Olympic is doing about the issue of line integrity:

        <bullet> Internal Inspections: The entire pipeline from 
        Ferndale to Portland will be inspected internally. CC 
        Technologies of Dublin, Ohio, has been retained to help develop 
        and implement the internal inspection program. This includes:

          <bullet> Identifying and evaluating available inspection 
        tools;
          <bullet> Developing a process to use and verify the 
        information;
          <bullet> Developing a method and protocol for inspections;
          <bullet> Implementing the program systemwide.

          Olympic likely will begin the process of internal inspection 
        in Whatcom and Skagit Counties. The section of the pipeline 
        from Ferndale Station in Whatcom County to Allen Station in 
        Skagit County will be inspected using three state-of-the-art 
        devices: a geometry device; a high resolution magnetic flux 
        device; and an ultrasonic device. These inspection devices run 
        inside the pipe and are propelled down the pipeline by the flow 
        of petroleum products.
          The Office of Pipeline Safety must approve the selection of 
        the devices that will be used for the internal inspection of 
        the pipeline.
          Each device is designed for a specific purpose.

          <bullet> A geometry device looks for changes in the roundness 
        of the pipe.
          <bullet> A high-resolution magnetic flux device uses a 
        magnetic field to locate and identify metal loss due to 
        internal or external corrosion.
          <bullet> An ultrasonic device utilizes ultrasonic pulses to 
        inspect the pipe. This device is designed to identify the same 
        range of features and defects as the high-resolution magnetic 
        flux tool but uses ultrasonic pulses rather than a magnetic 
        field to collect the data.

        <bullet> Field Inspections and Repairs: In cooperation with the 
        Office of Pipeline Safety and community representatives, 
        Olympic will review the internal inspection data and determine 
        if there are any anomalies requiring visual inspection. In 
        cooperation with the Office of Pipeline Safety and community 
        representatives, Olympic will review the internal inspection 
        data and determine if a visual inspection of the pipe is 
        required. These field inspections will be undertaken based on 
        Department of Transportation requirements and any repairs will 
        be made in accordance with standards set by the American 
        Society of Mechanical Engineers.
          Olympic plans to add another step to the internal inspection 
        process. The Company will dig up and visually inspect an 
        additional number of anomalies that fall below the criteria for 
        excavation as approved by the Office of Pipeline Safety. The 
        purpose of this additional step is to compare the internal 
        inspection data with a visual inspection of the corresponding 
        portion of pipe.
          Olympic also is a committed partner in our state's One-Call 
        Program which requires excavators to call before they dig near 
        utility lines to give utilities the opportunity to properly 
        mark their lines and/or observe any digging near or around 
        their lines.

4. Operations Controller Actions
    Investigators are evaluating whether any actions taken on June 10th 
by the employees who operate Olympic's computer system in Renton were a 
contributing factor to the accident.

Here are the actions OPL has undertaken:

        <bullet> Operator Re-Training: Olympic has completed a re-
        training program for its operations controllers, who operate 
        the pipeline from Olympic's Control Center in Renton. Training 
        also is being provided for the technicians who perform a 
        variety of field tasks, including maintaining pumps and valves, 
        testing the petroleum stream, and supervising the ``one-call 
        system'' in effect when anyone digs near the pipeline. 
        Technicians who cover Whatcom and Skagit Counties have already 
        received additional training.
          The retraining program goes beyond requirements of the Office 
        of Pipeline Safety's first amended corrective action order in 
        that it includes training for the technicians. The program also 
        begins the process of early fulfillment of OPS' ``final rule'' 
        announced August 26 that requires pipeline operators to develop 
        and maintain a written qualification program for individuals 
        performing safety tasks on pipeline facilities.
          All employees in other areas along the corridor and 
        throughout the company will receive training and be re-
        qualified by the end of next year, well in advance of the 
        deadline of Oct. 1, 2002 set by OPS in its final rule.

5. Computer software and hardware
    Investigators are attempting to determine whether an internal 
database error, along with a simultaneous increase in processing 
demands, caused a computer slowdown on June 10th. During the computer 
slowdown, the controllers were unable to obtain current pipeline 
information on the computer screens and to process commands to 
equipment, such as pumps along the pipeline.

Here's what Olympic has done in this area:

        <bullet> Computer Analysis and Upgrade: Olympic has completed 
        an analysis of its Supervisory Control and Data Acquisition 
        System (SCADA), the software that operates its computer system. 
        Based on that analysis, system parameters have been modified. 
        Olympic has also made modifications, upgrades and design 
        changes to its computer system, including an increase of 750 
        percent in processing capacity.

    That outlines some of the actions we have taken that support our 
January 14 request to the federal Office of Pipeline Safety for 
permission to restart the flow of product through the segment of our 
16-inch line that has been shut down since June 10.
    At this point we do not know when the Office of Pipeline Safety 
will complete its review of all the materials we have submitted and 
make its decision regarding restart.
    However, I would like to review with you what Olympic will do once 
we receive written authorization to resume flow of product.
    First, personnel trained in startup procedures will be present at 
the Ferndale and Bayview stations during the first 12 hours of 
operation. Trained personnel also will be stationed at block valves at 
milepost 7 (north of Bellingham) and milepost 16 (at Lakeway Drive in 
Bellingham).
    Two controllers with a minimum of ten years' operating experience 
will be on duty at Olympic's control center in Renton at all times 
during the startup.
    Only diesel and jet fuel, which are less volatile than gasoline, 
will run through the pipeline during the first week of operation.
    The pressure in the line running from Ferndale to Bayview will be 
limited to 70 percent of its normal operating pressure until it is 
verified that the system is operating properly. At that time, pressure 
may be increased only to 80 percent of its normal operating pressure. 
The pressure in the entire system is limited to 80 percent until 
Olympic receives written authorization to increase the pressure from 
the Office of Pipeline Safety.
    The successful startup will signal the next phase of testing we 
have agreed to do that will include the use of different internal 
inspection devices throughout the entire system, as previously 
described.
    I want to emphasize that our Safety Action Plans are not an end in 
themselves, but an on-going continuous effort as we address safety 
along the entire pipeline.
Governor's Fuel Accident Prevention and Response Team
    I now would like to take a few moments to describe our recent work 
with Governor Locke's Fuel Accident Prevention and Response Team. I 
want to acknowledge the hard work of the Team. Pipeline safety covers a 
broad range of issues, from complicated legal questions of federal, 
state and local government relationships, to highly technical 
engineering questions of pipeline operations, as well as complex 
logistical questions of emergency response. We appreciated the Team's 
efforts to begin to tackle the issues presented.
    The Team made several recommendations concerning public awareness, 
local emergency response, and the One-Call system, many of which are 
now the subject of pending state legislation.
    Olympic believes these issues are all extremely important, and 
supports recommendations that would strengthen and improve public 
awareness and emergency response.
    Olympic strongly supports continued development of the One-Call 
system. One statewide number will reduce confusion.
    One issue that keeps coming up is the degree of authority states 
will have over interstate pipelines. In our view, the existing division 
of regulatory responsibility makes sense. Further, we are concerned 
about the potential for patchwork regulations that differ from state-
to-state and the implications that would have for interstate commerce. 
Having a unified set of regulations is important to its smooth 
operation.
    Ultimately, we recognize that the balance in this issue is up to 
elected officials such as yourselves. However, we encourage you to 
consider carefully the need for a unified set of regulations for 
interstate pipelines.
Community Outreach
    Last but certainly not least, Olympic is dedicated to reaching out 
to the communities along the pipeline. Our Corridor Safety Action Plan 
contains a strong community outreach core. Since the Board approved 
this plan last October, we have met with local media up and down the 
corridor, as well as held three major community briefings in December 
in the three most populous counties through which our pipeline travels. 
We have held 64 meetings with local governments, other elected 
officials, local emergency response groups, school districts and 
neighborhood associations.
    We also are committed to reviewing with the communities along the 
pipeline the results from our upcoming internal and field inspections, 
our valve effectiveness study and our surge analyses.
    Since the new inspections won't be completed for a number of 
months, many communities have asked us to review the results of our 
1996/97 inspections. However, our recent experience in sharing this 
technical information with some communities is that it can be difficult 
to understand.
    Therefore, this week we are holding three Pipeline Integrity 
Workshops that are designed to assist communities in understanding the 
1996/97 data as well as our upcoming inspections, and the criteria used 
to conduct field inspections. The workshops also will cover how the 
technology employed by the inspection tools we are using in 2000 
differs from what was used in 1996/97. Our consultant, CC Technologies 
will be conducting the workshops.
Conclusion
    In conclusion, I would like to stress that Olympic's Safety Actions 
Plans are comprehensive and community-oriented. We are dedicated to 
working with communities and elected officials, such as yourselves, to 
address safety along the length of our pipeline. We have worked closely 
with the Governor's Response Team, the state legislature, and others in 
the pursuit of this common goal. We believe the Whatcom Falls Park 
restoration effort is an example of what we can achieve if we work 
together.
    Now, if there are any questions I will be happy to answer them now 
or in writing.
    Thank you.

    Senator Gorton. We'll defer most of our questions until 
we've heard from the other two witnesses, but I do have one for 
you now.
    Where is your predecessor, the person that was in charge on 
June 10th?
    Mr. Gast. He is in Houston, Texas.
    Senator Gorton. OK. Mr. Sluder.

  STATEMENT OF ROBERT L. SLUDER, VICE PRESIDENT, WILLIAMS GAS 
              PIPELINE-WEST, SALT LAKE CITY, UTAH

    Mr. Sluder. Thank you, Senators Gorton and Murray. I'm 
Robert L. Sluder, Vice President of Operations for Williams Gas 
Pipeline-West. Williams is a diversified energy and 
communications company with operations in 50 states.
    Williams gas pipeline unit consists of five wholly owned 
interstate pipeline systems. In aggregate, we move 
approximately 16 percent of the natural gas consumed in the 
United States.
    Senator Gorton. Natural gas only? No liquid?
    Mr. Sluder. Natural gas. Our western operations include 
Northwest Pipeline which runs from New Mexico through the 
states of Utah, Colorado, Wyoming, Idaho, Oregon and Washington 
to the Canadian border. We operate approximately 1,400 miles of 
pipe in the State of Washington and have done so since the 
pipeline was constructed in the late 1950's. PG&E gas 
transmission northwest also operates the other interstate 
pipeline in the State of Washington. Together we deliver 
virtually all of the natural gas that is consumed in the State 
of Washington. We do that through our four local, four major 
customers who are local distribution company or intrastate 
companies. Those are Cascade Natural Gas, Puget Sound Energy, 
Avista and Northwest Natural. We also have direct connection to 
several industries and municipalities in the State of 
Washington.
    Williams is testifying today not because we were directly 
involved in the incidents here in Bellingham, but because we 
have been drawn into the debate of overall pipeline safety as a 
result of those incidents, and we welcome the opportunity to 
participate in this debate.
    We understand and accept the fact that Federal, state and 
local governments want to be involved in our industry safety 
efforts, so that they can assure the public that we are 
providing a safe service.
    I'd like to state or make the assertion that states already 
play an important role in that safety effort. It's been 
mentioned earlier that the intrastate system in the United 
States is under the governance and the jurisdiction of the 
states. That amounts to 75 percent of the total pipeline 
mileage in this country.
    Second, the states' ``one call'' laws are a major factor in 
interstate pipeline safety, and last, state inspectors 
accompany DOT personnel on audits throughout all of our system. 
Whether those states are authorized as was discussed earlier by 
DOT or not, it is my experience that they have always been 
welcome by the DOT and have accompanied the DOT inspectors on 
many inspections in the states of Utah, Colorado, et cetera. We 
strongly believe, however, that for interstate pipeline 
systems, the Federal Government is the appropriate agency to 
set standards and to administer interstate programs. We believe 
that the interstate natural gas transportation industry has a 
good safety record.
    Attached to my formal testimony are statistics that I 
believe will bear that out. We have achieved that record not by 
chance. Safety for us begins at the mill where the steel is 
rolled into the pipe and very strenuous metallurgical testing 
is done not only to the pipe, but to the valves, the fittings 
and all of the other appurtenances that go into our system. 
Through careful design and construction the pipelines are built 
and constructed and ultimately hydrostatically tested with 
water prior to putting them into service.
    Now, in theory, if nothing changed after that initial 
hydrostatic test, there would be no reason to doubt the 
strength of the steel and the concept is it may last forever, 
but things do change. The soils attack the pipe, the coating. 
Land forces attack the steel, itself, and exert pressures on 
the pipe. External digging occurs around the line. So many 
things do change, but we don't sit by as was suggested earlier 
and do nothing. We do many things to observe the changes and 
monitor them and make decisions about safety and maintenance in 
conjunction with those. We routinely fly our rights-of-way and 
in many congested areas in cities and towns we drive or 
physically walk those rights-of-way. We look for signs of 
unusual activity, either unusual construction activity or 
unusual activity such as landslides or other stream erosion 
type events. We participate very strongly with the states in 
the ``one call'' program which is designed to prevent the 
unintended digging near our pipelines. We also monitor our 
cathodic protection systems designed to mitigate the effects of 
corrosion. We assess all of these concerns and in many 
instances then make the decision to internally inspect the 
pipeline.
    We do run smart pigs. We have run smart pigs in many 
locations in the State of Washington on the Northwest Pipeline 
system, but we did so after it was warranted by the information 
that I described earlier.
    Changes in population occur along our pipeline. The 
pipeline again was built in the 1950's. Many areas have 
developed and grown up around the pipeline. DOT requirements 
have for many years required us to do either of several things, 
either reduce the pressure that we operate the pipeline at when 
an increase in population has grown up along the pipeline, 
which is really not practical, because we are obligated to 
provide a service and our ability to move gas is a function of 
the pressure that we operate under, and so traditionally what 
we've done is go in and replace the pipe. Dig it out and 
replaced the pipe with heavier walled pipe in heavier density 
area. Today we look at that, and we also look at smart pigging 
the line, internally inspecting the line and not removing good 
quality pipe if we can determine that it is good quality pipe, 
and often times we'll do hydrostatic testing in those areas as 
well. What we have to do is judge what inspection tools and 
practices would be most effective at any given location in the 
pipeline.
    Lastly, to ensure safety, we work with public education 
programs. We provide the residents and emergency response 
officials all along this system the information about the 
operations and appropriate actions to take during normal 
operations and in the event of an emergency.
    And then there are unique circumstances. In the State of 
Washington we are susceptible to landslides, not only 
Washington, we have the same circumstances through parts of 
Oregon, Idaho and Colorado. Utah as well. To cope with that we 
have instituted a special monitoring program wherein we have 
identified over 95 active landslides and have instrumentation 
in those landslides to protect the pipeline, and I hope that 
the community can see that it's not just one-size-fits-all in 
protecting pipelines.
    As important as safety is, there are two other factors that 
are very important as well, and very important to interstate 
commerce, and that is the reliability of our service and the 
affordability of our service.
    Interstate pipelines operate as an integrated system. Our 
Northwest Pipeline has natural gas entering the system at three 
locations, on the extreme southern end in the states of 
Colorado and New Mexico, in the mid-section in the Rocky 
Mountains of Idaho, Utah and Wyoming, then gas that is brought 
across from Canada and produced in B.C. and Alberta. Gas moves 
through local distribution customers and end users in a variety 
of ways, and it changes as pricing patterns change, and as 
loads on their systems change.
    The question came earlier about state authority. Mr. Felder 
gave an example of a liquids line in the east. I can give an 
example right here in the State of Washington that is perhaps 
even more pertinent. If Idaho decided to increase the safety 
margins by requiring that pipelines operate at lower pressures 
in their state, our ability to deliver gas to Oregon and 
Washington would be adversely affected by virtue of the fact 
that most of the gas that comes into this state comes from the 
south, not all of it comes from the Canadian side. If on the 
other hand Washington chose to mandate hydrostatic testing, 
whole lines would have to be taken out of service, and 
customers south of this state, i.e., Oregon, Idaho, et cetera, 
would suffer the effect of that service disruption.
    Under Federal jurisdiction there is consistency in 
interpretation and application of regulations and a 
consideration for the overall interstate commerce that we are 
involved in.
    Again, I do not imply that states do not have a role to 
play. I believe they play an important role, again, by virtue 
of their authority over the approximate one and a half million 
miles of intrastate pipelines. They play a major role in that 
system.
    Secondly, their ``one call'' systems, the statistics 
indicate that 
80 percent of those accidents involving death or injuries can 
be attributable to dig-ins, and it is our commitment in the 
pipeline industry to work hand and hand with the states and to 
seek better laws and to seek better enforcement of those laws 
to promote better safety.
    In conclusion, the interstate natural gas pipeline systems 
are proud of their safety record, and I personally am very 
proud of the Washington-based employees that our company 
employs here and that work day-in, day-out to provide the 
natural gas service and do so in a safe, reliable and efficient 
manner. We certainly are actively seeking ways to improve on 
that record. However, I cannot promise that there will never be 
another pipeline incident, but I can promise that we are 
committed to take every effective action we can to prevent the 
next one from ever happening.
    We are also committed to working with the Office of 
Pipeline Safety as they do their job of overseeing the safety 
efforts of our interstate industry. We hope that Congress will 
give us and the Office of Pipeline Safety the flexibility we 
need to accomplish this mission.
    Thank you.
    [The prepared statement of Mr. Sluder follows:]

 Prepared Statement of Robert L. Sluder, Vice President, Williams Gas 
                  Pipeline-West, Salt Lake City, Utah

                              INTRODUCTION

    Mr. Chairman and Members of the Committee, my name is Robert L. 
Sluder. I am Vice President of Operations for Williams Gas Pipeline--
West. I appreciate this opportunity to appear before the Committee on 
behalf of Williams to discuss natural gas pipeline safety issues.
    Williams is a diversified energy and communications company with 
operations in all 50 states. Our Williams Gas Pipeline unit consists of 
five wholly owned interstate natural gas pipeline systems. We also have 
partial ownership in several other systems. Approximately 16% of all 
natural gas consumed in the United States is transported on Williams' 
system.
    Our western operations include Northwest Pipeline, which runs from 
the New Mexico/Colorado border, through Utah, Colorado, Wyoming, Idaho, 
Oregon and Washington to the Canadian border. We operate 1,400 miles of 
pipe in Washington and have done so since the system was constructed in 
the late 1950s. PG&E Gas Transmission--NW also operates an interstate 
pipeline in Washington. Virtually all of the natural gas consumed in 
the state is delivered through these two pipeline systems. Our primary 
customers are the four local distribution companies operating in 
Washington--Cascade Natural Gas, Puget Sound Energy, Avista and 
Northwest Natural. We also deliver gas directly to some industrials and 
municipalities. Attached to my testimony is a map, which shows the 
Northwest and PG&E Gas Transmission systems and the service territories 
of the local distribution companies we serve. Williams has recently 
proposed to construct a new line from our Sumas, Washington, location 
across Whatcom County to Vancover Island.

                                SUMMARY

    At the outset, let me summarize my testimony. The interstate 
natural gas pipeline industry has an excellent safety record--superior 
to other modes of transporting fuel or products. Operating and 
maintaining a safe system is embedded in every aspect of our business. 
The cost associated with having an accident--both human and financial--
far outweigh the costs of a responsible safety program.
    We understand and accept the fact that Federal, state and local 
governments want to oversee the industry's safety efforts so that the 
public can be assured that we are making every reasonable effort to 
insure safety. States already play an important role in insuring the 
safe delivery of natural gas by virtue of their jurisdiction over 
intrastate pipelines, which comprise 75% of the total pipeline mileage 
in the country. States also have jurisdiction over ``one-call'' or 
``call-before-you-dig'' programs. Since 80% of the accidents on 
intrastate natural gas pipelines involve third party digging activity, 
the strength of a state's one-call laws is a major factor in interstate 
pipeline safety.
    We strongly believe, however, that for interstate pipeline systems, 
the Federal government is the appropriate body to be the safety 
regulator. Our systems cross state boundaries. Our operations and 
safety activities are planned and implemented on a system-wide basis. 
If we faced separate regulations in every state in which we operate, we 
believe the net result would be a less efficient, less safe system 
overall.

                   NATURAL GAS AND OUR SAFETY RECORD

    For natural gas pipelines, there is no more important objective 
than to operate and maintain a safe system. It is in our own best 
interest to do so. Natural gas transmission pipelines have an excellent 
safety record. Attached to my testimony are two charts. The first shows 
the safety record of natural gas pipelines compared to other forms of 
transportation. The second shows the number of incidents, injuries, and 
fatalities for natural gas pipelines over the last ten years. While 
this record encourages us, we continuously seek ways to improve our 
current practices and seek new technologies to further enhance safety.
    Accidents have serious and unacceptable consequences. Accidents can 
cause injuries or death, to our own employees and the public. They also 
can disrupt service to our customers and limit the full utilization of 
our systems for an indefinite period of time. Accidents cause the 
public and government officials to question our commitment to safety 
and the credibility of the Office of Pipeline Safety (OPS). The recent 
accident here in Bellingham demonstrates this quite clearly.
    Unless the public believes that the industry can produce, transport 
and distribute natural gas safely, we cannot stay in business, and 
America would lose its cleanest fossil fuel.
    I should note that the physical differences between natural gas and 
petroleum products are such that the characteristics of a natural gas 
pipeline accident differ from that of a petroleum pipeline accident. 
Natural gas is primarily composed of methane gas. Natural gas is 
lighter than air, insoluble in water and does not cause environmental 
damage when released. Most of the incidents that occur in natural gas 
transmission pipelines are small leaks. These leaks are easily found by 
pipeline personnel during their routine inspections and are fixed. In a 
worst-case scenario--a total pipeline rupture--only the area directly 
around the rupture presents a direct risk to the public at the 
initiation of the rupture. The size of this area depends on the 
pressure and size of the line but generally should not extend more than 
600-feet on either side of the pipeline rupture. After the initial 
rupture, the noise of the escaping natural gas or, if there is 
ignition, the resulting fire will cause people to move away from the 
location immediately.
    The probability of such an event occurring along the interstate 
natural gas transmission pipelines in the U.S. is small. During the 
period of 1986-1999, onshore interstate gas transmission accidents have 
caused no fatalities and nine injuries among the general public. This 
is a commendable record for a system that transports over one quarter 
of the nation's energy needs.

                     STEPS WE TAKE TO ASSURE SAFETY

    A natural gas pipeline approaches safety from a system-wide 
perspective. Pipelines implement and comply with the minimum safety 
standards imposed by the Office of Pipeline Safety. Williams, along 
with other interstate pipelines, has internal procedures that exceed 
these minimum requirements in many respects.
    The first step in the safety process is to make sure that the line 
is constructed properly. Safety actually begins at the mill where the 
steel is made. Pipeline representatives inspect the pipe at the mill to 
insure that it meets quality standards. During construction, the 
integrity of coatings designed to protect against corrosion are checked 
and imperfections are corrected. Welds are quality checked with x-rays. 
The line is tested with water to a pressure significantly higher than 
its maximum operating pressure prior to going into service.
    Once a pipeline is in the ground, it is monitored in a number of 
ways. Among the procedures we employ, employees physically walk and 
inspect the pipeline corridor periodically. Companies also fly the 
right-of-way at least once a month, often more. In both cases, we look 
for signs of unusual activity on the right-of-way or any discoloration 
of plants or grasses that might indicate a small leak. Companies 
participate in one-call programs designed to prevent unintended digging 
near pipelines and other underground facilities. Employees test for 
leaks using analyzers and verify the effectiveness of cathodic 
protection, electrical systems that prevent corrosion on a pipeline. 
Valves are inspected and compressor engines are maintained. Any missing 
pipeline markers used to identify the location of the pipeline are 
replaced. In areas where we suspect corrosion may have degraded the 
integrity of the pipe, we do periodic internal inspections utilizing 
specialized detection equipment commonly known as ``smart pigs.''
    Specific measures are incorporated into the regulations to raise 
the level of safety of natural gas transmission pipelines as the 
population density around our pipeline increases. These categories of 
population density, known as class locations, range from rural (Class 
1) to heavy urban (Classes 3 and 4). As the population density 
increases, more stringent design, construction, inspection and 
maintenance practices are stipulated. We are required to walk our 
entire system once a year to monitor the area around the pipeline for 
changes in population density. When these changes occur, the pipeline 
operator is required to insure that the installed pipeline meets the 
criteria for pipe design that applies in the higher class location. If 
it does not meet these requirements, the pipe is replaced, the 
operating pressure in the line is reduced, or similar safety measures 
are undertaken to achieve the required margin of safety. The new class 
location also requires increased frequency of many different 
inspections.
    A pipeline operator also gains a tremendous amount of knowledge 
about the condition of the line as systems are expanded, new meter 
stations or delivery points added, and laterals attached. While these 
activities are not directly safety related, they involve digging up 
parts of the system and documenting the condition of the pipeline, 
thereby giving the operator additional information to assess the 
integrity of the pipeline.
    All of the information that a company gathers about its system goes 
back into tailoring the safety activities of the company, so that parts 
of the system in the greatest need of attention receive greater 
scrutiny. For example, we decide where and when to run smart pigs based 
on this accumulated knowledge. Smart pigs are very good at providing 
certain types of information about the condition of the pipe, but they 
do not provide a complete solution. We have to judge what inspection 
tools and practices will be the most effective at any given location on 
the pipeline.
    Federal law requires pipelines to have public education programs. 
We provide residents who live along our rights-of-way with information 
about the pipeline, including what activities to look for and what to 
do in an emergency. We provide information and our emergency phone 
number to call in the event of seeing anything unusual. We work with 
local emergency response officials to educate them about the nature of 
our operations and the appropriate actions to take if there is an 
accident. We encourage our employees to interact with local officials 
and educate them about the pipeline. Unfortunately, our experience 
often is that emergency response personnel and local officials are 
often so pressed by the immediate demands facing them that getting 
their attention to learn about pipeline facilities that have never 
caused them any problems can be difficult.
    The level of safety effort is substantial. A recent survey by our 
trade association, the Interstate Natural Gas Association of America 
(INGAA) revealed that its pipelines members, operating 160,000 miles of 
pipe, spent about $560 million a year, or about $3,515 per mile on 
safety related efforts. Our transmission pipeline industry, since the 
1950s, has supported and been active in two organizations that research 
ways to improve safety practices and technology--the Gas Research 
Institute (GRI), and the PRCI (Pipeline Research Committee 
International). These organizations budget millions of dollars each 
year for these activities. In addition, since 1990, the INGAA 
Foundation has supported the efforts of companies who develop and 
promote safety technology in the marketplace.
    Without question, natural gas pipelines are committed to safety and 
have consistently demonstrated a commitment to invest substantial sums 
to maintain and protect their systems and the surrounding environments. 
However, conditions differ from system to system and from location to 
location on a given system, making it difficult to create one-size-
fits-all rules for when each activity is performed. Lines in damp soil 
will require a different type of attention than lines in the desert. 
Lines in areas where coal mining has occurred are susceptible to 
subsidence problems, whereas lines in other areas are not. In our case, 
we have found that at certain hillside locations here in Washington, 
the ground has become unstable after periods of uncharacteristically 
prolonged rainfall. We have experienced landslides that pulled the 
steel pipeline apart. We now have instituted a special monitoring 
program identifying and targeting these locations, but it is a 
localized problem, not system-wide.
    My point is that the details of an effective safety program will 
vary from pipeline to pipeline and even on a given system. An effective 
program will focus resources differently from year to year, depending 
on the needs of the system.

                  REACTION TO WASHINGTON STATE ACTIONS

    Williams made presentations to the Governor's task force during its 
deliberations, and I have spoken before the committees of the state 
legislature implementing the Task Force recommendations. I do not want 
to repeat all of that testimony here, but there are two key areas I 
believe it would be useful to address in the context of this hearing.
<bullet> National Standards vs. State Authority
    The report from the Governor's task force raises the issue of 
whether to retain exclusive Federal jurisdiction over interstate 
natural gas and hazardous liquid lines or to give states authority in 
this area as well. It is our strong conviction that retaining exclusive 
Federal regulation of interstate pipeline safety is critical. Let me 
give you several reasons why we believe continuing the current 
structure will benefit the public, both from the standpoint of safety 
and service.
    As I mentioned, pipelines are operated as integrated systems. Our 
Northwest pipeline has natural gas entering the system at three 
locations: gas produced from the San Juan basin of Colorado and New 
Mexico; gas produced from the overthrust belt area of the Rocky 
Mountains, and gas produced in Canada. Gas moves to local distribution 
customers, end users, or other pipeline customers in a variety of ways 
that change as pricing patterns change. We have designed a system that 
allows this to occur without regard to the weather or other factors 
that influence demand for natural gas. Safety work is scheduled so as 
not to interfere with the basic operation of the system.
    If states have the authority to impose more stringent safety 
standards, they could interfere with operational flexibility and 
thereby impact our ability to serve customers, including customers in 
other states. For example, if Idaho decided to increase the safety 
margin by requiring that pipelines operate at lower pressures, our 
ability to deliver gas to Oregon and Washington would be adversely 
affected. If a state were to require hydrostatic testing, whole lines 
would have to be taken out of service, wreaking havoc on our ability to 
serve. Every time a state would adopt a new or different testing or 
inspection requirement, it would reduce an operator's flexibility and 
ability to operate the system according to the needs of the system as a 
whole.
    Allowing states to impose different safety standards would also 
complicate the compliance process. Generally, safety teams move up and 
down the system performing tests and maintenance. In fact, the industry 
has moved more toward this functional approach in order to achieve 
greater uniformity of safety programs across the systems. If these 
individuals have to apply different standards in different states, it 
will erode the very uniformity we are trying to achieve.
    Just as it makes sense for pipelines to adopt a holistic approach 
to safety, oversight by inspectors should take the same approach. When 
the Office of Pipeline Safety conducts an inspection, they are not 
limited to examining our practices within a single state, but can look 
system-wide. Also, Federal enforcement allows for consistency in the 
interpretation and application of regulation. If we get into a 
situation where different state inspectors interpret regulations 
differently, the resulting confusion will hurt, not help, safety.
    Finally, if state actions force a company to allocate its safety 
dollars in an inefficient manner, the result will be less, not more, 
safety overall.
    I do not mean to imply that States do not have an important role to 
play in pipeline safety. States now have safety authority over the 
approximately 1.5 million miles of intrastate natural gas lines, 
including the natural gas lines of local distribution companies. This 
is 75% of the total pipeline mileage so states already have 
jurisdiction over the vast majority of pipeline activity.
    States also have jurisdiction over the single greatest opportunity 
to improve safety on interstate and intrastate systems: one-call 
systems that can help prevent accidents caused by parties digging into 
pipelines by mistake. Of the accidents that do occur on interstate 
natural gas pipelines, about 80% of those involving deaths or injuries 
are the result of these accidental dig-ins. Those most likely to be 
affected are the excavators themselves.
    The industry has pleaded for stronger one-call programs for years 
and led the fight for a Federal statute aimed at encouraging states to 
strengthen their programs. Too often, state laws in this area exempt 
some excavators and don't provide for effective enforcement. While the 
cause of the Bellingham accident is still under investigation, it 
appears from what has been learned that excavator damage played some 
role in the accident. The Office of Pipeline Safety has sponsored an 
initiative called ``Common Ground'' and their June, 1999 report reviews 
the ``best practices'' found in one-call programs around the country. 
We urge the State to review its law in light of these recommendations 
and strengthen the law where appropriate.
<bullet> Public Right to Know
    As I mentioned earlier, pipelines already provide a good deal of 
information to state and local organizations and to individuals who 
live along our pipeline rights of way. Still, we are willing to discuss 
what kind of additional information would be useful to local officials 
and residents.
    I noted that Federal law already requires pipelines to have public 
education programs. We participate in one-call programs. We provide 
residents who live along our rights-of-way with information about the 
lines and phone numbers to call in the event of seeing anything 
unusual. We work with local emergency response officials to educate 
them about the nature of our operations and the appropriate actions to 
take if there is an accident. We encourage our employees to interact 
with local officials.
    The advent of the Internet may provide another opportunity to 
educate interested persons in pipeline activities. The Office of 
Pipeline Safety maintains a web site with a wealth of information and 
it may be possible to build on that effort.
    One additional word of caution. At times in the past, the industry 
has been warned by the federal government that pipeline facilities may 
be targeted by terrorists and asked to take steps to guard against 
possible attacks. For this reason, the industry has been wary of 
providing detailed information indiscriminately. Given the growth of 
the Internet, it is probably unrealistic to think this information 
could be kept confidential, but security concerns should be given some 
thought as part of this process.

                               CONCLUSION

    If there is one point that I hope to impress upon you today, it is 
that safety is the result of a combination of activities that vary from 
company to company and location to location. Across the board mandates 
to conduct inspections at specific intervals or to conduct specific 
tests at specific intervals rarely make sense in practice.
    In summary, the interstate natural gas pipelines are proud of our 
safety record. At the same time, we are actively seeking ways to 
improve upon that record, whether its by developing new and better 
technology, re-examining our current methods, or doing a better job of 
educating the public and excavators about pipeline safety. We certainly 
cannot promise that there will never be another accident, but we remain 
committed to taking every effective action we can to prevent the next 
one from ever occurring. We are also committed to working with the 
Office of Pipeline Safety as they do their job of overseeing the safety 
efforts of the industry. We hope that Congress will give us and the 
Office of Pipeline Safety the flexibility we need to accomplish this 
mission.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Senator Gorton. Through how many states do the pipelines 
run by your company pass?
    Mr. Sluder. In total all of Williams' gas pipelines, I 
think it's about 35 states, Senator.
    Senator Gorton. Thank you.
    Mr. Matsuyama.

  STATEMENT OF W. BRIAN MATSUYAMA, CHAIRMAN AND CEO, CASCADE 
 NATURAL GAS CORPORATION, ON BEHALF OF THE LOCAL DISTRIBUTION 
                 COMPANIES OF WASHINGTON STATE

    Mr. Matsuyama. Senator Gorton, Senator Murray, good 
afternoon. I do thank you for the opportunity to be here and 
participate today.
    My name is Brian Matsuyama. I'm Chairman of Cascade Natural 
Gas Corporation. We are one of the four local distribution 
companies' or LDCs' that operate here in the State of 
Washington. Our job essentially is to receive gas that is 
transported into the state by the interstate natural gas 
companies like Williams and in turn deliver that gas to the 
businesses and homes in our local communities.
    The other three LDCs here in the state are NW Natural, 
Puget Sound Energy, and Avista Corporation. I'm appearing on 
behalf of all four companies.
    My company, Cascade, is the company that serves Bellingham, 
and----
    Senator Gorton. I think you might want to get a little 
closer to your microphone.
    Mr. Matsuyama. My company does serve the City of 
Bellingham, and as members of the community many of our 
employees personally shared the trauma after the gasoline 
explosion that occurred here last June. But all of the people 
of the state's natural gas industry share the sorrow of the 
community, the sorrow of the families that tragically lost 
children in that incident.
    Natural gas was not involved in that explosion, but we do 
recognize that our systems are not immune to problems; and we 
pledge to support all the efforts to implement responsible 
measures to minimize the possibility of future accidents. We 
are in fact already engaged in such efforts. Both interstate 
natural gas pipelines and LDCs participated in the public 
processes that followed the June incident, such as Governor 
Locke's task force, and we provided technical support and 
assistance to the state legislators that prepared new pipeline 
safety laws here in the state.
    Our work on safety goes back a lot father than that. We are 
well aware of our responsibility to our customers and to the 
public that we serve, and safety has always been the top 
priority for every one of our companies. We employ safety 
professionals. We provide continuous safety training. We 
conduct rigorous safety oversight and maintenance. We 
distribute public safety information. We comply with a wide 
range of safety regulations and requirements. In fact, I might 
add that in many instances the construction standards and 
maintenance practices that we follow far exceed the standards 
that are imposed on us by regulation.
    Our people are active in regional and national safety 
committees. They belong to numerous organizations dedicated to 
advancing safety. We support and contribute heavily to 
institutions that are engaged in developing advanced safety 
technologies. In 1999, the regional interstate natural gas 
pipelines and local distribution companies spent about 20 
million dollars on non-construction, safety-specific 
activities.
    Safety is a matter of corporate policy for every LDC. So we 
are, of course, extremely interested in the various measures 
that are being considered to improve public safety here in the 
State of Washington, and I'd like to summarize our perspective 
on some of those.
    First of all, we take no position regarding the state 
regulation of hazardous liquid pipelines. I'd only note that 
we, the LDC's that we're talking about, are already subject to 
the jurisdiction of the state with respect to our intrastate 
operations, and that includes, of course safety matters. The 
Washington Utilities and Transportation Commission has long had 
jurisdiction over us in safety matters, and the staff has 
always done a conscientious and thorough job. Therefore, we do 
not at all question their ability to--given appropriate 
resources, and I think Ms. Showalter commented on that--we 
don't question their ability to expand the oversight of their 
responsibilities.
    However, as customers of the interstate natural gas 
pipelines, we are dependent on them to provide safe, reliable, 
economic transportation of natural gas into our state.
    In his testimony, Mr. Sluder identified some substantive 
issues regarding state regulation and jurisdiction over 
interstate natural gas operations. We LDCs, as their customers, 
simply urge the committee to give those issues due 
consideration.
    We also urge the committee to avoid legislatively imposing 
specific prescriptive requirements for application both to 
liquid and natural gas pipelines. Our construction and 
operating characteristics and the materials that we transport 
are materially different. We are not at all suggesting that 
valid safety requirements be compromised. That's got to be 
number one, but we believe that regulatory processes, whether 
Federal or state can craft better requirements that fit 
particular operations than requirements from legislative 
processes. Failure to appropriately address industry 
differences for specific operating conditions could produce 
unintended consequences, and, of course, the worst of those 
consequences could be the reduction of safety rather than 
enhancement.
    We are especially concerned about requirements that might 
impair the reliability of natural gas transportation service 
from the interstate pipelines, and thereby create new risks 
downstream of their systems.
    Let me illustrate what I mean here. We are different from 
the liquid lines in that uninterrupted flows are critical to 
natural gas systems. If the interstate flows to us are 
interrupted, safety considerations require us to turn off 
service for each of our individual customers, then when flow is 
resumed, we have to go back and individually turn on every 
appliance in every home and every business that we serve. The 
reason that we do that is to ensure that raw gas isn't escaping 
from some pilot light. That process is long. That process is 
involved. That process obviously entails its own risk. I'm 
simply pointing out that a poorly designed requirement, no 
matter how good the intentions, could result in such loss of 
service to hundreds of thousands of customers just in 
Washington State, and that creates far more downstream risks 
than may be warranted by the upstream benefits.
    I want to stress that we do not oppose measures to improve 
public safety. We merely recommend that they should be adopted 
only after careful study and with a clear understanding of all 
likely outcomes.
    And finally, we support three specific recommendations that 
were made by the Governor's task force: the public's right to 
know and to understand how and where the natural gas system 
operates; the improvement of the one-call system; and advanced 
preparation and training for fire, police and emergency service 
personnel who are often the first to arrive at a hazardous 
site.
    With that, I'd like to again thank you for the opportunity 
to share our views. We look forward to working with Federal, 
state and local authorities as well as within our industry to 
insure the highest degree of public safety.
    [The prepared statement of Mr. Matsuyama follows:]

      Prepared Statement of W. Brian Matsuyama, Chairman and CEO, 
 Cascade Natural Gas Corporation, on behalf of the Local Distribution 
                     Companies of Washington State

                              INTRODUCTION

    Good afternoon Mr. Chairman and members of the Committee. My name 
is Brian Matsuyama. I am Chair, President and CEO of Cascade Natural 
Gas Corporation. My company is one of four local distribution companies 
(LDCs) serving the State of Washington. I am pleased to have this 
opportunity to comment on the essential matter of public safety and our 
pipeline system on behalf of these companies.

               THE PACIFIC NORTHWEST NATURAL GAS INDUSTRY

    The natural gas industry, interstate and local distribution 
companies, provides a significant portion of the energy that drives the 
Pacific Northwest economy. In 1999, the natural gas industry delivered 
approximately 40 percent of the total energy used by 1.8 million 
residential, commercial, industrial and electric generation customers 
in the states of Idaho, Oregon and Washington. We operate 7,000 miles 
of pipeline within the state and employ nearly 10,000 of the state's 
citizens.
    There are two interstate natural gas pipeline companies serving the 
state: PG&E Gas Transmission--Northwest and Williams Gas Pipeline--
West. There are four local distribution companies in Washington State 
regulated by the Washington Utilities and Transportation Commission: 
Cascade Natural Gas Corporation, NW Natural, Puget Sound Energy and 
Avista Corporation.

          THE NATURAL GAS INDUSTRY AND THE BELLINGHAM TRAGEDY

    Let me begin by saying that my company, Cascade Natural Gas, serves 
the Bellingham area. This makes the tragedy that occurred in that 
community very personal. The people of the region's natural gas 
industry feel deeply for the families who lost their children in the 
Bellingham explosion on June 10, 1999. As neighbors, friends and fellow 
citizens, we share their grief and the trauma suffered by the entire 
community. We pledge our support to find and implement responsible 
steps that minimize the possibility that such an event could occur on 
the natural gas system.
    Although the Bellingham incident did not occur on the natural gas 
system, we deemed it essential to take part in the assessment that 
followed. Governor Locke's formation of the Fuel Accident Prevention 
Response Team provided a forum to evaluate all areas of pipeline 
safety. Both interstate pipelines and local distribution companies 
followed and actively participated in the public process. We have 
remained involved by offering support, technical advice and comment 
regarding pipeline safety laws being prepared in the Washington State 
legislature.

               NATURAL GAS INDUSTRY COMMITMENT TO SAFETY

    The natural gas industry understands that its systems are not 
immune to problems. We also know that the public, our customers, 
depends on us to ensure their safety. The rapid growth of our customer 
base reflects the important role natural gas plays in providing 
affordable, environmentally clean and safe fuel. We are doing 
everything possible to sustain this confidence.
    A recent AGA survey revealed that almost 55 percent of all American 
households used natural gas. In 1998, 69 percent of all new single-
family homes were connected to natural gas. During that same time 
period, 64,000 homeowners switched to natural gas from oil, electricity 
or propane. In the Pacific Northwest, more than 90 percent of all new 
homes are connecting to natural gas when it is available. In order to 
retain the public confidence that underlies this growth, we recognize 
that the safety of our operations is critical.
    Consequently, our industry has a tremendous incentive to maintain 
an enviable safety record. Safety is a matter of corporate policy and a 
top priority for every company. These policies are carried out in 
specific and characteristic ways: Each company employs safety 
professionals, provides on-going employee safety training, conducts 
rigorous system oversight and maintenance, distributes public safety 
information, and complies with a wide range of safety regulations and 
requirements.
    Individual company efforts are supplemented by collaborative 
activities in the safety committees of regional and national trade 
organizations. Examples of these groups include the Pacific Coast Gas 
Association, American Gas Association, Interstate Natural Gas 
Association of America and the American Public Gas Association. Other 
safety-focused activities exist within industry-government groups. A 
current example is the Government-Industry Consensus Team (GICT); a 
specialized group formed to develop and maintain a voluntary data 
collection process that supports the analysis of plastic pipe 
characteristics. The GICT is composed of representatives from the 
American Gas Association, American Public Gas Association, the U.S. 
Department of Transportation's Research and Special Programs 
Administration (RSPA), the National Association of Regulatory Utility 
Commissioners, and the Plastic Pipe Institute.
    Company safety professionals also participate in a variety of 
professional organizations dedicated to advancing the practice of work 
place and public safety. A partial list of the leading groups include 
the following: National Association of Corrosion Engineers (NACE), 
National Fire Protection Association (NFPA), National Safety Council 
(NSC), American Petroleum Institute (API), American Welding Society 
(AWS), American Society of Mechanical Engineers (ASME), American 
Conference of Governmental Industrial Hygienists, Transportation Safety 
Institute (TSI), American Society of Civil Engineers (ASCE), and the 
American Society of Safety Engineers (ASSE).
    Companies also contribute to research and development through such 
organizations as the Gas Research Institute and Institute of Gas 
Technology where advanced safety devices and technologies are designed 
and tested. It is estimated that in 1999, the region's interstate 
pipeline and local distribution companies invested approximately $19.7 
million in non-construction safety-specific activities. These voluntary 
expenditures reflect the high level of corporate commitment to public 
and employee safety.

       AN LDC VIEW OF CHANGES IN WASHINGTON STATE PIPELINE SAFETY

    Arguments are being made for state jurisdiction over safety 
regulation of interstate hazardous liquid and natural gas pipelines. 
The State of Washington, through the Washington Utilities and 
Transportation Commission, already has regulatory authority over LDC's 
intrastate operations, including safety matters. Our safety record 
attests to the conscientious, thorough approach taken by the Commission 
and its staff. Therefore, we do not question the ability of that 
agency, given appropriate resources, to oversee safety matters relating 
to the interstate pipelines, and we take no position regarding safety 
jurisdiction over hazardous liquid pipelines. However, we are aware of 
practical, substantive issues raised by the interstate natural gas 
pipelines regarding the imposition of a patchwork of state-by-state 
regulations. As customers of the interstate pipelines, and dependent 
upon them to provide safe, reliable, economic transportation of gas 
into our state, we urge the Committee to give due consideration to the 
concerns they raise.
    We also urge the Committee to avoid legislatively imposing specific 
prescriptive requirements intended to be uniformly applied across both 
liquid and natural gas pipeline systems whose construction and 
operating characteristics are materially different. All of Washington's 
LDC's are deeply committed to safety, and we are not suggesting that 
valid operating requirements be compromised. However, we believe that 
regulatory processes, whether federal or state, are better equipped to 
craft requirements that fits the particular operation being regulated 
than are legislative processes. Failure to adequately address industry 
differences could produce unintended consequences, not the least of 
which would be to reduce rather than enhance the level of public 
safety.
    We are especially concerned about requirements that might impair 
the reliability of natural gas transportation service from the 
interstate pipelines. Unlike liquids lines, uninterrupted flow is 
critical in natural gas lines. If interstate flows are interrupted, the 
ability of LDC's to maintain adequate pipeline pressures to serve end 
use customers is immediately impaired. In such situations we must 
manually turn off service to individual customers, one by one. When 
flows resume, we must then restore service and re-light each gas 
appliance in every affected home and business. The process is a long 
and tedious one, and is obviously not without its own risks. A poorly 
conceived requirement designed to improve pipeline safety, could result 
in such a loss of service to thousands of Washington customers, 
creating more downstream risks than are warranted by upstream benefits.
    We support the public's right to know and understand how and where 
the natural gas system operates. An informed public will be better able 
to contribute to accomplishing the objectives of improved public 
safety. In many instances, improving public information will be a 
cooperative effort by the natural gas industry and communities served. 
Whether such efforts extend or improve existing programs or are new 
initiatives, local distribution companies will participate in their 
development and implementation.
    At the present time, states have jurisdiction over the single 
greatest opportunity to improve safety on interstate and intrastate 
systems--the one-call system. We encourage and support the strongest 
possible one-call system for the State of Washington, including 
regulations for effective enforcement and graduated penalties for non-
compliance. While the cause of the Bellingham incident is still under 
investigation by the Department of Transportation, it appears that 
excavator damage may have contributed to the explosion. The Office of 
Pipeline Safety has sponsored an initiative called ``Common Ground.'' 
Their June 1999 report describes one-call ``best practices'' found in 
programs across the country. We encourage the State of Washington to 
review these recommendations when attempting to strengthen the one-call 
operation.
    Local distribution companies will continue to support advanced 
preparation and training for fire, police and emergency service 
personnel who are often first to arrive at a hazardous site. It is 
critical for them to know and understand the nature of a natural gas 
incident and how best to manage it.

                          SUMMARY & CONCLUSION

    The natural gas industry is an important component of the Northwest 
economy. The fuel the industry provides increases energy diversity, 
helps the environment, and is less expensive than most other energy 
options. It is also demonstrably safe. Nevertheless, the tragedy in 
Bellingham is a dramatic reminder that safety is the result of constant 
vigilance and a continuing effort to improve.
    The natural gas industry is proud of its safety record. Natural gas 
has become the recognized fuel of choice throughout the Northwest. This 
customer growth and confidence also bears with it an added 
responsibility. As such, public and employee safety is the top priority 
for every natural gas company.
    The natural gas industry believes that specific steps can and 
should be taken to improve public safety. However, these actions should 
be made only after careful study and with a clear understanding of all 
likely outcomes. Some recommendations of the Washington Governor's Fuel 
Accident Prevention and Response Team have significant potential--
improved public information, an enhanced state one-call system, and 
training for emergency response personnel.
    Thank you for providing the opportunity to present our views on the 
important matter of pipeline safety. We look forward to working with 
federal, state and local authorities, as well as within our industry, 
to achieve the highest possible level of public and employee safety.

    Senator Gorton. Mr. Matsuyama, is Cascade entirely engaged 
in intrastate commerce exclusively regulated by the state 
utility commission?
    Mr. Matsuyama. Yes. Senator. We serve two states. We also 
serve the State of Oregon, but we do not have activities that 
go across the state lines, in terms of transporting gas or 
lines that run between the two states so that our operations 
are entirely state regulated.
    Senator Gorton. That's interesting. Is the regulatory 
regime significantly different from the regulatory regime in 
Washington?
    Mr. Matsuyama. In the terms of the quality of the 
commission?
    Senator Gorton. Uh-huh.
    Mr. Matsuyama. It is not. They've been just as active in 
pursuing safety matters in that state.
    Senator Gorton. Mr. Sluder, Williams on the other hand with 
respect to its operations in the State of Washington is 
exclusive interstate and governed by the Office of Pipeline 
Safety?
    Mr. Sluder. Correct.
    Senator Gorton. So you have nothing to do with the state 
Utilities and Transportation Commission?
    Mr. Sluder. That's correct.
    Senator Gorton. But I take it, and Mr. Matsuyama was fairly 
precise on this, but I take it that both of you believe that 
both the safety considerations, the potential for disaster with 
respect to natural gas transmission is different than that of 
liquid fuel and that they should not be subject to precisely 
the same kinds of requirements?
    Mr. Sluder. I'll take a shot at that first, Brian.
    Yes, that is correct, Senator. There are various, there are 
many characteristics that are different. It was mentioned by 
one of the previous testifiers about the pooling of liquid. Our 
material does not do that. It is lighter than air, and so it 
escapes vertically. It does not pool or buildup in any 
concentrations on the ground.
    The valving situations, valves are, are a better control in 
a liquids pipeline and a more viable, useful control than they 
are perhaps in a gas pipeline. Our first line of defense is to 
keep the gas in the pipe, to keep the pipe, itself, integral, 
be it from corrosion or dig-ins or landslide or whatever. So 
there are, there are numerous differences between the liquids 
and the gas substances and the way the pipelines react.
    Senator Gorton. Senator Murray at the very beginning of the 
hearing showed us a chart indicating the number of fatalities 
from pipeline accidents over a period of, I think, it was 14 
years. How many of those were from natural gas pipeline 
accidents? Do you have any idea, either of you?
    Mr. Sluder. I believe Senator Murray had a chart at one 
time that indicated that there, during that period of time 
there were 
280 fatalities attributable to natural glass.
    Senator Gorton. OK.
    Mr. Sluder. That is broken down by intrastate, interstate 
and then off-shore. All three of those components, each of 
those have different pieces of the 280 which you showed though 
the 14-year period.
    Senator Gorton. Were more of them bystanders or employees?
    Mr. Sluder. I can give you the interstate piece of that. In 
that 14-year period, 13, I'm sorry, 39 of those fatalities were 
attributable to interstate systems. In 1 year, 22 alone were 
attributable to two off-shore platform accidents, where 
employees exclusively and contract personnel were the victims.
    Senator Gorton. Thank you two for your testimony.
    Now I'm going to turn to Mr. Gast.
    Mr. Gast, Olympic is subject to a great deal of criticism 
here today. One of the statements that I found most remarkable 
because I hadn't heard it before was from the official from the 
state Department of Ecology who said that Olympic's safety 
record is far below industry norms, and when I specifically 
asked him does that mean that other interstate liquid, that 
pipelines operated far more safely than Olympic does, his 
answer was yes.
    I'd like your--how is it that Olympic has so much worse a 
record than so many other liquid pipeline companies?
    Mr. Gast. I assume that he was discussing leaks, those 
sorts of things is where he was coming from, as far as events.
    Senator Gorton. Well, he was discussing the general 
reputation of Olympic as being relatively indifferent to safety 
and not meeting even minimal industry standards.
    Mr. Gast. I don't, I have not made a comparison between 
Olympic and industry standards, so I really don't have those 
numbers.
    Senator Gorton. Well, it might be well if you got them.
    Mr. Gast. Senator, I certainly agree with that. I, right 
now at this present time, we're spending an awful lot of time 
with the corridor safety action plan and the other points that 
we're trying to do to reassure the communities and the public 
that we have a safe system here, and I'll guarantee you there 
are a lot of different areas that I need to go further into as 
we go down the road here.
    Senator Gorton. Along that same line, all three of the 
cities south of Bellingham through which your pipeline passed 
spoke about the lack of cooperation on the part of Olympic when 
it sought information, and then the presentation of information 
in a form that an ordinary person or official simply couldn't 
understand, and at least one of them testified that rather than 
getting a map of the pipeline from the company, they had to 
hire outside consultants to look at the materials that you 
provide them and even to make that determination. Why that lack 
of cooperation with local officials?
    Mr. Gast. Again, I can tell you what my experience has been 
since I've been here in this last couple of months is we have 
attended a lot of council meetings, city meetings, neighborhood 
meetings, and when I do talk to the folks that come back like 
the next day. I do hear the same thing is we weren't 
responsive. We didn't provide materials, and when I talk to my 
folks, I said, ``Were you out there? Did you do these things?'' 
They said, ``Yes, we did.''
    I will be happy to sit down with the cities and talk out 
what the issues are. I think it's the same sort of thing. We 
need to get in a community of cooperation, talking with one 
another. That's what really needs to be developed here from 
what I heard today. I did hear a lot of angry people, and that 
upsets me. Believe me. It upsets me deeply. So I do want to get 
with them, sorry.
    Senator Gorton. Again that rather pervasive anger, what is 
your answer to Mr. King's question why should under the 
circumstances Olympic be operating even south of Bayview?
    Mr. Gast. The pipeline as it stands with everyone checking 
it out, and I'll tell you, you can imagine everyone is looking 
at this. I mean we have help from all over as far as reviewing 
the pipeline system, you know, from OPS, ourselves, from folks 
that we bring in from the outside as contract people to look at 
it, and basically what they see and what the pressure reduction 
that's been made, it is a safe system to operate according to 
all the technical experts in the field. Right now we're 
operating at 80 percent of where the normal operating pressure 
would be.
    Senator Gorton. Well, I suppose I can't blame you for this, 
but it is rather frustrating to have at this hearing someone 
who's only been here 2 months from Olympic and who maybe 
naturally doesn't have answers to many of these questions.
    I'm sure that both Senator Murray and I will have a number 
of written questions too, the answers to which you don't have 
here right now.
    Obviously, the company wanted to create a new image here in 
Bellingham and the State of Washington, but it does mean it's 
rather difficult for us to get our questions answered.
    Senator Murray?
    Senator Murray. Well, Mr. Chairman, I share your 
frustration. You've obviously only been here a few months, and 
you have had the opportunity, Mr. Gast, to listen to the 
testimony today, and I think you would agree with us that the 
public confidence is not there.
    Mr. Gast. Yes, I do.
    Senator Murray. In terms of Olympic pipeline and reopening 
it, part of what I believe needs to be done at the Federal 
level is to pass legislation that I've introduced and Senator 
Gorton has cosponsored through Congress to assure citizens that 
pipelines are inspected on a routine basis, that they have 
access to that information, that the pipeline operators have 
training and certification, that we develop testing that they 
feel is adequate and that that confidence is restored.
    As we work this legislation through congress, hopefully 
soon, will your company be supporting or opposing that 
legislation?
    Mr. Gast. The company, I'm sure, will support anything that 
drives the system to safer, safer pipeline operation.
    Senator Murray. Will you be supporting the legislation 
directly?
    Mr. Gast. When we are talking about the types of items that 
you mention, community involvement, emergency response, you 
bet.
    Senator Murray. Will there be any portions of our 
legislation--I assume you've seen the legislation?
    Mr. Gast. To be honest with you, I have not read through 
the whole thing. I have heard portions of it.
    A Voice. Then what are you doing here?
    Senator Murray. Well, I would ask Mr. Gast if you could 
please have Olympic Pipe Line let us know directly in a public 
manner in response to this Committee if you are going to 
support the policies of the legislation that's being proposed, 
and again, I would just tell you, and obviously you're not 
going to answer, but this community needs to know that they 
have the confidence that Olympic and other pipelines are 
operating safely, and we want to move that forward.
    I do have a couple of other questions for you. One of the 
concerns that we have heard from the local fire and police 
agencies is that part of the policies of Olympic do not include 
notifying police and fire immediately when problems are 
detected in the computer systems or in the operation system. 
Has Olympic pipeline changed its policy and procedure manuals 
at this point to assure that police and fire are notified 
immediately when a problem is detected?
    Mr. Gast. When we have a problem, when they have a problem, 
such as a release or that sort of thing, absolutely, we dial 
the 911 number.
    Senator Murray. But is it part of your policies and 
procedures?
    Mr. Gast. Yes, it is. Yes, it is.
    Senator Murray. To do that, my understanding at least at 
the time of June 10th accident and since that time that it's 
not part of the policy manuals. Has that been changed?
    Mr. Gast. It's part of the policy manual that I know of 
since I've been there.
    Senator Murray. OK. Since you've been there. Were you just 
hired by Olympic in January? Is that correct, or just this----
    Mr. Gast. Yes, I actually transferred to Olympic Pipe Line 
in January.
    Senator Murray. You worked for a different company before 
that?
    Mr. Gast. Right.
    Senator Murray. Mr. Gast, last Thursday, OPS told you that 
you cannot open the pipeline until further inspections are 
done. Can you tell us how Olympic will comply with that order?
    Mr. Gast. Right now we have to respond to OPS's order and 
whether we have agree with what we're proposing and what the, 
versus what they have sent to us, and I suspect that we're not 
far from being at a point where we're, everything looks all 
right to them, that we would reopen the pipeline. It's a matter 
right now of just addressing issues of, to OPS and what they've 
sent to us.
    Senator Murray. Can you tell me how you qualify your 
pipeline operators right now or what kind of identification 
requirements or testing requirements you have?
    Mr. Gast. Yeah, we're actually starting along the program 
with the operator qualification requirements that the Federal 
Government is asking us to do by the year 2002, but we're 
starting the program, hopefully, we're done by the year 2001, 
but there are several things that are done with a pipeline 
operator. They have to go through what we call computer-based 
training. There are training modules that are on the computer. 
We actually put them, set them down with a simulator, 
simulating pipeline operations. We can induce simulated 
abnormalities in the pipeline and see how this, have them talk 
through it, what you they see, how it's doing. We put them 
through hydraulic courses. We talk about emergency resource 
issues, communications with the field. It's a whole myriad of--
--
    Senator Murray. What is the length of education and 
training do you give to an employee before they're allowed to 
operate a pipeline?
    Mr. Gast. It can vary with the individual, but minimum, 
we're talking several months before a trainee comes on board.
    Senator Murray. What are the education requirements you 
have for those that operate the computers?
    Mr. Gast. Basically high school education. Hopefully they 
will have some, might have some pipeline experience, and we can 
pull them in where they have operational experience in the 
field which is helpful, and in all cases you can't do that from 
the start, you know, if you don't have somebody that wants to 
come into the control center, so we go outside. We get them 
from other companies.
    Senator Murray. Will your company oppose the national 
certification and training requirements that we have in our 
bill?
    Mr. Gast. It's like the OQR?
    Senator Murray. In our bill we will require national 
certification and training certificates.
    Mr. Gast. I believe that falls right in line with what's 
being proposed with that.
    Senator Murray. You mean by----
    Mr. Gast. By actually the operator qualification 
requirements that are coming out of DOT.
    Senator Murray. Mr. Gast, I have several other questions I 
will submit for the record,* since I don't know that you have 
the answers to them, but let me just say that I think it is 
absolutely imperative that Olympic work very hard to restore 
public confidence. It's unfortunate that someone isn't here who 
has worked there longer than yourself, and I don't blame you 
that being unable to answer those questions, because that is 
part of restoring the public confidence that I think is so 
important.
---------------------------------------------------------------------------
    *The information referred to can be found in the Appendix.
---------------------------------------------------------------------------
    Thank you, Mr. Chairman.
    Senator Gorton. One more question, Mr. Gast, that I think 
you can answer.
    Will you support or oppose a delegation of authority from 
the Office of Pipeline Safety to the state and the Utilities 
and Transportation Commission, regulatory authority over the 
operations of Olympic in the State of Washington?
    Mr. Gast. I would say what I would support would be a 
unified type of rule. I would hope that the state and the 
Federal Government could get together and come up with a 
uniformed set of rules that would apply. It would be great 
rules for all states in the United States. That would be my 
hope.
    Senator Gorton. Well, that doesn't quite answer my 
question. Would you support or oppose a delegation of 
regulatory authority from the Federal Government to the state 
Utilities and Transportation Commission over your operations in 
the State of Washington?
    Mr. Gast. I would prefer a single point of regulation.
    Senator Gorton. --i.e. Federal?
    Mr. Gast. The Federal Government.
    Senator Gorton. Now that you've answered the question, OK. 
I think that we will thank this panel for its efforts here and 
go onto the last group, Mr. Weimer and Ms. Harper.
    OK. This has been a long afternoon, and we'd like to get 
this last panel an opportunity to speak.
    Mr. Weimer.

STATEMENT OF CARL WEIMER, EXECUTIVE DIRECTOR, ON BEHALF OF SAFE 
               BELLINGHAM, BELLINGHAM, WASHINGTON

    Mr. Weimer. Senators Gorton and Murray, thank you for this 
opportunity to testify. I appear on behalf of SAFE Bellingham, 
and with me is David Brickland, who has been active in public 
safety issues up and down the Puget Sound corridor, and he can 
answer technical questions, questions about franchise 
agreements or whatever you desire.
    My father-in-law, now retired, was a tankerman for most of 
his career. He was responsible for loading and unloading fuel 
and oil barges from refineries and oil tankers throughout North 
America. He liked his job, and he raised a family that I'm now 
proud to be a part of. Like any family there are subjects that 
we avoid at family meetings. The dealings of the oil industry 
is one such subject. So I was surprised recently when he began 
the tell me why he thought that the Olympic pipeline should be 
reopened again. He told me of a recurrent nightmare that he 
still has after all these years. It is a fictitious event where 
he mistakenly overfills a barge and spills crude oil in to 
Puget Sound.
    That nightmare along with his years of experience 
transporting oil over the water lead him to the conclusion that 
pipelines are the safer form of transportation. He went on to 
say that he feared that if the Olympic pipeline did not reopen, 
it was only a matter of time until some sort of terrible spill 
occurred in Puget Sound.
    I kept my thoughts to myself. I didn't say that barge 
safety had changed substantially in the last 10 years or that 
the accident records really don't support his conclusions. I 
didn't even say that in reality we need all of the different 
modes of fuel transport so they should all be as safe as 
possible.
    What I did come to realize was the terrible amount of 
responsibility and pressure that the oil industry has placed on 
its employees. Why does one of the richest industries ever 
created on the face of the earth continue to put profits ahead 
of safety? They could easily invest in the many high tech 
advancements that could now prevent many spills and help 
relieve their employees from this terrible worry.
    If safety had been the highest concern then employees of 
Olympic Pipe Line would not now have to be taking the 5th 
Amendment. If safety had been the highest concern, then three 
families would not now have to grieve the loss of their 
children, and if safety had been the highest concern, then 
members of our community along with the employees of Olympic 
Pipe Line Company could sleep through the night without 
reoccurring nightmares.
    Unfortunately, pipeline companies throughout the Nation 
have not put safety first. Even more difficult to understand, 
the government regulators who are supposed to keep pipelines 
safe also have failed to keep pipelines safe.
    In the aftermath of our local tragedy we have learned many 
things, and sadly one of the first things we learned was that 
some of the most fundamental aspects of pipeline safety are not 
properly addressed in current Federal law. Consider the 
following: current Federal law requires pipelines to be 
pressure tested only once before operation can commence, never 
again. There's no Federal regulation requiring that internal 
inspection devices be used. There is no Federal requirement for 
pipeline operators to utilize leak detection systems. There's 
no federally defined Federal minimum standards for ensuring 
that a pipeline cannot be overpressurized to the point of 
breaking the pipe.
    Further, Federal reporting requirements are inadequate to 
help us recognize current problems or protect us from repeating 
the same mistakes. Valve placement in current Federal law does 
not take into account the number of important factors in 
determining the adequate number and placement of valves to 
limit the volume of potential spills. And there are no Federal 
requirements for safety management in audit practices that 
Congress determined were needed to protect the public in other 
energy-related industries.
    You will hear from the industry that it is in their own 
self interest to regulate themselves and avoid spills, but the 
sad truth is that in much of today's corporate world the focus 
is on the bottom line, not the bottom line 5 years from now, 
the bottom line this year, this month, today. Industry risk 
assessments may make sense to the corporate executive in 
Houston, but how do they explain to a family with a dead child 
that the profits are better than spending a tiny portion of 
those profits to ensure that a child's life is not lost. 
Congress should act quickly to mandate Federal safety standards 
before we lose another innocent life.
    We are encouraged that OPS may delegate authority to the 
State of Washington, even so there are numerous examples where 
state regulatory agencies have also failed to protect human 
health and the environment. In the wake of the Exxon Valdez 
accident, Congress mandated the formation of an oversight 
council. We believe that for locally elected officials and 
citizens to once again have confidence in the pipeline 
companies serving our community, and the regulators who are 
supposed to oversee them, that a similar oversight council 
needs to be established.
    We would hope that the new pipeline legislation or the 
reauthorization of the Office of Pipeline Safety, itself, would 
mandate the creation of a model local advisory council here in 
Puget Sound based on the Alaska model which was meant to be 
replicated.
    The purpose of this council would be to review, monitor and 
comment on all fuel transportation operations, proposed 
operations and environmental impacts. The whole advisory 
council would play a major role in increasing public awareness 
of pipeline safety, spill response, spill protection and 
environmental protection issues. The local advisory council's 
members would be comprised of representatives of appropriate 
interest groups such as local municipalities and counties, 
tribes, environmental organizations, fishing organizations and 
agricultural.
    This proposal is designed to promote partnership and 
cooperation between local citizens, industry and government. It 
will also go a long ways toward rebuilding the trust that was 
shattered when the pipeline exploded on June 10th, 1999. We 
believe that the local governments and citizens that have the 
most to lose if something goes wrong with the pipeline should 
have an active role in the oversight of this pipeline. A model 
local advisory council, established here in Puget Sound, which 
if successful could later be replicated in other parts of the 
Nation would serve as a crucial link for this local 
involvement.
    In conclusion, if there's one message that I hope you take 
back to Washington, D.C. it is that this event is not unique to 
Bellingham. Pipeline spills occur almost daily. Similar spills 
and explosions have happened nationwide. According to the 
Office of Pipeline Safety in the past 15 years 342 people in 41 
different states have been killed by pipeline accidents, which 
spilled over a hundred and thirty million gallons. The property 
damaged from these spills was over a billion dollars.
    The time is now for pipeline regulations to be updated to 
include a whole range of safety improvements that are now 
possible. Pipeline companies need to be required to invest in 
safer pipelines, and state and local governments need to be 
allowed to set stricter pipeline regulations if they deem them 
necessary.
    Finally, and perhaps more importantly, those most impacted 
if something goes wrong transporting fuel need to be included 
in all aspects of the transportation of fuel through their 
communities.
    Referring to a different northwest problem, Senator Gorton 
recently summed up our view perfectly when he said ``it's time 
for the Federal Government to let those who will be affected by 
the decisions help make those decisions.''
    Thank you for your time.
    [The prepared statement of Mr. Weimer follows:]

  Prepared Statement of Carl Weimer, Executive Director, on behalf of 
                Safe Bellingham, Bellingham, Washington

    Senator Gorton, I appear today on behalf of SAFE Bellingham. Thank 
you for this opportunity to testify.
    My father-in-law, who retired a number of years ago, was a 
tankerman for most of his career. He was responsible for loading and 
unloading fuel and oil from barges, refineries, and oil tankers from 
Alaska to Puget Sound to Puerto Rico. I believe he liked his job. He 
certainly made a good living, bought a fine home overlooking Fidalgo 
Bay, and raised a family that I am now proud to be a part of. My 
children are his grandchildren.
    Like any family there are subjects that we avoid at family 
gatherings. The dealings of the oil industry is one such subject, so I 
was surprised at a recent birthday celebration when he began to tell me 
why he thought that the Olympic Pipe Line should be reopened again. I 
bit my tongue and listened as he went on to tell me of a recurring 
nightmare that he still has after all these years. The nightmare, which 
still regularly wakes him, is of a fictitious event where he mistakenly 
overfills a barge and spills crude oil into Puget Sound. That 
nightmare, along with his years of experience transporting oil over the 
water, led him to the conclusion that pipelines are safer than the 
forms of fuel transport he is knowledgeable about. He went on to say 
that he feared that if the Olympic Pipe Line did not reopen it was only 
a matter of time until some sort of terrible spill occurred in Puget 
Sound, perhaps right outside his window on Fidalgo Island.
    I kept my thoughts to myself. I didn't say that barge safety had 
changed substantially in the past ten years, or that the accident 
records really don't support his conclusion. I didn't even say that in 
reality we need to use all the current modes of fuel transport, so they 
should all be as safe as possible. What I did come to realize was the 
terrible amount of responsibility and pressure that the oil industry 
has needlessly placed on its employees. Why does one of the richest 
industries ever created on the face of the earth continue to put 
profits ahead of safety? They could easily invest in the many high tech 
advancements that could now prevent many spills and help relieve their 
employees from the terrible worry, and associated nightmares, of 
responsibility for needless accidents?
    If safety had been the highest concern than employees of Olympic 
Pipe Line Company would not now have to be taking the Fifth Amendment. 
If safety had been the highest concern then three families would not 
have to grieve the loss of their children. And if safety had been the 
highest concern then members of our community, along with the employees 
of the Olympic Pipe Line Company, could sleep through the night without 
recurring nightmares.
    Unfortunately pipeline companies around the nation have not put 
safety first. Even more difficult to understand the government 
regulators who are supposed to keep pipelines safe also have failed to 
put safety first. That is why we are here today--from the Governor of 
the State of Washington to an ordinary citizen like myself--asking that 
you join with us to regain control of the laws that govern pipeline 
safety.
    SAFE Bellingham is a community based organization which did not 
even exist on June 10, 1999--the day that the Olympic Pipe Line 
exploded in a fireball in Bellingham, Washington killing three young 
people and plunging a fiery dagger in the heart of this community. SAFE 
Bellingham came into existence shortly after this tragic event as the 
community tried to come to grips with the pain, shock, and sorrow. In 
the aftermath, we have learned many things. We have learned about 
weaknesses in the federal oversight of petroleum pipeline safety. We 
have learned about the federal government's efforts to prohibit state 
and local governments from protecting their citizens from tragedies 
like these. And we have learned that pipeline companies--driven by this 
year's bottom line--sometimes this quarter's bottom line--do not have 
the economic incentive to deal with hidden risks that may not explode 
onto the scene until some later year. We come here today to share our 
new found insights with you.
    While our organization may be new, the information we bring to you 
is not. If there is one message that I hope you take back to Washington 
DC it is that this event was not unique to Bellingham Washington. 
Similar spills and explosions have happened nationwide. According to 
the Office of Pipeline Safety in the past fifteen years 342 people in 
41 states have been killed by pipeline accidents which spilled over 130 
million gallons. The property damage from these spills was over a 
billion dollars. The only really unique thing about the disaster here 
in Bellingham, thanks in large part to the Senators from Washington 
State, is that the U.S. Senate has come to town to consider ways to 
make sure that such a disaster never happens again. We hope the rest of 
the Senate will also remember the 337 other families, in 40 other 
states, who have not had the benefit of such a hearing.
    I would like to focus on four things we have learned in the 
aftermath of the Bellingham accident: the inadequacy of current federal 
regulations; the inappropriate federal preemption of state and local 
safety regulations; the absence of adequate self-regulation by Olympic 
Pipe Line Company; and the need for effective community involvement in 
overseeing pipeline safety issues.

               INADEQUACY OF CURRENT FEDERAL REGULATIONS

    Sadly, one of the first things we learned was that the petroleum 
pipeline industry has escaped the safety regulations that have made so 
much of America a safer place in the last part of the 20th century. 
Some of the most fundamental aspects of pipeline safety are not 
addressed or are addressed inadequately in current federal law. 
Consider the following:

Testing and Inspection of Pipelines
    Current federal law requires pipelines to be hydrostatically 
pressure tested only once--before operations commence. These pipes then 
sit in the ground for years and decades. They are subjected to 
corrosion and strain from earth movement. They are subjected to 
enormously high operating pressures. But there is no requirement that 
these pipelines ever be hydrostatically pressure tested again.
    Pipelines can also be inspected internally by the use of so-called 
``smart pigs.'' These internal inspection devices use different 
technologies such as ultrasonic or magnetic waves, to try to detect 
some (not all) anomalies in the pipe. Different types of pigs have 
different strengths (and weaknesses) in detecting different types of 
anomalies. Over the last decade or two, some vendors have developed 
smart pigs with much better capabilities than earlier versions. While 
not perfect, these devices provide a useful tool for determining the 
condition of the pipe after it is put into service. Ironically, while 
federal regulations require that new pipelines be designed to 
accommodate smart pigs, there is no federal regulation requiring that 
the smart pigs be used.
    There also is no oversight of how pipeline operators use (or 
neglect) the information they receive from these internal inspection 
devices. In Bellingham, Olympic had run a smart pig through the pipe 
five years before the accident. The inspection device had detected 
numerous anomalies but Olympic chose to ignore most of them. Only after 
the tragedy was Olympic forced (by the Office of Pipeline Safety) to 
dig up the pipe in numerous additional locations where anomalies had 
been detected and finally determine whether the pipe's integrity had 
been compromised. Notably, before Olympic undertook a remedial 
hydrostatic pressure test this fall, it first repaired a dozen or more 
sections of the pipeline that had been identified as containing 
anomalies five years earlier.

Leak Detection
    There is no federal requirement for pipeline operators to utilize 
leak detection systems. If a computer based leak detection system is 
used, there are only very general regulations specifying how it should 
be configured. These standards fall far short of assuring reliability. 
Thus, the Bellingham explosion was preceded for more than an hour by a 
huge rupture, which dumped almost 300,000 gallons from the pipeline. 
There was so much gasoline flowing down Whatcom Creek that it turned 
the creek into a river of gasoline. Yet Olympic's controllers 100 miles 
away in Renton, Washington apparently were unaware. For more than an 
hour, the gasoline gushed with no warning to the controllers because of 
the unreliable leak detection system.

Management Audits
    Even a properly designed and constructed pipeline becomes a menace 
to the communities through which it crosses if it is not operated and 
maintained well. If settings on safety valves can be adjusted in the 
field with no comprehensive oversight, there is a problem. If safety 
procedures are not updated when new facilities are added to the line, 
there is a problem. If operators cannot find records of what type of 
pipe they have in the ground, there is a problem.
    Other segments of the petroleum industry have been required to 
adopt extensive safety management practices and undergo safety 
management audits. See, e.g., 29 C.F.R. Sec. 1910.119. But these 
federal requirements have not yet been made applicable to petroleum 
pipelines. In fact, the pipeline industry has been specifically 
exempted from the very safety management practices Congress determined 
were needed to protect employees and the general public in other energy 
related industries.

Right-of-Way Encroachment
    Current regulations require right-of-way minimums of 50 feet--but 
this is waived if there is at least 12 inches of dirt covering the 
pipe. This makes no sense. The industry is aware that construction 
backhoes and other heavy equipment are a major source of damage to 
pipelines and such equipment has the capability of reaching far more 
than 12 inches below the ground surface.
    There also is no regulation assuring that a pipeline operator 
responds appropriately once notified of construction in the right-of-
way. In Bellingham, for instance, there are indications that in 1994 
Olympic knew heavy construction equipment was operating in very close 
proximity to its pipe (where it ruptured in 1999) but Olympic did not 
provide continuous oversight of the construction to prevent damage to 
its pipe.

Avoiding Over-Pressurization
    There is no federally defined minimum standard for assuring that a 
pipeline is ``fail-safe,'' i.e., that it cannot be over-pressured to 
the point of breaking the pipe. Many pipeline companies install pumps 
that can create pressures greater than the pipes can withstand. They 
then use pressure safety valves to prevent over-pressurization. But 
there are no federal regulations assuring that these critical devices 
are adequately designed, installed, maintained--or even used! In the 
Bellingham explosion, for instance, there are indications that a key 
pressure safety relief valve was improperly selected and/or installed. 
The NTSB report suggests that it operated numerous times in the 
preceding months--far too frequently for a valve that was supposed to 
activate for emergencies only.
    Further, without adequate oversight, there is a danger that a 
supposedly redundant backup safety system will be just as susceptible 
to failure as the primary system. For instance, in the Bellingham 
accident, flawed input data apparently caused Olympic's main computer 
to fail. But then when the backup computer came on line, it was fed the 
same flawed data and it failed, too. There is also no redundancy when 
both a primary and backup system rely on the same power source. With no 
regulatory standards established, the industry is free to make critical 
mistakes like these.
    In the end, the best protection against over-pressurization is 
assuring that the pumps are not sized so large that they can create 
pressure to the point of bursting the pipe. But there is no federal 
prohibition on over-sizing pumps.

Valve Location Requirements
    The strategic placement of check valves and block valves can do 
much to limit the volume of a spill. The very general, minimum 
requirements in current federal law do not address spill volume, 
elevation changes, and other factors such as terrain and population 
density that must be taken into account in determining an adequate 
number and placement of valves.

Inadequate Reporting
    We can learn from the past only if we know what has happened in the 
past. Current federal law seems designed to frustrate our ability to 
learn from past mistakes. The duty to report to OPS certain ``safety 
conditions'' is waived if the condition is corrected within a 
particular timeframe. Spills of less than 2,100 gallons generally need 
not be reported. The City of Bellingham recently negotiated with 
Olympic Pipe Line an agreement that requires Olympic to report these 
``safety conditions'' regardless of whether they are corrected within 
the timeframe and virtually all spills regardless of size. The federal 
government should establish similar reporting requirements.

                           FEDERAL PREEMPTION

    Ironically, at the same time that federal law is so inadequate in 
mandating safety requirements for the pipeline industry, federal law 
simultaneously prohibits state and local governments from adopting 
their own safety-based standards. Congress is well aware that state and 
local governments can regulate safety and environmental protection 
without compromising industry's ability to operate on a national and 
international level. To take but one obvious example, the trucking 
industry, whose fleets criss-cross our state borders thousands of times 
a day, are subject to safety requirements at the state and local level. 
See 49 U.S.C. Sec. 14501(c)(2). As long as state and local safety 
regulations do not interfere with interstate commerce and do not 
conflict with federal requirements, Congress has seen fit to allow this 
additional level of protection.
    Yet when it comes to oil pipelines, Congress has set a different 
standard. Here, Congress prohibits state and local government from 
protecting their own citizens from the calamities that can befall them 
from a poorly designed, operated, and/or managed pipeline. The sooner 
states and local government are given the power to protect their 
citizens, the sooner we will see significant advances made in safety 
protection for this industry.\1\
---------------------------------------------------------------------------
    \1\ This is not the first time that the states have called for 
stronger federal regulation of petroleum pipelines and a relaxation of 
federal preemption. Following the pipeline explosion and fire in 
Moundsview, Minnesota, the Minnesota Commission on Pipeline Safety 
investigated and deliberated over four months and concluded that 
federal regulations of petroleum safety had to be increased and that 
federal preemption of state regulations should be relaxed. These 
recommendations were finalized in December 1986, nearly 13 years ago 
and circulated widely in Congress. Sadly, the federal government has 
failed to fully pursue, adopt, and implement most of the Commission's 
recommendations. Perhaps Liam Wood, Wade King, and Stephen Tsiorvas 
would be alive today if it had.
---------------------------------------------------------------------------
       THE PIPELINE INDUSTRY DOES NOT ADEQUATELY REGULATE ITSELF

    You will hear from the industry that it is in their own self-
interest to regulate themselves and avoid spills of valuable petroleum 
products and explosions, which cause the deaths of innocent people. But 
the sad truth is that in much of today's corporate world the focus is 
on the bottom line--not the bottom line five or ten years from now, but 
the bottom line this year, this quarter, this month--TODAY. Short-term 
financial incentives frequently push managers in the direction of 
maximizing revenues and profits at the expense of risks, which may not 
manifest themselves for years or even decades. Industry risk 
assessments may make sense to the corporate executive in Houston, but 
how do they explain to a family with a dead child that profits are a 
better bet than spending even a tiny portion of those profits to ensure 
that a child's life is not lost?
    This approach is not unique to the oil pipeline industry. As a 
society, we have responded to this phenomenon by imposing safety 
standards on other industries. Those standards are far and above those 
that have been required of the pipeline industry. How many more 
tragedies likeBellingham's must be witnessed before we see the same 
level of safety mandated for petroleum pipelines as we do for other 
segments of the petroleum industry? Hopefully none. Congress should act 
speedily to mandate federal safety standards before we lose a single 
more innocent life.

                          COMMUNITY OVERSIGHT

    In the wake of the Exxon Valdez accident, Congress (in the Oil 
Pollution Act of 1990 (OPA 90)) mandated the creation of a well-funded, 
independent, non-profit citizen oversight council. See 33 U.S. Code, 
Sec. 2732. We believe that for local elected officials, and citizens to 
once again have confidence in the pipeline companies serving our 
communities, and the regulators who are supposed to oversee them, that 
a similar oversight council needs to be established. We would hope that 
any new pipeline legislation, or the reauthorization of the Office of 
Pipeline Safety itself, would mandate the creation of a model citizen 
council here in Puget Sound, based on the OPA 90 model which was meant 
to be replicated. The purpose of this council would be to review, 
monitor, and comment on pipeline companies' risk management and risk 
assessment studies; their spill response and prevention plans; their 
prevention and response capabilities; their safety and environmental 
protection programs; and their actual impacts on the environment.
    The Citizen Advisory Council would play a major role in increasing 
public awareness of pipeline safety, spill response, spill prevention, 
and environmental protection issues. The Citizen Advisory Council would 
have no law enforcement or regulatory authority but would have the same 
access to pipeline facilities and records as state and federal 
regulatory agencies. Like the OPA 90 language, the proposed legislation 
should direct federal agencies to cooperate with and consult with the 
Citizen Advisory Council on substantive matters related to pipeline 
operations.
    The Citizen Advisory Council's members would be comprised of 
representatives of appropriate interest groups such as local 
municipalities and counties, tribes, environmental organizations, 
fishing organizations, and agricultural groups.
    This proposal is designed to promote partnership and cooperation 
between local citizens, industry, and government. It would also go a 
long way towards rebuilding the trust that was shattered when the 
pipeline exploded on June 10th 1999. We believe that the local 
governments and citizens that have the most to lose if something goes 
wrong with a pipeline, should have an active role in the oversight of 
those pipelines. A model Citizen Advisory Council established here in 
Puget Sound, which if successful could later be replicated in other 
parts of the nation, would serve as the crucial link for local 
involvement.
    In conclusion please remember that the accident here in Bellingham 
was not unique. Pipeline spills occur almost daily. Pipeline 
regulations need to be updated to include a whole range of safety 
improvements that are now possible. Pipeline companies need to be 
required to invest in safer pipelines, and state and local governments 
need to be allowed to set stricter pipeline regulations when they deem 
them necessary. Finally, and perhaps most importantly, those most 
impacted if something goes wrong with a pipeline need to be included in 
all aspects of the pipelines running through their communities. 
Referring to a different northwest problem Senator Gorton recently 
summed up our view regarding pipelines perfectly when he said ``It's 
time for the federal government to let those who will be affected by 
the decisions make these decisions.''
    You have our support, and we wish you luck, on the pipeline reform 
measures you are supporting. We hope you will include our proposals as 
well. Thank you for your time today.

    Senator Gorton. Thank you very much, Mr. Weimer.
    Miss Harper.

STATEMENT OF SUSAN HARPER, EXECUTIVE DIRECTOR, CASCADE COLUMBIA 
                 ALLIANCE, SEATTLE, WASHINGTON

    Miss Harper. Thank you. Thank you for holding this hearing, 
Senator Gorton and Senator Murray.
    My name is Susan Harper. I'm Executive Director of Cascade 
Columbia Alliance. I feel privileged to be here to speak on 
behalf of the coalition of citizens, elected citizens, 
environmental civic groups, labor and businesses that I'm 
representing with my testimony.
    I'm also on the board member of the National Pipeline 
Reform Coalition to promote pipeline safety nationwide.
    The people who originally came together as the NPRC did so 
for the reason that we are here today. Elsewhere at another 
time before Bellingham was a tragedy from a pipeline accident 
that equaled in magnitude the grief and confusion that we feel 
in this room today.
    Through our association with the National Coalition since 
1996 when the Olympic Pipe Line proposed a 230-mile Cross 
Cascade pipeline, we learned many of the lessons that could 
have prevented a Bellingham nightmare.
    We urge the Committee to take swift action, to set right a 
tragedy that should have never happened by listening to the 
recommendations for safety improvements that CCA and others 
have presented today.
    I would also the request that this packet of about a 
hundred letters from concerned citizens be included in the 
record.*
---------------------------------------------------------------------------
    * The information referred to was not available at the time this 
hearing went to press.
---------------------------------------------------------------------------
    Senator Gorton. It will be without objection.
    Miss Harper. Thank you. Make no mistake that this is not an 
isolated incident. Broadly in terms of pipeline safety 
nationally, but also the company that manages Olympic Pipe Line 
is called Equilon, and most likely the gentlemen speaking today 
was an employee of Equilon. Equilon also runs a refinery at 
Anacortes, Washington that exploded last November 1998, killing 
six workers. That means within 7 months Equilon's safety record 
includes nine fatalities.
    The Pipeline Safety Act in 1996 was actually weakened and 
moved toward a risk management demonstration project-based 
procedure. We're listening to testimony today that gives 
evidence to this lack of, of regulation and this moving to 
pipelines being self-regulated, and in fact, Jim Hall's 
testimony in 1997, excuse me, in 1998, or 1999, sorry about 
that. It's a little nerve racking.
    Senator Murray. Miss Harper, I should tell you, she's 
getting married this weekend.
    Miss Harper. I am, and I'm just a little nervous, but he 
did testify in 1999 before the house that there were 28 
recommendations before the Office of Pipeline Safety, and they 
followed up on those in 1997 only to find up that seven of 
those had actually been implemented.
    CCA wholly supports the bills that are before Congress 
right now, and we're very appreciative of those. I want to 
emphasize the importance for an independent oversight body to 
monitor and review the plans of the industries and the agencies 
to protect our interests, and you've heard today about this 
regional citizens oversight committee in Prince William Sound. 
In fact, Alaska Governor Knowles credits the regional oversight 
body as creating the safest oil transport system in the United 
States.
    The State of Washington is clearly in need of such a model, 
and we would request that part of the reauthorization of the 
Pipeline Safety Act includes such an oversight model as we have 
been discussing here today, and I know Senator Gorton has 
supported in his talking points.
    We have compiled a long list of safety recommendations that 
we've attached to our testimony.* However, we do not agree that 
pipelines are necessarily the safest means of transportation, 
but we would agree that all are inherently dangerous and that 
we need to take steps to make sure that all of those systems 
are made safer including double wall tank ships, double wall 
trucks and double wall pipelines where needed.
    Congress must all require that the industry carry out the 
recommendations of the NTSB and that OPS make that, or remove 
any blockage of doing that.
    During our review of Olympic's proposed Cross Cascade 
pipeline, here I have a copy of the draft EIS. It's kind of 
small, actually, you'll note for such a large pipeline. During 
that time, we were very concerned about the I-5 pipeline, and 
in fact, we requested that Olympic's existing I-5 pipeline be 
inspected and replaced as an alternative since the pipeline was 
built in 1965 and had 44 spills on record with OPS. Our 
coalition was very concerned about the condition of the 
pipeline that we were being told was oversubscribed. Not only 
did Olympic refuse, but Jones and Stokes, the consultants hired 
to prepare the draft environmental impact statement to this 
pipeline, were not directed to or decided not to disclose 
information about the pipeline's condition. Those who had full 
access to information concerning Olympic's existing woefully 
inadequate and unsafe pipeline system continuously reassured 
the public that this pipeline was safe and that Olympic's leak 
detection system was adequate.
    In the draft EIS Jones and Stokes gave high marks to 
Olympic's existing supervisory control data and acquisition 
system, and assured the public that major leaks could be 
detected and shut off within minutes. This false and rosey 
picture was completely blown away by Olympic's devastating June 
10th explosion.
    In our view those who had access though this information 
bear responsibility for misleadingly the public about the risks 
from Olympic's existing pipeline.
    As a society we also need to reduce our reliance on this 
non-renewable energy. We need to enforce automotive fuel 
economy standards, and we appreciate Senator Gorton's support 
for CAFE standards.
    In addition, for an independent citizen oversight body that 
can address safety issues, the Pacific Northwest is solely 
lacking in a basic energies fuels planning strategy similar to 
the Northwest Power Planning Act.
    We would also in hearing the testimony today, I would like 
to bring up one additional thing that wasn't mentioned in here. 
I know that Secretary Slater has written a letter saying that 
the UTC could be the best place to have delegated authority for 
pipeline safety. During the Cross Cascade pipeline which was 
proposed to be an intrastate pipeline, the UTC was silent. They 
decided not to give comments on this pipeline proposal. 
However, the Department of Ecology was very involved.
    Also, the UTC during their rule adoption period when they 
got to the delegation of intrastate regulation for liquid fuel 
pipelines, we were participating in that process, and 
unfortunately all of our recommendations to go beyond the 
Federal standards and all of our evidence that was presented at 
that meeting was basically ignored, and the Federal code were 
adopted, and the UTC settled on the Cross Cascade pipeline 
saying that they would defer to the Federal codes.
    As you can see, we have real concerns with the agency that 
will be overseeing pipeline safety in Washington State. 
However, we know that any agency does need to have good follow-
through and oversight over it. That's why we would so wholly 
support the citizen monitoring organization that we've been 
referred to in Alaska called the Regional Citizens Advisory 
Council. We'd also wholly urge that we need to raise the floor 
for pipeline safety laws nationally in order to make sure that 
we are having a process that is coordinated through one agency 
that has adequate standards to do its job which is to protect 
the public interest and the environment, and the last thing 
that I would like to say in conclusion is that we would request 
your full support in getting legislation passed this year.
    We are planning a national pipeline safety conference on 
April 9th and 10th in Washington, D.C. because we are very 
aware that this needs to be a national issue and that the State 
of Washington needs the support of the entire nation to make 
this happen. We're very excited to let you know that we've got 
about half the states with activists in them that are willing 
to come to this or public officials or pipeline safety 
professionals, and we would urge you to support that fully, and 
it would be a really great way to actually be able to make 
these changes, and finally, the Colonial Pipeline, I have the 
record for that pipeline, by the way. It's the largest, or it's 
a very large pipeline, and it has one of the worst spill 
records in the U.S. Eight point five million gallons have been 
spilled since 1968 with a total of a 186 spills, and 60 of 
those were in the last 5 years, and the fact sheet that we 
created was created in early 1999. So as you can see the Office 
of Pipeline Safety needs some help from us, and we're willing 
to give it.
    So we'll really appreciate that not only do we get 
delegated authority but we get citizen oversight and thank you 
for your time today.
    Senator Gorton. Thank you. Perhaps both of you can comment 
on this, but Mr. Weimer, you first, how does the citizens' 
oversight council differ from the peer review councils that 
exist under the present act?
    Mr. Weimer. My understanding is the way the citizen 
oversight panel was set up in Alaska, it's totally independent, 
and it's actually funded by the oil companies up there, but 
there's a contract between the oil companies and the citizen 
oversight that make it independent, and it's designated in the 
Federal legislation instead of being within the department, 
like underneath the Office of Pipeline Safety. It's an 
independent functioning body with funding of its own that hires 
experts to look at different proposals of the pipeline 
companies or their environmental records.
    Senator Gorton. That's the nature of your recommendation?
    Mr. Weimer. That's our nature. We'd like something that's 
independent, and there's already examples even within 
Washington state, and there's already a group that has formed, 
a city-county forum, and number of the cities' mayors were here 
today, and they've been meeting, and such a group I think could 
be turned into an oversight panel fairly easily, and that way 
they would be spending the oil companies' money hiring experts 
to try to figure out what pig runs mean instead of having to 
spend their own taxpayer moneys to do that.
    Senator Gorton. Miss Harper, you agree totally with that?
    Miss Harper. Yeah, I would agree with that, but I would add 
that the current advisory body that sits under OPS, it's 
reactionary. The people who sit on that body are chosen by OPS, 
and in fact, Lois Epstein, one of the engineers from the 
environmental defense fund, has been very chagrined at the 
recent selection and one of our own, Greg Winter, was somebody 
that we put up to be on that committee. He served on the 
regional citizens advisory council in Alaska as a chair of one 
of those committees, so we feel that he was very well capable 
of doing the job, but unfortunately his access was denied. So 
there isn't a process that is set up that you have to go 
through to get on that committee.
    Now, with the regional citizen advisory council, because 
first off the money is mandated, this council does not have to 
pay homage to the industry, because they're going to get their 
money no matter what.
    Secondly, as Carl had mentioned, the pipeline safety forum, 
I've been an extremely active, or I've been a very active part 
of that. In fact, I've been on one of the steering committees, 
and I find that working with local governments as we're doing 
is a very good way to work, and I found that environmental, 
tribal, fishing, recreational groups and local governments 
really make a good mesh, because you're not, you know, just 
leaning too fair in one direction. You're really working with 
pragmatic people who are looking out for public safety, but 
also water quality protection, pipeline spills underground. In 
fact, in Delaware there was just a recent spill that we've 
heard has been going on for 12 years from a city plant there, 
and those kind of spills are just unacceptable and with water 
resources so scarce today, we really need to be careful with 
those resources.
    Senator Gorton. Senator Murray?
    Senator Murray. Thank you, Mr. Chairman, and thank you for 
your testimony and your support of our legislation, and we look 
forward to working with you.
    It's been a long day, and it's I just have ask one 
question. In order to get this passed at the national level, 
the awareness has to be extremely high. Here in our state, a 
lot of people are involved in local communities up and down the 
I-5 corridor and even in eastern Washington. How are you 
working with your national organization to insure that that 
awareness is just as high, and do you find that more and more 
increasing awareness or is it still a challenge?
    Mr. Weimer. I think there's a tremendous amount of 
awareness. There's certainly been media coverage of this. There 
was a 500,000 gallon spill Friday in Texas. Texas has a fairly 
bad record of pipeline spills. There was a spill in Delaware. 
There was a spill in Philadelphia not long ago. So there's a 
whole lot of reasons for people being active. I spent all 
weekend on the phone with a mayor from New Jersey, a mayor from 
New York, a property rights organization in Pennsylvania 
helping to organize this national conference in early April, 
which we're trying to bring together fairly rapidly which is 
somewhat insane, but the support is there, and people are going 
to be there in Washington, D.C., to talk about pipeline issue.
    Miss Harper. In fact, we've all the been down to Texas to 
speak to a group down there. Pipeline proposals are also a big 
puzzlement for people, and in fact, this was an Ashland 
Marathon project that was proposed that the project was just 
pulled off the table because very same pipeline had a major 
rupture.
    In Ohio, we have people. In Illinois we have people. In 
Montana, you know about the Flathead Indian reservation and 
their issues there. We have support in Alaska. So we definitely 
have a web of support, and I think that, the tragedy that 
happened in Bellingham can be the type, most unfortunately I 
say this, but also optimistically I say this, the Exxon Valdez 
of the pipelines.
    We can't accept anymore deaths, Senators. I want you next 
time there's a tragedy like this that happens to anybody, any 
community to be able to say we did everything we could to 
prevent this. We're sorry, and if you can go that far then 
we're on the right track.
    Senator Murray. Thank you very much.
    Senator Gorton. Thank you. That's quite appropriate end to 
this day, Miss Harper. Thank you.
    Miss Harper. Thank you.
    Senator Gorton. Remember that anyone who wishes to comment 
has 10 days to submit written comments to the Commerce 
Committee in Washington, D.C., and those comments will be 
included in the record.
    With that, we're adjourned.
    [Whereupon, at 6:30 p.m., the hearing was adjourned.]

                            A P P E N D I X

     Written Questions Submitted by Hon. Patty Murray to Carl Gast
    1. LMr. Gast (Olympic)--Last Thursday, OPS told you that you 
couldn't reopen the pipeline until further inspections are done. Could 
you explain how you intend to comply with that order?
    2. LMy first question is for all of you. Pre-Bellingham, which most 
of us feel created an incentive for all of you to do a better job--
certainly too costly of an incentive--what types of inspection and 
testing procedures did you use? How often did you inspect?
    3. LHow do you qualify your pipeline operators? Are there education 
requirements?
    4. LDo you have any initial concerns about the integrity rule that 
will be up for comment soon?
    5. LDo you have any thoughts or concerns on how we could establish 
a ``right to know'' standard that would require you to establish a 
dialogue with those whom your lines affect?
    6. LWhat types of R&D activities are you involved with? Are you 
interested and do you think it would help for the federal government to 
increase investments in R&D?
    [Response was not available at the time this hearing went to 
press.]
                                 ______
                                 
   Joint Prepared Statement of State Senator Harriet A. Spanel, 40th 
   District and State Representative Kelli Linville, 42nd District, 
                               Washington

    Thank you to Senators Gorton and Murray and to the Senate Commerce 
Committee staff and Chairman John McCain for holding this important 
hearing in Bellingham. Your commitment to addressing this critical 
issue is greatly appreciated. In our combined 2l years of public 
service, there has been no greater tragedy to befall the citizens we 
represent.
    Speaking as a senator and representative in the Washington State 
Legislature, we address you as fellow elected officials--those of us 
who try to make government the best it can be--and whose primary 
purpose therefore is to represent the interests of the citizens we hear 
from on a daily basis. Pipeline accidents happen here, in the cities 
and towns and counties we inhabit and which we are elected to 
represent.
    As such, the question that keeps jumping out at us over and over 
again is ``How could this happen?''
    We have read the federal Pipeline Safety Act. On first reading, we 
are encouraged: so many aspects of pipeline safety are addressed, so 
many regulations are to be developed, so many apparent assurances that 
things will be ok.
    But, like the pipelines themselves, this is a false hope of safety. 
It has not gone as possibly the authors of the federal act had hoped. 
For whatever reason, the guidelines of the federal act--which preempt 
anything we can do here at the state level--have not been implemented. 
Our constituents' anger is easy to understand.
    And while the Office of Pipeline Safety dawdles, accidents continue 
to happen all over the country. Just since the first of this year, in 
Clark County, Kentucky, a pipeline burst and spilled 900,000 gallons of 
crude oil into a tributary of the Kentucky River--possibly the worst 
spill in the state's history. Drinking water was being shipped in, the 
smell was awful, and cattle watering holes were polluted.
    A week later, in Toms River, New Jersey, lack of leak detection was 
blamed for a spill of 56,000 gallons of crude oil into the John Heinz 
Wildlife Refuge near Philadelphia. A visitor to the refuge, not the 
company, detected the spill. The pipeline in question was 50 years old.
    And, committee members may remember that earlier this year Koch 
Industries was fined an unprecedented $30 million on account of its 
``wait to see if it breaks'' leak detection system.
    We have attached a short list of some significant pipeline 
accidents in recent years. Please note that none of these accidents 
were the result of ``third party damage'' with the exception of the 
Reston incident. All of them could have been prevented--if NTSB safety 
recommendations had been acted upon.
    The common causes of pipeline accidents are:

        <bullet> anomalies in the pipe not detected or not acted upon
        <bullet> operator inattention or error
        <bullet> computer system malfunction
        <bullet> shut-off capability insufficient or improperly 
        deployed
        <bullet> leak detection insufficient

    Because of the sorry record of federal regulation, we heartily 
endorse Senate Bill 2004 which Senator Murray introduced and Senator 
Gorton has sponsored. S. 2004 not only expands state authority to allow 
higher standards for training and leak detection, but it also pushes 
the Office of Pipeline Safety to enter into further agreements with 
states for inspection of interstate lines. The bill also provides much 
needed funding for the federal effort.
    In anticipation of enhanced federal regulations and a stronger 
federal-state partnership for pipeline safety, we worked diligently in 
the State Legislature this year to obtain passage of House Bill 2420. 
This bill sets the stage for the increased authority S. 2004 allows. It 
also strengthens Washington's programs for preventing third-party 
damage and responding to accidents.
    But we all know that the state law alone will not prevent further 
accidents. That is up to the federal government. And there is simply no 
reason to wait any longer for meaningful steps to be taken--to wait for 
more deaths and environmental disasters.
    It would be presumptuous of us to reiterate the extent of the 
impact on the dear families who have lost children. You have heard 
their grief But we do not believe it is presumptuous of us to tell the 
federal government that we are not going to sit idly by and let a 
similar tragedy befall yet another community. Accordingly, we pledge to 
work with you to accomplish the maximum improvements possible in 
pipeline safety regulation.
    Thank you, again, for your consideration.
Examples of Major Pipeline Accidents (1980-1999)
Accidents

(1) Fredericksburg, VA  1980 (and again in 1989)
    330,000 gallons of aviation fuel entered the city water supply, and 
the Rappahannock River, shut down the water treatment plant, a state of 
emergency was declared, and businesses and residents hauled water for a 
week.
    Causes: Pipe damage upon installation, subsequent undetected 
corrosion, operator error, insufficient valve placement.

(2) Moundsview, MN  7/8/86
    An 8-inch gasoline pipeline burst, gasoline flowed along 
neighborhood streets until it was ignited, killing 2 people who burned 
to death and injuring 7.
    Causes: Failure to correct known defects, inadequate pipe 
specifications, inadequate operator training including delay in 
responding.

(3) Flathead Indian Reservation, MT  1986-1993
    Seventy-one leaks and three major spills of gasoline, aircraft 
fuel, and diesel (including 163,000 gallons into a creek) over this 
period resulted in the Flatheads refusing to renew Yellowstone's 
franchise and move the line off of the reservation.
    Causes: Inattention and failure to correct defects.

(4) North Blenheim, NY  3/13/90
    A liquid natural gas pipeline burst sending 100,000 gallons of 
product flowing down into the town--enough to engulf the entire town. 
Residents noticed a ``heavy fog'' on their windshields, until one 
called and notified a company employee. Two people were killed and 
seven injured.
    Causes: Negligent maintenance procedures resulting in cracks in the 
pipe which were undetected; operator error; insufficient remotely 
operated valves and check valves.

(5) Reston (Herndon), VA  3/28/93
    Pipe burst sending a geyser of diesel fuel (407,000 gallons) into 
the storm sewer and eventually into a tributary of the Potomac River. 
(Could have been gasoline or jet fuel.) Significant environmental 
damage ($1 million clean-up).
    Causes: Third-party damage causing corrosion which went undetected 
for a long period.

(6) Edison, NJ  3/23/94
    Natural gas transmission line burst and exploded. 1500 residents 
evacuated and $25 million damage. Injuries included minor burns and 
cuts from broken glass.
    Causes: Line hadn't been ``pigged'' since 1986, but it had 
deteriorated; no remote automatic valves; pipe manufacturing standards 
lax; no extra measures for highly populated areas.

(7) Allentown, PA  6/9/94
    Natural gas pipe burst and product flowed underground into the 
basement of an 8-story retirement home, where it migrated through vents 
into other floors and was eventually ignited. One death and 55 
injuries.
    Causes: Company employee (backhoe operator) error; no excess flow 
valves which had been recommended by NTSB since 1972; insufficient 
public awareness.

(8) Reedy River, SC  6/26/96
    Fuel oil pipeline crossing the river burst resulting in a $20 
million clean-up effort.
    Causes: Pipeline corrosion not responded to soon enough; computer 
malfunction; employee error; inadequate leak detection.

(9) Lively, TX  8/8/96
    Liquid natural gas pipeline burst, killing two men who accidentally 
ignited it.
    Causes: Inadequate corrosion protection.

(10) Murphreesboro, TN  11/5/96
    84,000 gallons of diesel fuel (could have been gasoline) and $5.7 
million damage.
    Causes: Corrosion; operator error--3\1/2\ hours before detection.

(11) San Juan, PR  11/21/96
    Thirty-three people killed when a liquid natural gas line exploded.
    Causes: Employee negligence in responding to a leak which had been 
ongoing for a week.

(12) Bellingham, WA  6/10/99
                                 ______
                                 
   Prepared Statement of James Terrence Montonye, Technical Program 
  Director for the SPIE, International Society of Optical Engineering

    SPIE, which is located just south of Western Washington University 
in Bellingham at 20th and Knox streets, is the largest international 
professional society serving developers and appliers of optical, 
optoelectronic, and imaging instrumentation. It's imaging conferences 
range from x-ray to radar to acoustical. It is foremost in imaging 
spectroscopy and deals with the diagnostics of materials of all kinds.
    SPIE employs 145 people and has gross revenues of $20M. It produces 
proceedings for 350 nominal two-day topical conferences per year and 
does about 350 short courses for engineers per year at twenty-four 
different meetings around the world. It has 13,500 members.
    It happens that SPIE holds a non-destructive testing meeting in 
California each March that has produced three proceedings titled 
``Nondestructive Evaluation of Utilities and Pipelines.'' These 
proceedings contain papers by instrument developers from universities, 
laboratories, OEM corporations, and non-destructive testing 
contractors. Although we've tried hard to get them there, state and 
municipal engineers seldom attend this meeting.
    Here's my thought. The nondestructive testing meeting in San Diego 
is a meeting where state pipeline inspectors could meet each year to 
work on realistic standards for pipeline inspection in the presence of 
people who develop the instruments and contractors who use them. 
Materials and materials testing will continue to evolve. Wealth 
creation through the conversion of natural materials into consumable 
products is a never ending process. Similarly, standards in important 
areas such as pipeline safety should be recognized and organized for a 
continual process of evolution, as well. I cannot think of a better way 
for the evolution of efficient and effective pipeline safety standards 
to occur than at a meeting of technical experts on the instrumentation 
required to do the testing.
    Any electrical, materials, or mechanical engineer should be able to 
handle the job of inspection and standards development. But, there is 
another very important consideration in regulation enforcement. Jack 
London brought it out in ``Fish Patrol.'' His effectiveness as an 
enforcement official he attributed to his youth as an oyster pirate. 
This same principle holds for pipeline inspectors. There are two major 
hazards with any federal or state inspection organization, graft and 
incompetence. We all are aware of many examples of both. The best way 
for states to handle this problem is to pay high wages to pipeline 
inspectors who had been engineers within the pipeline industry in other 
states. The high wage and out-of-state experience would serve to dispel 
graft. Engineering experience from within the industry would serve to 
provide the competence to get the job done efficiently and effectively.
    Senator Gorton, these comments are respectively offered for your 
consideration following this public hearing on pipeline safety in the 
City of Bellingham on 13 March, 2000.

                                <all>

</pre></body></html>
